<html>
<title> - MEMBERS' DAY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                              MEMBERS' DAY

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 28, 2008

                               __________

                           Serial No. 110-34

                               __________

           Printed for the use of the Committee on the Budget


                       Available on the Internet:
       http://www.gpoaccess.gov/congress/house/budget/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
41-122 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                        COMMITTEE ON THE BUDGET

             JOHN M. SPRATT, Jr., South Carolina, Chairman
ROSA L. DeLAURO, Connecticut,        PAUL RYAN, Wisconsin,
CHET EDWARDS, Texas                    Ranking Minority Member
JIM COOPER, Tennessee                J. GRESHAM BARRETT, South Carolina
THOMAS H. ALLEN, Maine               JO BONNER, Alabama
ALLYSON Y. SCHWARTZ, Pennsylvania    SCOTT GARRETT, New Jersey
MARCY KAPTUR, Ohio                   MARIO DIAZ-BALART, Florida
XAVIER BECERRA, California           JEB HENSARLING, Texas
LLOYD DOGGETT, Texas                 DANIEL E. LUNGREN, California
EARL BLUMENAUER, Oregon              MICHAEL K. SIMPSON, Idaho
MARION BERRY, Arkansas               PATRICK T. McHENRY, North Carolina
ALLEN BOYD, Florida                  CONNIE MACK, Florida
JAMES P. McGOVERN, Massachusetts     K. MICHAEL CONAWAY, Texas
NIKI TSONGAS, Massachusetts          JOHN CAMPBELL, California
ROBERT E. ANDREWS, New Jersey        PATRICK J. TIBERI, Ohio
ROBERT C. ``BOBBY'' SCOTT, Virginia  JON C. PORTER, Nevada
BOB ETHERIDGE, North Carolina        RODNEY ALEXANDER, Louisiana
DARLENE HOOLEY, Oregon               ADRIAN SMITH, Nebraska
BRIAN BAIRD, Washington              JIM JORDAN, Ohio
DENNIS MOORE, Kansas
TIMOTHY H. BISHOP, New York
GWEN MOORE, Wisconsin

                           Professional Staff

            Thomas S. Kahn, Staff Director and Chief Counsel
                 Austin Smythe, Minority Staff Director


                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, February 28, 2008................     1

Statement of:
    Hon. Christopher S. Murphy, a Representative in Congress from 
      the State of Connecticut...................................     1
        Prepared statement of....................................     3
    Hon. Kathy Castor, a Representative in Congress from the 
      State of Florida...........................................     5
        Prepared statement of....................................     6
        Additional remarks of....................................   110
        ``Florida's Post-Storm Income Rise Cuts Federal Medicaid 
          Cash''.................................................   111
        ``Economic Stimulus: A State Perspective''...............   111
        FMAP Policy Position.....................................   114
    Hon. Gabrielle Giffords, a Representative in Congress from 
      the State of Arizona.......................................     8
        Prepared statement of....................................    10
    Hon. Ted Poe, a Representative in Congress from the State of 
      Texas......................................................    11
        Prepared statement of....................................    12
    Hon. Dave Loebsack, a Representative in Congress from the 
      State of Iowa..............................................    14
        Prepared statement of....................................    16
    Hon. Carolyn McCarthy, a Representative in Congress from the 
      State of New York..........................................    17
        Prepared statement of....................................    19
    Hon. Jason Altmire, a Representative in Congress from the 
      State of Pennsylvania......................................    20
        Prepared statement of....................................    22
    Hon. Bruce L. Braley, a Representative in Congress from the 
      State of Iowa..............................................    24
        Prepared statement of....................................    26
    Hon. Vernon J. Ehlers, a Representative in Congress from the 
      State of Michigan..........................................    28
        Prepared statement of....................................    29
    Hon. Carol Shea-Porter, a Representative in Congress from the 
      State of New Hampshire.....................................    32
        Prepared statement of....................................    34
    Hon. Rush Holt, a Representative in Congress from the State 
      of New Jersey..............................................    35
        Prepared statement of....................................    36
    Hon. Betty Sutton, a Representative in Congress from the 
      State of Ohio..............................................    39
        Prepared statement of....................................    41
    Hon. Danny K. Davis, a Representative in Congress from the 
      State of Illinois..........................................    42
        Prepared statement of....................................    44
        Alternate budget recommendation..........................    48
    Hon. Joe Courtney, a Representative in Congress from the 
      State of Connecticut.......................................    52
        Prepared statement of....................................    54
    Hon. Mazie K. Hirono, a Representative in Congress from the 
      State of Hawaii............................................    56
        Prepared statement of....................................    58
    Hon. Ciro D. Rodriguez, a Representative in Congress from the 
      State of Texas.............................................    59
        Prepared statement of....................................    61
    Hon. Michael M. Honda, a Representative in Congress from the 
      State of California........................................    62
        Prepared statement of....................................    65
    Hon. Peter Welch, a Representative in Congress from the State 
      of Vermont.................................................    66
        Prepared statement of....................................    68
    Hon. Bob Filner, a Representative in Congress from the State 
      of California..............................................    70
        Prepared statement of....................................    72
    Hon. Christopher P. Carney, a Representative in Congress from 
      the State of Pennsylvania..................................    74
        Prepared statement of....................................    76
    Hon. John Lewis, a Representative in Congress from the State 
      of Georgia.................................................    77
        Prepared statement of....................................    79
    Hon. Ron Klein, a Representative in Congress from the State 
      of Florida.................................................    80
        Prepared statement of....................................    82
    Hon. Brian Higgins, a Representative in Congress from the 
      State of New York..........................................    83
        Prepared statement of....................................    84
    Hon. Steve Kagen, a Representative in Congress from the State 
      of Wisconsin...............................................    85
        Prepared statement of....................................    87
    Hon. Rick Larsen, a Representative in Congress from the State 
      of Washington..............................................    89
        Prepared statement of....................................    91
    Hon. Donna Christensen, a Delegate in Congress from the U.S. 
      Virgin Islands.............................................    93
        Prepared statement of....................................    95
    Hon. Timothy J. Walz, a Representative in Congress from the 
      State of Minnesota.........................................    97
        Prepared statement of....................................    99
    Hon. Frank R. Wolf, a Representative in Congress from the 
      State of Virginia..........................................   101
        Prepared statement of....................................   102
    Hon. Vito J. Fossella, a Representative in Congress from the 
      State of New York..........................................   103
        Prepared statement of....................................   105

Additional Submssions for the Record:
    Statement of Hon. Ginny Brown-Waite, a Representative in 
      Congress from the State of Florida.........................   107
    Statement of Hon. Madeleine Z. Bordallo, a Delegate from the 
      Territory of Guam..........................................   108
    Statement of Hon. J. Randy Forbes, a Representative in 
      Congress from the State of Virginia........................   114
    Statement of Hon. Ruben Hinojosa, a Representative in 
      Congress from the State of Texas...........................   115
    Statement of Hon. Paul W. Hodes, a Representative in Congress 
      from the State of New Hampshire............................   118
    Testimony of members of the Illinois congressional delegation   119
    Letter and statement of Hon. Hilda L. Solis, a Representative 
      in Congress from the State of California...................   121
    Statement of Hon. Bart Stupak, a Representative in Congress 
      from the State of Michigan.................................   125
    Statement of Hon. John F. Tierney, a Representative in 
      Congress from the State of Massachusetts...................   130
    Statement of Hon. Edolphus Towns, a Representative in 
      Congress from the State of New York........................   130
    Statement of Hon. Nydia M. Velazquez, a Representative in 
      Congress from the State of New York........................   133


                              MEMBERS' DAY

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2008

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:19 a.m., in room 
210, Cannon House Office Building, Hon. John M. Spratt, Jr. 
[Chairman of the Committee] presiding.
    Present: Representatives Spratt, Berry, Etheridge, Hooley, 
and Moore.
    Chairman Spratt. Welcome to the annual Members' Day which 
is a chance for members of the House to come before the Budget 
Committee to testify about priorities that are of particular 
interest to them.
    This is always a very informative and very interesting day 
and also a very long day as we get to hear testimony from 
members that underscores the broad spectrum of concerns that 
the people's representatives bring to D.C.
    As we craft our annual budget resolution, and it is in 
progress as we talk, as we meet, we welcome the opportunity to 
get input from other members of the House.
    Just a word about the ground rules. Every member will have 
five minutes to present their remarks. Their full printed 
remarks if submitted for the record will be incorporated in 
their totality in the record. But we would ask you to keep your 
oral testimony to five minutes. We will then leave up to five 
minutes for any questions from Budget Committee members.
    And I was going to say next that I will turn first to the 
Ranking Member before proceeding, but it appears that no one on 
the other side is here at this point in time. And time is of 
the essence in light of the fact we may be getting out at 
midday today, so let us proceed with Mr. Chris Murphy.
    Mr. Murphy, we are glad to have you. The floor is yours. 
Your five minutes of recognition and your printed statement 
will be made part of the record.

 STATEMENT OF HON. CHRISTOPHER S. MURPHY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Murphy. Thank you very much, Mr. Chairman, members of 
the Committee. I appreciate the opportunity to testify this 
morning.
    This is my first opportunity as a new member of Congress to 
appear before the Budget Committee and I am deeply honored to 
have the chance to share with you just a few thoughts on some 
of the priorities that I know you will wrestle with over the 
coming weeks and months.
    Today I would like to talk about a few programs and I will 
start with one very near and dear to our hearts in northwestern 
Connecticut. And that is programming funding, land and water 
conservation.
    The Land and Water Conservation Fund was created by 
President Kennedy to provide federal funds to help states 
leverage local and municipal resources to ensure that open 
spaces can be preserved and cared for for generations to come.
    The LWCF helps manage our parks and our federal lands while 
providing funds to states and individuals who want to leverage 
those funds to ensure smart and sensible promotion of the 
protection of green spaces.
    The President's budget would trample President Kennedy's 
vision, delivering a near death blow of a 74 percent cut to the 
LWCF, a reduction of $110 million and one of the lowest levels 
of funding in the program's near 44-year history.
    LWCF is authorized by Congress to receive up to $900 
million a year and the President delivered a strong pledge in 
2001 to fully fund it, but his budget this year reflects 
another reality, a 91 percent cut from 2001 funding levels.
    I would also urge the Committee to reconsider the 
President's proposed $38 million cut to the U.S. Geological 
Survey which promotes the sound management of water, biological 
energy, and mineral resources. USGS is the national leader in 
providing studies and mapping efforts to assess the 
environmental impact of pollutants and development on 
vulnerable waterways and natural ecosystems. In the 
northwestern portion of Connecticut, we have greatly relied on 
the USGS to help us plan and map many of our efforts to protect 
our environment.
    The $10.9 million proposed cut in the USGS's National Water 
Quality Assessment Program would severely impact nonprofits and 
municipalities across the country as well in Connecticut 
working to extract maximum value from these federal scientific 
resources.
    Equal as important to me is our commitment to a sound 
federal juvenile delinquency prevention program. The 
President's budget for fiscal year 2009 proposes to eliminate 
many of these funding sources that have helped municipalities 
and states cope with the problems of juvenile delinquency.
    The President would create a single new Child Safety 
Juvenile Justice Block Grant. This Block Grant would be funded 
at a level that is almost 50 percent lower than the total 
fiscal year 2008 funding for the programs that were eliminated, 
representing some $100 million in funding.
    The Congress should reject this proposed cut in block 
granting of our juvenile justice programming funding and 
instead strength and increase funding for federal juvenile 
justice and delinquency prevention programs, including Title V 
Prevention Grants, the Juvenile Accountability Block Grant, and 
Title II State Formula Grants at a minimum, and at a minimum, 
restoring funding to the fiscal year 2002 appropriated levels.
    Investing in these proven prevention and intervention 
programs will make our communities safer and will inevitably 
save money down the road by making sure that children have the 
access to the preventative programs that will save our system 
money in the future.
    I would also like to express my strong support for the full 
and fair funding of the Section 811 Supportive Housing Program 
for low-income persons with disabilities. Section 811 provides 
affordable supportive housing so that the most disadvantaged 
members of our society struggling with severe mental and 
physical disabilities can lead productive lives.
    The programs help people with the basic skills and tasks of 
daily living, affording them the dignity and self-respect they 
are too often denied.
    The President's budget again slashes these programs, 
targeting 811 for a 32 percent cut from $237 million to $160 
million, coming only a year after the President attempted to 
zero out all new funding for nonprofit developers in the 811 
Program.
    Section 811 is already straining under the weight of great 
new demand for new units and supportive housing. And such deep 
cuts would take two steps back even further from the dozen that 
the President has already asked the program to endure.
    Mr. Chairman, I come from the Connecticut State Legislature 
in which I was able to Chair our Appropriations Committee on 
Juvenile Justice, where I chaired the Public Health Committee 
for a number of years, and I can tell you that these cuts not 
only are damaging to those nonprofits and those community 
providers that try to provide the juvenile justice programming 
and supportive mental health housing, but also to state 
governments that, as you know, are laboring under the increased 
burden handed them to pick up the slack that has been visited 
upon them by a number of years of neglect.
    I am so grateful that we are able as new members to serve 
under your leadership and your guidance. I was proud to vote 
for the budget we passed at the end of last year which begins 
to invest in many of these very important programs while still 
maintaining a sound commitment to fiscal responsibility.
    I appreciate the chance to testify and I hope the Committee 
will look favorably upon these recommendations.
    [The prepared statement of Christopher Murphy follows:]

 Prepared Statement of Hon. Christopher S. Murphy, a Representative in 
                 Congress From the State of Connecticut

    Mr. Chairman, thank you for allowing me to address this esteemed 
body today. The President's FY 2009 budget represents a $20 billion 
reduction in some of our nation's most vital domestic programs, all 
while relying on some very suspect math; the budget states a 
deliberately misleading assessment of the war in Iraq's actual 
anticipated costs and incorporates several nonexistent funding streams, 
including expected revenue from drilling in the Alaska National 
Wildlife Refuge. I'd like to speak to some of these programs important 
in my district that have felt some of the sharpest sting of the 
President's budget pen today.
    The Land and Water Conservation Fund was created by President 
Kennedy to provide federal funds to help states leverage local and 
municipal resources to ensure that open spaces could be preserved and 
cared for for future generations. LWCF helps manage our parks and 
federal lands while providing funds to states and individuals who want 
to leverage their funds to ensure the smart, sensible protection of 
green spaces.
    The President's budget would trample President Kennedy's vision, 
delivering a near-deathblow 74% cut to LWCF, a reduction of $110 
million dollars and one of the lowest funding levels in the program's 
proud 44-year history. LWCF is authorized by Congress to receive up to 
$900 million a year, and the President delivered a strong pledge in 
2001 to fully fund LWCF. His budget this year reflects another reality: 
a 91% funding cut from 2001 funding levels of $411 million.
    I would also urge the committee to reconsider the President's 
proposed $38 million cut to the U.S. Geological Survey which promotes 
the sound management of water, biological, energy, and mineral 
resources. USGS is the national leader in providing studies and mapping 
efforts to assess the environmental impact of pollutants and 
development on vulnerable waterways and natural ecosystems. In 
practice, this means land trusts, small towns, and conservation groups 
can employ federal research to assist in development plans, 
conservation prioritization and pollution remediation--science that 
would be completely unavailable to them without USGS' expertise and 
counsel. USGS' work has been vital to helping communities in my 
district gather important data about the Pomperaug River and Farmington 
River watersheds, among other projects. The $10.9 proposed cut in 
USGS's National Water-Quality Assessment (NAWQA) initiative would 
severely impact nonprofits and municipalities across the country 
working to extract maximum value from these federal scientific 
resources.
    Equally as important to me, federal juvenile delinquency prevention 
and intervention programs support a variety of state and local efforts 
help ensure that troubled kids don't become mired in the vicious cycle 
of juvenile incarceration. Programs that connect kids with caring 
adults and constructive activities during the ``prime time for juvenile 
crime'' of 3-6 PM are among our most powerful tools for preventing 
crime. The youths whose families received assistance from the 
Functional Family Therapy (FFT) were half as likely to be re-arrested 
as the youths whose families did not receive the family therapy. By 
reducing recidivism among juvenile offenders, FFT saves the public 
roughly $32,000 per youth treated. These programs work, and they save 
valuable tax dollars in effected communities.
    Unfortunately, the Administration's FY09 budget proposes to 
eliminate these funding sources and create a single, new ``Child Safety 
and Juvenile Justice'' block grant. This block grant would be funded at 
a level that is almost 50% lower than the total FY08 funding for the 
programs eliminated, representing some $100 million. The Congress 
should reject the proposed cuts and block granting and instead 
strengthen and increase funding for federal juvenile justice and 
delinquency prevention programs, including Title V prevention grants, 
the Juvenile Accountability Block Grant, and Title II State Formula 
Grants-at a minimum, restoring funding to the FY02 appropriated levels. 
Investing in these proven prevention and intervention programs will 
make our communities safer and save money down the road.
    I also wish to express my strong support for full and fair funding 
of Section 811 Supportive Housing for low-income persons with 
disabilities. Section 811 provides affordable supportive housing so 
that the most disadvantaged members of our society struggling with 
severe mental and physical disabilities can lead productive lives. 
These programs help people with the basic skills and tasks of daily 
living, affording them the dignity and self-respect they are too often 
denied.
    The President's budget further slashes this program, targeting 
Section 811 for a 32% cut from $237 million to $160 million, coming 
only a year after the President attempted to zero-out all new funding 
for nonprofit developers during the FY2008 cycle. Section 811 is 
already straining under the weight of demand for new units, and such 
deep cuts would take two steps back even further from the dozen the 
President has already asked the program to endure. I have introduced 
legislation to reauthorize and streamline this vital program, and I 
hope that we here in Congress can make strong stand against the 
President's proposed budget cuts to Section 811 housing. We cannot and 
should not allow these individuals to fall deeper into the cracks of 
the federal bureaucracy when they deserve a fair shot at their part of 
the American dream.
    While the programs I just spoke about probably won't be the ones 
you see splashed across the newspapers and television sets across 
America, they are vitally important to the Americans that depend on 
them to preserve their communities, keep their kids safe, and find a 
place to call home. I encourage you to do everything in your power to 
ensure that our budget is one that is both fiscally and morally 
responsible. Thank you, Mr. Chairman for your consideration of these 
important issues before the committee today.

    Chairman Spratt. Mr. Murphy, thank you for your excellent 
testimony and for exposing just a few of the really deep and 
eviscerating cuts in this budget.
    You have selected a few that are of interest to 
Connecticut, but that is only symptomatic of the budget as a 
whole, cuts that you would not believe in programs that we have 
seen work and cannot be convinced to the contrary. You have 
seen them in Connecticut. I have seen them in South Carolina. 
And I am sure Mr. Berry has seen them in Arkansas. You have 
only mentioned a few, but they represent the whole thrust of 
this budget.
    And one of our first priorities in putting together an 
alternative budget resolution, our resolution, will be to 
restore the cuts the President made, the crippling cuts in the 
programs you just mentioned.
    Let me now recognize Mr. Berry and see if he has any 
questions he would like to put.
    Mr. Berry. No.
    Chairman Spratt. Thank you very much for coming. Your 
statement will be made part of the record and we really 
appreciate your participation.
    Mr. Murphy. Thank you very much, Mr. Chairman.
    Chairman Spratt. Thank you.
    Ms. Castor, come forward. Oh, you are forward. I beg your 
pardon. I was putting you in the middle of the table. Welcome 
and thank you for coming.
    And I am not sure if you were here when I explained the 
ground rules, but simply put, you have got five minutes to read 
and present your statement. The full statement will be made 
part of the record. Then we will save a little time for Q and A 
afterwards. But the floor is yours and thank you for coming. We 
are looking forward to your testimony.

STATEMENT OF HON. KATHY CASTOR, REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Ms. Castor. Thank you, Mr. Chairman, very much for the 
opportunity to be here this morning and to testify.
    I will not take my full five minutes, but thank you very 
much for the opportunity to be here and submit my full 
statement for the record along with some other materials.
    I am going to focus my remarks on the Medicaid shortfall 
facing numerous states across the country, especially the State 
of Florida.
    And what I am also going to submit for the record are the 
position papers of the National Governors Association that are 
highlighting the shortfall in federal Medicaid funding as a 
serious economic problem facing families across this country.
    Oftentimes here in Washington, I know folks talk about 
programs. And when we are talking about Medicaid, I think it is 
very important to remind everyone we are talking about pregnant 
women, children from poor families, foster children, and really 
the folks that are hit the hardest when the economy goes south.
    Last year, over 20 states faced a shortfall in the federal 
Medicaid match. In the upcoming year, it is projected that 
about 17 to 20 states also will face a serious downturn in the 
federal monies coming to match their Medicaid needs for 
pregnant women and poor children and seniors in nursing homes.
    But I wanted to highlight one problem that is really 
hitting the families in Florida very hard and it happened 
because the federal Medicaid formula relies on the per capita 
income of a few years ago. So there is a lag.
    What happened in Florida in 2004, we were hit by four to 
five hurricanes, Charley, Wilma. There were so many, I cannot 
remember all their famous names. Charley, Francis, Ivan, and 
Gene in 2004, Katrina, Rita, and Wilma in 2005.
    Now, Mr. Chairman, I know South Carolinians, they also 
understand hurricanes, but never has a state been hit by so 
many powerful storms.
    What that did to our per capita income is that in the 
subsequent years, it went up because we had the rebuilding and 
repair period. So now we get hit again because our per capita 
income went up. We will receive less Medicaid match money from 
the Federal Government.
    So this is a problem facing all the states, but Florida now 
is getting socked with a double whammy just at the wrong time, 
at the time that the State of Florida, it is commonly known, is 
in a recession where arguments can be made that maybe some 
other states are treading water.
    I wanted to highlight that to you. The economic hit to the 
State of Florida over the two-year period, $500 million, $500 
million.
    So I encourage you as you build this budget to consider the 
seniors, the pregnant women, the children from poor families, 
kids in foster care. In an economic downturn, we cannot hit 
them again. We cannot allow them in the toughest times to be 
left without a life line.
    So we are counting on the Budget Committee to build in some 
allowance for a Medicaid match fix. In the last economic 
downturn, $10 billion was provided to the states as a life 
line. It has been done for the State of Louisiana as a result 
of Hurricane Katrina as well.
    So thank you very much for the opportunity to raise this 
issue before the Committee today.
    [The prepared statement of Kathy Castor follows:]

 Prepared Statement of Hon. Kathy Castor, a Representative in Congress 
                       From the State of Florida

    Many states are facing severe funding shortfalls in Medicaid 
funding. In FY '08 20 states lost Medicaid funding from 2007 and 17 
states are projected to have FMAP decreases in FY '09.
    States like Florida, Texas, Mississippi, Oklahoma, Nevada, 
Louisiana and others are in danger of losing millions upon millions in 
federal Medicaid dollars. Yet, Medicaid enrollment is expected to 
increase.
    The current FMAP formula is outdated and does not accurately 
reflect current income levels.
    The inaccuracies in the current FMAP formula for many states 
increases the difficulty that states are already having providing 
needed funding for Medicaid as a result of our nation's dire economic 
state.
    In the 2003 economic stimulus package, Congress approved $10 
billion to temporarily enhance FMAP percentages for every state.
    A similar increase today could both prevent scheduled decreases and 
temporarily increase FMAP allocations for every state. We need 
immediate economic relief that will alleviate the strain on state 
Medicaid budgets and ensure that our nation's residents with the 
highest needs do not go without critical health services.
    Families and businesses have already been hard hit by the economic 
downturn and an increase in Medicaid spent on vital health services is 
the most beneficial and effective way to strengthen our economy.
    For millions of families, Medicaid is the only form of health 
coverage available. In my home state of Florida, Medicaid serves 
approximately 2.2 million residents, over half of whom are children.
    Struggling and hardworking families depend on this support for 
health care. An increase in Medicaid funding will provide families with 
critically needed medical care.
    Medicaid is a lifeline for many pregnant women, families who are 
transitioning from welfare to work, young children and seniors who 
qualify for Supplemental Security Income (SSI).
    My home state of Florida is not alone in severe projected Medicaid 
shortfalls, but a unique anomaly is exacerbating our problems in 
Florida.
    Florida was hit by seven hurricanes in two years: Charley, Frances, 
Ivan and Jeanne in 2004 and Katrina, Rita and Wilma in 2005.
    As a result of these hurricanes, per capita income levels in 
Florida temporarily surged upward due to a repair and rebuilding 
period. The anomaly caused the FMAP formula in Florida to skew so it 
does not accurately attend to the state's need.
    This anomaly will leave Florida's neediest residents, without vital 
health services if Florida's FMAP allocation is not corrected.
    Cuts in Medicaid funding from Florida's skewed numbers will 
adversely impact my neighbors in the Tampa Bay area, residents in the 
state of Florida and others living in states which face similar cuts.
    In Florida, we are facing a $500 million hit in Medicaid funding, 
which will have a devastating effect on hardworking families.
    It is estimated that Florida will suffer a $220 million hit in FY 
'09 alone.
    FMAP must be reformulated to reflect every states most recent data.
    Millions of families who depend on Medicaid for health care will be 
forced to go without if these cuts occur.
    Congress must act to prevent this from happening. We must act to 
protect our nation's neediest citizens--seniors, pregnant women and 
children.
    We must work to provide protection for the folks who need it the 
most.
    We must correct the FMAP allocation and enhance Medicaid funding.

    Chairman Spratt. Thank you very much indeed for your 
testimony. It follows on the testimony from Mr. Murphy. And I 
noted that he was simply selecting from this huge budget a few 
particular cuts that had particular relevance to Connecticut.
    What you will find is that program after program, 
particularly in the arena of community and regional 
development, are being cut and cut deeply and the 
intergovernmental programs being cut as well.
    The Medicaid Program under the Bush budget is cut $82 
billion over ten years. The Medicare Program cut is $556 
billion over ten years. With the elderly population in Florida 
that you have, that is like another series of hurricanes coming 
through.
    Ms. Castor. That is right.
    Chairman Spratt. So it is of great concern to us. A large 
part of our effort in putting the budget back together again to 
a form acceptable to our party will be to restore those cuts 
and to bring the budget back to where it should have been if it 
had simply been on a current services basis.
    Mr. Berry, do you have any questions you would like to ask 
her?
    Thank you, very much for your testimony. We appreciate you 
coming.
    Ms. Castor. Thank you, Mr. Chairman. I appreciate your 
leadership very much.
    Thank you, Mr. Berry.
    Chairman Spratt. Now, Mrs. Giffords, you have five minutes 
to make a presentation of your statement. The printed statement 
will be made part of the record and we will have a little Q and 
A afterwards. But thank you for coming. We look forward to your 
testimony.

   STATEMENT OF HON. GABRIELLE GIFFORDS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Ms. Giffords. Thank you, Chairman Spratt, for hearing from 
us today. And thank you, Congressman Berry, as well. I 
appreciate the opportunity to be here.
    I would like to take a few moments to focus the Committee 
on what is going on along the U.S. Mexico border which seems 
very far from Washington. I hail from Tucson, a community that 
is directly impacted by the effects of illegal immigration. My 
district includes about a 114 mile section of the 2,000 mile 
U.S. Mexico border.
    As you can imagine, Arizona has faced unimaginable 
consequences of the immigration crisis. Last year, 387,000 
illegal immigrants were apprehended in Arizona. That is 
approximately 1,000 illegal immigrants every single day.
    It is really hard to see what that impact looks like until 
you go down there and you speak with the local law enforcement 
agencies because many times, in many cases, these are the folks 
that are directly handling what is primarily the Federal 
Government's responsibility.
    The Tucson sector which I represent is the poorest of all 
of the sectors along the 2,000 miles. We are responsible for 
apprehending about 48 percent of all the illegal drugs and 
narcotics that are coming into the border area as well.
    Tucson has now become the major clearinghouse for not just 
marijuana but now methamphetamines. So, again, the impacts in 
terms of local crime, murder rates, all of that drug 
trafficking does not just pass through Arizona, it stays there 
and has direct impacts as well.
    Securing our nation's border, I believe, is the Federal 
Government's responsibility and obviously it falls within the 
jurisdiction of the Federal Government.
    Under federal law, the government has two options. First of 
all, it can handle directly undocumented criminals. It can take 
them into federal custody or it can compensate the state and 
local jurisdictions for doing so.
    Where the Federal Government relies on local law 
enforcement, it is supposed to reimburse our local 
municipalities in a program called SCAAP, State Criminal Alien 
Assistance Program.
    Now, as you know, the SCAAP funding was first created in 
1994, but this program has been consistently under-funded. 
Therefore, the cost for incarcerating folks that are here 
illegally are borne directly by our counties. Some of these 
counties like mine in southern Arizona are among the poorest in 
the nation. They are already operating with slim budgets and 
slim staffing.
    Communities throughout southern Arizona are now facing some 
extraordinary costs as it relates to the incarceration of 
illegal immigrants. Cochise County, a county that is well known 
for Tombstone, Arizona, for Douglas, Arizona, Bisbee, some 
really historic, interesting parts of the country, submitted a 
bill for $234,501 for reimbursable expenses last year and only 
received $98,000 from the Federal Government. This $98,000 
reflects just a portion of the cost of what they actually go 
through.
    The Pima County Jail, Pima County where Tucson is located, 
is used to detain 200 illegal immigrants who have been arrested 
on felony charges, including murder, rape, and robbery. 
According to Sheriff Dupnik, the Sheriff of Pima County, these 
illegal immigrants take up about ten percent of the cell space 
in our counties. The cost to the Sheriff's Department is 
$13,000 each day for incarceration alone. This amounts to about 
$390,000 per month, over $4.7 million per year. The 
reimbursement that Sheriff Dupnik reports from current SCAAP 
funding is less than three percent of the total cost.
    Some of these prisoners also have additional health 
problems like tuberculosis, other diseases that are infectious 
as well. So you can see just the amount of medical funding that 
goes into the detention.
    This week, Arizona's Governor, Janet Napolitano, came to 
Capitol Hill to talk about funding for SCAAP and realizing that 
the current authorization is at $950 million. In her testimony 
before the Senate Finance Committee, she noted that the Federal 
Government now owes Arizona for lack of prior funding over $419 
million.
    So I think this is outrageous that we are expecting our 
state and local municipalities to do the work of federal law 
enforcement, but we are not paying them. And as we know, those 
local sheriffs, those local municipalities are the folks that 
are responding, the first responders to our local citizens when 
they have problems as well.
    On February 8th, I addressed a letter signed by 47 members 
of the House to Chairman Spratt and Ranking Member Ryan 
highlighting the President's failure to include any funding for 
SCAAP in the fiscal year 2009 budget proposal.
    Frankly, Mr. Chairman, I think that we can do better. We 
know that we are facing an illegal immigration crisis in our 
country. We are under-funding SCAAP. The President is 
overburdening our state and our local governments.
    So I urge the Committee to reject the President's cuts to 
SCAAP and ask you that you prioritize America's safety when it 
comes to the hundreds of thousands of people that are coming 
into our borders illegally.
    The majority are coming for work and economic reasons. We 
understand that. But there is a criminal element and we know 
that because we run background checks and we know again the 
murder rate, the drug trafficking. This is a real, real life 
scenario for people in my district in southern Arizona and 
across the U.S. Mexico border. And, of course, the 
ramifications continue to flow across the nation.
    So I appreciate this opportunity to come and testify in 
front of the Committee today. I ask you to support the SCAAP 
funding, to increase the SCAAP funding because it really is the 
difference between life and death for people in my district and 
across the country.
    [The prepared statement of Gabrielle Giffords follows:]

  Prepared Statement of Hon. Gabrielle Giffords, a Representative in 
                   Congress From the State of Arizona

    Chairman Spratt and Ranking Member Ryan, thank you for allowing me 
to testify before the Budget Committee today.
    I would like to take this opportunity to focus the Committee's 
attention on an issue vital to Southern Arizona--the impact of our 
nation's immigration crisis on state, county, and local law enforcement 
agencies. My district includes 114 miles of the US-Mexico border.
    As you know, Arizona faces unimaginable immigration and border 
security challenges. Last year, 387 thousand illegal immigrants were 
apprehended in Arizona. An average of 1,000 illegal immigrants per day 
were arrested and deported from Tucson.
    The Tucson Sector, which includes my district, is the most porous 
section of the entire U.S.-Mexico Border. More than 48% of the nation's 
drug traffic enters our country through Southern Arizona.
    Securing our nation's borders is the Federal Government's exclusive 
jurisdiction. Under federal law, the Federal Government has two options 
for handing that responsibility in relation to undocumented criminals. 
It can take them into federal custody OR it can compensate state and 
local jurisdictions.
    Where the Federal Government relies on local law enforcement, it is 
supposed to reimburse states and localities for the costs related to 
the incarceration of illegal immigrants who commit crimes in our 
communities. The State Criminal Alien Assistance Program, or SCAAP was 
created by the Violent Crime Control and Law Enforcement Act of 1994 as 
the method for those reimbursements. As you know, SCAAP funding flows 
through the Justice Department's Office of Justice Programs to local 
law enforcement.
    However, SCAAP is consistently under-funded. Because of the limited 
federal contributions to the program, these incarceration costs are 
borne by our counties. Some of those counties are among the poorest in 
the nation. They are already operating with slim budgets and staffing. 
As a result, appropriate federal funding is even more critical.
    Communities through Southern Arizona face extraordinary costs from 
incarcerating undocumented criminals each year. Cochise County in my 
district submitted $234,501 in reimbursable expenses last year and only 
received less than $98,000. That $98,000 reflects only a fraction of 
the costs they actually incurred for doing federal law enforcement's 
job.
    Every day the Pima County Jail is used to detain 200 illegal 
immigrants who have been arrested on felony charges including murder, 
rape and robbery. According to Sheriff Dupnik, these illegal immigrants 
take up 10% of the cell space in our county jail there. The cost to the 
Sheriff's Department is $13,000 per day for incarceration alone. This 
amounts to approximately $390,000 per month and $4,745,000 per year.
    The reimbursement Sheriff Dupnik reports from current SCAAP funding 
is less than 3% of the total cost incurred. Some of these prisoners 
have serious health problems including infectious diseases such as TB. 
The cost of medical treatment is an additional burden beyond the cost 
of detention.
    Just this week, Arizona's Governor, Janet Napolitano, testified on 
Capitol Hill about the need for fully funding the SCAAP program at the 
authorized $950 million level. Our Governor has submitted regular bills 
to the Justice Department that have not been fully paid. In her 
testimony to the Senate Finance Committee, she noted that the Federal 
Government now owes Arizona at least $419 million.
    There is an outrageously clear under-valuing of the critical 
contributions of our state, county and local law enforcement agencies 
in capturing and detaining criminals who are in our nation illegally. 
They are performing duties assigned to the Federal Government, which 
has failed to do its job. To make matters worse, in fiscal year 2006, 
over $66 million dollars were rescinded from SCAAP. Like Governor 
Napolitano, I was shocked to learn of this rescission and agree that 
further cuts to this already-underfunded program are completely 
unacceptable.
    With continued under-funding of this assistance program, states and 
localities will be financially overwhelmed by these costs that are the 
Federal Government's responsibility.
    As you know, only February 8, 2008 I addressed a letter signed by 
47 of my House colleagues to Chairman Spratt and Ranking Member Ryan. 
That letter highlighted the President's failure to include ANY funding 
for SCAAP in his Fiscal Year 2009 Budget proposal.
    We are already facing an immigration crisis in America. By under-
funding SCAAP, the President is over-burdening our state and local 
governments. He is hampering our states' ability to protect our 
communities and uphold federal law.
    SCAAP funding is particularly important to communities like Bisbee 
and Douglas--those along the nearly 2,000 miles of southern border. 
States and local governments along our border incur greater costs than 
other jurisdictions.
    Over the past several years, those communities' costs have exceeded 
SCAAP reimbursements by hundreds of millions of dollars.
    I urge you to reject the President's cuts to SCAAP and ask that you 
prioritize the safety of our American communities in the Budget 
Resolution you mark up next week. We must take the appropriate steps to 
ensure that SCAAP funding, especially to Border States, remains a 
federal priority.
    Arizona, like many states, is facing budget shortfalls. Every 
dollar reduction in SCAAP reimbursement means a dollar less that 
Arizona can spend on essential public safety services.
    I appreciate the opportunity to testify before you today. Please 
support increased SCAAP funding for our state and local law enforcement 
by increasing the total funding level for the Bureau of Justice 
Assistance in the House's Fiscal Year 2009 Budget.
    Thank you.

    Chairman Spratt. Thank you for very compelling testimony. 
It is consistent with what we have already heard from the two 
witnesses that preceded you.
    The cuts that this Administration has made in this budget 
resolution are deep and hurtful, particularly to local 
government and to regional government. And here is a program 
that the need for it cannot be overstated, the State Criminal 
Alien Adjustment.
    If you are going to do anything about immigration, it 
starts at the borders, securing the borders, and it starts with 
dealing with criminal elements and those who are coming here 
illegally. And this is one federal program that specifically 
addresses that.
    And it is not being cut. It is being eliminated, wiped out 
completely which begs lots of questions. Among them is what is 
the Administration's position on immigration?
    Thank you very much. Your testimony was very effective and 
it will be taken to heart as we go through this budget.
    Ms. Giffords. Thank you, Mr. Chairman and members of the 
Committee. I appreciate the opportunity.
    Chairman Spratt. Mr. Berry?
    Mr. Berry. I have no questions.
    Chairman Spratt. Mr. Poe from Texas. Thank you for coming. 
You have got the floor for five minutes to present your 
testimony. And we will make your full statement part of the 
record.
    Mr. Poe. Thank you very much, Mr. Chairman.
    Chairman Spratt. You are welcome. And we appreciate your 
being here.

 STATEMENT OF HON. TED POE, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Poe. I am here on behalf of the novel concept of 
``Victims of Crime Act.'' The VOCA fund, 24 years old, is a 
fund that is funded by convicted criminals and the fees and 
fines that they pay go into this fund. It is an assessment by 
federal judges. It is not taxpayer money. It is money that is 
funded by criminals for victims of crime. It is a great 
concept.
    And this money is spent throughout the country for rape 
crisis shelters, domestic violence shelters, victim advocates, 
and victims' restitution. It is like making the criminals pay 
the rent on the courthouse, pay for the system that they have 
created.
    But the Justice Department administers this fund. And right 
now it is $1.7 billion that criminals have donated to the fund. 
Next year, it is supposed to be $1.9 billion because federal 
judges are assessing more fines and fees and there are more 
criminal cases.
    So the problem, what is it? The problem is that every year 
in the budget, in the Administration's budget, the amount of 
money available to these organizations keeps getting lower and 
lower. Even though there is 1.7 billion in the fund this year, 
the budget only authorizes $540 million, excluding the $50 
million antiterrorism emergency reserve. That is a cut from 
last year of $770 million.
    Many of these organizations barely keep the lights on and 
when they lose money, a few million dollars, they close down. 
And not only is the fund being reduced, but the President's 
budget wants to take the rest of the fund and distribute it for 
other pet projects, thus eliminating the fund entirely.
    And the Justice Department who has always administered the 
fund this year wants to charge a surcharge for administering 
the fund. They have never issued a surcharge before. In fact, I 
do not think Congress has even authorized this surcharge.
    But they are going to take money out of the fund to pay for 
the administration of it because they have a budget cut. So you 
have got these different organizations coming in to take money 
that really does not belong to these organizations. It belongs 
to crime victims.
    So I am simply asking that on behalf of victims of crime 
throughout the United States that the fund not be decreased, 
that it actually be raised just to $660 million, and that it 
stay current every year, of course, we have to fight this 
battle every year, and that other groups do not rob this fund 
for other projects in the budget.
    Once again, this is not taxpayer money. It did not come 
from taxpayers. It came from criminals. And it is the idea that 
the money should be spent on victims of criminal conduct.
    So I am just asking this Committee to restore the level of 
funding to $770 million, not reduce it, not allow other 
organizations and departments in our government to take the 
money and spend it on, frankly, things that have nothing to do 
with crime victims.
    So that is the testimony and I am asking that the Committee 
protect the rights of victims. These are very important 
programs. It is a tremendous concept and because Congress or, 
rather, the Justice Department administers the fund, so many 
organizations and departments want to grab this money and use 
it on their pet projects. And they are not entitled to this 
money. It goes to victims.
    [The prepared statement of Ted Poe follows:]

 Prepared Statement of Hon. Ted Poe, a Representative in Congress From 
                           the State of Texas

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to speak about the Crime Victims Fund. Congress created 
this Fund in the bipartisan Victims of Crime Act or VOCA. President 
Reagan signed VOCA into law in 1984.
    The Crime Victims Fund is a novel idea. Convicted federal criminals 
pay fees and fines into the Fund. That money is then saved and reserved 
for victims of crime. The Fund helps pay reparations to victims and 
allows domestic violence shelters, rape crisis centers, and other 
organizations to keep their doors open.
    Today, the Fund is about $1.7 billion. This is money contributed by 
criminals that goes to crime victims. I want to be clear: this is not 
taxpayer money. This is criminals paying for the system that they've 
created. Criminals are paying rent on the courthouse.
    Although the Fund is $1.7 billion, Congress limits the amount 
available to crime victim organizations to ensure that there is money 
left over for the next year. The 2006 Fund level was $625 million. It 
stayed at that level in 2007 but state assistance grants were cut. The 
Fund level was then lowered in 2008 to $590 million, which means even 
more cuts to state grants. The cuts may seem small, but they are 
forcing victim service centers across the country to close their doors 
because they can barely keep their lights on.
    The Fund is in even more danger. For the 1st time in its 24 year 
history, the Justice Department is taking money out of the Fund at a 
rate of 5.5%. This is to administer the Fund. That surcharge will equal 
$32.45 million. The Justice Department claims that it needs the $32.45 
million because its management and administrative costs were under 
funded in Fiscal Year 2008. The Justice Department does not have the 
legal authority to do this and is doing so without Congressional 
approval. The Justice Department's budget is being cut so it wants to 
steal money from victims of crime to make up for the difference.
    A similar surcharge is being assessed to RISS, the Regional 
Information Sharing Systems Program. The Justice Department wants to 
impose a surcharge of 7.5% on RISS. That's even higher than what banks 
charge. RISS is one of the nation's most important law enforcement 
intelligence sharing networks. RISS gives local, state, federal, and 
tribal law enforcement agencies access to intelligence databases and 
investigative resources to enhance and improve the ability to detect 
crime, apprehend offenders, and successfully prosecute criminals. For 
Fiscal Year 2009, Congress must appropriate 52.7 million to ensure that 
RISS provides our law enforcement officers the tools they need to keep 
us all safe.
    Congress must also adequately fund the Justice Department's 
management and administrative costs, so that the Justice Department 
gets out of the business of charging interest to non-profits.
    With the Crime Victims Fund, federal bureaucrats see a Fund with 
over a billion dollars in it and instantly want to touch it. But it's 
not their money to touch. The Crime Victims Fund has $1.7 billion this 
year. Next year, it will be $1.9 billion. Every year, the fund grows 
larger, but every year the government lowers the amount available for 
VOCA grants.
    The Federal government, particularly the Justice Department, needs 
to keep their hands off of the Crime Victims Fund. Criminals pay into 
the fund to help the victims that they harmed, not to help the Federal 
government pay for other things.
    On top of the almost $81 million cut in victim services for 2008, 
we fear there will be even more cuts. Once again the Administration 
recommends rescinding the Crime Victims Fund. In other words, abolish a 
$1.7 billion Fund. This would drain the Fund, combine offender revenue 
with taxpayer funds, and allow the Administration to use the funds for 
other pet projects. Victims should not be forced to wage an annual 
fight over a Fund that was created for their sole benefit.
    The Administration's 2009 budget proposal also includes another $52 
million cut for state assistance grants. That's a total cut of $159 
million since 2006. But the money is already in the Fund! The Fund is 
growing every day. Now Congress needs to make these funds accessible to 
crime victim services.
    In order to offset these cuts, Congress will have to raise the Fund 
to $770 million in Fiscal Year 2009. This would just restore victim 
state assistance grants to the 2006 level. This would simply get 
programs back to where they were four years ago. Mr. Chairman, I urge 
you to ensure that the 2009 VOCA cap is at least $770 million.
    Crime victims do not have high dollar lobbyists here in Washington, 
DC to advocate on their behalf. Victims expect us, Members of Congress, 
to advocate on their behalf. They were victims of crime and we cannot 
let federal bureaucrats continue to victimize them. It is important 
that we do not let the bureaucrats raid the Crime Victims Fund and use 
that money for other purposes. Bureaucrats must find that money 
somewhere else. This money belongs to crime victims and needs to be 
left alone. And that's just the way it is.

    Chairman Spratt. Mr. Poe, you make a very compelling 
witness. Good point, powerful presentation. We are entirely 
sympathetic to you.
    We have got other programs in the Justice Department we 
would like to repair. You may or may not agree, but one would 
be the COPS Program which will be at this rate wiped out by 
this budget, Byrne Grants crippled, and I think the State Law 
Enforcement Block Grant is under-funded as well and that is 
just for starters.
    So I do not know what your experience is in Texas, but 
these are programs that have worked in my part of the world and 
have demonstrated they work and that is why they have survived 
this many years. And your program not only has worked and has 
the tangible assets to prove it, but it also makes a lot of 
equity sense in terms of equity. Those who are guilty of 
violating the law should pay for the consequences of their 
illegal action.
    I cannot quibble with it at all. We will do our best to see 
that it is restored to the level you are talking about. It will 
not be easy because we have got a very tight budget, but you 
make a strong case.
    Thank you for coming.
    Mr. Poe. Thank you, Mr. Chairman. Thank you very much.
    Chairman Spratt. Mr. Berry, do you have any questions?
    Mr. Berry. I think you are an attorney; is that right?
    Mr. Poe. I am an attorney, former judge in Texas for 20 
years.
    Mr. Berry. Do you think what the Justice Department did was 
legal?
    Mr. Poe. No, sir, I do not. It is not authorized by 
Congress. Congress set the legislation for the VOCA fund in 
1984. The Justice Department has always administered it without 
charging a surcharge. And this year, because they want some 
more money, they are taking five percent of that fund. And I do 
not think it is legal. I certainly do not.
    Mr. Berry. What do you think we ought to do about it?
    Mr. Poe. Well, first of all, not allow them to take the 
money out of it because it is not authorized by Congress. So 
they continue to administer the fund just like they have in the 
past without getting that kickback or surcharge.
    Mr. Berry. Thank you.
    Mr. Poe. Thank you, Mr. Berry.
    Chairman Spratt. Mr. Berry, would you come around and take 
the gavel.
    Mr. Loebsack, welcome. You have heard the rules for the 
presentation. You will have five minutes and your full 
statement will be made part of the record. We very much 
appreciate you coming.
    I have got to go to a meeting with the Blue Dogs at this 
point in time. I will be back intermittently.
    But we are seeing from the testimony the gaping holes in 
this budget that have got to be repaired before it can be 
brought to a vote. So we appreciate your participation for 
those reasons.
    Mr. Berry.

STATEMENT OF HON. DAVID LOEBSACK, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. Loebsack. Thank you, Mr. Chairman, Ranking Member Ryan, 
and members of the House Budget Committee. It is an honor to 
testify before you today on the most important issues to the 
families, students, seniors, and veterans of Iowa's 2nd 
Congressional District.
    The needs and priorities of the constituents I represent 
have not been reflected in the Administration's fiscal year 
2009 budget. For too long, Washington has left behind hard-
working Americans. In Iowa, this is evident in the good people 
who are struggling to provide for their families, put food on 
the table, afford quality healthcare, send their children to 
college, fill their gas tanks, and save for retirement.
    The fiscal year 2009 budget request is a continuation of 
this Administration's failed policies that have left people 
struggling to make ends meet.
    Today I urge you to reject the Administration's budget 
proposal when drafting the budget resolution for fiscal year 
2009.
    First, I would like you to closely examine the needs of our 
law enforcement community because once again the 
Administration's budget fails to recognize the importance of 
the Edward Byrne Memorial Justice Assistance Grant Program to 
the safety of our communities, schools, and our children.
    Byrne JAG is effective because it puts funding directly 
into the hands of those who know best how to combat crime and 
fosters the cooperation necessary to take drugs off of our 
street. Yet, the Administration has proposed eliminating all 
direct grants to states and local law enforcement and instead 
to create a single competitive grant program that would pit 
states, law enforcement, prosecutors, and drug prevention 
organizations against one another while under-funding the 
entire program.
    Byrne JAG has proven it is effective and it is critical to 
public safety. I call on you to fully fund Byrne JAG and to 
reject the Administration's proposed changes.
    Second, as the budget process moves forward, I respectfully 
urge the Committee to look closely at the funding needs for 
programs that support Iowa's students, indeed the nation's 
students.
    I am living proof of how community and education can make a 
difference. I grew up in poverty. Times were tough, but I 
focused on school. And with the help of academic financial 
assistance in combination with hard work, I had the strength 
and the resources to overcome personal hardships and achieve 
the American dream. For today's children, this dream is quickly 
slipping away.
    For children growing up in poverty today, their first 
chance at success is Head Start. Unfortunately, the 
Administration provided only a small increase of $149 million 
for Head Start following a $10 million cut in funding last 
year.
    As a member of the Educational Labor Committee, I along 
with my colleagues reauthorized this important program. We 
worked hard to produce bipartisan legislation that has been 
signed into law. If funded properly, Head Start will help many 
more children reach kindergarten ready to succeed.
    As children progress through the education system, they 
encounter crumbling schools, overworked, underpaid teachers, 
and supply shortages. As we work to reauthorize the 
``Elementary and Secondary Education Act'' this year, I am 
disappointed by the Administration's proposals for NCLB, No 
Child Left Behind. The proposed increase for public schools is 
not enough even to keep pace with inflation.
    Higher education also suffers under this budget which cuts 
new student benefits provided by Congress under the ``College 
Cost Reduction and Access Act.'' In addition, the 
Administration asked for $4,800 for the Pell Grant scholarship, 
but I urge the Committee to support $5,100, bringing us closer 
to meeting our ultimate goal of $5,400.
    And I would also be remiss if I did not address the need to 
fully fund the ``Individuals with Disabilities Education Act.'' 
Though the budget includes a $337 million increase for IDEA 
funding, it provides far less than what is needed to give 
necessary support to students with disabilities.
    The Administration's budget has severely shortchanged our 
nation's students by failing to adequately fund Head Start, No 
Child Left Behind, higher education, and IDEA. And I ask that 
you reject these budget proposals and fully fund these critical 
programs to ensure our children receive a first-rate education 
starting in childhood and continuing through adulthood.
    Public safety and education are not partisan issues. They 
are critical domestic matters that are suffering under this 
Administration's misguided policies. However, these are only 
two of the many concerns I fear are being ignored.
    I want to conclude by thanking you for this opportunity to 
represent the needs and priorities of Iowa's 2nd Congressional 
District in front of the House Budget Committee, especially 
given that I, too, am a freshman. I am honored to be here today 
and I urge each of you to take our country in a new direction 
when developing the budget resolution for fiscal year 2009.
    Thank you, Mr. Chairman.
    [The prepared statement of David Loebsack follows:]

Prepared Statement of Hon. Dave Loebsack, a Representative in Congress 
                         From the State of Iowa

    Good morning Mr. Chairman, Ranking Member Ryan, and members of the 
House Budget Committee. It is an honor to testify before you on the 
issues most important to the families, students, seniors, and veterans 
of Iowa's Second Congressional District. The needs and priorities of 
the constituents I represent have not been reflected in the 
Administration's Fiscal Year 2009 Budget.
    For too long, Washington has left behind hardworking Americans. In 
Iowa, this is evident in the good people that are struggling to provide 
for their families, put food on the table, afford quality health care, 
send their children to college, fill their gas tanks, and save for 
retirement. The FY 2009 budget request is a continuation of this 
Administration's failed policies that have left people struggling to 
make ends meet.
    Today, I urge you to reject the Administration's budget proposal 
when drafting the Budget Resolution for Fiscal Year 2009.
    First, I would like you to closely examine the needs of our law 
enforcement community, because once again, the Administration's budget 
fails to recognize the importance of the Edward Byrne Memorial Justice 
Assistance Grant program to the safety of our communities, schools, and 
children.
    Byrne JAG is effective because it puts funding directly into the 
hands of those who know best how to combat crime and fosters the 
cooperation necessary to take drugs off of our streets.
    Yet the Administration has proposed eliminating all direct grants 
to States and local law enforcement and instead to create a single 
competitive grant program that would pit States, law enforcement, 
prosecutors, and drug prevention organizations against one another 
while under-funding the entire program.
    Byrne JAG is proven, effective, and critical to public safety. I 
call on you to fully fund Byrne JAG and to reject the Administration's 
proposed changes.
    Second, as the budget process moves forward, I respectfully urge 
the Committee to look closely at the funding needs for programs that 
support Iowa's students.
    I am living proof of how community and education can make a 
difference. I grew up in poverty. Times were tough, but I focused on 
school. With the help of academic financial assistance, in combination 
with hard work, I had the strength and resources to overcome these 
personal hardships and achieve the American Dream. For today's 
children, this dream is quickly slipping away.
    For children growing up in poverty today, their first chance at 
success is Head Start. Unfortunately, the Administration provided only 
a small increase of $149 million for Head Start following a $10 million 
dollar cut in funding last year.
    As a member of the Education and Labor Committee, I along with my 
colleagues reauthorized this important program. We worked hard to 
produce bipartisan legislation that has been signed into law. If funded 
properly, Head Start will help many more children reach kindergarten 
ready to succeed.
    As children progress through the education system, they encounter 
crumbling schools, overworked, underpaid teachers, and supply 
shortages. As we work to reauthorize the Elementary and Secondary 
Education Act this year, I am disappointed by the Administration's 
proposals for NCLB. The proposed increase for public schools is not 
enough even to keep pace with inflation.
    Higher Education also suffers under this budget which decimates 
student financial aid programs. The Administration not only refuses to 
increase maximum Pell Grant scholarship to $5,100, bringing us closer 
to meeting our ultimate goal of $5,400, but it cut new student benefits 
provided by Congress under the College Cost Reduction and Access Act.
    I would also be remiss if I did not address the need to fully fund 
the Individuals with Disabilities Education Act. Though the budget 
includes a $337 million increase in IDEA funding, it provides less than 
half the funding level promised by Congress 33 years ago.
    The Administration's budget has severely shortchanged our nation's 
students by failing to adequately fund Head Start, No Child Left 
Behind, Higher Education and IDEA. I ask you to reject these budget 
proposals and fully fund these critical programs to ensure our children 
receive a first rate education starting in childhood and continuing 
through adulthood.
    Public safety and education are not partisan issues; they are 
critical domestic matters that are suffering under the Administration's 
misguided polices. However, these are only two of many domestic 
concerns I fear are being ignored.
    I want to conclude by thanking you for this opportunity to 
represent the needs and priorities of Iowa's Second Congressional 
District in front of the House Budget Committee, and urge each of you 
to take our country in a new direction when developing the Budget 
Resolution for Fiscal Year 2009.

    Mr. Berry [presiding]. Thank you, Mr. Loebsack, and we 
appreciate you raising these matters to the Committee. I know 
the Chairman is aware of it and the Committee is aware of it.
    And I happen to have been around when some of those 
programs were begun and we had a crime wave in this country 
that was completely out of control. And that is where some of 
those programs came from.
    And as we funded and implemented those programs, the crime 
rate went down. And as they have been under-funded and defunded 
over the last seven years, it has begun to go back up again. 
That is just one example of what some of these things mean.
    So we appreciate your concerns and certainly it will be 
taken into consideration as we put this budget together.
    Mr. Loebsack. Thank you again.
    Mr. Berry. The Chair recognizes the distinguished 
gentlewoman from New York and we are prepared to receive your 
testimony, Ms. McCarthy.

    STATEMENT OF HON. CAROLYN MCCARTHY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. McCarthy. I thank you, Mr. Chairman. I appreciate you 
allowing me to testify today in support of including necessary 
funding in the fiscal year 2009 budget resolution under the 
Department of Justice Community Oriented Policing Services to 
implement H.R. 2640, the ``NICBCS Improvement Amendments Act of 
2007,'' Public Law 110-180.
    H.R. 2640 was signed into law by the President on January 
8th, 2008, after having passed both the House and the Senate 
unanimously.
    I know the budget is tight, Mr. Chairman, but fully funding 
this program is so important because currently the National 
Instant Criminal Background Check System or the NICBCS is 
deeply flawed.
    NICBCS is a national database system that flags individuals 
precluded under current law from purchasing and possessing 
firearms. Millions of criminal records are currently missing 
from the database that makes up NICBCS due to funding 
restrictions and technology issues at the state level.
    Many states have not automated individual records 
concerning mental illness, restraining orders, or misdemeanor 
convictions for domestic violence. Simply put, NICBCS must be 
updated on the state level so that it can properly function on 
the federal level.
    This point is underscored by the circumstances 
unfortunately surrounding the shootings of Virginia Tech in 
April of last year. The shooter in the Virginia Tech massacre 
was prohibited from legally purchasing a firearm. 
Unfortunately, flaws in the NICBCS system allowed his record to 
slip through the cracks and he was able to purchase two 
handguns and use them to brutally murder 32 individuals.
    He passed a Brady background check because NICBCS did not 
have the necessary information. Sadly, the same scenario 
happens every day across this nation.
    The ``NICBCS Improvement Amendments Act'' requires all 
states to provide NICBCS with the relevant records needed to 
conduct effective background checks. It is the state's 
responsibility to ensure this information is current and 
accurate. They must update their records to ensure violent 
criminals do not have access to firearms and then they must 
share their information with NICBCS.
    However, I recognize many state budgets are already 
overburdened. This law disputes grants and states to update 
their records and provide those records to NICBCS. States will 
receive the funds they need to make sure relevant records are 
up to date.
    While NICBCS has flaws, the ``NICBCS Improvement Amendment 
Act of 2007'' corrects the primary flaw and will prevent 
thousands of individuals precluded from purchasing firearms 
from doing so.
    Approximately 916,000 individuals were precluded from 
purchasing a firearm for failing a background check between 
November 30th, 1998, when NICBCS began operating, and December 
31st, 2004.
    During this same period, nearly 49 million background 
checks were processed through NICBCS. These numbers provide 
that NICBCS works and will continue to work. However, since 
NICBCS is only as good as the information it contains, we must 
ensure that NICBCS has the most up-to-date records to stop 
criminals, those adjudicated as mentally ill and those under 
restraining order from purchasing firearms.
    It has been estimated that more than 40 million records are 
still missing from the various databases that makes up NICBCS. 
By providing this funding, we will move one step closer to 
bringing the records of millions of barred individuals into 
NICBCS.
    This law imposes no new restrictions on gun owners and does 
not infringe on the Second Amendment rights of law-abiding 
citizens. It simply makes improvements to a program that saves 
lives.
    The NRA and I worked very hard on this. We actually passed 
it in 2002. Unfortunately, the Senate never took it up. But 
after Virginia Tech, we were able to pass it on both areas.
    I respectfully request that you include $187.5 million to 
the fiscal year 2009 budget resolution under the Department of 
Justice Community Oriented Policing Services in order to fully 
fund the ``NICBCS Improvement Amendments Act of 2007.''
    I thank you for your time and I would be more than willing 
to answer any questions.
    [The prepared statement of Carolyn McCarthy follows:]

   Prepared Statement of Hon. Carolyn McCarthy, a Representative in 
                  Congress From the State of New York

    Thank you Chairman Spratt, Ranking Member Ryan, and Members of the 
Budget Committee.
    I appreciate your allowing me to testify today in support of 
including necessary funding in the Fiscal Year 2009 Budget Resolution 
under the Department of Justice Community Oriented Policing Services to 
implement H.R. 2640, the NICS Improvement Amendments Act of 2007, 
Public Law Number 110-180.
    H.R. 2640 was signed into law on January 8, 2008, after having 
passed both the House and Senate unanimously.
    I know the budget is tight, Mr. Chairman, but fully funding this 
program is so important because currently the National Instant Criminal 
Background Check System, or NICS, is deeply flawed.
    NICS is a national database system that flags individuals precluded 
under current law from purchasing and possessing firearms.
    Millions of criminal records are currently missing from the 
databases that make up NICS due to funding restrictions and technology 
issues at the state level.
    Many states have not automated individuals' records concerning 
mental illness, restraining orders, or misdemeanor convictions for 
domestic violence.
    Simply put, NICS must be updated on the state level so that it can 
properly function on the federal level.
    This point is underscored by the circumstances surrounding the 
shootings at Virginia Tech in April of last year
    The shooter in the Virginia Tech massacre was prohibited from 
legally purchasing a firearm.
    Unfortunately, flaws in the NICS system allowed his record to slip 
through the cracks and he was able to purchase two handguns, and used 
them to brutally murder 32 individuals.
    He passed a Brady background check because NICS did not have the 
necessary information.
    Sadly, this same scenario happens every day.
    The NICS Improvement Amendments Act requires all states to provide 
NICS with the relevant records needed to conduct effective background 
checks.
    It is the state's responsibility to ensure this information is 
current and accurate. They must update their records to ensure violent 
criminals do not have access to firearms. And then, they must share the 
information with NICS.
    However, I recognize many state budgets are already overburdened.
    This law distributes grants to states to update their records and 
provide those records to NICS.
    States will receive the funds they need to make sure relevant 
records are up-to-date.
    While NICS has flaws, the NICS Improvement Amendments Act of 2007 
corrects the primary flaw and will prevent thousands of individuals 
precluded from purchasing firearms from doing so.
    Approximately 960,000 individuals were precluded from purchasing a 
firearm for failing a background check between November 30, 1998, when 
NICS began operating, and December 31, 2004.
    During this same period, nearly 49 million Brady background checks 
were processed through NICS.
    These numbers prove that NICS works and will continue to work. 
However, since NICS is only as good as the information it contains, we 
must ensure that NICS has the most up-to-date records to stop 
criminals, those adjudicated as mentally ill, and those under a 
restraining order from purchasing firearms.
    It has been estimated that more than 40 million records are missing 
from the various databases that make up NICS.
    By providing this funding, we will move one step closer to bringing 
the records of millions of barred individuals into NICS.
    This law imposes no new restrictions on gun owners and does not 
infringe on the 2nd Amendment rights of law-abiding citizens. It simply 
makes improvements to a program that saves lives.
    I respectfully request that you include $187.5 million in the 
Fiscal Year 2009 Budget Resolution under the Department of Justice 
Community Oriented Policing Services in order to fully fund the NICS 
Improvement Amendments Act of 2007.
    Thank you for your time and I would be happy to answer any 
questions you may have.

    Mr. Berry. Well, the gentle lady speaks to this matter with 
knowledge and authority that is not possessed by any other 
member of Congress. And we appreciate you coming here and 
raising these matters with the Budget Committee.
    And I think we can say with confidence that they will be 
certainly considered and noted. As we work through this budget, 
hopefully we will get some of these problems worked out.
    But we thank you very much for being willing to do this and 
we appreciate all your efforts.
    Ms. McCarthy. And I thank you for your time, sir. Thank 
you.
    Ms. Hooley [presiding]. The next member to testify is Mr. 
Altmire from Pennsylvania. Welcome, and we are pleased to 
receive your testimony. You are recognized for five minutes.

 STATEMENT OF HON. JASON ALTMIRE, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. Altmire. Thank you, Madam Chair, and I appreciate the 
support of the members of the Committee for the opportunity to 
testify today on the importance of the fiscal year 2009 budget 
resolution and specifically its impact on western Pennsylvania.
    Over the past seven years, President Bush has time and 
again sent budget proposals to Congress that fail to address 
the needs of our country and these irresponsible budgets have 
led to record deficits and an economy that is, to say the 
least, unstable.
    With one last opportunity to address the fiscal turmoil 
created during his Administration, I had hoped the President 
would submit to Congress a budget that prioritizes America and 
finally puts this country on a path to recovery, but, 
unfortunately, this was not the case.
    The President's fiscal year 2009 budget proposal once again 
rejects the will of the American people, cuts funding for 
critical domestic programs, and even goes as far as to attempt 
to balance the budget on the backs of our nation's veterans.
    Simply said, I find the President's budget plan 
unacceptable and I urge the Committee to reject many of its 
proposals and, instead, work in a bipartisan manner to develop 
a fiscally responsible budget.
    As you and the Committee prepare the fiscal year 2009 
budget resolution, I urge you to pay tribute to the sacrifices 
made by our nation's veterans by once again fully funding their 
medical care and coverage.
    Last year, Congress answered this call by providing a 
record $13 billion of funding for the VA, meeting for the first 
time the recommendations put forth by the Independent Budget. I 
hope that we can again continue this tradition and pass a 
budget resolution that contains a substantial increase in 
veterans' funding.
    Unfortunately, the President disagrees and would rather 
shortchange our nation's veterans. When adjusted for inflation, 
his 2009 budget requests only a .6 percent increase over fiscal 
year 2008 levels. This is regarded as beyond inadequate by 
every major veterans' organization, especially considering that 
over 100,000 new veterans will seek treatment this year from 
the VA.
    Furthermore, the President's budget calls on fee and co-
payment increases of $5.2 billion on veterans' medical care. If 
enacted, these increases would almost double the cost of 
prescriptions and impose an enrollment fee of up to $750 per 
year. It is predicted that the fee increases would cause almost 
200,000 veterans to leave the VA healthcare system. Most 
disappointing is the fact that the President's plan would not 
even reinvest these additional funds in veterans' healthcare.
    Madam Chair, on behalf of the over 60,000 veterans residing 
in my district, many of whom already struggle with access to 
their benefits, I again ask that you set aside the President's 
misguided recommendations and pass a budget that prioritizes 
the needs of veterans and ensures they have access to every 
benefit they deserve.
    When it comes time for Congress to make federal funding 
decisions, there is absolutely no group that should stand ahead 
of our nation's veterans.
    The Bush budget also reneges on America's promise to care 
for its senior citizens and cuts Medicare by $556 billion over 
ten years. This proposal is far too severe. It could limit 
seniors' access to their doctors and make it harder for our 
hospitals to provide patients with quality care.
    With 124,000 Medicare beneficiaries in my district alone, I 
take any change to the program seriously and believe that it is 
the wrong path for us to take as the baby boomers begin to 
retire.
    Most of the cuts are to hospitals and other medical 
providers, but remarkably $26 billion comes from increased 
premiums to beneficiaries. Hospitals in my district estimate a 
total five-year impact of over $125 million.
    Let me just cite a few to give you an idea of what this 
means. A $14 million cut to the Alle-Kiski Medical Center in 
Natrona Heights; a $15 million cut to Jameson Hospital in New 
Castle; and a $29 million cut to the Heritage Valley Medical 
Center in Beaver, Pennsylvania.
    These are not small, insignificant amounts to local 
hospitals. We can do a better job to reform Medicare and ensure 
its solvency than by simply slashing reimbursement to hospitals 
and other providers and increasing premiums on seniors.
    The President's budget also calls for a $570 million cut to 
LIHEAP which would reduce LIHEAP's funding to the 2001 level. 
In Pennsylvania, LIHEAP provides 285,000 low-income households 
with the money necessary to pay their heating bills in the 
winter. This money goes primarily to households with young 
children, senior citizens, or disabled individuals. At a time 
when home heating costs are increasing dramatically, by 80 
percent since 2001, I find it unconscionable that the President 
has proposed these cuts.
    Lastly, the President's budget nearly eliminates the 
Manufacturing Extension Partnership, the MEP. The MEP funding 
is critical to making small and medium size manufacturers more 
productive and competitive. Those funds are used to connect 
these manufacturers with cutting-edge technology, trained 
workers, streamline the process, and assist with production 
innovation. In 2006 alone, MEP helped manufacturers save $1.3 
billion and create or retain 53,000 jobs.
    Again, I appreciate the opportunity to address the 
Committee today to outline my priorities for the fiscal year 
2009 budget. Thank you, Madam Chair and members of the 
Committee. And I yield back my time.
    [The prepared statement of Jason Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman and members of the committee. I appreciate 
the opportunity to testify today on the importance of the fiscal year 
2009 budget resolution and its impact on western Pennsylvania.
    Over the past seven years, President Bush has time and again sent 
budget proposals to Congress that fail to address the needs of our 
country. These irresponsible budgets have led to record deficits and an 
economy that is unstable to say the least. With one last opportunity to 
address the fiscal turmoil created during his administration, I hoped 
the president would submit to Congress a budget that prioritizes 
America and finally puts this country on a path to recovery. 
Unfortunately, this was not the case.
    The President's fiscal year 2009 budget proposal once again rejects 
the will of the American people, cuts funding for critical domestic 
programs, and even goes as far as to attempt to balance the budget on 
the backs of our nation's veterans. Simply said, I find the President's 
plan unacceptable. I urge the Committee to reject many of its proposals 
and instead work in a bipartisan manner to develop a fiscally 
responsible budget.
    As you prepare the fiscal year 2009 budget resolution, I urge you 
to pay tribute to the sacrifices made by our nation's veterans by once 
again fully funding their medical care and coverage. Last year, 
Congress answered this call by providing a record $13 billion of 
funding for the VA--meeting, for the first time, the recommendation put 
forth by the Independent Budget. I hope that we can continue this 
tradition and again pass a budget resolution that contains a 
substantial increase in veterans funding.
    Unfortunately, the President disagrees and would rather shortchange 
the nation's veterans. When adjusted for inflation, his 2009 budget 
requests only a 0.6% increase over FY08 levels. This is regarded as 
beyond inadequate by every major veteran's organization--especially 
considering that over 100,000 new veterans will seek treatment from the 
VA in fiscal year 2009.
    Furthermore, the President's budget calls on fee and co-payment 
increases of $5.2 billion on veterans' medical care. If enacted, these 
increases would almost double the cost of prescriptions and impose an 
enrollment fee of up to $750 per year. It is predicted that the fee 
increases would cause almost 200,000 veterans to leave the VA health 
care system. Most disappointing is that the President's plan would not 
even reinvest these additional funds in veterans' health care.
    Mr. Chairman, on behalf of the over 60,000 veterans residing in my 
district--many of whom already struggle to access their benefits--I 
again ask that you set aside the President's misguided recommendations 
and pass a budget that prioritizes the needs of veterans and ensures 
they have access to every benefit they deserve. When it comes time for 
Congress to make federal funding decisions, there is absolutely no 
group that should stand ahead of our nation's veterans.
    The Bush budget also reneges on America's promise to care for its 
senior citizens and cuts Medicare by $556 billion over ten years. This 
proposal is far too severe. It could limit seniors' access to their 
doctors and make it harder for our hospitals to provide patients with 
quality care. With 124,000 Medicare beneficiaries in my district, I 
take any changes to the program seriously and believe it's the wrong 
path for us to take as the baby boomers begin to retire. Most of the 
cuts are to hospitals and other medical providers, but remarkably $26 
billion comes from increased premiums to beneficiaries.
    Hospitals in my district estimate a total five-year impact of over 
$125 million. Let me just cite a few to give you an idea of what this 
means: a $14 million cut to Alle-Kiski Medical Center in Natrona 
Heights; a $15 million cut to Jameson Hospital in New Castle; and a $29 
million cut to Heritage Valley's Medical Center in Beaver, 
Pennsylvania. These are not small, insignificant amounts to local 
community hospitals.
    We can do a better job to reform Medicare and ensure its solvency 
than by simply slashing reimbursement to hospitals and other providers 
and increasing premiums on seniors.
    The President's budget also calls for a $570 million cut to LIHEAP, 
which would reduce LIHEAP funding to the 2001 level. In Pennsylvania, 
LIHEAP provides 285,000 low-income households with the money necessary 
to pay their heating bills in the winter. This money goes primarily to 
households with young children, senior citizens, or disabled 
individuals. At a time when home heating costs are increasing 
dramatically--by 80% since 2001--I find it unconscionable that the 
President has proposed these cuts.
    In addition, President Bush's budget nearly eliminates the 
Manufacturing Extension Partnership (MEP). MEP funding is critical to 
making small and medium size manufacturers more productive and 
competitive. MEP funds are used to connect these manufacturers with 
cutting edge technology, train workers, streamline processes, and 
assist with production innovation. In 2006 alone, MEP helped 
manufactures save $1.3 billion and create or retain 53,219 jobs.
    Last year in my district, the MEP assisted 54 companies that 
account for 5,400 jobs. CMC/Cygnus Manufacturing Company (CMC/Cygnus) 
from my district is one of the examples of how the MEP benefits small 
and medium size manufacturers. The MEP assisted CMC/Cygnus with the re-
design of its assembly areas, which significantly improved its lead 
times and delivery to its customers. It is apparent that any cut to 
this program will significantly weaken the manufacturing industry in my 
district and districts like mine throughout the country.
    Again, I appreciate the opportunity to address the committee today 
and outline my priorities for the fiscal year 2009 budget. Thank you, 
Mr. Chairman and members of the committee. I yield back the balance of 
my time.

    Ms. Hooley. Thank you so much for taking your time to 
testify about these very important issues.
    I just have a couple of questions. When you are talking 
about veterans and talking about 100,000 new veterans into the 
system and the increase in the budget, in the President's 
budget, what would it take, do you think, or do you have an 
estimate just to keep up with medical inflation?
    I mean, we have inflation, we have medical inflation, and 
we have new people coming into the system. We do not have that 
many people, I do not believe, leaving the system.
    Do you have any idea what just medical inflation would be?
    Mr. Altmire. I thank the Chair for the question.
    The President's budget has a .6 percent increase. There is 
nobody who thinks that medical inflation is going to be .6 
percent this year. It is going to be more along the lines of 
ten percent. Medical inflation is often two and three times 
above the rate of inflation for consumer goods.
    With veterans, they have unique health needs. They often 
need greater degrees of healthcare than other members of the 
population that are their age. So it affects them even more 
than the general population.
    So to think that a .6 increase in the President's budget is 
going to result in better care for veterans is simply not the 
case.
    Ms. Hooley. Do you think it also takes into account the 
amount of help that a lot of our veterans coming back from Iraq 
and Afghanistan where they need mental health, do you think 
this begins to cover that?
    Mr. Altmire. Mental health is a huge portion of the issue. 
Certainly posttraumatic stress disorder, issues like traumatic 
brain injury, even mild cases have enormous costs associated 
with treating them.
    And, of course, unfortunately, we have had 25,000 to 30,000 
veterans that have been injured in the wars in Afghanistan and 
Iraq. Very often these are young people, 19, 20 years old that 
are going to need healthcare for the rest of their lives. They 
are very seriously injured and the cost of care is just 
incalculable over their lifetime.
    So we need to keep up with that. And this Congress did 
great work last year with a $13 billion increase in VA 
healthcare funding and I am asking the Committee to consider 
that level of funding increase again this year.
    Ms. Hooley. Thank you. Thank you very much for your 
testimony. Appreciate you taking the time and bringing up these 
very important issues. Thank you.
    Next we have testifying Representative Bruce Braley from 
Iowa. Welcome.

 STATEMENT OF HON. BRUCE BRALEY, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. Braley. Thank you, Madam Chairwoman.
    I want to thank Chairman Spratt and Ranking Member Ryan for 
inviting me here to testify before the Committee today.
    And I want to thank you, Madam Chairwoman, for holding this 
and presiding over this important hearing. And I want to start 
my remarks by representing to you that this is probably going 
to be the same song, second verse.
    Ms. Hooley. Okay.
    Mr. Braley. I appreciate the opportunity to share my 
concerns about the impact of the President's fiscal year 2009 
budget and the impact that it will have specifically on our 
nation's veterans and to also express my strong views that we 
in Congress must do everything we can to ensure that we are 
sufficiently funding the Veterans Administration and properly 
caring for our troops, our veterans, and their families both 
now and in the future.
    It was just about a year ago today, Madam Chairwoman, that 
I, like most Americans, was shocked and outraged to learn about 
the horrific living conditions, neglect, and bureaucratic 
hurdles that our veterans were experiencing at Building 18 at 
Walter Reed Medical Center.
    It was about a year ago that we learned that these problems 
were not just confined to Walter Reed but were widespread and 
systemic throughout the military and veterans' healthcare 
systems.
    And it was just a year ago that President Bush went to 
Walter Reed, apologized to wounded soldiers, and promised to 
``fix the problem.''
    The scandal at Walter Reed served as a wake-up call that we 
as a country need to be doing much more to provide for our 
veterans who have sacrificed so much for us.
    Republicans and Democrats alike agreed that we needed to 
make significant and new investments in the VA. There was 
consensus that we needed to comprehensively change and improve 
veterans' healthcare and benefit system so that veterans would 
never again have to face the mistreatment that so many 
experienced at Walter Reed and other VA facilities throughout 
the country.
    I thought that everyone, including President Bush, also 
understood that ``fixing the problem'' would require long-term 
investments and efforts, especially with the large number of 
veterans returning from Iraq and Afghanistan with severe mental 
and physical injuries as my colleague, Mr. Altmire, just 
referred to.
    That is why I was so surprised and disappointed when I 
learned that the President's fiscal year 2009 budget would 
inexplicably cut VA funding by billions of dollars in coming 
years.
    His budget would reduce funding for medical and prosthetic 
research critical to the large number of veterans returning 
home with amputated limbs and mental injuries like 
posttraumatic stress disorder and traumatic brain injury by 
millions of dollars.
    And as I have mentioned on multiple occasions, Madam 
Chairwoman, we are talking about the hidden injuries of this 
war. People who can walk on the street and people in the public 
do not perceive that they have had critical and life-
threatening injuries simply because of the nature of 
posttraumatic stress disorder and traumatic brain injuries.
    The President's budget would cut overall veterans' funding 
by an astounding $20 billion between 2009 and 2013 and would 
also increase healthcare fees and pharmacy co-pays for 
veterans.
    And, Madam Chairwoman, when we have had repeated oversight 
and reform hearings on the problems at Walter Reed and the 
problems with our DoD and VA healthcare delivery systems, I 
have frequently referred to the hidden costs of this war which 
my friend, Mr. Altmire, just referred to.
    If you take a young man, because most of these people are 
young men, 19 years of age, and you go to the life expectancy 
tables for a 19-year-old, you will find out that they are 
projected to live 55 years beyond their current age.
    And when you amortize the cost of treating amputations, 
posttraumatic stress disorder, and traumatic brain injuries 
over that life expectancy, we are talking about millions of 
dollars per patient.
    And at a time when our healthcare system is in crisis and 
we are looking at ways of providing funding to people outside 
the military and VA system, we know that the more we invest in 
giving them the best chance at success and getting back to 
normal function, the less we as a society will pay long term in 
caring for them in outside healthcare delivery systems.
    And that is why this budget cut is so significant, because 
it is a complete disservice to our veterans, our soldiers who 
are returning from Iraq and Afghanistan, and it will end up in 
a long-term burden to the taxpayers of this country.
    These proposed deep cuts to veterans' services and 
healthcare and increases in healthcare fees are irresponsible 
and unacceptable.
    The cuts to prosthetic and mental health research threaten 
to deny our veterans the high quality of care they deserve not 
only when they first return home but throughout their lifetime.
    And I have talked repeatedly about a constituent of mine, 
Dennis Clark, who runs a prosthetic company in Waterloo, Iowa 
and during the first part of the Iraq war came out to Walter 
Reed on his own dime every week to provide volunteer prosthetic 
services.
    Those are the types of sacrifices that people are making 
and we as a country need to share in that sacrifice.
    I see that my time is up and so I will be happy to answer 
any questions.
    [The prepared statement of Bruce Braley follows:]

    Prepared Statement of Hon. Bruce L. Braley, a Representative in 
                    Congress From the State of Iowa

    Thank you, Chairman Spratt and Ranking Member Ryan, for inviting me 
here to testify before your Committee today. I appreciate the 
opportunity to share my concerns about the impact the President's 
proposed Fiscal Year 2009 Budget will have on our nation's veterans, 
and to express my strong views that we in Congress must do everything 
that we can to ensure that we are sufficiently funding the Veterans 
Administration and properly caring for our troops, our veterans, and 
their families, both now and in the future.
    It was just a year ago that I, like most Americans, was shocked and 
outraged to learn about the horrific living conditions, neglect, and 
bureaucratic hurdles that our veterans were experiencing at Walter Reed 
Army Medical Center. It was just a year ago that we learned that these 
problems were not confined to Walter Reed, but were widespread and 
systemic throughout the military and veterans healthcare systems. And 
it was just a year ago that President Bush went to Walter Reed, 
apologized to wounded soldiers, and promised to ``fix the problem.''
    The scandal at Walter Reed served as a wake-up call that we as a 
country need to be doing much more to provide for our veterans who have 
sacrificed so much for us. Republicans and Democrats alike agreed that 
we needed to make significant and new investments in the VA. There was 
consensus that we needed to comprehensively change and improve the 
veterans healthcare and benefits system, so that veterans would never 
again have to face the mistreatment that so many experienced at Walter 
Reed and other VA facilities throughout the country. I thought that 
everyone--including President Bush--also understood that ``fixing the 
problem'' would require long-term investments and efforts, especially 
with the large number of veterans returning from the wars in Iraq and 
Afghanistan with severe mental and physical injuries.
    That's why I was so surprised and disappointed when I learned that 
the President's proposed Fiscal Year 2009 Budget would inexplicably cut 
VA funding by billions of dollars in coming years. His budget would 
reduce funding for medical and prosthetic research, critical to the 
large number of veterans returning home with amputated limbs and mental 
injuries like Post-Traumatic Stress Disorder and Traumatic Brain 
Injury, by millions of dollars. His budget would cut overall veterans 
funding by an astounding $20 billion between 2009 and 2013, and would 
also increase healthcare fees and pharmacy co-pays for veterans.
    These proposed deep cuts to veterans' services and healthcare, and 
increases in veterans' healthcare fees, are irresponsible and 
unacceptable. The cuts to prosthetic and mental health research 
threaten to deny our veterans the high quality of care they deserve not 
only when they first return home, but throughout their lifetime. In 
short, the President's proposed budget for veterans is a betrayal of 
American troops and veterans, and runs counter to the efforts and 
progress that Congress, the Defense Department, and the VA have made in 
the last year.
    I am proud that Congress took the shame of Walter Reed and turned 
it into necessary and long-overdue action for our veterans through the 
bipartisan passage of critical bills like the Joshua Omvig Veterans 
Suicide Prevention Act, and the Wounded Warrior Assistance Act. I was 
also proud to vote last year to give the VA the largest single funding 
increase in the 77-year history of the Department, an increase which 
will allow the VA to improve medical and mental health services and 
reduce delays in processing benefits.
    However, the Joshua Omvig bill and the Wounded Warrior provisions 
will be meaningless without adequate resources. Similarly, the historic 
amount of funding we provided for the VA for 2008 will not go very far 
unless it is matched by similar appropriations in coming years. As the 
wars in Iraq and Afghanistan continue, now is certainly not the time to 
cut veterans funding or backpedal on the progress we have made through 
these important new initiatives.
    Unfortunately, I believe the President's budget follows a long 
trend of the Administration underestimating the true cost of the war in 
Iraq, and is a reflection of their failure to appropriately plan for 
the long-term. It is disturbing that the Administration is likely 
underestimating the number of Iraq and Afghanistan veterans who will 
seek care in coming years, and consequently failing to request 
sufficient funding for medical care.
    It is this very underestimation and the failure to plan for the 
amount of soldiers returning home with physical and mental wounds that 
have directly led to the VA's recent budget shortfalls. It is this 
underestimation and lack of planning that has led to uncertainty about 
whether the VA is going to close the VA hospital in Knoxville, Iowa, 
where my brother works, causing the best employees there to leave and 
go to other facilities around the country. And it is this refusal to 
acknowledge the true long-term costs of the war and the true cost of 
taking care of our wounded soldiers which threatens to leave thousands 
of veterans without the long-term and high-quality care they deserve.
    I am hopeful and confident that we have learned from past mistakes, 
and that Congress will reject these unconscionable cuts and fee 
increases. A rejection of the President's proposal is essential to 
ensuring that we continue to improve care for our veterans and that we 
provide them and their families with the best care, benefits, and 
treatment possible, now and throughout their lifetime.
    Thank you again for allowing me to testify today. I look forward to 
working with you to ensure that we keep the promises we have made to 
our veterans, beginning with a Congressional budget that appropriately 
reflects the value of their service and the incredible sacrifices they 
have made for our country.

    Ms. Hooley. Do you think we fixed the problem at Walter 
Reed?
    Mr. Braley. No. One of the biggest crises at Walter Reed 
was not the living conditions at Building 18. When we held the 
first hearing immediately in the aftermath of the Building 18 
disclosure, what we learned is that the bigger problem was the 
complete dysfunction of the VA and DoD disability systems.
    And people who were being warehoused at Walter Reed while 
waiting for a determination of whether they were going to be 
cleared under DoD guidelines to return to active duty and, if 
not, whether they would then be kicked into the VA healthcare 
system.
    And one of the great problems that we have had is that if 
you have the same injury and are seeking disability benefits 
under the VA compensation system, you may get a 70 percent 
impairment rating while under the DoD disability system with 
the exact same injuries, you may get a 40 percent impairment 
rating, resulting in substantially different compensation to 
the same wounded warrior.
    And this has led to an incredible backlog in our disability 
claims processing. And one of the purposes of those hearings 
and the report and the legislation that we have passed is to 
try to reduce the backlog.
    But all the evidence we are hearing from people who are 
involved in processing those claims and from advocates on 
behalf of those injured veterans is that none of this has made 
a significant impact in addressing the backlog.
    We need more ombudspeople who are advocating outside. We 
need more advocates who are advocating solely for the disabled 
veterans and wounded warriors. And until those problems get 
addressed, we will do nothing to seriously impact this backlog 
of disability claims.
    Ms. Hooley. How do you think the transition has been 
between the DoD and the Veterans Department? Is that a smooth 
transition? I mean, when somebody comes back from war and all 
of a sudden now they are leaving the service and they are a 
veteran or they are not on active duty, what kind of transition 
are they facing?
    Mr. Braley. It has been a huge obstacle to the orderly 
transition of a returning wounded warrior into a VA healthcare 
system because it is like the problems that were identified in 
the 9/11 Commission report, a problem called intraoperability, 
which is the inability of conflicting and sometimes competing 
agencies to share information with each other.
    Sometimes they do not use the same type of software to 
manage patient records. Sometimes they do not use the same type 
of information to communicate back and forth and make sure that 
those claims are being transferred in a timely manner.
    And I think in the report that Togo West's group, General 
Togo West's group prepared, that was one of the critical 
factors they identified.
    There is a lot of work needs to be done and without the 
funding to make it happen, none of the concerns that were 
raised will ever be sufficiently resolved.
    Ms. Hooley. Thank you so much for appearing today and your 
testimony. And this Committee, I know, will take up that issue 
and look at that very closely about what is fair and 
appropriate for our veterans. They really have given their all 
and we need to make sure that we keep our promises to them. So 
thank you very much.
    At this time, we are in recess. And I believe there is a 
vote going on.
    [Recess.]
    Mr. Etheridge [presiding]. The next member to testify is 
our good friend, Mr. Ehlers. Welcome. We are pleased to receive 
your testimony. You are recognized for five minutes.

 STATEMENT OF HON. VERNON EHLERS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Ehlers. Thank you, Mr. Chairman. I appreciate that. And 
I have a complete prepared statement which I will submit for 
the record. But in the interest of time----
    Mr. Etheridge. Without objection.
    Mr. Ehlers [continuing]. I will certainly reduce it. It 
does take a bit of time because it is a very complex situation. 
And I happen to know how strongly you feel about education from 
your years of work in your home state, but also your interest 
in math and science education. And that is an important part of 
this, but so is math and science research.
    And what complicates the situation was the Omnibus 
Appropriations Bill we passed last year. I personally think 
Omnibus Appropriations Bills are an abomination. I voted 
against them because I have seen what they have done in the 
past. And precisely the same thing happened this year.
    They totally devastated the scientific research budget as 
well as the math and science education budget simply because, 
frankly, there is not a great number of people supporting these 
items, and it was very easy for the appropriators to just take 
that money and move it into other things.
    So we have a situation this year where the President has 
tried to request a reasonable amount. But at the very least, I 
think we should make up what we lost in the Omnibus Bill which 
amounts to roughly $800 million in Function 250.
    And if you also compare that to the ``America Competes 
Act,'' which the Congress passed last year, which I think is a 
marvelous step forward in helping us compete with other 
countries, and to get back on track, we actually need an 
increase of approximately a billion dollars.
    In addition to that, in Function 370, we need some make-up 
as well.
    So my plea really in very simple form is to take the 
President's request with a grain of salt and say, look, we have 
to do that plus we have to make up for what was taken out of 
those accounts last year.
    I recall several years ago when the appropriators did the 
same thing on the previous omnibus bill and we lost a 
considerable amount of money in math and science. And that 
money is gone forever because the following year, it was 
removed from the base and we never made it up.
    I think this is a case where should set an example and make 
up the difference of what we took away last year plus put them 
back on the doubling track which we have in ``America Competes 
Act.'' It is a very modest doubling track compared to what we 
did with NIH a few years ago.
    And clearly the National Science Foundation, National 
Institute of Standards and Technology, and the Department of 
Energy all deserve to be made whole once again.
    We are in a situation where we literally have broken 
international agreements by failing to fund some of the 
elements of the Department of Energy Office of Science where, 
for example, the EDER Project, which is going to be housed in 
France, but we are working on it with a combination of nations. 
We have basically taken out our commitment to that and we are 
altering foreign policy through appropriations. I do not think 
that was ever intended and we certainly have to correct that.
    So rather than take a lot of your time, Mr. Chairman, 
because I know you personally are in agreement with this, our 
plea is to make up what was taken away last year by the Omnibus 
as well as provide the normal increase this year that the 
President has requested.
    I would be happy to answer any questions you have.
    [The prepared statement of Vernon J. Ehlers follows:]

   Prepared Statement of Hon. Vernon J. Ehlers, a Representative in 
                  Congress From the State of Michigan

    Thank you, Mr. Chairman, for the opportunity to testify as the 
Committee considers a fiscal year 2009 Budget Resolution.
    As you begin the budget process, I strongly urge you to give high 
priority to scientific research and development and math and science 
education in the General Space, Science and Technology function (250) 
of the budget. I will focus my comments on two areas covered under this 
function: the National Science Foundation and the Department of 
Energy's science programs. I will also address the science and 
technology portion of the Commerce account within function (370).

                               BACKGROUND

    On a bipartisan basis, Congress has recognized that innovation is 
critical to our national competitiveness and that scientific research 
and development is the key to increased innovation, economic vitality 
and national security. I am very appreciative that this committee has 
been historically supportive of this goal.
    Over the last two decades, U.S. investment in research in the 
physical sciences, mathematics, and engineering has been stagnant when 
adjusted for inflation. As a percentage of GDP, the U.S. Federal 
Government has halved its investment in physical science and 
engineering research since 1970 and OECD recently ranked our nation 
22nd in the fraction of GDP devoted to non-defense research.\1\ 
Conversely, the Chinese government has more than doubled its GDP 
percentage expenditure in R&D since 1995.\2\
---------------------------------------------------------------------------
    \1\ Augustine, Norman R. 2007. Is America Falling off the Flat 
Earth? Washington, D.C., NAP
    \2\ http://www.nsf.gov/statistics/nsf07319/pdf/nsf07319.pdf
---------------------------------------------------------------------------
    Many scientific and economic experts have recently highlighted the 
status of U.S. innovation and competitiveness in a number of high-
profile reports. In response, last year the Congress passed the 
American COMPETES Act, which focused federal support for research and 
education. Concurrently, the House and Senate strongly endorsed 
fundamental research and education in the fiscal year 2008 
appropriations bills, but unfortunately, final funding levels passed in 
the FY08 omnibus bill fell far short of the levels passed by the House. 
Consequently, the COMPETES Act agencies--including the National Science 
Foundation (NSF), the National Institutes of Standards and Technology 
(NIST) and the Department of Energy's Office of Science--are currently 
foundering with unanticipated shortfalls. I will not list all of the 
impacts, but more than 500 scientists at the Department of Energy must 
be laid off, and many projects at NIST and NSF will be postponed 
indefinitely.
    This attitude toward innovation is simply unacceptable. Apathy 
toward federal investment in science and engineering research will 
disrupt our nation's economic stability, resulting in a downward slide 
toward the bottom that may not be reversible. Given the increasing 
competition from the rest of the world, coupled with the flatness of 
today's global trade, complacency is a perilous path for the U.S. to 
take. Despite the challenge of constrained budgets, basic science 
research funding must not lose out to other priorities, as has happened 
so often in recent years.
    To elucidate the importance of science and technology funding, I 
would like to share several concerning data points on how our nation is 
doing, and articulate how the NSF, DOE Office of Science, and NIST are 
addressing these issues.

                DEPARTMENT OF ENERGY'S OFFICE OF SCIENCE

    America can meet its energy needs only if we make a strong and 
sustained investment in research in physical science, engineering, and 
applicable areas of life science, and if we translate advancing 
scientific knowledge into practice * * * The current mix of energy 
sources is not sustainable in the long run.\3\
---------------------------------------------------------------------------
    \3\ Secretary of Energy's Advisory Board, Task Force on the Future 
of Science Programs at the Department of Energy. Critical Choices: 
Science, Energy and Security. Final Report. Washington, DC: US 
Department of Energy, October 13, 2003. P. 5
---------------------------------------------------------------------------
    Our country faces a number of challenges related to energy supply, 
development, and sustainability. The Department of Energy's Office of 
Science funds 40 percent of all federal basic research investments in 
the physical sciences as well as 14 percent of investments in 
mathematics and computing, environmental sciences, and engineering. 
Research in these areas has led to many new economic and medical 
advancements including, among others, new energy sources, the Internet, 
cell phones and laser surgery. To overcome our substantial energy 
challenges, the Federal Government must continue to support research in 
alternative energy sources, nanotechnology and supercomputing.
    Last year's omnibus was particularly harmful to the Office of 
Science, providing $500 million below the request when accounting for 
earmarks, and has led to layoffs and the delay of many important 
instruments. The Office of Science is not only important to the future 
of U.S. science, but also our competitiveness and energy security. I 
respectfully request that the Committee provide the Office of Science 
with a budget that reflects the critical role that it plays in 
maintaining our economic and military pre-eminence.

                      NATIONAL SCIENCE FOUNDATION

    In academic year 2003-2004, almost 60 percent of U.S. public 
secondary schools reported vacancies in mathematics teaching positions, 
and nearly one third of these found it ``very difficult to'' or ``could 
not'' fill those vacancies. At the same time, almost 60 percent of 
middle school students are taught math by teachers who do not possess a 
degree or certificate in the field.\4\
---------------------------------------------------------------------------
    \4\ Augustine, Norman R. 2007. Is America Falling off the Flat 
Earth? Washington, D.C., National Academies Press
---------------------------------------------------------------------------
    The National Science Foundation is the only federal agency 
dedicated solely to supporting basic scientific research and education. 
NSF funding accounts for one-fifth of all federal support for basic 
research and 40 percent of physical science research at academic 
institutions. Nearly 90 percent of these awards are made through a 
competitive, merit-review process that ensures that excellent and 
innovative research is being supported. Furthermore, NSF consistently 
receives the highest rating from OMB for the efficiency and excellence 
of its programs.
    Though NSF plays a smaller educational role than other agencies, it 
serves a unique purpose by conducting educational research that 
directly benefits science and math classroom instruction. Thanks to 
coordination between the NSF and Department of Education, many NSF 
educational research discoveries have been utilized and disseminated to 
state and local stakeholders by the Department of Education. The 
COMPETES Act recognized the important role NSF educational programs 
play in developing strong science and math teachers in the K-12 system 
by authorizing expanding teacher professional development programs and 
scholarships for students interested in obtaining degrees in science 
and math as well as teaching certification.
    The NSF's FY 2009 budget request of $6.85 billion is a 13 percent 
increase over FY 2008 appropriations, which provided a less-than-
inflationary increase for the Foundation. The NSF budget has been 
stagnant in recent years, though the COMPETES Act set the agency on a 
7-year doubling path. This COMPETES infusion of research funds is 
extremely necessary for FY 2009 and I ask you to enhance the science 
allocation accordingly.

             NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    U.S. manufacturing has become more technology-intensive, with the 
high-technology share of manufacturing industries increasing from 14 
percent in 1990 to 24 percent in 2005 amidst rising overall 
manufacturing revenues. China's share of high-technology manufacturing 
has more than quadrupled during the past decade.\5\
---------------------------------------------------------------------------
    \5\ Science and Engineering Indicators 2008 Figures 6-12 and 6-13
---------------------------------------------------------------------------
    The National Institute of Standards and Technology (NIST) is the 
nation's oldest federal laboratory, and the only laboratory with the 
explicitly-stated mission to promote U.S. innovation and industrial 
competitiveness. NIST provides high-quality, cutting-edge research in a 
number of scientific and technical fields, and it plays a critical role 
in keeping our nation competitive.
    The President's FY2009 budget requests $638 million for NIST. This 
includes $535 million for NIST scientific and technical research and 
services activities, which is $95.4 million (21.7 percent) more than in 
FY2008. This total also includes $99 million for much-needed 
infrastructure construction and maintenance, which is $19.8 million (25 
percent) more than in FY2008. The request parallels a doubling path for 
NIST research established by the Administration in 2007.
    Although I strongly support the Administration's commitment to keep 
NIST's funding on this doubling path, I am troubled that the 
President's budget drastically cuts funding to a number of popular and 
effective programs at NIST, such as the Manufacturing Extension 
Partnership (MEP), and the Technology Innovation Program (TIP). Both of 
these programs were included in the COMPETES Act.
    The MEP program helps small and medium-sized manufacturers stay 
competitive by helping them become more innovative, and the TIP is 
NIST's only external research grant program, funding high-risk, high-
return technology research and development. Both of these programs run 
on an efficient cost-shared basis with industry. Without a doubt, these 
two programs provide invaluable assistance to the sectors of our 
economy that are currently fighting to stay competitive in the global 
economy. Both the MEP and TIP have historically had strong, bipartisan 
Congressional support--and I respectfully ask that this support be 
reflected in the Budget Committee's recommendations.

                               CONCLUSION

    Thank you in advance for your efforts to undertake this important 
job. While the budget does not spell out exact funding for these 
programs, I believe that you can send a strong signal about the 
importance of fundamental science and education to the Appropriations 
Committee by making function 250 and the science and technology portion 
of function 370 top priorities in the FY 2009 budget.
    Thank you again for allowing me to testify.

    Mr. Etheridge. I would say no one has any questions, my 
good friend, other than to say thank you for your commitment to 
this because there is no question that for America to compete 
in this global economy, it is critical that we have additional 
resources in math and science.
    Mr. Ehlers. Yeah. And I can give all the standard 
arguments. Just yesterday, someone was telling me once again 
that China is now producing more English speaking engineers 
than the United States is. And that is true. And that is just 
one little item, but there is just a host of different issues.
    And, frankly, we are losing out in international 
competition because we are not taking account of these things. 
We are not pushing either our math and science education or our 
math and science research efforts and we have to do that if we 
are going to keep up this international competition.
    We have always assumed we are ahead and we have been. Now 
we are falling behind and we have to catch back up. Thank you 
very much.
    Mr. Etheridge. Thank you, sir.
    Our next member to testify is Ms. Carol Shea-Porter. 
Welcome. We are pleased to receive your testimony. You are 
recognized for five minutes. And without objection, your full 
statement will be entered into the record.

   STATEMENT OF HON. CAROL SHEA-PORTER, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF NEW HAMPSHIRE

    Ms. Shea-Porter. Thank you very much. I appreciate this 
opportunity to speak about some of the essential needs in my 
own state and to speak a bit about the President's budget and 
where I believe we have gone wrong.
    The President's proposed budget for fiscal year 2009 
reflects a very real difference between the Administration's 
priorities and the priorities of this Congress and the American 
people.
    Over the past seven years, we have seen record budget 
deficits, problems and cuts in programs, to programs like the 
National Institutes of Health and the Centers for Disease 
Control, a reckless plan to privatize Social Security, and a 
War in Iraq that has caused this country billions of dollars in 
money, and eventually could cost more than a trillion dollars, 
all of this without proper accountability.
    Now the Administration has once again put forth a budget 
proposal that does not adequately reflect the needs of the 
country. There are so many problems with the President's 
budget, so many important programs that are under-funded, and 
so many misplaced priorities.
    While I take issue with many of the President's cuts, there 
is one that I feel is particularly troubling. Mr. Chairman, the 
LIHEAP Program is one of the most crucial support structures 
for millions of people throughout this country. Eery winter, 
tens of thousands of New Hampshire residents, over 40,000 each 
of the past two years, applied to our Fuel Assistance Program 
for help with their heating bills.
    I do not need to tell you how cold it is in New Hampshire 
and for low-income families how critical these programs are.
    The committed people who work in these programs are working 
day and night to help these families, but they need help. Even 
as the price of the oil has skyrocketed, the LIHEAP Program 
continues to be chronically under-funded, putting a greater 
burden on American families.
    According to the MG Information Administration, the average 
cost to heat a home with heating oil this winter is expected to 
climb to over $2,000 per family, more than three times the $627 
that it cost six years ago.
    Meanwhile, the benefit that LIHEAP provides has not only 
failed to keep pace with this dramatic increase in costs, it 
has actually dropped.
    In the 2006, the New Hampshire Fuel Assistance Program was 
able to provide an average benefit of $638 per applicant. In 
2007, it dropped to $533. In 2008, the average benefit might be 
slightly higher than last year, thanks to Congress' work to 
increase funding for this program, but it will in no way make 
up the difference in the increase in oil prices.
    For fiscal year 2009, the President has proposed a funding 
level of $2 billion to LIHEAP, $1.7 billion for the grants to 
states and $300 million for the emergency contingency funding. 
This represents a $570 million reduction in funding from what 
Congress provided in 2006.
    This irresponsible cut in funding will mean that New 
Hampshire would stand to lose over $2.5 million in funding.
    Mr. Chairman, we cannot allow this to happen. As you begin 
work on the fiscal year 2009 budget resolution, I urge you to 
include a robust funding level for LIHEAP Program. Too many 
people in my state and across the country rely on LIHEAP to 
keep their heat on.
    In this great nation, no family should have to choose 
between keeping warm or buying groceries. It is just wrong and 
Congress has its chance to correct this.
    Again, there are many other areas in the President's budget 
that concern me. But as a member of the Armed Services 
Committee, there is one that I find particularly troubling.
    In the President's fiscal year 2009 budget proposal, the 
Administration estimates savings of over $1 billion next year 
in the TRICARE Program. I have raised questions with Secretary 
Gates on how exactly the Defense Department is projecting 
savings in their healthcare programs when the cost of providing 
this care continues to rise.
    I have also questioned their assertions that family members 
and servicemembers will opt out of TRICARE and move towards 
employer-based coverage when the reality is that fewer 
employers even offer health insurance.
    I am also deeply disturbed by the continuing increases in 
co-payments, enrollment fees, and deductibles that the 
Administration is recommending be imposed on our military 
families. There are many areas in which the government should 
be trying to reduce costs, but military healthcare is not a 
place to cut.
    In my capacity as a member of the Armed Services Committee, 
I will continue to investigate the Defense Department's 
projected savings and I will fight to ensure that our military 
families are not saddled with higher costs for their 
healthcare.
    I believe the President and the Administration is playing a 
shell game with military healthcare costs, shifting costs to 
our military personnel and projecting savings that cannot 
materialize.
    I urge the Committee to also pay close attention to the 
Administration's projections in this area and to take whatever 
steps are necessary to address these inequities.
    Again, thank you very much for the opportunity to appear 
here. I look forward to working with all of you to pass a 
strong budget resolution that reflects the priorities of our 
Congress and the American people. Thank you.
    [The prepared statement of Carol Shea-Porter follows:]

   Prepared Statement of Hon. Carol Shea-Porter, a Representative in 
                Congress From the State of New Hampshire

    Chairman Spratt, Ranking Member Ryan and Members of the Budget 
Committee, thank you for holding this extremely important hearing today 
and for the opportunity to raise my concerns with the President's 
proposed Fiscal Year 2009 Budget before you on behalf of the First 
Congressional District of New Hampshire.
    The President's proposed budget for Fiscal Year 2009 reflects the 
very real differences between the Administration's priorities and the 
priorities of this Congress and the American people. Over the past 
seven years, we have seen record budget deficits, cuts to programs like 
the National Institutes of Health and the Centers for Disease Control, 
a reckless plan to privatize Social Security, and a war in Iraq that 
has cost the country hundreds of billions and perhaps will cost 
trillions of dollars eventually--much of it without proper 
accountability. Now, the Administration has once again put forth a 
budget proposal that does not adequately reflect the needs of the 
country.
    There are so many problems with the President's budget, so many 
important programs under-funded, and so many misplaced priorities. 
While I take issue with many of the President's cuts, there is one that 
I find especially troubling.
    Mr. Chairman, the LIHEAP program is one of the most crucial support 
structures for millions of families throughout the country. Every 
winter, tens of thousands of New Hampshire residents--over 40,000 each 
of the past two years--apply to our Fuel Assistance Program for help 
with their heating bills. The committed people who run this program 
work long hours to deliver assistance to those who need it most. Even 
as the price of oil has skyrocketed, the LIHEAP program continues to be 
chronically under-funded--placing a greater burden on American 
families.
    According to the Energy Information Administration, the average 
cost to heat a home with heating oil this winter is expected to climb 
to over $2,000 per family--more than three times the $627 that it cost 
six years ago. Meanwhile, the benefit that LIHEAP provides has not only 
failed to keep pace with this dramatic increase in cost, it has 
actually dropped.
    In 2006, the New Hampshire Fuel Assistance Program was able to 
provide an average benefit of $638 per applicant. In 2007, the average 
benefit fell to $533. In 2008, the average benefit may be slightly 
higher than last year, thanks to Congress' work to increase funding for 
the program, but it will in no way make up for the increase in oil 
prices.
    For Fiscal Year 2009, the President has proposed a funding level of 
$2 billion for LIHEAP--$1.7 billion for the grants to states and $300 
million for the emergency contingency funding. This represents a $570 
million reduction in funding from what Congress provided for 2008.
    This irresponsible cut in funding will mean that New Hampshire 
would stand to lose over $2.5 million in funding.
    Mr. Chairman, we cannot allow this to happen. As you begin work on 
the Fiscal Year 2009 Budget Resolution, I urge you to include a robust 
funding level for the LIHEAP program. Too many people in my state and 
across this country rely on LIHEAP to keep their heat on. In our great 
nation, no family should have to choose between keeping warm and buying 
groceries.
    Again, there are many areas in the President's proposed budget that 
require this Committee's attention. I would like to take a moment to 
point to one other area that, as a Member of the Armed Services 
Committee, I also find particularly troubling.
    In the President's Fiscal Year 2009 Budget Proposal, the 
Administration estimates savings of over $1 billion next year in the 
TRICARE program. I have raised questions with Secretary Gates on how 
exactly the Defense Department is projecting savings in their health 
care programs, when the cost of providing this care continues to rise. 
I have also questioned their assertions that service members will opt 
out of TRICARE, and move more towards employer-provided and other forms 
of health care coverage, when the reality is that ever fewer employers 
even offer health insurance.
    I am also deeply disturbed by the continuing increases in co-
payments, enrollment fees, and deductibles that the Administration is 
recommending be imposed on our military families. There are many areas 
in which the government should be trying to reduce costs--but military 
health care is not one of them.
    In my capacity as a Member of the Armed Services Committee, I will 
continue to investigate the Defense Department's projected savings, and 
I will fight to ensure that our military families are not saddled with 
higher costs for their health care. I believe that the Administration 
is playing a shell-game with military health care costs--shifting costs 
to our military personnel and projecting savings that will not 
materialize. I urge the Committee to also pay close attention to the 
Administration's projections in this area and to take whatever steps 
necessary to address these inequities.
    Again, thank you, Chairman Spratt and Ranking Member Ryan, for the 
opportunity to share just a few of my concerns with the 
Administration's proposed budget. I look forward to working with you to 
pass a strong budget resolution that reflects the priorities of this 
Congress and the American people.
    Thank you.

    Mr. Etheridge. Thank the gentle lady for her testimony and 
the full statement will be entered into the record.
    Ms. Shea-Porter. Thank you very much.
    Mr. Etheridge. Thank you very much.
    The next member to testify is the gentleman from New 
Jersey, Mr. Holt. Welcome. We are pleased to receive your 
testimony. Without objection, your full statement will be 
entered into the record. You are recognized for five minutes.

 STATEMENT OF HON. RUSH D. HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Chairman. And I do have a longer 
statement for the record.
    I am here to talk about the importance of investment in 
science, science education, research and development, 
essentially Function 250, as well as related areas in 
education.
    Norm Augustine, one of the lead authors of the National 
Academy's report, Rising Above the Gathering Storm, said that, 
``While scientists and engineers represent only four percent of 
the U.S. workforce, their productivity creates jobs for 96 
percent of the population. We are going to see increasingly the 
need for stimulus packages if we do not invest in basic 
science. We are not rising above the gathering storm.''
    Now, there is no denying that America is losing ground in 
global competitiveness to countries that are making necessary 
investments in education and research and development.
    We should remind ourselves and never forget that we owe our 
current economic strength and our national security and our 
quality of life to investments of past generations. Investments 
that the Federal Government and the private sector, but in many 
cases even that with lead from the Federal Government have made 
in education, in research and development, and in innovation, 
and investment in these areas ensures that the American people 
will continue to benefit from the opportunities of a rapidly-
growing economy.
    These are not just words. This is an alarm. You are hearing 
about many important things today, housing, assistance in 
heating for homes of people with low means, transportation, 
environmental protection, and on and on. But you must take 
action in this area.
    What is the period of projections for this year's budget 
resolution? I suppose it will be based on a ten-year 
projection. If you want to be able to fund, if we as a nation 
or we as a Congress want to be able to fund the work in 
housing, in transportation, in environmental protection, in 
low-income heating assistance, and on and on, we had better 
heed to the investment that is long overdue in research and 
development.
    The Federal Reserve announced at the beginning of February 
that they reduced their forecast for growth for 2008 to an 
anemic 1.3 to two percent, that joblessness is likely to climb, 
.4 percent to over five percent.
    Science R&D is not just another interest group. If we are 
going to do right by our constituents, we must, we must 
increase dramatically our investment in R&D and, not 
incidentally, take steps in the Tax Code and in other ways to 
encourage R&D in the private sector.
    In August of last year, the House passed into law a 
comprehensive competitiveness package that was known as America 
Competes and it was motivated by disturbing findings of the 
Rising Above the Gathering Storm report that our nation is 
drastically under-investing in engineering and physical 
sciences.
    The bill authorized doubling the funding for the Department 
of Energy, the Office of Science in the Department, for the 
National Science Foundation. This is not asking too much. It 
would be a modest response to a large problem.
    As I said a few moments ago, we will pass stimulus package 
after stimulus package in the future if we do not make these 
investments now.
    Unfortunately, the fiscal year 2008 budget fell far short 
of this goal. NSF received a two and a half percent increase, 
far short of the eight to ten percent increase that was 
provided in the earlier versions of the appropriations bills. 
And DOE's Office of Science did not fare much better.
    Without taking a drastically different approach in this 
cycle, Congress will be delivering a devastating blow to future 
economic security and competitiveness.
    [The prepared statement of Rush Holt follows:]

Prepared Statement of Hon. Rush Holt, a Representative in Congress From 
                        the State of New Jersey

    Thank you Chairman Spratt, Ranking Member Ryan, and distinguished 
Members of the Committee on the Budget. I appreciate the opportunity to 
provide testimony on funding levels for science and science education 
in the FY 2009 Budget.
    Norman Augustine, one of the lead authors of the National 
Academies' report Rising above the Gathering Storm recently was quoted 
as saying ``While scientists and engineers represent only four percent 
of the U.S. workforce, their productivity creates jobs for 96 percent 
of the population. We are going to increasingly see the need for 
stimulus packages if we don't invest in basic science. We're not rising 
above the gathering storm.''
    There is no denying that America is losing ground in global 
competitiveness to countries that are making the necessary investments 
in education and R&D. We owe our current economic strength, our 
national security, and quality standard of living to the investments of 
past generations, however the Federal Government has not been living up 
to our responsibility to continue this investment and robustly fund 
education, research and development and innovation. Investment in these 
areas ensures that the American people will continue to benefit from 
the opportunities of the rapidly growing global economy and its 
inherent foundation in science and technology.
    These are not just words. This is an alarm. I am asking you for 
action. We are feeling the ripples of our lack of investment in a very 
real and painful way. The Federal Reserve announced at the beginning of 
February that they reduced forecast for growth for 2008 to an anemic 
pace of 1.3 to 2 percent and that joblessness is likely to climb 0.4 
percent to 5.3 percent. On the same day the Department of Labor 
announced that consumer prices jumped 4.3 percent in January, and that 
inflation was up to 2.5 percent. Last month, this body passed an 
economic stimulus package to help revive our stagnating economy. That 
bill was only a short term solution, if we are to ensure our long term 
economic stability we need to invest in the long term, and that 
requires investing in science, education, and R&D. Science R&D is not 
just another interest group. If we are to do right by our constituents 
we must--must--increase dramatically our investment in R&D, and not 
incidentally we must take these steps in the tax code and in other ways 
to encourage R&D in the private sector.

                        DETRIMENTAL PAST FUNDING

    In August of 2007, this body passed into law a comprehensive 
competitiveness package in the ``America COMPETES Act'' which was based 
on disturbing findings of the aforementioned report, Rising above the 
Gathering Storm, that our nation is drastically under investing in 
engineering and the physical sciences. This bill authorized doubling 
the funding for the Department of Energy's (DoE) Office of Science and 
the National Science Foundation (NSF) by 2016. This is not too much. It 
would be a modest response to a large problem. Unfortunately, the 
fiscal year 2008 budget fell far short of this goal. NSF received a 
mere 2.5 percent increase, far short of the 8 to 10 percent increase 
that was provided in earlier versions of the appropriations bills, and 
the DoE's Office of Science received 5.8 percent increase, far less 
than the 15 to 18 percent increase in earlier versions of these bills. 
Without taking a drastically different approach this cycle Congress 
will be delivering a devastating blow to our future economic security 
and competitiveness.

                          IMPORTANT INCREASES

    President Bush's budget request honors the promise of the American 
Competitiveness Initiative (ACI), by requesting $12.2 billion in the 
2009 budget for the three ACI agencies; NSF, the DOE Office of Science, 
and the National Institute of Standards and Technology (NIST) 
laboratories, a 15 percent increase over this years funding. The NSF 
budget of $6.9 billion would be a 14 percent increase, with increases 
approaching 20 percent for the Mathematical and Physical Sciences 
(MPS), engineering and computer science directorates and smaller 
increases for non-physical sciences directorates. DOE's Office of 
Science request for $4.7 billion would be a 19 percent increase 
restoring funding for the International Thermonuclear Experimental 
Reactor (ITER), physics, and other basic research projects hard hit by 
the 2008 appropriation. The NIST labs would receive a large increase, 
though at the cost of proposed eliminations of NIST's external 
programs.
    Additionally, the 2009 budget request proposes a record investment 
in R&D of $145.4 billion, a $4.6 billion or 3.3 percent increase above 
this year's level. Once we pass the inevitable 2008 and 2009 war 
supplementals it is likely that this level will rise even higher. 
However, despite these increases the President's request is devastating 
to other programs which are essential to promoting the goals of the ACI 
and the America COMPETES Act.

                          MISPLACED PRIORITIES

    Despite the proposed increases in physical sciences and related 
research at NSF, DOE's Office of Science, and NIST, the President's 
request dramatically reduces the budget of other essential research 
programs. The National Institutes of Health proposed funding is flat at 
28.5 billion and R&D funding for essential agriculture and 
environmental agencies would be cut drastically. As a result, federal 
support for both basic and applied research will fall 0.5 percent or 
$282 million from last year's budget. In real dollars, the federal 
research portfolio would be decreased by 9.4 percent from the peak 
levels in 2004.

                               EDUCATION

    Nearly fifty years ago, Americans were shocked when the Soviets 
launched the first man-made satellite into space. A few years later, 
President Kennedy responded by challenging the Congress--and the 
country--to put the first man on the moon by the end of the 1960s. What 
followed was an unprecedented federal investment in education, with a 
focus on math and science, investments in research and development, and 
the establishment of NASA. And just over a decade later, America landed 
the first man on the moon, a feat not yet achieved by the Russians or 
anyone else.
    Mr. Chairman, the evidence is plentiful that since this ``Sputnik 
moment,'' our commitment to supporting scientific and technological 
research and development has waned. Our economy faces new challenges 
from emerging powers whose students outperform our own, and who produce 
vastly more graduates in the science, technology, engineering, and 
mathematics (STEM) fields. We must do more to support the education of 
prospective undergraduates and graduate students who are seeking to 
enter the STEM fields.
    Prospective undergraduates need better access to the promise of a 
technical college education. Graduate programs must be made more 
appealing by improved quantity and quality of fellowship support. 
Postdoctoral fellowships, which constitute an increasingly long phase 
of a scientist's career, are not competitive with salaries made by the 
average college graduate, while requiring an extreme degree of 
individual geographic flexibility. With wildly fluctuating federal 
support of competitive grants and national labs, even the final phase 
of a government or academic scientific career is unstable and therefore 
much less appealing than we need to be the case. To achieve the best of 
our national potential, we must do a far better job of overcoming 
individuals' social and financial barriers to entry to the sciences, 
and must provide far more stability and reward at every phase in the 
process.

                         EDUCATION AND SCIENCE

    Mr. Chairman, last month in time magazine there was an article 
published in Time Magazine called ``Memo to Smart Kids: Do Not Go into 
Science.'' In this article Sharon Begley outlined how last years $300 
million cut from the President's proposed 2008 budget request for NSF, 
and the $59 million cut from the proposed budget to NIST, and the 
serious blow delivered to the zeroed out ITER and to the high energy 
physics budget are causing real job losses. For example, the DOE office 
of Physics Lab Fermilab is laying off 125 people after the DOE ceases 
funding the PEP-II collider as SLAC this Sunday. Additionally, all 
employees at the lab will be required to take 2 to 3 days of unpaid 
leave a month to keep the lab afloat. One problem is clear: unless we 
fund science research students will not enter into a field where there 
is a lack of future jobs. America needs scientists to be able to 
compete in the global economy. It is critically important that we 
support education and R&D more thoroughly and more consistently, and we 
have the opportunity to do that as we review the President's proposal. 
Congress can and must meet the challenge presented by the ill-advised 
cutbacks hiding behind the largely commendable flagship projects of the 
proposed FY 2009 budget.

    Mr. Etheridge. And I thank the gentleman and thank you for 
your commitment to the future of this country because science 
is really where it is. Thank you.
    Mr. Holt. I thank the Chairman. I thank the Committee.
    Mr. Etheridge. Thank you, sir.
    The next member to testify is the gentle lady from Ohio, 
Ms. Sutton. Welcome. We are pleased to receive your testimony. 
You are recognized for five minutes. And without objection, 
your full statement will be entered into the record.

 STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Mr. Chairman, for the opportunity to 
testify before you today. I am very proud to have served on 
this Committee last year and I am pleased to join you once 
again to speak on the budget issues of importance to Ohio's 
13th District.
    The budget is a moral document. It is a statement of the 
values of our nation. It is the clearest way to see where our 
government's true priorities lie. That is why I am very 
concerned about the message that the President's budget sends 
to the American people. It does not invest in the most 
important long-term priorities in the country. It instead 
places a premium on investment in the short-term interests of a 
few.
    At a time when working families are facing skyrocketing 
energy, healthcare, and education costs, the President's budget 
would cut critical programs that can help Americans through 
these tough economic times.
    Today I would like to discuss a few of those programs which 
are vital to the people I represent in Ohio.
    First, infrastructure. The state of the nation's crumbling 
infrastructure was demonstrated in the most dramatic fashion 
possible when the I-35 Bridge in Minneapolis collapsed into the 
Mississippi River last August.
    In the face of overwhelming evidence of the need for 
increased investment in our infrastructure, the Bush 
Administration continues nonetheless to pursue an open-ended 
policy in Iraq while badly shortchanging infrastructure 
investments at home.
    Tackling the repair of our nation's infrastructure is not a 
glamorous task, but it is absolutely essential for our nation's 
long-term success.
    The Minnesota bridge collapse and Hurricane Katrina are 
vivid reminders that these considerations are not theoretical. 
Investments in infrastructure are not just critical for public 
safety, but they also bring a significant boost to local 
economies and provide more Americans with good-paying jobs.
    The President's proposed funding levels are fully a billion 
dollars below the levels guaranteed by SAFETEA-LU. The Budget 
Committee should reject this funding level and renew our 
commitment to improving our national infrastructure.
    Second, first responders. I would also urge the Budget 
Committee to reject the cuts the President has made to grants 
to local law enforcement and fire departments. Although the 
President has repeatedly stressed the importance of homeland 
security, he has left our first responders without funds that 
are critically important to the work that they do in our 
communities every single day.
    Firefighters in my district depend on assistance in 
firefighter grants which are used for equipment, training, and 
other projects to ensure they have everything they need to keep 
our families and neighborhoods safe.
    The President's proposed funding levels would eliminate 
over $24 million in fire grants for the State of Ohio which 
would result in 267 fewer grants awarded.
    He also eliminated formula funding for the Byrne Memorial 
Justice Assistance Grants which would result in a 122 fewer 
police officers funded in Ohio.
    Our first responders are out in the communities every day 
and have made a commitment to protecting our communities from 
harm. We in Congress must also make that commitment to our 
first responders to ensure that they have the resources they 
need to continue their critical work.
    Research and development. In order for the United States to 
continue at the forefront of innovation and technology, we must 
continue to support research and development. That these 
investments generate significant returns is abundantly clear 
and not only will they result in advances in our scientific 
understanding, they generate new jobs and help fuel our local 
economies.
    The University of Akron, for example, is a world leader in 
polymer research and the effect this research center has had on 
Akron's economy has been profound.
    I encourage the Committee to include robust funding for 
research and development in this year's budget.
    Green jobs. In addition this year, we have the opportunity 
to fund a newly-authorized program that will help reinvest in 
American manufacturing such as at the Avon Lake floor plant in 
my district and help create green jobs.
    This past December, we authorized the Advanced Technology 
Vehicles Manufacturing Incentive Program which will be 
administered by the Department of Energy. This program will 
provide low-cost loans to automobile manufacturers to make 
substantial investments in their factories here in the United 
States.
    By funding this program, auto companies will have low-
interest loans available to invest in engineering, component 
production, and retooling of existing factories to manufacture 
new advanced technology vehicles such as hybrids, plug-in 
hybrids, advanced diesel, and fuel cell cars.
    And, finally, our veterans. We must always remember that 
the full measure of what we owe our veterans does not end after 
they leave the battlefield. Our responsibility extends to what 
we provide for our soldiers once they return home.
    The President's budget does not provide adequately for the 
care of our veterans, providing $20 billion less than what is 
necessary to merely maintain its current purchasing power.
    It is unacceptable for the President to attempt to impose 
new fees on our veterans even though they have been 
overwhelmingly rejected many times before.
    I am proud to say that I served on this Committee when we 
passed the largest increase in VA funding in American history. 
I urge the Budget Committee to continue its commitment to 
helping those who have fought so bravely and sacrificed in ways 
that so many of us can never fully appreciate.
    I thank you, Mr. Chairman.
    [The prepared statement of Betty Sutton follows:]

 Prepared Statement of Hon. Betty Sutton, a Representative in Congress 
                         From the State of Ohio

    Thank you for the opportunity to testify before you today. I am 
very proud to have served on this Committee last year, and I'm pleased 
to join you once again to speak on budget issues of importance to 
Ohio's 13th District.
    The budget is a moral document. It is a statement of the values of 
our nation. It is the clearest way to see where a government's true 
priorities lie.
    That's why I'm very concerned about the message that the 
President's Budget sends to the American people. It does not invest in 
the most important long-term priorities in the country; it instead 
places a premium on investment in the short-term interests of a few.
    At a time when working families are facing skyrocketing energy, 
health care, and education costs, the President's Budget would cut 
critical programs that can help Americans through these tough economic 
times.
    Today I would like to discuss a few of these programs, which are 
vital to the people I represent in Ohio.
                             infrastructure
    The state of the nation's crumbling infrastructure was demonstrated 
in the most dramatic fashion possible, when the I-35 bridge in 
Minneapolis collapsed into the Mississippi River last August.
    In the face of overwhelming evidence of the need for increased 
investment in our infrastructure, the Bush Administration continues to 
pour money into rebuilding Iraq, while badly shortchanging 
infrastructure investments at home.
    Tackling the repair of our nation's infrastructure is not a 
glamorous task, but it is absolutely essential for our nation's long-
term success. The Minnesota bridge collapse and Hurricane Katrina are 
vivid reminders that these considerations are not theoretical.
    Investments in infrastructure are not just critical for public 
safety, but they also bring a significant boost to local economies and 
provide more Americans with good paying jobs.
    The President's proposed funding levels for SAFETEA-LU are a full 
$800 million below Congressionally authorized levels. The Budget 
Committee should reject this funding level and renew our commitment to 
improving our national infrastructure.

                            FIRST RESPONDERS

    I would also urge the Budget Committee to reject the cuts the 
President has made to grants to local law enforcement and fire 
departments.
    Although the President has repeatedly stressed the importance of 
homeland security, he has left our first responders without funds that 
are critically important to the work they do in our communities every 
single day.
    Firefighters in my district depend on Assistance to Firefighter 
Grants, which are used for equipment, training, and other projects to 
ensure they have everything they need to keep our families and 
neighborhoods safe.
    The President's proposed funding levels would eliminate over $24 
million in Fire Grants for the state of Ohio, which could result in 267 
fewer grants awarded.
    He also eliminated formula funding for the Byrne Memorial Justice 
Assistance Grants, which would result in 122 fewer police officers 
funded in Ohio.
    Our first responders are out in our communities every day and have 
made a commitment to protecting our communities from harm. We in 
Congress must also make a commitment to our first responders, to ensure 
they have the resources they need to continue their critical work.

                        RESEARCH AND DEVELOPMENT

    In order for the United States to continue at the forefront of 
innovation and technology, we must continue to support research and 
development.
    That these investments generate significant returns is abundantly 
clear, and not only will they result in advances in our scientific 
understanding, they will generate new jobs and help fuel our local 
economies. The University of Akron, for example, is a world leader in 
polymer research, and the effect this research center has had on the 
Akron economy has been profound.
    I would encourage the committee to include robust funding for 
research and development in this year's budget.

                               GREEN JOBS

    In addition, this year, we have the opportunity to fund a newly 
authorized program that will help reinvest in American manufacturing, 
such as at the Avon Lake Ford Plant in my district, and help create 
Green jobs.
    This past December, we authorized the Advanced Technology Vehicles 
Manufacturing Incentive Program, which will be administered by the 
Department of Energy.
    This program will provide low-cost loans to automobile 
manufacturers to make substantial investments in their factories here 
in the United States. By funding this program, auto companies will have 
low-interest loans available to invest in engineering, component 
production and the retooling of existing factories to manufacture new, 
advanced technology vehicles such as hybrids, plug-in hybrids, advanced 
diesel and fuel cell cars.

                                VETERANS

    We must always remember that the full measure of what we owe our 
veterans does not end after they leave the battlefield--our 
responsibility extends to what we provide for our soldiers once they 
return home.
    The President's Budget does not provide adequately for the care of 
our veterans, providing $20 billion less than what is necessary to 
merely maintain its current purchasing power. It is unacceptable for 
the President to attempt to impose new fees on our veterans even though 
they have been overwhelmingly rejected many times before.
    I am proud to say that I served on this Committee when we passed 
the largest increase in VA funding in American history. I urge the 
Budget Committee to continue its commitment to helping those who have 
fought so bravely and sacrificed in ways that many of us can never 
fully appreciate.

                   COMMUNITY DEVELOPMENT BLOCK GRANT

    Finally, I would strongly urge the Budget Committee to reject the 
proposed cuts to the Community Development Block Grant. I cannot 
overemphasize the positive impact that CDBG has made on my district.
    With the foreclosure crisis driving many of my constituents out of 
their homes, and with so many Ohioans losing their jobs in recent 
years, CDBG provides funds to state and local organizations to address 
these difficulties. It has created tens of thousands of jobs across the 
country, assisted families in finding affordable housing, and has been 
a catalyst for economic development.
    A loss of nearly $30 million of these funds would deprive my 
district of funds that are critical for helping us move forward. It 
would be irresponsible to cut these programs that are intended to 
assist families who currently have the greatest need.
    When the Bush Budget arrived in Congress earlier this month, it was 
characterized as ``dead on arrival.'' And that's because we have all 
recognized that President Bush is not listening to the American people. 
He has demonstrated a callous indifference to the needs of working 
class Americans that we must reject.
    I am proud to have served on the Budget Committee last year, when 
we passed a budget that made needed investments into our nation's 
highest priorities, with a long term view toward the future.
    I know that it is difficult to balance the many competing 
priorities before the Committee. However, I urge you to keep the needs 
of working families in mind as you make your decisions. We cannot 
afford to turn our backs on them during these difficult economic times.
    Thank you for the opportunity to appear before you today.

    Mr. Etheridge. Thank you for your testimony. We appreciate 
it very much.
    The next member to testify is the gentleman from Illinois, 
Mr. Davis. Let me welcome you. We are pleased to receive your 
testimony. You are recognized for five minutes. And without 
objection, your full testimony will be entered into the record.

STATEMENT OF HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Mr. Chairman, I want to thank you and members of the Committee 
for the opportunity to testify on the President's 2009 budget.
    I have written testimony that has been submitted along with 
the recommendations for an alternative budget to the Committee 
and today would like to speak about two issues that I think 
reveal a dysfunctional budget that not only increases the 
deficit but also robs Peter to pay Paul.
    Indeed, amidst a climate of record decreases in hourly 
wages, job loss, prolonged unemployment, foreclosures, and high 
fuel prices, the Administration's fiscal year 2009 budget 
proposal fails to meet head on socioeconomic trends and 
foremost the humanitarian needs of your citizens.
    For example, within the Department of Labor, the President 
proposes to consolidate workforce investment, WIA, adult 
dislocated workers and youth employment services programs, work 
opportunity tax credits, and workforce information electronic 
tool system building, into a single funding stream to states 
for career advancement accounts towards the attainment of self-
directed accounts whereby individuals receive $6,000 over a 
two-year period.
    Under the auspices of streamlining and creating efficiency, 
there is a funding reduction of over $300 million compared to 
fiscal year 2008's combined current program totals.
    In today's economic climate, these monies are best served 
under current programs and will provide skills and training 
vital to securing substantial employment and foremost medical 
coverage. This pattern continues with the merging of WIA's 
Prisoner Reentry Initiative, PRI, and Responsible Reintegration 
for Young Offenders funded into WIA's Reintegration of Ex-
Offenders, a single consolidated program for adult and juvenile 
ex-offenders.
    However, unlike the aforementioned consolidation, PRI Grant 
funds will be completed in fiscal year 2009 and there will be 
no RRYO activity in fiscal year 2009.
    At the same time, the Administration has reduced WIA 
Reintegration of Ex-Offenders 2009 funding by 50 percent down 
to $39,600,000 from fiscal year 2008's 73,000,493.
    Collectively these cuts strike the hearts of communities 
across America, particularly faith and community-based service 
providers who historically and continue to be on the front line 
providing much needed wrap-around service.
    Struggling state and local governments will continue to 
bear the cost of reducing recidivism and creating safer 
communities. Moreover, faith and community-based reentry 
program's ability to provide much needed jobs will be 
substantially diminished.
    In the area of Medicare and Medicaid, I oppose the 
Administration's $195 billion cut in services over five years 
because it threatens to endanger 1.6 million Medicare and 1.9 
million Medicaid patients in Illinois alone.
    And while Congress has placed a one-year moratorium on Rule 
2261, redefining Medicaid reimbursement of rehabilitative 
services and a rule disallowing Medicaid payments to public 
hospitals from graduate and medical education, it is important 
to note that the collective outcome of proposed budget cuts and 
pending moratoriums will be devastating.
    If the moratorium is not extended, the public hospital 
proposed rule will go into effect on May 25th, 2008, and the 
GME rule will go into effect sometime this summer.
    Again, Mr. Chairman, I think that these will have 
devastating impacts on the ability of large numbers of 
individuals to receive health and medical care throughout 
America, and I thank you for the opportunity to testify and 
look forward to the revamping of this budget.
    [The prepared statement of Danny K. Davis follows:]

Prepared Statement of Hon. Danny K. Davis, a Representative in Congress 
                       From the State of Illinois

    I'd like to begin by thanking Chairman Spratt, Ranking Member Ryan 
and members of the Subcommittee for holding today's hearing on 
President Bush's proposed FY '09 Budget. Since February 4, 2008, 
Members of the 110th Congress have been charged with the daunting task 
of scrutinizing and interpreting the potential affects of the budget on 
the country at large and constituents within our respective districts. 
I yield that this has been no small feat considering the current 
deficit, as well as cuts in funding and services to which Americans 
have been subjected over the past seven years and counting. Once again 
we've been summoned to renew a dysfunctional budget that fails to meet 
head-on socioeconomic trends and foremost the humanitarian needs of 
U.S. citizens.
    Indeed, amidst a climate of record decreases in hourly wages, job 
loss, prolonged unemployment, foreclosures and high fuel prices the 
Administration is ``Robbing Peter to Pay Paul''. As evidence by the 
Joint Economic Committee state-by-state breakdown of budgetary affects 
on the State of Illinois:
    <bullet> Critical housing programs are being cut by President Bush 
again. President Bush's FY 2009 budget again cuts federal housing 
programs, despite widespread recognition that the U.S. economy is 
facing a housing crisis. Bush's budget cuts to public housing and 
rental assistance programs would eliminate critical assistance for 
those who have been disproportionately impacted by the subprime housing 
crisis--lower income families, the elderly, and minorities--compounding 
the deep funding cuts of the previous six years. Under the President's 
budget proposal, the public housing capital fund would be cut by $415 
million from 2008, depriving Illinois of $29.8 million in necessary 
funding to keep its public housing stock a viable option for families 
that have lost their homes to foreclosure. At the same time, President 
Bush has proposed a $740 million cut nationwide in the successful HUD 
Section 8 voucher program; as a result, 5,400 families could lose their 
homes in Illinois. These programs will be critical in alleviating the 
hardships caused by the housing crisis, but the Bush administration 
again appears blithely ignorant to the reality facing American 
families. [President Bush's Budget, FY2009; Federal Funds Information 
for States Database; National League of Cities; Center for Budget and 
Policy Priorities.]
    <bullet> Huge cuts will endanger access to quality care for 
Illinois's 1.6 million Medicare and 1.9 million Medicaid beneficiaries. 
The Administration's budget includes $195 billion in cuts over five 
years to Medicare and Medicaid that threaten to endanger Illinois's 1.6 
million Medicare and 1.9 million Medicaid patients' access to the care 
they need to lead healthy, independent lives. Under the President's 
plan, $178 billion would be cut from Medicare and $17 billion from 
Medicaid over five years. These cuts would be achieved by reducing 
reimbursements to health care providers and charging higher premiums 
based on income for Medicare beneficiaries for coverage of prescription 
drugs and doctors' services. [Kaiser Family Foundation, State Health 
Facts, March 2006 and December 2006; President Bush's Budget, FY2009; 
Department of Health and Human Services.]
    <bullet> Steep cuts to health programs will jeopardize the well-
being of Illinois residents. The President's budget would slash 
discretionary spending for government health resources and services by 
$982 million, in addition to $378 million in cuts to the Centers for 
Disease Control and Prevention. These cuts would jeopardize the health 
of millions nationwide who are suffering from life-threatening diseases 
and depend on these programs to fund life saving research projects. 
They include 60,000 people living with invasive cancer in Illinois and 
the 8 percent of Illinois adults who have been diagnosed with diabetes. 
[President Bush's Budget, FY2009; Kaiser Family Foundation, State 
Health Facts 2003 and 2005.]
    <bullet> Despite dismal job growth in 2007, the Administration 
still proposes $7.3 million in cuts for adult employment and training 
services in Illinois. The President's budget proposes cutting funding 
for adult employment and training services by nearly $150 million 
nationwide at a time when the U.S. workforce has experienced the worst 
job growth in over 4 years. If these cuts stand, Illinois's One-Stop 
Career System would lose $7.3 million. These cuts would likely force 
the suspension of workforce preparation and talent development services 
at a time when rapid changes in the economy make such programs more 
important than ever for Illinois workers. Moreover, the 
Administration's refusal to extend unemployment insurance means 1.4 
million workers nationwide who have already exhausted their 26 weeks of 
unemployment insurance will be unable to get additional assistance. 
[President Bush's Budget, FY2009; Federal Funds Information for States 
Database; U.S. Department of Labor, Bureau of Labor Statistics, January 
Employment Report.]
    <bullet> Administration's budget fails college students in 
educational grants, even as Illinois's tuition has risen 24 percent in 
four years. In 2007, Democrats fought to save critical college aid 
programs like the Supplemental Educational Opportunity Grants (SEOG) 
program, but once again the President's budget completely eliminates 
the program. Illinois would lose $37.9 million in SEOG grants in 2009. 
As average tuition and fees at 4-year public schools in Illinois 
increased 24 percent in just four years, the Administration's cuts in 
student aid would put college further out of reach for many Illinois 
students. [President Bush's Budget, FY2009; U.S. Department of 
Education; Fiscal Year 2001-2008 State Tables for the U.S. Department 
of Education''; U.S. Department of Education, Institute of Education 
Sciences, Digest of Education Statistics, ``Average undergraduate 
tuition and fees and room and board rates charged for full-time 
students in degree-granting institutions, by type and control of 
institution and state or jurisdiction,'' 2001-2002 and 2005-2006.]
    <bullet> Illinois's LIHEAP funding cut by President yet again. The 
President's FY 2009 budget calls for a 22 percent cut in the overall 
funding for the Low-Income Home Energy Assistance Program (LIHEAP) from 
2008. LIHEAP helps America's lowest-income families afford to cool 
their homes in the summer and heat their homes in the winter. It is 
especially important to families with elderly persons and very young 
children. This year's budget would slash Illinois's LIHEAP funding, 
leaving it up to the Congress once again to ensure that Illinois's 
families can afford to cool and heat their homes. [President Bush 
FY2009 Budget; Federal Funds Information for States Database; U.S. 
Department of Health and Human Services, Administration for Children 
and Families.]
    <bullet> Programs to keep Illinois's neighborhoods safe zeroed out 
by Bush. The President's budget again assaults two of Illinois's local 
crime fighting tools--the Community Oriented Policing Service (COPS) 
program and Justice Assistance Grants (JAG). COPS helps Illinois's law 
enforcement agencies hire police officers, enhance crime fighting 
technology, and support crime prevention initiatives, while JAG 
supports state and local drug task forces, community crime prevention 
programs, and prosecution initiatives. Last year, Illinois received 
$4.1 million in JAG funding and $9.6 million in COPS funding to keep 
neighborhoods safer for Illinois families in FY 2007. Illinois would 
receive no funding under President Bush's 2009 budget proposal. 
[President Bush FY2009 Budget; Federal Funds Information for States 
Database; U.S. Department of Justice, COPS Office.]
    <bullet> Another round of cuts to community investments could slow 
economic development in Illinois. Year after year, Democrats have been 
called on to defend the Community Development Block Grant (CDBG) 
program, which is once again on the President's chopping block. The 
CDBG program is a signature program for Illinois's cities, counties and 
local communities to create jobs, spur economic development and small 
business opportunities, and expand homeownership. Illinois's CDBG 
funding in the President's budget represents a decrease of $31.5 
million from its 2008 funding level of $171.5 million. By cutting CDBG, 
the President's budget would undermine the economic well-being of 
Illinois's communities. [President Bush's Budget, FY2009; Federal Funds 
Information for States Database; National League of Cities.]
    <bullet> President calls for elimination of grants to fight 
poverty. President Bush's budget would eliminate the Community Services 
Block Grant program which provides critical funding for state, local, 
and tribal poverty programs. Last year, this grant provided a total of 
$654 million in crucial funding for education, employment, housing, and 
health programs serving Illinois's 1.4 million residents living in 
poverty. Last year, Illinois received $30.9 million in federal funding 
to combat poverty. Under the President's budget, Illinois would receive 
no funding for this program. At the same time, his budget would slash 
spending on Temporary Assistance to Needy Families, which provides a 
wide range of benefits and services to low income families with 
children, by $340 million nationwide. [President Bush's Budget, FY2009; 
Federal Funds Information for States Database; U.S. Department of 
Commerce, Census Bureau, Income, Poverty and Health Insurance Coverage 
in the United States: 2006 report.]
    <bullet> President Bush shorts Illinois funding for environmental 
protection programs, even as dangers become more apparent. It is no 
secret that President Bush has consistently downplayed, ignored or even 
scoffed at the scientific consensus that has emerged with respect to 
the dangers posed by catastrophic global climate change. In keeping 
with his head-in-the-sand views, the President's budget aims to cut 
vital funding for the Environmental Protection Agency, including a cut 
to funding available for Illinois promised under the Clean Air Act. For 
FY2009, the President aims to reduce this program's funding levels by 
$23 million, a potential 7.5 percent decrease in funding for Illinois 
to combat air pollution and the hazards resulting from climate change. 
This marks a consistent trend for the Administration, which has been 
slowly whittling away at federal support for environmental protections 
since 2004. [President Bush's Budget, FY2009.] Cuts federal housings 
programs, in spite of current housing crisis;
    It goes without saying that the net affects of the Administration's 
proposed 2009 budget will not only result in utter devastation for the 
states like Illinois, but also the country at- large with a current 
deficit of $410 billion (the second largest in history). Moreover 
overly optimistic economic assumptions that mask the full fiscal 
effects of underlying policies underestimates the impact of Alternative 
Minimum Tax (AMT) reform, ongoing Ira and Afghanistan war costs and 
associated services.
    It's with this in mind that I'm here today to testify on the behalf 
of the ex-offender's population including approximately 400,000 mothers 
and fathers (being released each year) struggling to make a fresh start 
and at risk of loosing access to reentry programs with job training and 
placement services necessary to ensure successful reentry. Moreover 
Illinois hospitals, medical centers and Chicago Public School (CPS) 
that provide quality healthcare and are at risk of loosing Medicare 
subsidies to service low-and moderate-income working families living 
from paycheck-to-check trying to make ends meet.

        FUNCTION 500: DEPARTMENT OF LABOR TRAINING & EMPLOYMENT

            Career Advancement Accounts:
    The President's 2009 legislative proposal plans to consolidate 
funding form WIA Adult ($712,000), Dislocated Worker ($1,223,823), and 
Youth ($840,500), and Employment Service programs; Work Opportunity Tax 
Credit (WOTC:$17,677); and the Workforce Information-Electronic Tools-
System Building ($32,000) into a single funding stream to states for 
Career Advancement Accounts (CAA: $2,826,000). CAAs are self-directed 
accounts of up to $6,000 over two years that would be available to 
adults and out-of-school youth entering or re-entering the workforce, 
transitioning between jobs, incumbent workers in need of new skills to 
remain employed or to move up the career ladder.''
    The rationale for this request and the Administration's proposed 
``Workforce Investment Act Amendments of 2007'' is that Federal job 
training dollars should be put in the hands of the individuals in need 
of assistance, by replacing the current silo system of separate 
training programs serving different populations with a single state 
grant for the provision of employment and training services. While I'm 
receptive to the Administration's attempt to strengthen ``One-Stop 
System'' by reducing duplication and increasing efficiency initiative, 
I cannot support streamlining processes that results in over $300 
million (10.0%) reduction in funding. These funds would be best served 
within current law discretionary budgetary line items towards the 
continuance of:
    <bullet> More comprehensive assessments, development of individual 
employment plans, and career guidance and planning;
    <bullet> ``Training'' services, which are linked to employment in 
demand, including occupational training, skills upgrading, and adult 
literacy training; and
    <bullet> Workforce investment services to individuals who have lost 
their jobs, including those dislocated as a result of plant closings or 
mass layoffs; formerly self-employed individuals; and displaced 
homemakers who have been dependent on the income of another family 
member, but are no longer supported by that income.
    Alternative budgetary recommendations: As such, I oppose the 
Administration's FY 2009 legislation proposal to consolidate 
(streamline) programs and the creation of CAAs. Therefore, I recommend 
flat line from 2008 plus inflation to WIA's Adult, Dislocated Worker, 
Youth training and employment service programs; WOTC; and Workforce 
Information-Electronic Tools-System Building current law line items.

            WIA Competitive Grants: Ex-Offender Activities:
    In FY 2008, the Department proposed to merge funding for the 
Prisoner Reentry Initiative (PRI) and the Responsible Reintegration for 
Young Offenders (RRYO) into ``Reintegration of Ex-offenders'' a single, 
consolidated program that serves adult and juvenile ex-offenders and 
strengthens communities by reducing recidivism. At the same time PRI 
grants funded in FY 2006 and FY 2007 will be completed by FY 2009. Per 
the Administration's FY 2008 proposal, there will be no new RRYO 
activity in FY 2009. In short, these programs are being phased out 
through consolidation and replaced by a single program approach with a 
proposed budget of $39,600 million, a 50% decrease from FY 2008 enacted 
budget of $73,493. Moreover, collectively, discontinued programs 
(funding) and reduction in current funding decreases the number of 
adult and youths offenders being serviced in FY '09 by 46%, a 7,949 
decrease in participants being serviced in FY 2008.
    For the past six years there has been an overall funding cut of 
over 40% and the administration is now proposing to eliminate what 
remains of the federal commitment to a focused and dedicated system of 
federal funding. The latter is self-evident by discontinued PRI and 
RRYO seed monies to faith and community-based organizations that have 
historically and continues to be on the frontline providing much needed 
wraparound services. These cost will be passed on to state/local 
governments struggling budgetary economic as well as compromising faith 
and community-based reentry programs ability to provide much needed 
jobs, housing, and substance abuse/mental health. Significantly, 
without these vital services, two out of three ex-offenders will be 
rearrested for new crimes within the first three years after their 
release and youthful offenders are even more likely to re-offend.
    Alternative budgetary recommendations: For a re-entry program to 
succeed, four areas identified by the Re-entry Policy Council should be 
addressed: coordinated planning, public-safety and restorative 
activities, supportive health and housing services, and work-force 
development and employment opportunities. Proposed FY 2009 reduction in 
WIA's Reintegration of Ex-offenders undermines work-force development 
and employment opportunities, a vital component of successful reentry 
programs. Therefore, I recommend a flat line from FY 2008 enacted 
$73,493 plus an inflation increase.
            Function 570:
    Cook County's total public healthcare system serves approximately 
330,000 patients annually. This includes its Emergency Rooms (ERs), 
urgent care, ambulatory care and screening, pediatric and trauma care. 
Specifically:
    <bullet> The County serves about 640,000 patients in its 13 
outpatient clinics;
    <bullet> Cermak (the prison health facility) treats, on average, 
100,000 patients requiring health and mental healthcare;
    <bullet> Stroger Hospital has an average daily inpatient census of 
approximately 325 patients with a total of approximately 190,000 annual 
visits that include ER and adult and pediatric urgent care;
    <bullet> Oakforest Hospital sees about 30,000 patients in its ER 
annually with an average daily inpatient census of about 65 patients;
    <bullet> Provident Hospital sees about 50,000 patients in its ER 
and has an average daily inpatient census of about 65-70 patients;
    <bullet> The CORE Center is a state-of-the-art HIV/AIDs outpatient 
center that see 1 our of every 3 HIV/AIDs patients in Cook County and 1 
out of 5 HIV/AIDs patients in the entire state.
    The President's budget continues to include major reductions to 
Medicaid through regulations without going through Congress to make 
substantial changes to the program and methods of Medicaid payments to 
public hospitals to offset their costs of servicing the uninsured. The 
cuts that would result from the implementation of these rules are 
unprecedented and would likely take down most public health systems 
across the country.
    Significantly, Congress has placed a one-year moratorium on two 
regulations last year. First, CMS proposed rule 2261 redefines Medicaid 
reimbursable rehabilitative services, among other things, excludes from 
Medicaid reimbursement the rehabilitative services that are ``intrinsic 
elements of programs other than Medicaid, such as * * * education.'' 
The failure to define ``intrinsic elements'', as used in the proposed 
rule, provides CMS the discretion (leverage) to eliminate all Medicaid 
reimbursement for rehabilitative services and administrative activities 
provide in a school setting. Second a rule disallowing Medicaid 
payments to public hospitals from Graduate Medical Education (GME). 
Collectively, these rules will significantly cut Medicaid payments to 
Cook County by at least $100 million.
    By all accounts, CMS proposed changes and cost containments will 
chop away Medicaid for low-income Americans as we know it today. More 
broadly, proposed reductions will create reimbursements disincentives 
for schools' to provide wrap-around services, as well as compromise 
alliances between schools, social service agencies, hospitals and 
clinics. Above all, the health of children across America, a 
prerequisite to success in school as measured in No Child Left Behind 
goals.
    Under the auspices of ``cost containment'', CMS regulatory actions 
contradict the administration's pledge to leave no child behind, put 
the poor first, and above all, ensure homeland security. Cited proposed 
Medicaid regulatory actions and reductions will have devastating 
effects. Indeed, CMS is calling for new regulatory with dramatic 
limitations in defining activities, which will result in cut backs on 
federal matching for a range of health services including:
    <bullet> Administrative activities associated with Medicaid 
outreach to children; helping with Medicaid eligibility determination 
and enrollment of children and referral, coordination and monitoring of 
medical services to children;
    <bullet> Reimbursements of ``all'' transportation, including 
specialized transportation with special breathing apparatus or special 
attendant for a child with seizure disorders;
    <bullet> Funding for hospital outpatient, non-hospital clinic 
services, mental health; and
    <bullet> Direct and indirect graduate medical education (GME) 
payments to teaching hospitals.
    In the State of Illinois alone, the rippling effects of proposed 
regulations will be catastrophic especially for:
    <bullet> The 52,000 students with disabilities and health related 
needs being serviced by the Chicago Public Schools (CPS) 1,000 case 
managers and counselors, as well as 1,600 clinical professionals 
including social workers, psychologists, nurses, speech pathologists, 
physical and occupational therapists and hearing/vision technicians to 
these students at over 600 school sites;
    <bullet> The 25,000 CPS Medicaid-eligible children with chronic 
disabilities that impedes them from participation in normal activities 
of daily living, including education;
    <bullet> The Illinois Medical District, one of the largest 
concentrations of medical facilities in the world and home of the John 
H. Stroger Jr. Hospital of Cook County that provides services over 
110,000 patients annually in Adult ER; 45,000 children and adolescents 
each year in Pediatric ER; and boasts one of the most respected 
emergency rooms in Chicago and a Level 1 Trauma Center; and
    <bullet> The University of Illinois at Chicago Medical School--the 
largest medical school in the United States--that relies upon Medicaid 
for reimbursements and federal matching of funds for costs of Graduate 
Medical Education (GME) programs as part of Medicaid reimbursement for 
inpatient or outpatient hospital services.
    This impact will be felt statewide by Medicaid programs throughout 
Illinois. Importantly the public hospital proposed rule will go into 
effect on May 25 if the current moratorium is not extended. 
Significantly, the GME rule goes into effect sometime this summer. 
While I'm encouraged by CMS eagerness to cut cost, I'm disturbed by 
proposed outrageous regulations, especially in light of March 2007 CBO 
Medicaid Baseline, which found that:
    <bullet> Elderly and disabled account for 26% of enrollees--68% of 
Medicaid spending;
    <bullet> While children account for 48% of enrollees, but only 19% 
of spending.
    Moreover, currently, Cook County's budget situation is desperate. 
President Stroger has proposed a 2% sales tax to stave off cuts 
throughout the county, including the Bureau of Health Services, the 
overall county public health system. But unfortunately, there are not 
enough votes amongst members of the Cook County Board of Commissioners 
for passage. The only other revenue source is property taxes, which is 
not a factor considering the current housing market and economy. Under 
these circumstances, there's a potential risk of 18% across the board 
cuts to the County's budget. Potential outcomes of this reduction 
include Oakforest Hospital, Provident Hospital and 13 County clinics, 
importantly, Stroger Hospital, our major public hospital and public 
health systems.
    Recommendations: I'm requesting an extension of the aforementioned 
moratoriums--public hospital and GME proposed regulations; and proposed 
rule 2261 redefining Medicaid reimbursable rehabilitative services--and 
that moratorium includes clinic rule as well. Representative Engel has 
introduced legislation (H.R.3533; Public and Teaching Hospital 
Preservation Act) to this effect and I am a cosponsor.
    In closing, while I've shared pressing regional issues affecting 
the state of Illinois, I've taken the liberty of including additional 
FY 2009 budgetary recommendations for the Committee on the Budget 
review and consideration.
    Again, thank you Chairman Spratt, Ranking Member Ryan and members 
of the Subcommittee for allowing me the privilege to testify before the 
Committee and I welcome and am available to answer any questions you 
may have.

                       Congressman Danny K. Davis

                    Alternate Budget Recommendation

           education, training and employment services (500)
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function: 500
    <bullet> Program Title: Head Start
    <bullet> 2008 Enacted: $6,877,975,000
    <bullet> 2009 POTUS Request: $7,026,571,000
    <bullet> Additional Funding on Top of POTUS Request: $623,429,000 
million
    <bullet> Rationale for Amount: To level authorized in P.L. 110--
134.
    <bullet> Priority: The President proposed a mere $150 million 
increase, but this is insufficient to cover the needs of this growing 
population. Enrollment has actually increased over the last few years, 
and research is clearer than ever that investing in early childhood 
education will greatly in terms of child progress in the long term. 
Dramatic increases in Head Start funding are needed to recoup the lack 
of inflation adjustments since FY02, to redress the $10 million FY08 
cut, and to invest in improving program quality.
    <bullet> Suggested Offset: $603.5 million from Reading First; $10 
million from Adjunct Teacher Corp; and $10 million from Charter School 
Facilities;
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function: 500
    <bullet> Program Title: Higher Education Act, PBI program
    <bullet> 2008 Enacted: $0
    <bullet> 2009 POTUS Request: $0
    <bullet> Additional Funding on Top of POTUS Request: $75 million
    <bullet> Rationale for Amount: Authorization amount for program in 
Section 303 of H.R. 4137, as reported out of the House.
    <bullet> Priority: The PBI provision authorizes for the first time 
a new category of eligible institutions within part A of Title III 
called ``Predominantly Black Institutions'' (PBIs), with an 
authorization amount of $25 million. This program addresses the current 
limitation in the law that restricts funds for African-American serving 
institutions unless they were created prior to 1964, which has been 
particularly problematic for largely two-year, urban institutions that 
are serving large groups of African American students. You request an 
increase of $75 million in the Function 500 allocation to support the 
PBI program.
    <bullet> Suggested Offset: $75 million from Pell from Kids;
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function: 500
    <bullet> Program Title: Higher Education Act, Masters Degree 
Programs at HBCUs and Other MSIs
    <bullet> 2008 Enacted: $0
    <bullet> 2009 POTUS Request: $0
    <bullet> Additional Funding on Top of POTUS Request: $25 million
    <bullet> Rationale for Amount: Authorization amount for program in 
Section 705 of H.R. 4137, as reported out of the House.
    <bullet> Priority: There is a great need to develop black 
professionals in the areas of science, technology, engineering, and 
math. To illustrate, African Americans only make up approximately 6% of 
STEM occupations, a rate much lower than the African American share of 
professional specialties as a whole (about 10.7%). There is a new grant 
program to institutions to create fellowships for students at HBCUs and 
other MSIs who are in masters degree programs in the physical or 
natural sciences, mathematics, engineering, computer science, 
information technology, nursing, and allied health.
    <bullet> Suggested Offset: $25 million from Pell from Kids;
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function: 500
    <bullet> Program Title: Higher Education Act, Honorable Augustus F. 
Hawkins Centers for Excellence (Section 262 of H.R. 4137, as reported 
out of House)
    <bullet> 2008 Enacted: $0
    <bullet> 2009 POTUS Request: $0
    <bullet> Additional Funding on Top of POTUS Request: $10 million
    <bullet> Rationale for Amount: This authorization amount would 
support approximately 20 grants at $500,000 each.
    <bullet> Priority: Within higher education, the numbers of black 
men teaching are incredibly low. For example, a report by NCES in 2003 
found that only 2.9% of full-time instructional faculty and staff at 
degree-granting institutions are black men. Data on elementary and 
secondary teachers is not available by gender and race/ethnicity, 
although experience suggests that a similar lack of minority male 
teachers exists in the younger grades. Research indicates that the 
absence of male role models contributes to the under-representation of 
minority men in college, and their lower academic performance in 
primary and secondary education. This program establishes Centers of 
Excellence at minority serving institutions to recruit students to 
become teachers (e.g., loan forgiveness) and to improve teacher 
preparation courses (e.g., via mentoring programs, professional 
development, induction programs).
    <bullet> Suggested Offset: $10 million from Pell from Kids
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function: 500
    <bullet> Program Title: Higher Education Act, Minority Male 
Achievement Study (Section 806 of H.R. 4137, as reported out of the 
House)
    <bullet> 2008 Enacted: $0
    <bullet> 2009 POTUS Request: $0
    <bullet> Additional Funding on Top of POTUS Request: $1.3 million
    <bullet> Rationale for Amount: Estimated amount of funds to 
complete study.
    <bullet> Priority: The under-representation of minority males, 
especially African American and Latino males, is a matter of public 
record that is reinforced by high drop-out rates in urban and rural 
school districts, and lower participation/enrollment rates of these 
groups in colleges and universities. The American Council on 
Education's Minorities in Higher Education Annual Reports have 
consistently documented these factors for almost two decades. This 
study examines the access to and success of minority males in higher 
education, including high school graduation rates and college 
participation. It is designed to provide important data to lawmakers so 
that we can develop policies to ensure the success of these students in 
higher education.
    <bullet> Suggested Offset: $1.3 million from Public School Choice;
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function: 500
    <bullet> Program Title: Higher Education Act, Teacher Residency 
Program (Section 201(b)(5) of H.R. 4137, as reported out of the House)
    <bullet> 2008 Enacted: $0
    <bullet> 2009 POTUS Request: $0
    <bullet> Additional Funding on Top of POTUS Request: $50 million
    <bullet> Rationale for Amount: This authorization amount would 
support approximately 10 grants at $5 million each.
    <bullet> Priority: Research indicates that teacher quality is one 
of the most significant factors influencing student achievement. This 
program is modeled on Chicago's successful teacher residency program. 
Given that it targets high-need schools (defined as being in the 
highest 25% of schools in terms of percentage of students from families 
with incomes below the poverty line or having a designation as a rural 
school), it is designed to increase teachers in urban areas that serve 
large percentages of minority children.
    <bullet> Suggested Offset: $50 million from Pell Grants for Kids
                    administration of justice (750)
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function Number: 750
    <bullet> Program Title: OJP's: Justice Assistance Program
    <bullet> 2008 Enacted: $196,184
    <bullet> 2009 POTUS Request: $134,647
    <bullet> Additional Funding on Top of POTUS Request: $ 566,359 
million
    <bullet> Rationale for Amount: Restore reduction from consolidation 
of OJP and State & Local programs with a flat line from '07 ($166,359 
over '09s) and a $400 million dollar increase.
    <bullet> Priority: Importantly, they build upon critical concern 
and commitment to ``Disrupting the Prison Pipeline'', where African-
American are disproportionately represented; sixty-five percent of 
women in state prison are mothers, and nearly two-thirds of these 
mothers lived with their children before they were incarcerated. 
Healthier families and stronger communities are vital to African-
Americans and the communities that house them This men me 
Significantly, building upon
    <bullet> Suggested Offset: $566,359 million from Discretionary 
Offset
    Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function Number: 750
    <bullet> Program Title: Office on Violence Against Women
    <bullet> 2008 Enacted: $400,000
    <bullet> 2009 POTUS Request: $280,000
    <bullet> Additional Funding on Top of POTUS Request: $500 million
    <bullet> Rationale for Amount: Restore reduction with a flat line 
from 2008 ($120 over '09 POTUS) and increase funding by $380 million to 
pervasive problem that transcends all ethnic, racial and gender, and 
social economic barriers.
    <bullet> Priority: This issue is vital, because domestic violence 
impacts African-American women with fewer resources or greater 
perceived vulnerability--girls and those experiencing physical or 
psychiatric disabilities or living below the poverty line. 
Significantly, domestic violence destroys individuals, ruins families 
and weakens our communities.
    <bullet> Suggested Offset: $500 million from Discretionary Offsets
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function Number: 750
    <bullet> Program Title: OJP's Byrne: Weed and Seed Program
    <bullet> 2008 Enacted: $32,100
    <bullet> 2009 POTUS Request: $0
    <bullet> Additional Funding on Top of POTUS Request: $649,361
    <bullet> Rationale for Amount: To restore reductions and Grant 
Consolidation with a flat line from '07 ($49,361 over '09s) and an 
increase funding by $600 million for grassroots community-based 
organizations buffering systemic shortfalls and inequities confronting 
ex-offenders attempting to reintegrate back into the community.
    <bullet> Priority: The Second Chance Act of 2007, a reentry program 
designed to reduce recidivism, increase public safety, and help states 
and communities to better address the growing population of ex-
offenders returning to communities by focusing on four areas: jobs, 
housing, substance abuse/mental health treatment, and families passed 
the house in November. We need to ensure funding to effectively 
implement this two year program, as well as the continuance of 
initiatives aimed at ensuring safer communities, reducing 
methamphetamine labs and other reentry programs.
    <bullet> Suggested Offset: $649,361 million Discretionary Offset.
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function Number: 750
    <bullet> Program Title: OJP: Child Safety and Juvenile Justice 
Program
    <bullet> 2008 Enacted: $ 0
    <bullet> 2009 POTUS Request: $185,000
    <bullet> Additional Funding on Top of POTUS Request: $1 billion
    <bullet> Rationale for Amount: Restore reductions associated with 
program consolidations towards child safety and juvenile program to 
ensure access to services that can help them thrive in a 
noninsitutional environment.
    <bullet> Priority: For the past six years there has been an overall 
funding cut of over 40% and the administration is now proposing to 
eliminate what remains of the federal commitment to a focused and 
dedicated system of federal funding. When high quality reentry and 
aftercare services are available, youth need to spend less time in 
confinement, and the overall cost of juvenile corrections can be 
reduced. Congress must send a profound message that speaks to a 
continued need for child safety, juvenile justice and delinquency 
prevention. This foundation is vital to America's future.
    <bullet> Suggested Offset: FY '09 $1,000,000 Offset: Grants 
Consolidation
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function Number: 750
    <bullet> Program Title: OJP: Violent Crime Reduction Partnership 
Initiative Program
    <bullet> 2008 Enacted: $ 0
    <bullet> 2009 POTUS Request: $200,000
    <bullet> Additional Funding on Top of POTUS Request: $383,513
    <bullet> Rationale for Amount: To create multi-jurisdictional task 
forces, as well as expand initiatives between to communities 
experiencing increases and crime towards the attainment of establishing 
flexible programs reflective of community needs.
    <bullet> Priority: Congress must take the lead in forging 
partnerships, as well as initiatives to address intricately 
interrelated variables (public policies, societal, demographic and 
neighborhoods) that exacerbate social dislocations (unemployment; 
crime; welfare dependency; high school dropout; etc.) and poverty.
    <bullet> Suggested Offset: $383,513 FY '09 Juvenile Justice 
Programs Grants Consolidation
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function Number: 750
    <bullet> Program Title: OJP: Byrne Public Safety and Protection 
Program
    <bullet> 2008 Enacted: $ 0
    <bullet> 2009 POTUS Request: $200,000
    <bullet> Additional Funding on Top of POTUS Request: $97,644
    <bullet> Rationale for Amount: To restore reduction in funding 
stemming from the replacement of Project Safe Neighborhoods, drug 
courts, the cannabis eradication program, the cleanup of 
methamphetamine labs, and reentry programs.
    <bullet> Priority: Throughout his tenure, the President has 
progressively gutted vital community-oriented programs that are in the 
trenches of helping ex-offenders overcome civil and legal barriers 
hindering their ability to reunite with family members and love ones.
    <bullet> Suggested Offset: $2,300 from Research, Evaluation/
Demonstration Program; $5,800 Regional Information Sharing System; 
$89,544 Grant Consolidations.
    <bullet> Staff/Member: Helen Mitchell, Rep. Danny K. Davis
    <bullet> Function Number: 750
    <bullet> Program Title: OJP: Community Policing Development
    <bullet> 2008 Enacted: $ 0
    <bullet> 2009 POTUS Request: $4,000
    <bullet> Additional Funding on Top of POTUS Request: $300,000
    <bullet> Rationale for Amount: To restore reductions stemming from 
consolidation of COPS into the OJP and streamlining of administrative 
overhead to ensure adequate funding for flexible programs that bring 
various stakeholders together, as well as communities hit by growing 
violence and lawlessness towards workable solutions at the local level.
    <bullet> Priority: With the rise of gangs, drug activities, black-
on-black crime, hand guns and school killings Congress is obligated to 
petition for continued solid funding towards the creation of 
initiatives to disruptive activities compromising the safety of our 
children, family, and community at large.
    <bullet> Suggested Offset: $100,000 FY '09 OJP-wide rescissions; 
$100,000 COPS rescissions; and $100,000 Working Capital Fund 
Rescissions

    Mr. Etheridge. I thank the gentleman for his testimony and 
there is no question about his commitment to those among us who 
have the greatest need. Thank you very much.
    Mr. Davis of Illinois. Thank you.
    Mr. Etheridge. The next member testify is the gentleman 
from Connecticut, Mr. Courtney. Welcome. We are pleased to have 
your testimony. You are recognized for five minutes and your 
full statement will be entered into the record without 
objection.

 STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Courtney. Thank you, Mr. Chairman, and thank you for 
your interest and particularly your endurance. And I will do my 
best to summarize the written statement which we have submitted 
for the record.
    We have heard a lot already just in the last few witnesses 
about the shortcomings of this budget in terms of dealing with 
domestic needs. I would like to shift gears for a moment and 
talk about the impact of this budget on the continuing decline 
of America's United States Navy.
    When George Bush was sworn into office in 2001, the United 
States Navy numbered 341 multi-mission battle force ships. 
Today the fleet is at a 91-year low of 279 ships, 34 ships 
below the Navy's own requirements.
    I want to repeat that point. Today we have a maritime 
strategy in this country to have a Navy of 313 ships and today 
we are at 279.
    The President's budget which was submitted earlier in 
January once again continues the outrageous decline of the size 
of our fleet with a submission of only seven new ships. If you 
take the average shelf life of a ship or submarine of 30 years 
and do the math, the President's budget will continue again the 
steady decline in terms of the size of our fleet size.
    This is at a time when 95 percent of goods being imported 
to the United States come by sea and also it is at the same 
time in which there are new maritime forces that are growing.
    The New York Times earlier this week on Monday had a story 
about the fact that the Chinese Navy now is in full active 
programs to build up its nuclear Navy. By the end of this 
decade, they will have more submarines than the United States 
Navy and the trajectory in terms of what they are doing in 
terms of the build-up indicates that we really have no clear 
picture in terms of how large the build-up will be.
    To put this in perspective, Mr. Chairman, when Ronald 
Reagan left office, we had a 600 ship Navy in this country. In 
my district, Groton, Connecticut, we were building five 
submarines a year. We have been limping along at one submarine 
a year for the last 15 years.
    And a chart is attached to my testimony which shows the 
fact that the present size of the submarine fleet will continue 
to exist only because of the legacy submarines that were built 
back in the 1980s. We are going to dip below the Navy's finding 
of the minimum that is necessary of 48 ship submarine fleet and 
it will stay there for a period of almost 12 to 15 years, again 
at exactly the same time when a new maritime force is gathering 
steam in the People's Republic of China.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It probably sounds almost counterintuitive given the fact 
that our Defense budget now is almost three-quarters of a 
trillion dollars that something like this is happening. But, 
frankly, it shows that the War in Iraq is not only siphoning 
off resources for domestic needs in this country but major 
weapon systems. Particularly the Air Force and the Navy is 
suffering as well.
    Last Congress, the Democratic-led Congress actually for the 
first time in 15 years addressed this problem partially by 
having an advanced procurement towards a second submarine to 
start beginning to at least mitigate the decline of our fleet. 
And I frankly think it shows that Mr. Spratt, Mr. Skelton, Mr. 
Taylor, Mr. Murtha understand the fact that this country has 
huge challenges facing us that again the budget priorities of 
this Administration has neglected over the last seven years.
    Again, my statement also goes into some of the other key 
issues in terms of the State of Connecticut that this budget 
falls far short.
    Just one brief mention is just in the area of education 
under-funding, the ``No Child Left Behind Act'' is $85 billion 
behind the curve. School districts that rely on antiquated 
property taxes are totally overwhelmed in terms of mandated 
class coming from Washington. And, once again, we get another 
budget which just continues to add to that burden.
    And hopefully a lot of confidence in Mr. Spratt and the 
Committee is going to again begin the work that we started last 
year to redirect the priorities of this country to face 
challenges that we face both abroad and at home.
    And I thank you for again your patience and interest.
    [The prepared statement of Joe Courtney follows:]

 Prepared Statement of Hon. Joe Courtney, a Representative in Congress 
                     From the State of Connecticut

    Chairman Spratt and members of the Committee, I want to thank you 
for giving me the opportunity to testify before you today.
    While the President's budget contains $537 billion for non-war 
related activities, I remain concerned that there is not enough 
emphasis placed on our shipbuilding needs.
    In 2001, the U.S. Navy numbered 341 multi-mission battle force 
ships. Today, however, the fleet is at a 91-year low of 279 ships--34 
below the Navy's own requirements. While the Department of Defense's 
(DOD) overall budget has increased by nearly 81 percent since 2001 
(excluding supplementals), the Navy's budget for new ship construction 
has increased only 12 percent. Had Navy shipbuilding budgets kept pace 
with the increases in DOD spending, this years budget request should 
have asked for $19.4 billion, rather than the $12 billion asked for--
just seven new naval ships.
    As a result of this underfunding of shipbuilding, our Navy fleet 
will be strained as it tries to accomplish more with less. Last year, 
Congress added funding to the Navy's shipbuilding budget to begin 
construction on five ships that were not requested in the President's 
budget. Specifically, $50 million was added to begin construction on 
the 10th ship of the LPD-17 class, $300 million was added for advanced 
construction of the 12th, 13th, & 14th ships of the T-AKE class and 
$588 million was added to accelerate construction of 2 Virginia class 
submarines per year.
    The President's FY2009 budget does not provide the follow-on 
funding needed to complete construction of the LPD-17 or the 13th and 
14th ships of the T-AKE class. And, while the budget accelerated the 
Virginia class to 2 per year in 2011 using last year's additional 
advanced procurement funding, it fails to include sufficient funding to 
further accelerate Virginia class to two per year in FY2010. In order 
to get to the minimum goal of a 313-ship Navy, we are going to need to 
invest more in our shipbuilding programs, both this year and in the 
years ahead. I would like to introduce a copy for the Record of an 
article in the February 28, 2008 edition of the New York Times .
    Like many of you, I was extremely disappointed, but not exactly 
surprised, to see a budget from President Bush that continues the 
country on a path of fiscal irresponsibility. The budget contains the 
same misguided domestic policy priorities we have seen over the last 
seven years that continue to burden the low and middle class.
    I want to thank Chairman Spratt and the Committee for laying the 
foundation in the FY 2008 Budget Resolution for the College Cost 
Reduction and Access Act, enacted in September 2007. A strong education 
foundation is the roadmap to a strong middle class. We need to ensure 
that our teachers have the resources needed to provide students the 
training necessary to gain the skills to compete in the 21 century. Our 
economy cannot prosper if we do not invest in education. The FY 2009 
budget is frozen at last years level even as school districts 
throughout eastern Connecticut are struggling to balance their budgets 
while providing a quality education in a safe environment. Once again, 
the Administration shortchanges the elementary and secondary education 
budget, providing only $125 million above last year for a cumulative 
shortfall to the NCLB law of $85.6 billion. At a time when families are 
struggling throughout this country, President Bush provides just a 
pittance of an increase to Title I funding that doesn't even cover the 
inflation rate. In FY 2008, over $13 million in Title I funding was 
provided to eastern Connecticut towns. As towns and cities are squeezed 
and students and families face rising college costs, this 
Administration mistakenly terminates 47 critical education programs, 
further reducing its investment in education by $3.2 billion.
    Right now, 92 percent of Connecticut's Medicare population are 
experiencing higher Medicare Part B payments and reduced benefits in 
order to subsidize increased benefits for only 8 percent of the 
population through Medicare Advantage. There resources could be used to 
improve traditional Medicare.
    At the same time, the President proposes drastic cuts to Medicare & 
Medicaid Reimbursements for hospital services. Already, Connecticut's 
full-service hospitals are facing financial hardship due to rising 
operating costs, new costly technologies, labor shortages and an 
increasing number of uninsured Americans that are depending on them as 
a health safety net. The Federal Government should be supporting 
hospitals in their health care mission, not providing further 
challenges. The President's budget would be devastating for eastern 
Connecticut, with a projected loss of over $90 million over the next 
five years.
    The budget is an assault on science and medical advancements as 
well. The National Institute of Health (NIH) is our nation's best hope 
for curing and treating so many of the illnesses that families battle 
on a daily basis. We are dependent on their research and research 
grants to provide advancements in curing cancer, heart disease and 
diabetes and many other diseases. Yet, President Bush has proposed flat 
funding NIH at $29.5 billion for Fiscal Year 2008. Since 2003, funding 
for NIH has failed to keep pace with biomedical inflation--resulting in 
fewer research grants, cancelled clinical trials and a reluctance to 
start new investigations due to uncertain funding. My state of 
Connecticut received 1,200 grants in 2007 for a total of $469,206,694. 
Funding went to research projects at the University of Connecticut 
Storrs and Yale, both world renowned academic institutions working to 
make scientific advancements. If the President's budget is accepted, 
these institutions and others throughout the country will not be able 
to get the funding necessary to conduct today's research in order to 
find tomorrow's cures.
    With the current mortgage market crisis, Low-income Americans have 
been feeling the greatest impact. The Community Development Block Grant 
program is an effective program that helps support homeownership, 
housing rehabilitation and economic development programs. This proven 
HUD program not only helps improve individual communities, but serves 
to strengthen the local economy. Yet once again, President Bush has 
attempted to dismantle a program serving the housing needs of low- and 
middle-income Americans. He has proposed merging the CDBG with other 
programs and decreasing the spending by $86 million. Given the 
turbulence in the housing market, now is not the time to cut programs 
that support housing development.
    Connecticut, like much of the Northeast, is vulnerable to fuel oil 
shortages and price spikes due to the high demand for heating oil. The 
Energy Information Administration projected that the cost to heat a 
home this year increased by $375 to $1,841. Families in eastern 
Connecticut are paying approximately $3.40 per gallon for heating oil, 
nearly a dollar increase from last year. I have seen no indication that 
this trend will reverse itself, so I am perplexed as to why the 
Administration cut by $320 million. This cut will mean that Connecticut 
receives $6.6 million less which will be troubling to families that 
avail themselves of LIHEAP funding in eastern Connecticut.
    At a time when ensuring our nation's security is of paramount 
importance, President Bush cuts funding for a variety of first 
responder programs. It outright eliminates the COPS program, which 
provides grants to communities to hire and train police officers and 
improve their telecommunications capacity. The budget cuts $465 million 
from Fire Grants that help local departments obtain equipment, gear, 
vehicles and additional training. Connecticut would stand to lose over 
$5 million from this budget cut alone.
    The President gives little attention to infrastructure investment. 
The budget cuts the Federal--Aid Highways program by $800 million to 
maintain current services. This funding is critical to my district and 
the entire State of Connecticut, which stands to lose $8.3 million. 
Eastern Connecticut faces many unique circumstances and the state 
itself has 48 percent of roads and 34 percent of bridges are 
deteriorating. The budget also significantly cuts the Clean Water State 
Revolving Fund by $148 million below the level needed to maintain 
current services. The cost to Connecticut if this federal water quality 
program is cut stands at nearly $2 million.
    I urge you to restore these ill-conceived budget cuts. It is 
important to the families, schools and businesses in eastern 
Connecticut. Thank you Mr. Chairman.

    Mr. Etheridge. I thank the gentleman from Connecticut and 
for his commitment to not only his people in Connecticut, but 
the people of America. Thank you for your testimony.
    The next member we will recognize for testimony is the 
gentle lady from Hawaii, Ms. Hirono, and welcome. We are 
pleased to receive your testimony. You are recognized for five 
minutes. And without objection, your full statement will be 
entered into the record.

 STATEMENT OF HON. MAZIE HIRONO, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF HAWAII

    Ms. Hirono. Thank you, Mr. Chairman. I am grateful for this 
opportunity to provide my input as you work to prepare the 
budget resolution for fiscal year 2009.
    I am deeply concerned about the many cuts to vital programs 
proposed in President Bush's budget, including those affecting 
veterans, Medicare, Medicaid, homeland security, medical 
research, education, environmental programs, and so much more.
    In fact, given all the problems with the President's 
budget, one hardly knows where to begin or end. I have decided 
to focus my remarks on some of the proposed cuts that if 
sustained would severely impact the economies of my state and 
yours.
    I am deeply concerned about the effect the current economic 
downturn will have in my district and want to be sure that the 
investment we made by passing the economic stimulus package is 
not undermined by under-funding critical federal programs.
    I represent Hawaii's 2nd District which is comprised of 
seven inhabited islands. Most of my district is rural. Many of 
the challenges facing my district are unique because it is 
spread over many islands and is so remote from the mainland 
U.S. However, I know that we share many of the concerns of 
rural communities throughout the country.
    I ask that the Committee ensure that vital federal programs 
that help support economic development in our communities are 
maintained at the fiscal year 2008 purchasing levels in fiscal 
year 2009.
    Since the release of the President's budget, I have heard 
from many nonprofit groups in Hawaii that rely on these federal 
funds to leverage their ability to raise additional funds for 
economic development, job training, job creation, and other 
vital programs to move our economy forward.
    They are deeply worried about the proposed cuts. The 
following are among the most important programs for localities 
in my district.
    First, Community Development Block Grant Program, CDBG. The 
President's budget cuts CDBG by almost 20 percent of what would 
be needed to maintain 2008 purchasing power. CDBG funds are 
highly valued by the counties in my district because these 
funds provide flexibility for local governments to respond to 
local problems, whether in providing affordable housing, 
economic development, job creation, or meeting other critical 
needs.
    We should be increasing, not decreasing, this assistance. 
The proposed cut will cost my state some 2.8 million at a very 
difficult time.
    Second, surface transportation funding. The President's 
proposed cuts in transportation funding below the levels 
authorized by Congress is the wrong move at a time when we need 
to be investing in building and repairing our nation's vital 
transportation infrastructure.
    These projects would provide jobs during this economic 
downturn and ensure our future economic competitiveness. The 
proposed cuts would cost my state an estimated 2.5 million in 
2009.
    Third, Clean Water State Revolving Fund and Drinking Water 
State Revolving Funds. The President's budget provides the 
lowest level of funding ever measured in terms of purchasing 
power for the Clean Water State Revolving Fund and the Drinking 
Water State Revolving Fund.
    Our states and local communities rely on these programs to 
upgrade and replace our aging waste water collection and 
treatment systems and to ensure safe drinking water for all of 
our communities. These funds ensure the health and safety of 
our citizens and provided needed jobs.
    Fourth, job training. We must help our citizens adjust to 
changing demands in our economy and ensure that we have a well-
trained workforce. Please reject the President's proposal to 
cut funding for job training by 1.1 billion compared with the 
level provided in 2008.
    Fifth, crime prevention. The President's budget estimates 
several law enforcement programs created by Congress that 
assist state and local governments in combating crime, 
including the Edward Byrne Memorial Justice Assistance Program, 
the Byrne Discretionary Grants, Drug Courts, and the Community 
Oriented Policing Services, COPS Program. Please reject these 
eliminations and restore funding to these proven programs.
    Last, but not least, Social Services Block Grant, SSBG. 
Please reject the President's proposal to cut SSBG funding by 
almost 30 percent. This grant gives states the discretion to 
provide social services such as child care, child welfare, 
home-based services, employment services, services for the 
disabled, depending on needs in each state.
    Many working families cannot get by without the support 
these programs provide. The President's proposed cuts would 
cost Hawaii some 2.1 million in 2009.
    These programs are just a sampling of the many successful 
programs that Congress has created and supported over the years 
to help our communities and to encourage economic development.
    I ask the Committee build on the excellent work it 
accomplished last year and reject the President's proposed 
cuts.
    Finally, I ask that the Committee reject the proposed cuts 
to educational, health, and housing programs benefitting native 
Hawaiians. As one of only two members in the House representing 
Hawaii, I ask that you support continued funding for these 
authorized and long-standing programs for our indigenous 
peoples, the native Hawaiians.
    Mahalo and aloha for listening to my concerns.
    [The prepared statement of Mazie Hirono follows:]

    Prepared Statement of Hon. Mazie K. Hirono, a Representative in 
                   Congress From the State of Hawaii

    Chairman Spratt, Ranking Member Ryan, and members of the House 
Committee on the Budget, I am very grateful for this opportunity to 
provide my input as you work to prepare the Budget Resolution for 
Fiscal Year 2009. I am deeply concerned about the many cuts to vital 
programs proposed in President Bush's budget, including those affecting 
veterans, Medicare, Medicaid, homeland security, medical research, 
education, environmental programs, and so much more. In fact, given all 
of the problems with the President's budget, one hardly knows where to 
begin or end. I've decided to focus my remarks on some of his proposed 
cuts that, if sustained, would severely impact the economies of my 
state and yours. I am deeply concerned about the effect the current 
economic downturn will have in my district and want to be sure that the 
investment we made by passing the economic stimulus package is not 
undermined by under-funding critical federal programs.
    I represent Hawaii's second district, which is comprised of seven 
inhabited islands. Most of my district is rural. Many of the challenges 
facing my district are unique because it is spread over many islands 
and is so remote from the mainland United States; however, I know that 
we share many of the concerns of rural communities throughout the 
country.
    I ask that the Committee ensure that vital federal programs that 
help support economic development in our communities are maintained at 
least at FY2008 purchasing levels in FY2009. Since the release of the 
President's budget, I have heard from many nonprofit groups in Hawaii 
that rely on these federal funds to leverage their ability to raise 
additional funds for economic development, job training, job creation, 
and other vital programs to move our economy forward; they are deeply 
worried about the proposed cuts. The following are among the most 
important programs for localities in my district:
    <bullet> Community Development Block Grant Program (CDBG). The 
President's budget cuts CDBG by almost 20% of what would be needed to 
maintain 2008 purchasing power. CDBG funds are highly valued by the 
counties in my district because these funds provide flexibility for 
local governments to respond to local problems, whether in providing 
affordable housing, economic development, job creation, or meeting 
other critical needs. We should be increasing, not decreasing, this 
assistance. The proposed cut would cost my state some $2.8 million at a 
very difficult time.
    <bullet> Surface Transportation Funding. The President's proposed 
cuts in transportation funding below the levels authorized by Congress 
is the wrong move at a time when we need to be investing in building 
and repairing our nation's vital transportation infrastructure. These 
projects would provide jobs during this economic downturn and ensure 
our future economic competitiveness. The proposed cuts would cost my 
state an estimated $2.5 million in 2009.
    <bullet> Clean Water State Revolving Fund and Drinking Water State 
Revolving Funds. The President's budget provides the lowest level of 
funding ever (measured in terms of purchasing power) for the Clean 
Water State Revolving Fund and the Drinking Water State Revolving Fund. 
Our states and local communities rely on these programs to upgrade and 
replace our aging wastewater collection and treatment systems and to 
ensure safe drinking water for all our communities. These funds ensure 
the health and safety of our citizens and provide needed jobs.
    <bullet> Job Training. We must help our citizens adjust to changing 
demands in our economy and ensure that we have a well-trained 
workforce. Please reject the President's proposal to cut funding for 
job training by $1.1 billion compared with the level provided in 2008.
    <bullet> Crime Prevention. The President's budget eliminates 
several law enforcement programs created by Congress that assist state 
and local governments in combating crime, including the Edward Byrne 
Memorial Justice Assistance Program, Byrne Discretionary Grants, Drug 
Courts, and the Community-Oriented Policing Services (COPS) program. 
Please reject these eliminations and restore funding to these proven 
programs.
    <bullet> Social Services Block Grant (SSBG). Please reject the 
President's proposal to cut SSBG funding by almost 30 percent. This 
grant gives states the discretion to provide social services such as 
child care, child welfare, home-based services, employment services, 
and services for the disabled, depending on needs in each state. Many 
working families cannot get by without the support these programs 
provide. The President's proposed cuts would cost Hawaii some $2.1 
million in 2009.
    This list of programs is just a sampling of the many successful and 
valued programs that Congress has created and supported over the years 
to help our communities and to encourage economic development. I ask 
that the Committee build on the excellent work it accomplished last 
year and reject the President's proposed cuts.
    Finally, I ask that the Committee reject the proposed cuts to 
educational, health, and housing programs benefiting Native Hawaiians. 
As one of only two members in the House representing Hawaii, I ask that 
you support continued funding for these authorized and longstanding 
programs.
    Mahalo for listening to my concerns.

    Mr. Etheridge. I thank the gentle lady for her testimony, 
for her great advocacy not only for her state, but for the 
needs of this country.
    The next member to testify will be the gentleman from 
Texas, Mr. Rodriguez. Welcome. We are pleased to receive your 
testimony. You are recognized for five minutes. And without 
objection, your full statement will be entered into the record.

STATEMENT OF HON. CIRO RODRIGUEZ, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Rodriguez. Thank you, Mr. Chairman.
    I would like to begin by telling you a little bit about my 
district. It's the 23rd Congressional District of Texas. The 
district is one of the largest in the country. It spans 785 
miles on the border with Mexico. I also represent the south and 
northwest sides of San Antonio.
    My district is also both very urban in San Antonio and very 
rural in west Texas. We have farming, ranching, and we have the 
state-of-the-art when it comes to the military and biotech 
research. Just like the district and its diversity, the needs 
are also extremely diverse.
    As you well know, the President released his budget request 
earlier this month. The budget does not reflect the many 
priorities and the needs of my constituency and that I hope 
that this Committee with its leadership will be able to address 
some of these needs. And I will provide you with a blueprint of 
the some of the concerns that we have.
    First of all, as it relates to the base realignment 
enclosure referred to as the BRAC, one of the main number one 
problems that we might have is that the military installations 
in San Antonio are expected to bring, you know, the presence of 
economic boom as a result of this particular effort.
    San Antonio will provide much of the healthcare as well as 
the medical training for the entire Department of Defense as a 
result of BRAC. Any delays or under-funding can increase the 
future of this construction cost.
    I respectfully ask the Committee not only to provide the 
funding for the BRAC, which is essential in the 
recommendations, but also provide legislative language to 
prioritize any BRAC considerations related to defense and 
healthcare programs.
    I believe that the language will allow the military to be 
able to prepare to provide not only the training but the 
adequate healthcare needs of our soldiers through the BRAC 
process. So I would ask for those serious considerations.
    Secondly, the U.S. border, the Mexico Border Program at the 
Environmental Protection Agency funds the Project Development 
Assistance Program and the Border Environmental Infrastructure 
Fund.
    The President requests the funding levels of ten million 
for 2009 that would lead to fulfilling only five percent of the 
program's needs. This program has received as much as 100 
million in annual appropriations. And to be cut to ten million 
is a drastic cut.
    The President over the last two years has requested only 
ten million for this program. Many small, rural, and low-income 
communities rely on the program like this to provide the most 
basic necessities such as water and waste water infrastructure 
along the border. I strongly urge the Committee's 
recommendation of 100 million for EPA U.S. Mexico Border 
Program.
    Thirdly, recent routine safety inspections found that four 
dams operated and maintained by the IBWC were all found to be 
unsafe. The IBWC does not believe that they are an immediate 
danger, but continuing to neglect will lead to disrepair and 
danger in these particular areas.
    The IBWC has estimated that the U.S. cost to rehabilitate 
these dams' infrastructure is 30 million. The largest and most 
need of repair is the Omistot Dam. The water reservoir created 
by the dam is the Omistot national recreation area. This unit 
of the National Park System hosts over a million tourists each 
year.
    This dam is located on the Mexican-U.S. border. And this 
year, the President requested only one million for the dam 
rehabilitation at the IBWC. This one million is barely enough 
to maintain the brand new dams and nowhere near the needs for 
rehabilitating those that are in danger.
    I request that the Committee maintain for this 
infrastructure and that we request the Committee recommend $30 
million for the IBWC construction account.
    And, fourthly, the Southwest Border Prosecution Initiative 
and the State Criminal Alien Assistance Program reimbursement 
for states and counties and other jurisdictions for costs 
incurred for undertaking a federal responsibility such as 
prosecuting federal cases or incarceration of federal crimes 
with aliens.
    The Southwest Border Prosecution Initiative was funded at 
30 million in 2008, a ten million cut from the 2007, and is 
authorized at 750 million for 2006 and 850 million for 2007 and 
950 million for 2008. But in 2008, it only received 410 
million, almost a cut of a half of its resources.
    The reimbursement that is received is also a fraction of 
the cost that is needed in order to make this happen. I request 
the Committee recommend 50 million above the initial request 
and 950 million in order for us to continue to move forward on 
the prosecution initiatives.
    And, finally, an issue that I wanted to share with you, the 
Animal, Plant Health Inspection Services that are important. I 
respectfully ask or request that the Committee consider 12 
million for the cattle, fever tick eradication program. It is a 
real serious program that we have on the border with Mexico and 
the fever ticks do domestic damage in our area. So I ask for 
your support in that area.
    And I want to thank you personally for allowing me this 
opportunity to testify before your Committee. Thank you, Mr. 
Chairman.
    [The prepared statement of Ciro Rodriguez follows:]

   Prepared Statement of Hon. Ciro D. Rodriguez, a Representative in 
                    Congress From the State of Texas

    Mr. Chairman, Ranking Member Ryan and Members of the Committee: I 
would like to begin by telling you a bit about the district I 
represent, the 23rd District of Texas,. My district is very large, 
spanning 785 miles of border with Mexico. I also represent South and 
Northwest San Antonio. My district is both very urban in San Antonio 
and very rural in West Texas. We have farming and ranching and we have 
state of the art military and biotech research. And just like the 
district itself, the needs of the district are very diverse.
    As you well know, the President released his budget requests early 
this month. That budget does not reflect the many priorities and needs 
of my constituents and I hope this committee, under the leadership of 
Chairman Spratt and Ranking Member Ryan, will provide a budget 
blueprint that better suits the needs of my district.
    There are many federal programs that are valuable to my 
constituents that would be negatively impacted under the Presidents 
proposals such as JAG law enforcement grants, EDA grants and others 
programs, but I am glad to have this opportunity to be before the 
committee on behalf of my constituents to convey some of their 
priorities and I would strongly urge this committee to consider them in 
their budget.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    Military installations in San Antonio are expected to bring an 
unprecedented economic boom to the entire region. San Antonio will 
provide much of healthcare as well as the medical training for the 
entire Department of Defense as a result of BRAC. Funding to implement 
BRAC recommendations is widely supported in Congress. Any delay or 
under funding can increase future construction costs. I respectfully 
request the committee not only provide for full funding of the BRAC 
recommendations but also provide legislative language to prioritize any 
BRAC construction related to Defense Health Programs. I believe this 
language will assure our military is prepared to train and provide for 
adequate healthcare by the BRAC recommended deadline.

                        US-MEXICO BORDER PROGRAM

    The US-Mexico Border Program at the Environmental Protection Agency 
funds the Project Development Assistance Program (PDAP) and Border 
Environment Infrastructure Fund (BEIF). The US Mexico Program account 
received $25.5 million in FY08, a $24.5 million cut from FY07. The 
President requested a funding level of $10 million in FY09 that would 
lead to fulfilling only 5% of the program needs. This program has 
received as much as $100 million in annual appropriations. From FY03 to 
FY06 the US-Mexico Border Program received $50 million. The President, 
over the last two years has requested only $10 million for this 
program. The US-Mexico Border program leverages $2 additional dollars 
for every $1 of federal funds. This is a great program. Many small, 
rural, low income communities rely on programs like this to provide the 
most basic necessities such as water and wastewater infrastructure. I 
strongly urge the committee recommend $100 million for EPA's US-Mexico 
Border Program.

           INTERNATIONAL BOUNDARY AND WATER COMMISSION (IBWC)

    A recent routine safety inspection found that four dams operated 
and maintained by IBWC were all found to be unsafe. IBWC does not 
believe there is immediate danger, but continued neglect could lead to 
disrepair and danger. IBWC has estimated the U.S. costs to rehabilitate 
dam infrastructure to be around $30 million. The largest and most in 
need of repair is the Amistad Dam in my district. The water reservoir 
created by the dam is the Amistad National Recreation Area. This unit 
of the National Parks system hosts over a million tourists a year and 
is home to some of the best bass fishing in the world. Despite these 
extensive infrastructure challenges, the median appropriation for 
IBWC's construction account between FY95 and FY07 is $5.939 million. 
This year the President requested $1 million for dam rehabilitation at 
the IBWC. $1 million is barely enough to maintain a brand new dam, and 
no where near enough to rehabilitate those in danger. A significant 
commitment to maintaining and rehabilitating our infrastructure is 
needed. I request this committee recommend $30 million for IBWC's 
construction account.

             LOCAL REIMBURSEMENTS IN DEPARTMENT OF JUSTICE

    Southwest Border Prosecutor Initiative (SWBPI) and the State 
Criminal Alien Assistance Program (SCAAP) reimburses State, county, and 
other jurisdictions for costs incurred for undertaking a federal 
responsibility such as prosecuting federal cases or incarceration of 
federal criminal aliens. The Southwest Border Prosecutor Initiatives 
was funded at $30 million in FY08 a $10 million cut from FY07. SCAAP is 
authorized at $750 million for FY2006, $850 million for FY2007, and 
$950 million for FY2008-FY2011. In FY08, SCAAP received $410 million. 
The reimbursement that is received is only a fraction of the costs that 
our local communities are incurring. The Presidents budget has been 
trimming down the Southwest Border Prosecutors program and has 
eliminated funding for SCAAP every year. I believe the Federal 
Government needs to pay for its responsibilities and should not place 
their burden on local governments. I request the committee recommend 
$50 million for the Southwest Border Prosecutors Initiative and that 
SCAAP be funded at its current authorized level.

                 CATTLE FEVER TICK ERADICATION PROGRAM

    Animal and Plant Health Inspection Services (APHIS) operates a 
program to eradicate cattle fever ticks from cattle in South and West 
Texas. Fever ticks, which are native to Mexico and spread from white-
tailed deer to cattle, are a devastating to the cattle industry along 
the border. The president requested $9.674 million for FY2007, but the 
program received only $7.653 million. This was the same funding level 
as FY2007. USDA dedicated an additional $513,000 in contingency funds 
for the program during FY2007 due to increased tick presence. Maverick 
County and other counties in my district have been hit hard and a cut 
in resources means a greater strain on both local resources and the 
cattle industry of Texas. I respectfully request that the committee 
consider $12 million for the Cattle Fever Tick Eradication Program at 
USDA.
    I would like to thank the committee for the time. As I mentioned, 
these are only a few programs that are important to the communities of 
the 23rd district of Texas. This committee's leadership in creating a 
funding blueprint by which the Congress provides appropriations is 
vital to the process. I strongly urge you to consider the needs of my 
constituents. Thank you for your time and I'll be glad to answer any 
questions you may have.

    Mr. Etheridge. I thank the gentleman for his testimony. We 
appreciate your time.
    The next member to testify is the gentleman from 
California, Mr. Honda. Welcome. And we are pleased to receive 
your testimony. You are recognized for five minutes. And 
without objection, your full statement will be entered into the 
record.

 STATEMENT OF HON. MICHAEL HONDA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Honda. Thank you, Mr. Chairman. Mr. Chairman, members 
of the House Budget Committee, thank you for this opportunity 
to express my views on what I believe should be key priorities 
in the fiscal year 2009 federal budget. As a former member of 
this distinguished Committee, it is a great pleasure to speak 
before you today.
    Mr. Chairman, as a former teacher and principal, promoting 
quality education continues to be one of my top priorities here 
in Congress. I voted in favor of the No Child Left Behind with 
great trepidation.
    While I support setting higher standards for our nation's 
schools, I fear that without the necessary resources, the 
legislation would impose unfunded mandates on our schools, 
teachers, and our students. Unfortunately, that fear has come 
true.
    Today I hear from countless numbers of teachers, 
principals, and school board members who are struggling with 
the mandates set out by the ``No Child Left Behind Act'' while 
facing severe budgetary cuts.
    In Santa Clara County, there are teachers who have only 
been given one box of paper for their students for the entire 
year. There are teachers who do not have access to copy 
machines anymore because the schools have shut them down.
    That is why I am disappointed in the President's budget 
request for fiscal year 2009 and why I believe we must provide 
greater resources for education than the President has 
suggested.
    President Bush's budget ignores inflation and increases in 
student enrollment by proposing to spend about the same amount 
as last year for the Department of Education. Providing a mere 
one-half of one percent increase in funding for No Child Left 
Behind is essentially a cut and leaves funding about $15 
billion below the level authorized for 2009.
    In addition, the budget proposed to redirect a greater 
proportion of Title I funds to high schools. This redirection 
will translate into even less funding to support K-8 education.
    The Administration once again proposes a 300 million 
voucher program for students in failing schools, this year 
called Pell Grants for Kids, to be paid for by eliminating 
existing programs such as Vocational Education State Grants, 
Native American, Native Hawaiian institutions, tribally-
controlled, post secondary career and technical institutions, 
Education Technology State Grants, and Even Start, and 
dramatically cut others such as after school programs and 
minority-serving institutions.
    In addition, the President's budget once again fails to 
fully fund the ``Individual With Disabilities Education Act'' 
or IDEA. As the Budget Committee is aware, the Federal 
Government made a commitment to provide 40 percent of the cost 
of educating children with disabilities in 1975. Congress has 
failed to meet that commitment for over 29 years.
    This is simply unacceptable. That is why I am here today to 
urge the Committee to make education a top priority by fully 
funding IDEA and increasing funding for the ``No Child Left 
Behind Act.''
    Mr. Chairman, I am also here today to oppose the 
President's attempt once again to eliminate the State Criminal 
Alien Assistance Program in this budget. SCAAP reimburses state 
and local governments for the cost of incarcerating criminal 
aliens and it is vital to border states such as California, 
which incarcerated disproportionately high share of 
undocumented criminal aliens.
    In addition, the President's budget would eliminate several 
crucial programs that will affect the health and well-being of 
my constituents as well as the nation as a whole. For example, 
he proposes to eliminate the Urban Indian Health Program which 
provides unique services for those Native Americans living 
outside of reservations as a result of federal relocation 
policies and the unfortunate socioeconomic realities that 
persist on reservations.
    The President's budget also proposes to eliminate the Title 
7 Health Professions programs. These programs aim to increase 
the diversity of our healthcare workforce as well as improve 
the quality of healthcare in low-income and racial and ethnic 
minority populations.
    In addition, the budget includes no direct funding for the 
Drug Court Program. It woefully under-funds many other 
important justice programs such as juvenile justice programs 
and prevention of violence against women.
    Drug Courts are an effective and popular method for the 
judicial system, mental health, social service, and treatment 
communities to intervene and break the cycle of substance 
abuse, addiction, and crime.
    I am somewhat encouraged by the fact that the President has 
included some important funding increases for scientific 
research that will help our nation to maintain its competitive 
position in the global marketplace which is critical to my 
Silicon Valley district.
    Unfortunately, he has once again chosen to rob Peter to pay 
Paul by proposing to eliminate programs that have a proven 
track record of aiding small businesses and creating new jobs.
    He has not provided enough for science, technology, 
engineering, and mathematics education to prepare the workforce 
we will need to remain competitive in the future. He has not 
provided the funding for NASA that we will need to achieve the 
challenge and exploration goals he has set for the Agency while 
still performing its core science and aeronautics activities.
    As Chairman of the Congressional Asian-Pacific American 
Caucus, I would like to highlight three issues of importance to 
the Asian-American Pacific Islander community in this year's 
budget.
    First, during World War II, Filipino soldiers fought under 
the flag of the United States to help our nation secure 
victory. These soldiers were denied veterans' benefits that 
they were promised and they earned. And it is my hope that this 
year, the House and Senate will right that injustice by passing 
legislation to restore those benefits. I ask that the Budget 
Committee make room within the budget as they did last year 
within the budget resolution to accommodate this fix should 
legislation be passed.
    Second, the ``College Cost Reduction Act of 2007'' created 
a new category of Asian-American Pacific Islander serving 
institutions of higher education. We ask that the Budget 
Committee provide for up to $25 million in funding for this 
newly-designated class of institutions.
    Finally, in 2006, Congress passed legislation to preserve 
the interment camps where Japanese Americans were detained 
during World War II. The National Park Service has been 
developing a plan for the preservation of the sites and $5 
million is needed in the fiscal year 2009 budget to help make 
this happen.
    I understand that the Budget Committee is being asked to 
make these funding decisions in the context of a deficit. 
However, the Federal Government has an obligation to invest in 
future growth.
    Our nation's historical commitment to education, 
healthcare, and innovation and competitiveness has served us 
well and we must reaffirm that commitment in the fiscal year 
2009 budget resolution.
    I respectfully ask the Committee to fully fund IDEA and 
provide substantial increases for the ``No Child Left Behind 
Act,'' allocate sufficient funding for vital health programs, 
ensure that we can maintain our international competitiveness 
in science and innovation.
    I thank you for the opportunity to testify.
    [The prepared statement of Mike Honda follows:]

   Prepared Statement of Hon. Michael M. Honda, a Representative in 
                 Congress From the State of California

    Chairman Spratt, Ranking Member Ryan, and Members of the House 
Budget Committee, thank you for this opportunity to express my views on 
what I believe should be key priorities in the Fiscal Year 2009 federal 
budget. As a former Member of this distinguished committee, it is a 
great pleasure to speak before you today.
    Mr. Chairman, as a former teacher and principal, promoting quality 
education continues to be one of my top priorities here in Congress. I 
voted in favor of the No Child Left Behind Act with great trepidation. 
While I support setting higher standards for our nation's schools, I 
feared that without the necessary resources, the legislation would 
impose unfunded mandates on our schools, our teachers, and our 
students. Unfortunately, that fear has come true.
    Today, I hear from countless numbers of teachers, principals, and 
school board members who are struggling with the mandates set out by 
the No Child Left Behind Act while facing severe budgetary cuts. In 
Santa Clara County, there are teachers who have only been given one box 
of paper for their students for the entire year. There are teachers who 
do not have access to copy machines anymore because the schools have 
shut them down.
    That is why I am disappointed in the President's Budget Request for 
Fiscal Year 2009, and why I believe we must provide greater resources 
for education than the President has suggested. President Bush's budget 
ignores inflation and increases in student enrollment by proposing to 
spend about the same amount as last year for the Department of 
Education. Providing a mere one half of one percent increase in funding 
for NCLB is essentially a cut, and leaves funding about $15 billion 
below the level authorized for 2009. In addition, the budget proposes 
to redirect a greater proportion of Title I funds to high schools. This 
redirection will translate into even less funding to support K-8 
education.
    The Administration once again proposes a $300 million voucher 
program for students in failing schools, this year called ``Pell Grants 
for Kids,'' to be paid for by eliminating existing programs such as 
Vocational Education State Grants, Native American/Native Hawaiian 
Institutions, Tribally Controlled Postsecondary Career and Technical 
Institutions, Education Technology State Grants and Even Start, and 
dramatically cutting others, such as after school programs and minority 
serving institutions.
    In addition, the President's budget once again fails to fully fund 
the Individuals with Disabilities Education Act, or IDEA. As the Budget 
Committee is aware, the Federal government made a commitment to provide 
40% of the cost of educating children with disabilities in 1975. 
Congress has failed to meet that commitment for over 29 years. This is 
simply unacceptable. That is why I am here today to urge the committee 
to make education a top priority by fully funding IDEA and increasing 
funding for the No Child Left Behind Act.
    Mr. Chairman, I am also here today to oppose the President's 
attempt, once again, to eliminate the State Criminal Alien Assistance 
Program in this budget. SCAAP reimburses state and local governments 
for the costs of incarcerating criminal aliens, and is vital to border 
states such as California which incarcerate a disproportionately high 
share of undocumented criminal aliens.
    In addition, the President's budget would eliminate several crucial 
programs that will affect the health and well being of my constituents 
as well as the nation as a whole. For example, he proposes to eliminate 
the Urban Indian Health Program, which provides unique services for 
those Native Americans living outside of reservations as a result of 
federal relocation policies and the unfortunate socio-economic 
realities that persist on reservations. The President's budget also 
proposes to eliminate the Title VII Health Professions Programs. These 
programs aim to increase the diversity of our healthcare workforce as 
well as improve the quality of health care in low-income and racial and 
ethnic minority populations.
    In addition, the budget includes no direct funding for the drug 
court program and woefully underfunds many other important justice 
programs such as juvenile justice programs and prevention of violence 
against women. Drug courts are an effective and popular method for the 
judicial system, mental health, social service, and treatment 
communities to intervene and break the cycle of substance abuse, 
addiction, and crime.
    I am somewhat encouraged by the fact that the President has 
included some important funding increases for scientific research that 
will help our nation to maintain its competitive position in the global 
marketplace, which is critical to my Silicon Valley district. 
Unfortunately, he has once again chosen to ``rob Peter to pay Paul'' by 
proposing to eliminate programs that have a proven track record of 
aiding small businesses and creating new jobs, he has not provided 
enough for Science, Technology, Engineering, and Mathematics Education 
to prepare the workforce we will need to remain competitive in the 
future, and he has not provided the funding NASA will need to achieve 
the challenging exploration goals he has set for the agency while still 
performing its core science and aeronautics activities.
    As Chairman of the Congressional Asian Pacific American Caucus, I 
would like to highlight three issues of importance to the AAPI 
community in this year's budget.
    First, during World War II, Filipino soldiers fought under the flag 
of the United States to help our nation secure victory. These soldiers 
were denied veterans' benefits that they earned, and it is my hope that 
this year the House and Senate will right that injustice by passing 
legislation to restore those benefits. I ask that the Budget Committee 
make room within the budget resolution to accommodate this fix should 
legislation be passed.
    Second, the College Cost Reduction Act of 2007 created a new 
category of Asian American and Pacific Islander Serving Institutions of 
higher education. We ask that the budget committee provide for up to 
$25 million in funding for this newly designated class of institutions.
    Finally, in 2006, Congress passed legislation to preserve the 
internment camps where Japanese Americans were detained during World 
War II. The National Parks Service has been developing a plan for the 
preservation of the sites, and $5 million is needed in the Fiscal Year 
2009 budget to help make this happen.
    I understand that the Budget Committee is being asked to make these 
funding decisions in the context of a deficit. However, the Federal 
Government has an obligation to invest in future growth. Our nation's 
historical commitment to education, health care, and innovation and 
competitiveness has served us well, and we must reaffirm that 
commitment in the FY 2009 budget resolution.
    I respectfully ask the committee to fully fund IDEA and provide 
substantial increases for the No Child Left Behind Act, allocate 
sufficient funding for vital health programs, and ensure that we can 
maintain our international competitiveness in science and innovation. 
Thank you for the opportunity to testify.

    Mr. Etheridge. I thank the gentleman for his testimony. 
Thank you, sir.
    The next member to testify will be the gentleman from 
Vermont, Mr. Welch. Welcome. We are pleased to receive your 
testimony. You are recognized for five minutes. And without 
objection, your full statement will be entered into the record.

  STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VERMONT

    Mr. Welch. Mr. Chairman, thank you very much. Rather than 
make a traditional presentation dealing with the specifics of 
the President's budget, I would like to use my time, if I 
could, to talk about its real world impact on people that I 
represent in Vermont. There are Vermonters who will be directly 
affected by the decisions that we make in this budget.
    Scott West, Mr. Chairman, is a veteran of the National 
Guard. He lives in the town of Albany in the Northeast Kingdom 
of Vermont. He used to drive a truck for a living. And when he 
was deployed to Kuwait in support of Operation Iraqi Freedom, 
he suffered severe injuries to his shoulder, back, and wrist. 
In May, the pain from his injuries got so bad he could not 
continue his job as a truck driver.
    Nine months ago, he filed his claim for increased 
disability compensation from the VA. As of today, he continues 
to wait for the VA to process paperwork and award him the 
benefits to which he is entitled. And his next hearing is not 
scheduled until April 15, which will be nearly a full year from 
when he filed his claim. He has run out of money and his bills 
continue to mount.
    Last year, this Committee made an unprecedented commitment 
to the care of our nation's veterans budgeting the largest 
increase in the 77-year history of the VA and a larger increase 
than the combined total of the six previous years in Congress. 
And good work.
    This increase is going to allow the VA to hire an 
additional 1,800 claim processors to help ensure that veterans 
like Scott will receive in a timely way the support they have 
earned. And I thank the Committee and the leadership for its 
commitment there.
    Peter and Irma McShane, they live in Pownal, Vermont, 
senior citizens, live frugally on $1,452 per month. Yet, on 
that limited amount of money, they are $22.00 too much to 
quality for food stamps, so they have a tough time trying to 
make their family budget with coupons and shopping around for 
the best deals. But no amount of their thriftiness can make up 
for the dramatic increases in the cost of home heating oil.
    Purchasing enough heating oil last winter cost the McShanes 
over $1,500. That is over a month of what their total income 
is. As the cold weather began to hit Vermont last fall, Peter 
and Irma needed help or they were not going to be able to 
afford to heat their home. They applied for fuel assistance 
through the state in November and received help through LIHEAP, 
the Low Income Heating Assistance Program.
    That is an indispensable program to ensuring that 
Vermonters like the McShanes do not have to choose between 
heating and eating. And even as fuel prices have skyrocketed, 
tripling, as you know, since 2001, the Bush budget would cut 
LIHEAP by $367 million below the amount needed to maintain 
services at the current level.
    Vermont alone would lose $1.87 million when adjusted for 
inflation and I strongly encourage the Committee to restore and 
expand LIHEAP funding so that none of our neighbors already 
struggling to get by are put at risk when confronted with 
heating their homes next winter.
    Meanwhile, I would like to share a letter I received a 
couple of weeks ago from Margaret Kenney of Fletcher, Vermont 
about healthcare and the rising premiums and the rising 
deductibles that raise the question of whether it is even 
practical to have insurance.
    She and her husband ran their own woodworking business for 
13 years, often working six and seven days a week. Each year, 
her health insurance cost more and provided less. Her 
deductibles have increased from $5,000 to $10,000 and now she 
has got ``insurance'' with a $25,000 deductible.
    And what she writes is this. This to me translates to no 
insurance. We actually avoid going to the doctor because we 
cannot do that and afford the monthly premiums. We are 
seriously thinking about giving it up and going with no 
insurance. We are still in our sixties, still a few years away 
from Medicare, and it seems to be the wrong time in our lives 
to be without insurance.
    Now, we cannot fix our nation's healthcare crisis through 
the federal budget alone. It is going to, of course, require a 
comprehensive healthcare reform. But, unfortunately, President 
Bush's proposed budget takes us exactly in the wrong direction, 
calling for a half a trillion dollars in cuts to Medicare and 
Medicaid.
    These cuts will force states to cut back on coverage and 
will further raise insurance premiums by exacerbating the cost 
shift. And I encourage the Committee to reject these reckless 
cuts and to work to ensure that families like the Kenneys can 
obtain coverage at an affordable price.
    I want to just tell a story about Chief Bossi, Anthony 
Bossi from the City of Rutland. They have seen a frightening 
increase in violent crime and drug abuse over the past year and 
they have had multiple drug-related shootings in recent months.
    The scope of the problem cannot be addressed by the limited 
resources available in the Rutland Police Department and Chief 
Bossi relies on funding from federal sources to expand 
Rutland's law enforcement activities.
    And despite the proven record of the Byrne Grant Program in 
reducing crime in Vermont and across the county, the Bush 
budget would cut funding by 174 million below what is needed 
simply to maintain services at the current level, something 
that would translate in Vermont losing $435,000 or 13 police 
officer positions.
    And the City of Rutland is by no means alone in their need 
for additional resources to fight the very severe problem of 
illegal drugs. Towns in all corners of Vermont, Rutland, Barre, 
Saint Albans are experiencing similar issues.
    And, finally, Mr. Chairman, Gretchen Austin Ward, a mother 
of three from Windsor, recently called my office to express her 
desperation about the rising cost of college education. Already 
burdened by the debt of sending her first two kids through 
college, she simply literally cannot afford to send her third 
child to college.
    When we first began offering Pell Grants in the 1970s, they 
covered 77 percent, and I know you are extremely familiar with 
this, 77 percent of the average cost of a four-year public 
institution. Today it is 36 percent.
    We have taken some positive steps in Congress over the past 
year, cutting interest rates on Stafford loans, increasing the 
size of the Pell Grant. We made the largest commitment to 
college affordability since the GI Bill passed in 1944. But we 
have got to continue the effort and fund these programs.
    But at the same time, the Federal Government cannot simply 
write a blank check to our country's institutions. We do have 
to make sure that the higher education institutions help us on 
the cost side.
    Mr. Chairman, thank you again for the opportunity to convey 
these Vermont stories to you today. I look forward to working 
with you and the Committee over the next several weeks to help 
craft a budget that is fiscally responsible, but absolutely 
reflects the needs and priorities of Vermonters and all 
Americans. Thank you, Mr. Chairman.
    [The prepared statement of Peter Welch follows:]

 Prepared Statement of Hon. Peter Welch, a Representative in Congress 
                       From the State of Vermont

    Mr. Chairman, Ranking Member Ryan, and Members of the Committee, I 
would like to thank you for this opportunity to discuss the federal 
budget and its impact on the State of Vermont. The federal budget is 
not an abstract document confined to the halls of Washington. Rather, 
it has a direct impact on citizens across the country.
    Rather than make a traditional presentation detailing the impact of 
the President's budget on programs, I would like to use my time today 
to illustrate its real world impact on people, in particular, the 
people I represent in Vermont. I want to share with you the voices of 
Vermonters by highlighting the cases of several Vermonters I have 
talked to over the last year. These are Vermonters for whom the 
decisions we make in this budget will make a real difference in their 
ability to make ends meet in these difficult economic times.
    Scott West is a veteran of the National Guard who lives in the town 
of Albany in the Northeast Kingdom of Vermont. He used to drive a truck 
for a living. While deployed to Kuwait in support of Operation Iraqi 
Freedom, Scott suffered injuries to his shoulder, back, and wrist. In 
May the pain from his injuries got so bad that he couldn't continue his 
job as a truck driver.
    Nearly nine months ago Mr. West filed a claim for increased 
disability compensation from the VA, and as of today, he continues to 
wait for the VA to process his paperwork and award him the benefits to 
which he is entitled. His next hearing isn't scheduled until April 15, 
which will be nearly a full year from when he first filed his claim. 
Meanwhile, he has virtually run out of money and his bills continue to 
mount.
    Last year, this Committee made an unprecedented commitment to the 
care of our nation's veterans, budgeting the largest funding increase 
in the 77-year history of the Veterans Administration and a larger 
increase than the combined total of the six previous years in Congress. 
This increase will allow the VA to hire an additional 1,800 claims 
processors to help ensure that veterans like Scott will receive the 
support they deserve in a timely manner. I thank you for your 
leadership and would respectfully encourage the Committee to continue 
this commitment to veterans as it develops a budget for 2009.
    Peter and Irma McShane live in Pownal, Vermont. They are senior 
citizens who live very frugally on $1452 per month with very little, if 
any, to spare. Incredibly, they make $22 too much to qualify for food 
stamps, so they always use coupons and shop around to make sure they 
get the best deals on basic necessities.
    But no amount of thriftiness can make up for the dramatic increases 
in the price of home heating oil we have seen in the last year. 
Purchasing enough heating oil to last the winter would cost the 
McShanes over $1500. As the cold weather began to hit Vermont last 
fall, Peter and Irma needed help, or they were not going to be able to 
afford to heat their home. Fortunately, they applied for fuel 
assistance through the state in November and received much needed help 
through the Low-Income Home Energy Assistance Program (LIHEAP).
    LIHEAP is indispensable to ensuring that Vermonters like the 
McShanes don't have to choose between heating their home or putting a 
meal on the table. Even as fuel prices have skyrocketed, tripling since 
2001, President Bush's budget would cut LIHEAP by $367 million below 
the amount needed to maintain services at the current level. Vermont 
alone will lose $1.87 million when adjusted for inflation. I strongly 
encourage the Committee to restore and expand LIHEAP funding so that 
none of our neighbors already struggling to get by are put at risk when 
confronted with heating their homes next winter.
    Meanwhile, I would like to share with you a letter I received a 
couple of weeks ago from Ms. Margaret Kinne of Fletcher, Vermont about 
the rising cost of health care premiums that force her to pay 
deductibles so large that it calls into the point of even having 
insurance. She and her husband ran their own woodworking business for 
13 years, often working 6 or 7 days a week. Each year, her health 
insurance always cost more, and provided less coverage. Her deductibles 
have increased from $5,000 to $10,000 to $25,000. She writes:
    ``This to me translates to no insurance * * * we actually avoid 
going to the doctor because we can't do that and afford the monthly 
premiums. * * *We are seriously thinking about giving it up and going 
with no insurance * * * but we are in our sixties (still a few years 
from Medicare) and it seems to be the wrong time in our lives to be 
without insurance.''
    While we cannot fix our nation's healthcare crisis through the 
federal budget alone--this will require comprehensive health care 
reform, which I support--we can help by making investments that lower 
cost and extend coverage. Unfortunately, President Bush's proposed 
budget takes us in exactly the wrong direction, calling for over half a 
trillion dollars in cuts to Medicare and Medicaid. These cuts will 
force states to cut back on coverage and will further raise insurance 
premiums by exacerbating the cost shift. I encourage the Committee to 
reject these reckless cuts and to work to ensure that families like the 
Kinnes can obtain coverage at an affordable price.
    I recently had the chance to sit down with Police Chief Anthony 
Bossi from the city of Rutland, Vermont. Rutland has seen a frightening 
increase in violent crime and drug abuse over the past year and has 
experienced multiple drug related shootings in recent months. The scope 
of the problem is beyond what can be addressed with local and state 
resources alone. So Chief Bossi relies on funding from the federal 
sources to expand Rutland's law enforcement and drug prevention 
capabilities.
    Despite the proven track record of the Byrne grant program in 
reducing crime in Vermont and across the country, President Bush would 
cut funding by $174 million below what is needed to maintain services 
at the current level. In Vermont, this will result in a loss of 
$435,000, essentially defunding as many as 13 police officer positions. 
The city of Rutland is not alone in their need for additional resources 
to fight the scourge of illegal drugs in their community. Towns in all 
corners of Vermont, from Rutland, to Barre, to St. Albans, are 
experiencing similarly worrisome trends. For those communities, small 
and large, that are struggling to prevent violent crime, I urge the 
Committee to reverse this cut.
    Finally, a mother from Windsor recently called my office to express 
her frustration about the rising cost of a college education. Already 
burdened by the debt of sending her first two children through college, 
she simply cannot afford to send her third child to school.
    When we first began offering Pell grants in the late 1970s, they 
covered 77 percent of the average cost of a four-year public 
institution. Today, they cover just 36 percent. This trend cannot 
continue.
    Congress has taken positive steps over the past year, cutting the 
interest rates on Stafford loans and increasing the size of the Pell 
grant. We made the largest commitment to college affordability since 
the GI Bill passed in 1944. We must now work to fully fund these 
critical programs.
    But at the same time, the Federal Government cannot simply write 
blank checks to our country's institutions of higher education. If 
every increased dollar in financial aid gets burned by an increased 
dollar in tuition, students, families, and taxpayers will continue to 
fall behind. While we must provide financial assistance to families in 
need, we must insist that colleges and universities do more to reduce 
costs and stem the hikes in tuition rates.
    Thank you again for the opportunity to convey these Vermont stories 
to you today. I look forward to working with you over the next several 
weeks to craft a budget that is fiscally responsible and reflects the 
needs and priorities of Vermonters and of all Americans.

    Mr. Etheridge. I thank the gentleman for his testimony and 
thank you for your commitment.
    And without objection, the Committee stands in recess 
subject to the call of the Chair.
    [Recess.]
    Mr. Moore [presiding]. Good afternoon. The next member to 
testify is Congressman Filner. And welcome. We are pleased to 
receive your testimony. You are recognized for five minutes.

STATEMENT OF HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Filner. Thank you, Mr. Chairman. Good to talk to you. 
We should just have a little coffee and talk about this.
    Mr. Moore. Right.
    Mr. Filner. My statement, I have for the record. Let me 
just tell you what I think is going on here on a very summary 
basis.
    With the leadership of your Committee and the Democratic 
leadership, we were able to do a really good job for veterans 
in the last year. We added money in the concurrent resolution 
from the year before. We added money in the supplemental 
resolution. And, of course, there was a big increase in the 
fiscal 2008 budget.
    So I thank all of you and Mr. Spratt for that leadership. 
We hope to continue that upward trend because we have a long 
number of years which we did not keep up with the needs.
    And we have a confluence of enormous numbers of troops 
coming home from Iraq and Afghanistan with the aging especially 
of our Vietnam vets. We have got to take care of both.
    Mr. Moore. Absolutely.
    Mr. Filner. By the way, we think of it as a small war in 
Iraq. We are approaching a million veterans from that war alone 
and their filing of claims is over 350,000 now out of that 
number.
    Contrast that, Mr. Moore, with the official 25,000 or so 
casualty figure that comes out of Iraq, we have got, you know, 
ten or more times that people filing claims. So something is 
disconnected there.
    And as the needs are different with mental health and 
traumatic brain injuries so prevalent, you have to build a 
whole staff around new needs. So we have incredible need 
amongst both the older veterans and newer veterans.
    The Administration in their request did not take that into 
account. They gave basically a five percent or so increase in 
the health budget, in the so-called discretionary part of their 
budget which barely covers inflation. And the only way they 
even got up to that is that they cut virtually every other 
account in their budget. Research, for example. And, cutting 
research is not a good idea. And we have provided you where 
they made all those other cuts.
    And also they did something they have done every year for 
the last seven or eight years, and Congress has never accepted, 
but had fees and co-pays raised for both pharmacy and for 
office visits. Congress has never accepted it. We will not 
accept it this year. So we have got to make up for that money 
that they included in their budget as revenue.
    So what we do is recommend to you a discretionary budget 
which is about eight and a half percent above the 
Administration's request. I am trying to see if I have that 
figure here. It is about an eight percent, a real increase, not 
just the phony, because with the fees in there.
    And if you know what I mean when I say the Independent 
Budget which is put together by the major veterans' groups, 
they put together every year, and as a Ranking Member, I was 
waving that around. It says that is what we ought to fund, that 
is what we ought to fund. And we have a percent higher, in 
fact, of our recommendations above the Independent Budget. So 
that will put us in a position with regards to the veterans 
community in this country very significant.
    So, again, our recommendation increases the 
Administration's request to a real request that takes into 
account that inflation, but also adds to all the accounts that 
they decreased. And we need to make up on the mandatory side 
the money that they assume will come from revenue of increased 
co-payments.
    Our four priorities for the coming year are, one, getting 
rid of the current backlog of disability claims, which is over 
600,000, and we will have plans to do that. There have been in 
past budgets plus-ups, significant plus-ups of personnel, but 
we are going to try to cut it through with a different approach 
to viewing the claims, not as an adversary basis, but on the 
way now the IRS tends to treat your 1040 when you filed. If you 
have a refund check, you will get it in three weeks. Then they 
will audit it later. That is what we would like to see of the 
disability claims system.
    We have to modernize the GI Bill for the 21st century. We 
want to make sure everybody gets mental healthcare and we will 
probably present a more controversial proposal to make the 
healthcare spending part of the mandatory part of the budget. 
But that will be coming to you separately. It has no budget 
consequences, you know, in numbers. It is a way of treating the 
budget in the future.
    We think our recommended views and estimate will put us in 
a position where this Congress can say to our veterans both the 
new ones and the old ones we value your service, we treat you 
with respect, and we are going to take care of your healthcare 
needs.
    That is what we hope to do with your help, Mr. Chairman.
    [The prepared statement of Bob Filner follows:]

  Prepared Statement of Hon. Bob Filner, a Representative in Congress 
                      From the State of California

    Chairman Spratt, Ranking Member Ryan, thank you for hearing my 
views regarding the proposed FY 2009 budget for the Department of 
Veterans Affairs (VA). On Monday, February 4, 2008, the Administration 
submitted its budget for FY 2009 and just three days later, on February 
7, 2008, the Committee on Veterans' Affairs held a hearing to examine 
that budget submission. The Committee is concerned that the 
Administration's Budget for FY 2009 contains only modest increases for 
veterans' health care while paying for this increase with cuts in other 
veterans' programs below the historic levels this Congress provided 
last year. Our Committee Views and Estimates contain concrete 
recommendations regarding the points I will be touching upon briefly 
today.
    Caring for our veterans is an ongoing cost of war, and a continuing 
cost of our national defense. As we look toward the end of this 
Congress, a Congress that has provided unprecedented increases for 
veterans' programs, we must build upon the work we have done and 
provide the VA with the resources it needs to get the job done for our 
veterans and to fulfill our national promises.
    Although the Administration has requested an increase for Medical 
Care, this increase has come at the expense of other VA programs. The 
VA's FY 2009 budget recommends a 5.5 percent increase for Medical Care, 
while recommending cuts in VA major and minor construction of nearly 44 
percent; nearly 49 percent for Grants for Construction of State 
Extended Care Facilities; nearly 8 percent for VA Medical and 
Prosthetic Research; slightly more than 7 percent for the National 
Cemetery Administration; 19 percent for Grants for Construction of 
State Veteran Cemeteries; and, 5 percent for the Office of Inspector 
General.
    I am pleased the Administration asked for an increase in 
appropriated dollars this year for veterans' programs. The 
Administration, for VA discretionary programs, requested $44.8 billion, 
an increase of $1.7 billion, or 3.8 percent, over the FY 2008 level of 
$43.1 billion. Funding for the Veterans Health Administration (which 
includes VA Medical Care and VA Research) comprises 88 percent of the 
VA discretionary budget. The Administration is requesting $38.7 billion 
for VA Medical Care (comprising the Medical Services, Medical 
Administration,* and Medical Facilities accounts) an increase of $2 
billion, or 5.5 percent, over the FY 2008 level of $36.721 billion. 
When medical care collections are included, the Administration is 
recommending a funding level for VA medical care of $41.2 billion 
(compared to $39.1 billion in FY 2008), an increase of $2.1 billion.
    The request for veterans' funding for FY 2009 is simply not 
adequate. An increase for Medical Services of $361 million will not 
begin to meet the requirements imposed on the system by workload 
increases and increases attributable to medical inflation. When the 
Administration's proposed increase for the three accounts that comprise 
medical care of 5.5 percent are compared to a 2007 medical inflation 
rate of 5.2 percent, it is clear the Administration's request is not 
sufficient to continue providing high-quality health care to our 
veterans. The VA health care budget request represents a good initial 
step, but it is only a step--Congress must complete the journey.
    Traumatic Brain Injury (TBI) is considered by many to be the 
signature injury of this war. We must ensure the VA has the resources 
it needs to begin tackling the issues surrounding TBI, as well as the 
resources it needs for VA Polytrauma centers to treat our most 
critically wounded veterans. The Committee recommends an additional $32 
million for TBI care and treatment, a 15 percent increase above the FY 
2009 estimated levels. The Committee believes the VA must be in the 
forefront of providing health care to our veterans with TBI.
    Homelessness among veterans is an ongoing problem, and a major 
concern of the Committee on Veterans' Affairs. The Committee recommends 
an additional $8 million to bring the VA's Grant and Per Diem program 
up to the levels authorized in the 109th Congress. The Committee will 
address changes to the Grant and Per Diem program where appropriate in 
order to begin to effectively address the tragedy of homeless veterans.
    The Administration budget slashes funding for building new health 
care facilities and reduces investment in medical and prosthetic 
research. In the area of Major Construction for FY 2009, the 
Administration is requesting $582 million, a decrease of $488 million, 
or 46 percent, and in Minor Construction the Administration requested 
$329 million, a decrease of $301 million, or 48 percent below the level 
provided in FY 2008. The Committee recommends a funding level for Major 
Construction of $1.1 billion, $511 million above the Administration's 
request, and a level of $674 million, or $344 million above the 
Administration's request for Minor Construction.
    As of February 16, 2008, the inventory of compensation and pension 
claims pending at the VA was 663,319, an increase of 5,351 from the 
previous week, and 36,890 above the 626,429 claims pending this time 
last year. (Source: VA Monday Morning Workload Report, February 16, 
2008). The Committee believes that the VA must embrace non-traditional 
ideas to solve the claims backlog issue, and is recommending that $50 
million be provided to explore various pilot programs and initiatives 
that could revolutionize the process by which veterans receive the 
benefits they have earned. The Committee also believes that the VA may 
need to employ a more radical adjudication process of backlogged claims 
which may require additional funding.
    Sadly, the Administration has once again presented us with a 
request that slashes funding for VA research. The Committee recommends 
funding to restore the proposed cuts of $38 million, as well as 
providing increases for biomedical inflation and overall research 
grants, for a total of $555 million, $75 million above the FY 2008 
level and $113 million above the Administration's request. VA research 
is of direct benefit to veterans, and to all Americans, and it is 
absolutely essential that medical researchers understand that funding 
will be available not only today, but for the years to come.
    Unfortunately, this budget submission also includes legislative 
proposals that have consistently been rejected by Congress, including 
the institution of an enrollment fee and increased pharmaceutical 
copayments (from $8 to $15) for certain veterans. The Administration's 
enrollment fee proposal would take effect in FY 2010 and would charge 
priority 7 and 8 veterans an annual enrollment fee of anywhere from $0 
to $750 dollars based on family income. The revenues received from this 
proposal would be deemed ``mandatory'' revenues and be deposited in the 
U.S. Treasury. Likewise, the amounts attributable to the increased 
pharmacy copayment would also be deemed ``mandatory'' revenues. These 
amounts are netted out of the overall mandatory funding request of the 
VA. The VA has estimated that as many as 444,000 veterans would choose 
not to be enrolled in the VA and as many as 146,000 individual veterans 
would not seek VA health care if its enrollment fee and co-payment 
proposals were adopted. Although these proposals do not affect the 
Administration's FY 2009 request for discretionary resources, we 
understand they are included in the Administration's 5-year mandatory 
spending projections, and that this Committee will have to fill the 
gap. I imagine you share the same frustration we do that this 
Administration continues to offer these proposals year-after-year in 
the face of concerted, and bipartisan, congressional opposition.
    Finally, I am concerned the VA's budget request does not include 
adequate funding to meet the health care needs of our veterans in the 
coming year. We are still faced with the Administration's refusal to 
lift the enrollment ban of new priority 8 veterans, which has been in 
place since January 2003. The VA again submitted a budget that assumes 
the continuation of this enrollment ban. We face the very real prospect 
of more and more of our veterans facing economic hardships and losing 
access to medical care. There are too many uninsured veterans who need 
medical care and cannot afford it.
    The Committee's Views and Estimates builds upon the 
Administration's request, restores proposed cuts, and provides higher 
recommended levels for VA medical care and overall discretionary 
accounts than the Independent Budget.
    Ensuring veterans are provided promised benefits and services are 
issues that we as a Congress must continue to take seriously. We have 
to give the VA the resources needed to care for returning OEF/OIF 
veterans, and we must ensure resources are available for veterans from 
previous conflicts. This won't be cheap, but the service and sacrifice 
of these veterans are real, and the VA's budget must provide realistic 
funding to meet their needs. Veterans should not have to wait for 
health care appointments because the VA does not have the resources to 
care for them. We have to ensure sufficient funding levels in the FY 
2009 budget resolution to meet mental health needs, the needs of women 
veterans, the unique needs of returning service members, and to deal 
with veterans who are homeless, which is a national tragedy.
    As this Committee is aware, there are many veterans' groups who 
advocate providing VA health care funding from the mandatory side of 
the ledger, as compared to the current system of providing 
discretionary funding. There are also many on the Veterans' Affairs 
Committee who believe the solution to the budget problems faced by the 
VA is mandatory funding. I ask that we work together to fully explore 
this option and ways to provide VA health care funding in a sufficient 
and timely manner.
    The Montgomery GI Bill (MGIB), implemented over 20 years ago, was a 
landmark piece of legislation that provides education and training 
benefits to many veterans. The time has come to update, modernize, and 
provide greater flexibility to meet the needs of today's veterans. The 
Committee plans to explore a number of options to improve and modernize 
the GI Bill and bring equity to our veterans that serve in the Guard 
and Reserves.
    Lastly Mr. Chairman, I would ask that as we contemplate further 
spending on the war in Iraq through the supplemental process; that we 
also keep in mind the warriors. Any supplemental we have for the war 
should also include funds for the warrior.
    Mr. Chairman, this concludes my remarks. We have a lot of work 
ahead of us if we are to keep our promises to veterans. Working 
together, we can make sure our veterans are not forgotten, and that we 
meet our obligations to them as a nation.
    <bullet> The Administration is proposing to abolish the Medical 
Administration account and subsuming its functions within the Medical 
Services account.

    Mr. Moore. Congressman Filner, I want to thank you for your 
service as Chairman of the Veterans' Affairs Committee. And I 
appreciate your testimony here today.
    I tell my folks back home, whatever you think about the 
situation in Iraq, we all have a special obligation and a moral 
obligation to support our people who serve, their families, and 
our veterans. And I think most people in this country now 
appreciate and understand that responsibility unlike back 
during Vietnam, as you will recall. So I appreciate your 
testimony here today and what you are doing.
    I think we have also just seen the tip of the iceberg as 
far as traumatic brain injury and PTSD folks returning from 
Iraq and Afghanistan. And it may take months or sometimes two 
or three years for some of those symptoms to start to show up, 
but we have got to be prepared to provide the services to our 
people. So thank you, sir.
    Mr. Filner. Thank you again.
    Mr. Moore. The Committee stands in recess subject to the 
call of the Chair without objection.
    [Recess.]
    Mr. Moore. The next member to testify is Congressman Chris 
Carney. And welcome to the Budget Committee today. We are 
pleased to receive your testimony. You are recognized for five 
minutes.

 STATEMENT OF HON. CHRISTOPHER P. CARNEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Carney. Good afternoon, Chairman Moore. Thank you for 
this opportunity.
    As I have met with people from all over Pennsylvania's 10th 
Congressional District, I have identified a number of key 
issues that are of tremendous importance to families, 
businesses, and communities in northeast and central 
Pennsylvania.
    I respectfully urge you to take into consideration the 
following budget priorities: The Clean Water State Revolving 
Fund; Medicare; Federal Aid; Highway Program; and Home Heating 
Assistance.
    I urge you to reject President Bush's proposal to cut $555 
million in funding for the Clean Water State Revolving Fund or 
SRF. This is $148 million below the level needed to maintain 
current services.
    Our nation faces a difficult budget situation. And as a 
fiscal conservative, I agree that appropriate budget cuts are 
necessary, but cutting the Clean Water State Revolving Fund 
will hurt our local communities and cause undue hardship to 
those communities that are now losing money in a number of 
other ways.
    I have heard from municipalities all over the district that 
they are facing a tremendous burden to upgrade the waste water 
infrastructure with an increasing pressure to do so that 
complies with the Chesapeake Bay resolutions.
    As you know, the SRF provides grants to all 50 states to be 
distributed as low interest or zero interest loans for high-
priority water quality activities with an emphasis on sewage 
treatment plant upgrades.
    These are the precise needs of our communities in northeast 
and central Pennsylvania. In fact, the SRF loans are the 
primary source of capital for sewage treatment plant upgrades 
throughout the nation.
    In Pennsylvania, the President's cut to the SRF means a 
reduction of over $6 million. This is unacceptable. I strongly 
urge you to increase the allocation for the SRF so that 
municipalities in northeast and central Pennsylvania have the 
resources to make these necessary sewage upgrades. We cannot 
continue to pass the buck to our local communities.
    I urge you to reject President Bush's proposed cut of 
funding $556 million for Medicare over ten years. These budget 
cuts are bad for our seniors and our taxpayers. These cuts will 
end up costing the taxpayer more money as patients seek 
emergency room care which is more expensive for the minor 
ailments of which they suffer.
    In addition, these cuts increase the likelihood that such 
basic healthcare denials will result in more costly disease in 
the long run.
    I urge you to reject President Bush's proposed cuts to 
federal aid for the Highway Program. Specifically the 
President's budget proposal is $800 million below the level 
needed to maintain current services, providing only $39.4 
billion for 2009. This budget proposal jeopardizes a major 
component of this nation's transportation infrastructure. From 
a practical perspective, our nation's highways have benefitted 
the American public with less expensive consumer products 
because they have really reduced the businesses' need to build 
and maintain costly warehousing facilities.
    But even more troubling is the cost in real dollars and 
real lives that we witnessed in the past summer with the 
collapse of the I-35 Bridge in Minnesota. We must not allow 
another tragedy like that to happen. The safety of motorists is 
the most serious issue we face.
    Of the 22,327 bridges in Pennsylvania, 5,582 of them or 25 
percent are deficient. In our district alone, there are 29 
structurally deficient bridges according to the U.S. Department 
of Transportation.
    We must and we can rectify these deficiencies. Under the 
President's proposal, Pennsylvania stands to lose nearly $29 
million.
    And, finally, I urge you to reject the President's cut to 
home heating oil assistance. Under the President's budget 
proposal, Pennsylvania will lose nearly $22 million for home 
heating assistance. This places many working class and elderly 
families in real jeopardy of severe injury or death from 
exposure to extreme cold.
    From a practical perspective, providing modest assistance 
for home heating oil will reduce costly medical bills and 
emergency room care for illnesses that are very easily 
preventable with a few dollars of investment in home heating. 
With the skyrocketing fuel costs, home heating assistance is 
extremely vital for our struggling families and seniors.
    I look forward to working with you to ensure that we adopt 
a budget that makes the needed investments in important 
programs such as clean water, Medicare, federal highways, and 
low-income home heating energy.
    Thank you for your consideration, Mr. Chairman.
    [The prepared statement of Christopher P. Carney follows:]

 Prepared Statement of Hon. Christopher P. Carney, a Representative in 
                Congress From the State of Pennsylvania

    Good Afternoon Chairman Spratt, Ranking Member Ryan and Members of 
the Committee, I appreciate the opportunity to appear before you 
regarding the Fiscal Year 2009 budget process.
    I have met with people from all over Pennsylvania's 10th district 
and identified a number of key issues that are of tremendous importance 
to families, businesses and communities in northeast and central 
Pennsylvania. I respectfully urge you to take into consideration the 
following budget priorities: The Clean Water State Revolving Fund, 
Medicare, Federal-Aid Highway Program and Home Heating Assistance.
    1) I urge you to reject President Bush's proposal to cut $555 
million in funding for the Clean Water State Revolving Fund (SRF). This 
is $148 million below the level needed to maintain current services.
    Our nation faces a difficult budget situation. As a fiscal 
conservative, I agree that appropriate budget cuts are necessary, but 
cutting the Clean Water State Revolving Fund will hurt our local 
communities. I have heard from municipalities and townships in 
northeast and central Pennsylvania that they are facing a tremendous 
burden to upgrade the waste water infrastructure--with increasing 
pressure to do so in a way that does not harm or pollute the natural 
beauty of the Susquehanna River.
    As you know, the SRF provides grants to all 50 states to be 
distributed as low interest or zero interest loans for high-priority 
water quality activities--with an emphasis on sewage treatment plant 
upgrades. These are the precise needs our communities in northeast and 
central Pennsylvania are facing. In fact, SRF loans are the primary 
source of capital for sewage treatment plant upgrades throughout the 
nation. In Pennsylvania, the President's cut to the SRF means a 
reduction of over $6 million dollars. This is unacceptable. I strongly 
urge you to increase the allocation for the SRF so that municipalities 
in northeastern and central Pennsylvania have the resources to make 
these necessary sewage upgrades. We cannot continue to pass the buck to 
our local communities.
    2) I urge you to reject President Bush's proposal to cut funding 
$556 for Medicare over ten years.
    These budget cuts are bad for our seniors and our taxpayers. These 
cuts will end up costing the tax payer more money as patients seek 
emergency room care, which is much more expensive, for minor ailments. 
In addition, these cuts increase the likelihood that such basic health 
care denials will result in more costly disease in the long run.
    3) I urge you to reject President Bush's proposal to cut funding 
for the Federal-Aid Highways Program. Specifically, the President's 
budget proposal is $800 million below the level needed to maintain 
current services, providing only $39.4 billion for 2009.
    This budget proposal jeopardizes a major component of this nation's 
transportation infrastructure. From a practical perspective, our 
nation's highways have benefited the American public with less 
expensive consumer products because they have reduced businesses' need 
to build and maintain costly warehousing facilities. But even more 
troubling is the cost in real dollars and real lives that we witnessed 
this past summer with the collapse of the I-35 Bridge in Minnesota. We 
must not allow another tragedy like that to happen. The safety of 
motorists is the most serious issue we face. Of the 22,327 bridges in 
Pennsylvania, 5,582 or 25% are deficient. In our district alone there 
are 29 structurally deficient bridges, according to the U.S. Department 
of Transportation. We must and can rectify these deficiencies. Under 
the President's proposal Pennsylvania stands to lose nearly $29 
million.
    4) Finally, I urge you to reject the President's cut to home 
heating assistance. Under the President's budget proposal, Pennsylvania 
will lose nearly $22 million for home heating assistance. This places 
many working-class families in real jeopardy of severe injury or death 
from exposure to extreme cold. From a practical perspective, providing 
modest assistance for home heating will reduce costly medical bills and 
emergency room care for illnesses that are very easily preventable with 
a few dollars of investment in home heating. With skyrocketing fuel 
costs, home heating assistance is extremely vital for our struggling 
families and seniors.
    I look forward to working with you to ensure that we adopt a budget 
that makes needed investments in important programs such as the Clean 
Water State Revolving Fund; Medicare; the Federal-Aid Highways Program; 
and the Low-Income Home Energy Assistance Program.
    Thank you for your consideration.

    Mr. Moore. Thank you for your testimony today.
    I really appreciate it. I see no Budget Committee members 
here to ask you questions. I have none. So, Congressman Carney, 
thank you very much.
    Mr. Carney. Thank you very much, sir.
    Mr. Moore. Absolutely.
    The Committee will stand in recess until the next witness 
appears.
    [Recess.]
    Mr. Moore. Good afternoon.
    Mr. Lewis. Good afternoon, Mr. Chairman Moore.
    Mr. Moore. The Committee will come to order. And the Chair 
recognizes the next member to testify, Congressman John Lewis 
of Georgia. Welcome. We are pleased to receive your testimony 
this afternoon, Congressman Lewis, and you are recognized for 
five minutes, sir.

STATEMENT OF HON. JOHN LEWIS, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF GEORGIA

    Mr. Lewis. Thank you very much, Mr. Chairman. Mr. Chairman, 
I thank you for the opportunity to share my concern about the 
2009 budget.
    The President's budget proposal does not reflect the values 
of the American people and the needs of our states and our 
communities. In my estimation, it is immoral and it is unjust.
    I ask you to look at the full picture. People are 
struggling, Mr. Chairman. They are struggling to pay their 
mortgages and heating bills. They are struggling to fill their 
tanks to drive to work. They are struggling to feed their 
families. They are struggling to pay college expenses for their 
children.
    Let me begin with the attack on the federal health program. 
It is completely irresponsible. At a time when more and more 
people are without health insurance, we should be doing more, 
not less, to preserve access to healthcare. I happen to believe 
that healthcare is not a privilege, but a right.
    Across this country, we do not have enough health 
professionals to serve everyone in need. Nowhere is this more 
pronounced than in the minority communities throughout our 
nation.
    Title VII programs have been successful in training health 
professionals who serve rural and urban under-served 
communities and has increased diversity in our health workforce 
by graduating five times more minority students than 
traditional programs.
    However, since 2005, the funds have been cut by more than 
50 percent, having a devastating impact on good programs like 
those at Morehouse School of Medicine in my district. We must 
increase the funding of Title VII to $300 million.
    Another area of great concern to me and the people that I 
represent, it is the unbelievable backlog in processing Social 
Security Disability appeals. Atlanta has the largest backlog in 
the country and it takes an average of 808 days to get an 
appeal heard.
    People are waiting years for disability benefits that they 
deserve. Every month, they call our office wondering how they 
will pay their electric bill and their rent because they are 
too disabled to work. That is just wrong.
    I have, Mr. Chairman, 51 disabled citizens in our district 
who are waiting for Social Security Disability benefits and 
have contacted me for help. The oldest case that my office has 
been involved in has been pending since August 14, 2004. That 
is unacceptable.
    I am encouraged to hear, Mr. Chairman, that you are working 
closely with the Ways and Means Committee to increase funding 
for the Social Security Administration. And we appreciate it.
    I join my colleagues in recommending funding the Social 
Security Administration at $10.327 billion plus $504 million 
outside of the discretionary spending cap.
    We must not tolerate the kinds of backlogs that force 
disabled Americans to live in poverty or to die while waiting 
for their benefits they are entitled to. This needs to be a 
priority in our budget and we must not continue to have 
business as usual.
    Another pressing issue in Atlanta and around our nation is 
homelessness. There are some very good and decent people who 
have been homeless for years. They come to my office in 
Georgia. We give them Cokes and peanuts. One young man comes in 
every day, every single day, about 10:15 in the morning, right 
on time, to get a Coca-Cola and a package or two of peanuts. We 
know this man and so many others by name. We do what we can for 
them.
    Many of the homeless in Atlanta are Vietnam veterans. How 
did we draft people and send them to war and when they return 
leave them on the street? No matter what reason, no matter who 
made choices in life, leaving our war veterans in the cold, 
dark streets is wrong. It is wrong. It is just dead wrong.
    The Homeless Provider Grant and Per Diem Program is the 
largest VA program of its kind. You have been called to 
increase authorizing funds for this program to $200 million. 
The program is working, but we need to do more for our 
homeless. I recommend funding this program at $200 million for 
this year and in the future.
    In closing, Mr. Chairman, I would just like to say that I 
know that we can present a budget that reflects the values of 
our country. We can begin by taking a hard look at how the 
government spends money.
    Are we really saving money by privatizing the most basic 
service of the Federal Government through huge contracts to 
corporations that do not pay tax and really serve our best 
interest? These are questions that must be answered so that we 
can really help those who are suffering in this nation.
    Mr. Chairman, again, I want to thank you for the 
opportunity to appear here today. I look forward to working 
with you on these issues and other important issues that affect 
all of our citizens, not just in Georgia, but in your state and 
your district and throughout our nation. Thank you for hearing 
me, Mr. Chairman.
    [The prepared statement of John Lewis follows:]

  Prepared Statement of Hon. John Lewis, a Representative in Congress 
                       From the State of Georgia

    Good afternoon, Mr. Chairman, Mr. Ranking Member, and Members of 
the Committee. Thank you for the opportunity to share my concerns about 
the fiscal year 2009 budget.
    The President's budget proposal does not reflect the values of the 
American people. It ignores the needs of our States and our 
constituents. It is immoral. It is unjust.
    I ask you to look at the full picture. People are struggling, Mr. 
Chairman. They are struggling to pay their mortgages and heating bills. 
They are struggling to fill their tanks to drive to work. They are 
struggling to feed their families. They are struggling to pay for 
college.
    In my home state of Georgia, the President's budget proposal would 
mean at least $150 million in cuts for critical programs--like the 
Clean Water State Revolving Fund, Social Services Block Grants, 
Federal-Aid Highway Programs, and Career and Technical Education.
    Mr. Chairman, people are suffering and struggling to stay above 
water. We need to increase funding for unemployment insurance, training 
and education programs. We need to support and restore faith in the 
American workforce. We are sacrificing everything for an unjust, never-
ending war. And the Administration will not even tell the truth about 
how much more it will cost us.
    And the cuts are not just in the budget. On one side, the 
administration is adopting regulations that will destroy basic State 
social services. These services help the disabled, the elderly, the 
sick, and neglected and abused children.
    On the other hand, the administration proposes flat-levels of 
funding for important agencies like child welfare services and 
independent living and training programs.
    Then he goes one step further by proposing $500 billion in cuts to 
Medicare and Medicaid. The attack on federal health programs is 
completely irresponsible. At a time when more and more people are 
without health insurance, we should be doing more, not less to preserve 
access to health care. It is a mean spirited attack on the people of 
this country.
    Across this country we do not have enough health professionals to 
serve everyone in need. Nowhere is this more pronounced than in the 
minority communities. Title VII programs have been successful in 
training health professionals, who serve rural and urban underserved 
communities, and have increased diversity in our health workforce by 
graduating 5 times more minority students than traditional programs. 
However, since 2005, the funds have been cut by more than 50 percent, 
having a devastating impact on good programs like those at Morehouse 
School of Medicine, in my district. We must increase the funding for 
Title VII to $300 million.
    Another area of great concern to me and my constituents is the 
unbelievable backlog in processing Social Security Disability Appeals. 
Atlanta has the largest backlog in the Country and it takes an average 
of 808 days to get appeals heard. People are waiting YEARS for 
disability benefits that they deserve. Every month they call our office 
wondering how they will pay their electrical bill and their rent, 
because they are too disabled to work. That is just wrong.
    I have 51 disabled constituents who are waiting for Social Security 
disability benefits and have contacted me for help. The oldest case 
that my office has been involved in has been pending since August 14, 
2004--that is unacceptable.
    I am encouraged to hear, Mr. Chairman, that you are working closely 
with the Ways and Means Committee to increase funding for the Social 
Security Administration. I join my colleagues in recommending funding 
the Social Security Administration at $10.327 billion plus $504 million 
outside of the discretionary spending cap. We must not tolerate the 
kinds of backlogs that force disabled Americans to live in poverty, or 
to die while waiting for their benefits they are entitled to. This 
needs to be a priority in our budget.
    Another pressing issue in Atlanta, and around the nation, is 
homelessness. There are some very good and decent people who have been 
homeless for years. They come to my office. In Georgia, we give them 
Cokes and peanuts. We know them by name. We do what we can for them.
    Many of the homeless in Atlanta are Vietnam veterans. How do we 
draft people and send them to war and when they return, leave them on 
the streets? No matter what reason, no matter who makes choices in 
life, leaving our war veterans on the cold, dark streets is wrong. It 
is wrong.
    The Homeless Provider Grant and Per Diem Program is the largest VA 
program of its kind. There have been calls to increase authorized 
funding for this program to $200 million. The program is working, but 
we need to do more for our homeless. I recommend funding this program 
at $200 million for this year and in the future. I know that we can 
present a budget that reflects the values of our country.
    We can begin by taking a hard look at how the government spends 
money. Are we really saving money by privatizing the most basic 
services of the Federal Government? Do huge contracts to corporations 
that don't pay taxes really serve our best interests? These are 
questions that must be answered, so that we can really help those who 
are suffering in this nation.
    Mr. Chairman and Members of this Committee, again I thank you for 
the opportunity to appear here today and I look forward to working with 
you on these and other issues that are so important to my constituents.

    Mr. Moore. I thank the gentleman for his testimony, very 
compelling testimony, Congressman Lewis, and I appreciate your 
coming in today.
    I do not have any questions. I do not see any other Budget 
Committee members here that has questions, so I will excuse you 
at this time. I do again appreciate your testimony, sir.
    Mr. Lewis. Thank you very much, Mr. Chairman.
    Mr. Moore. Thank you.
    The Chair would next recognize Congressman Ron Klein from 
Florida for five minutes, sir.

STATEMENT OF HON. RON KLEIN, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Klein. Thank you very much, Mr. Chairman.
    Mr. Moore. Absolutely.
    Mr. Klein. It is an honor to be here with you today and the 
members of the Committee. And thank you for taking the time to 
listen to my concerns and the concerns of the 22nd District of 
Florida as we work forward through this very important budget 
process.
    I want to thank you again for the time that you are going 
to give us as members of the Congress to listen as the Budget 
Committee puts together a very forward-thinking budget which I 
know the American people are supporting and willing to work for 
as we accomplish some very difficult decisions.
    Under your leadership, Mr. Chairman, we have restored 
fiscal discipline to this body and we have promoted our 
nation's most crucial priorities. Many of us ran recently in 
our districts on the basis of fiscal discipline. And I am very 
proud that through your leadership and the leadership of this 
Committee, we have PAYGO, which means Pay-As-You-Go principles. 
We are not incurring further debt as has been the case of the 
Congress and the Administration the last number of years.
    But I would like to use my time this afternoon to address a 
very pressing issue in my district in south Florida as well as 
many districts around the country.
    I represent Palm Beach and Broward counties in south 
Florida and many of the people in my district honorably served 
our country in the United States Armed Forces. In fact, 50 
veterans move to Florida every single day. I am sure you can 
imagine that the veterans hospitals and those who work with 
veterans to process disability compensation are very busy.
    I was proud last year to vote with this Congress and under 
your leadership for the largest increase in veterans' funding 
in the history of the Veterans Administration, long overdue.
    Our brave men and women have made significant sacrifices 
for our country and they were promised the best quality of 
healthcare and government services in return. With this 
historic investment, we will begin to fulfill these promises to 
our nation's veterans, both veterans from World War II, the 
Korean War through the present day.
    There are more than 500,000 veterans who have claims 
pending currently with the Department of Veterans Affairs. And 
approximately 100,000 of such claims are over one year old 
without resolution. This is a serious issue. I have heard too 
many stories from constituents who are waiting, waiting, 
waiting for too long for the benefits that they truly deserve.
    One man, a World War II veteran from Palm Beach County, 
pleaded with my office for help, saying that his claim had seen 
no progress for years. He thought they were waiting for him to 
die. That was his quote. And that is obviously outrageous and I 
know the Chair and this Committee feels the same way. We cannot 
tolerate this.
    It seems to me that the default answer on benefits is no. 
Someone comes in for a claim. There seems to be no as an 
answer. And that a veteran is expected to write letters over 
and over and over again protesting the VA's decision to 
underwrite disability claims.
    Furthermore, soldiers who are returning home from Iraq and 
Afghanistan with physical and mental disabilities will enter 
the veterans system and we have to plan for this entirely new 
generation of veterans. These veterans will require and deserve 
a system that works for them because they sacrificed for us.
    The President's budget for 2009 includes measures to reduce 
the backlog of veterans' disability claims and I urge the 
Committee to make this a priority. However, the President's 
budget request will not be enough to keep up with the increased 
demands on the VA system. A five and a half percent increase 
for the healthcare hardly covers inflation and the greater 
demand of our senior veterans as well as those veterans coming 
home from active duty.
    I am disappointed that the President is not fully funding 
the needs of our veterans and I know you and the members of 
this Committee share that. Instead, the President's proposal 
raises fees for veterans.
    I am not going to stand by while we balance our budget on 
the backs of those who served our country and I appreciate the 
fact that this Committee supports that principle as well.
    And that is why I have come to you today, to reinforce that 
point. You will be making very difficult decisions in crafting 
our budget. There are many priorities that deserve and require 
our attention and resources and that will be supported by the 
American people.
    As we all know, budgeting is all about priorities, but I 
can think of few priorities greater or more urgent than 
providing what is due to our brave men and women who serve to 
protect our country, secure our peace, and safeguard our way of 
life.
    And so, Mr. Chairman, I ask you and the members of this 
Committee as we craft this budget to consider funding our 
veterans' budget at a higher level, paying special attention to 
reducing the backlog of disability claims. Repaying our debt to 
our nation's veterans is critical and I look forward to telling 
the veterans back home that Congress has made this a top 
priority as we did last year.
    Mr. Chairman, I truly and sincerely thank you for your 
leadership. I know this Congress will continue to take care of 
our veterans as we did this past year and will continue that 
effort this coming year.
    [The prepared statement of Ron Klein follows:]

Prepared Statement of Hon. Ron Klein, a Representative in Congress From 
                          the State of Florida

    I am honored to be with you here today. Thank you for taking the 
time to listen to my concerns, and I look forward to working with you, 
Chairman Spratt, as we move forward in this process. Under your 
leadership, we have restored fiscal discipline to this body and have 
promoted our nation's most crucial priorities.
    I would like to use my time this afternoon to address a very 
pressing issue in my district. I represent Palm Beach and Broward 
Counties in South Florida, and many of the people in my district 
honorably served our country in the US armed forces. In fact, fifty 
veterans move to Florida every day. I'm sure you can imagine that the 
veterans' hospitals and those who work with veterans to process 
disability compensation are very busy.
    I was proud last year to vote for the largest increase in veterans' 
funding in the history of the VA. Our brave men and women have made 
significant sacrifices for our country, and they were promised the best 
quality of healthcare and government services in return. With this 
historic investment, we will begin to fulfill these promises to our 
nation's veterans.
    There are more than 500,000 veterans who have claims pending with 
the Department of Veterans Affairs for benefits, and approximately 
100,000 of such claims are over one year old without resolution.
    I have heard too many stories from constituents who are waiting, 
waiting, waiting for too long for the benefits that they deserve. One 
man, a World War II veteran from Palm Beach County, pleaded with my 
office for help, saying that his claim had seen no progress for years. 
He thought they were waiting for him to die. This is outrageous. We 
cannot tolerate this.
    It seems to me that the default answer on benefits is no, and that 
a veteran is expected to write letters over and over and over again, 
protesting the VA's decision to underrate disability claims.
    Furthermore, soldiers who are returning home from Iraq and 
Afghanistan with physical or mental disabilities will enter the 
veterans' system, and we will have an entirely new generation of 
veterans. These veterans will require and will deserve a system that 
works for them because they sacrificed for us.
    The President's budget for 2009 includes measures to reduce the 
backlog of veterans' disability claims, and I urge the committee to 
make this a priority. However, the President's budget request will not 
be enough to keep up with the increased demands on the VA system. A 
5.5% increase for healthcare hardly covers inflation and greater 
demand.
    I am disappointed that the President is not fully funding the needs 
of our veterans. Instead, the President proposes raising fees on our 
veterans. I will not stand by while we balance this budget on the backs 
of those who served our country, and that is why I have come to you 
today.
    You all must make very difficult decisions in crafting the 
Congressional budget. There are many priorities that deserve and 
require our attention and resources. As you well know, budgeting is all 
about priorities; I can think of few priorities greater or more urgent 
than providing what is due to our brave men and women who serve to 
protect our country, secure our peace and safeguard our way of life.
    And, so I ask you to consider funding our veterans' budget at a 
higher level, paying special attention to reducing the backlog of 
disability claims. Repaying our debt to our nation's veterans is 
critical, and I look forward to telling the veterans back home that 
Congress has made this a top priority.

    Mr. Moore. Congressman Klein, thank you very, very much for 
your compelling testimony.
    Congressman Filner, the Chairman of the Veterans' Affairs 
Committee testified a few minutes ago and I will tell you what 
I told him and that is we have just seen the gates open as far 
as people coming back from Iraq and Afghanistan with PTSD, 
traumatic brain injury, and other problems that we need to care 
for.
    And people in Congress and in our country have some 
disagreement about the policy in Iraq. But whatever our 
attitude is about that, I think most Americans finally realize 
we have an absolute responsibility to take care of our 
veterans, our active military people, and their families as 
well.
    And so I very much appreciate your testimony and I am 
hopeful that our budget will, in fact, reflect the priorities 
that you have spoken of today. Thank you, sir.
    Mr. Klein. Thank you very much, Mr. Chairman.
    Mr. Moore. Absolutely.
    Welcome Congressman Higgins. And the Chair is pleased to 
recognize you for five minutes, sir.

 STATEMENT OF HON. BRIAN HIGGINS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Higgins. Thank you, Mr. Chairman and the distinguished 
members of the Committee.
    I come before you today to advocate for increased funding 
for cancer research at the National Cancer Institute and the 
National Institutes of Health. The war on cancer is a 
nonpartisan issue and it should be treated that way.
    In 2005 when I first came to Congress, the National Cancer 
Institute and the American Cancer Society came to Capitol Hill 
asking members to sign their pledge consistent with the 2015 
campaign. The 2015 campaign advocated by the cancer community 
is designed to eradicate, to eliminate all human suffering and 
death due to cancer by the year 2015.
    When I signed that pledge, I meant it. And I said to the 
cancer advocates at that time they were letting Congress off 
too easy because the pledge that was being signed was a 
nonbinding expression of the congressional will.
    What I am here to say today, Mr. Chairman, is that it is 
within Congress' authority to increase funding to reverse the 
trend of this Administration's efforts to cut cancer funding 
over the past five years. Those cuts have led to $250 million 
or for adjusted inflation dollars about $400 million in less 
money for cancer research.
    Incredible progress is being made today in the area of 
cancer research. In my own community, we have one of the few 
comprehensive cancer centers, Rosswell Park Cancer Institute.
    What happens is promising research at places like Rosswell 
is funded by the National Cancer Institute and those promising 
research and clinical trials become the standard for tomorrow's 
cancer treatment.
    There are more people living with cancer today than are 
dying from cancer. Still, about a million new cases, a million 
five new cases of cancer will be diagnosed this year and over 
500,000 people will die from cancer. One in every two men will 
contract invasive cancer in their lifetime, one in every three 
women. We obviously have a lot of work to do.
    Cancer is also very expensive to the nation. We spend about 
$220 billion a year in lost productivity and healthcare costs 
associated with cancer.
    Mr. Chairman, I am here to say that Congress has a moral 
obligation to reverse the trend of cancer funding cuts over the 
past five years.
    The 2015 campaign is advanced by the American Cancer 
Society and the National Cancer Institute. It should not only 
be their goal. It should be America's goal. And as a nation, we 
should insist on a massive investment in funding cancer 
research moving forward. We should not be following the trends. 
We should be leading the rest of the world in cancer research.
    Another issue is that it is a lot less expensive to the 
nation to treat cancer in its early stages and to prevent it 
than to treat cancer in its advanced stages. So from an 
economic standpoint, from a healthcare standpoint, from a moral 
standpoint, this Congress in a nonpartisan way has an 
extraordinary opportunity, Mr. Chairman, this year to reverse 
the trend and fully fund the National Cancer Institute and the 
National Institutes of Health.
    Thank you.
    [The prepared statement of Brian Higgins follows:]

Prepared Statement of Hon. Brian Higgins, a Representative in Congress 
                       From the State of New York

    Chairman Spratt, Ranking Member Ryan, distinguished members of the 
Committee, I come before you today to advocate for increased funding 
for cancer research at the National Cancer Institute and the National 
Institutes of Health.
    The war on cancer is a non-partisan issue, and it should be treated 
that way.
    In 2005, when I signed a pledge to do everything in my power to 
eliminate cancer, I meant it.
    The Administration's decision to freeze funding at NIH and NCI in 
its proposed budget for fiscal year 2009 is wholly unacceptable and 
cuts the cancer community at its knees. If enacted, this would continue 
a disturbing trend of decreased funding over the last five years, where 
funding at NCI has effectively decreased by twelve percent. Because the 
war on cancer is too important for Congress to be complacent; I 
strongly urge this committee to provide for increased funding for 
cancer research in this year's Budget resolution.
    It is sad, but true that cancer is a disease that touches everyone 
in this country. Within almost every neighborhood and town, communities 
are rallying around family members, friends, and neighbors who have 
been diagnosed with cancer, helping in any way they can to help 
alleviate suffering.
    The impact that cancer has on our society is astounding. In its 
latest report, the American Cancer Society found that new cases of 
cancer have increased, reversing a two year decline. This year, 
approximately 1.4 million people will be diagnosed with cancer and five 
hundred and sixty five thousand people will die from cancer. Ten 
million additional Americans continue to struggle with or are survivors 
of cancer. And the cost of cancer is staggering, estimated to be two 
hundred and nineteen billion dollars in 2007 alone.
    It should be our duty as Members of Congress to improve the quality 
of care that Americans receive when they are diagnosed with cancer--
this begins with increasing funding for vital research.
    Cancer is truly an individualized disease, manifesting itself 
uniquely in every patient. Unlike in the past, where one-size-fits-all 
treatments were used for cancer patients, researchers and practitioners 
are exploiting discoveries stemming from the human genome project to 
begin to carefully tailor treatment to meet the specific make-up of 
each individual patient. These groundbreaking discoveries will 
fundamentally alter and improve how cancer care is delivered. It is in 
our country's best interest to give researchers the resources to hit 
the ground running on these discoveries.
    My district in Western New York directly benefits from NIH and NCI 
funding. Roswell Park Cancer Institute, one of the oldest cancer 
centers in the country, is a NCI designated comprehensive cancer center 
and receives funding from NCI for its major research activities. Other 
research institutions, like the University at Buffalo and the Hauptmann 
Woodward Medical Research Institute rely on federal funding to advance 
the science of fighting disease.
    The results of this research will improve the standard of living 
for Americans living with cancer, and will prolong life after 
diagnosis. These research dollars also have a significant ripple affect 
on local economies, where research translates into treatments that can 
be developed and manufactured by local companies, providing highly 
skilled jobs for countless citizens. Our country has long been the 
cradle of innovation, a robust and growing federal investment in 
research can keep that reputation strong.
    In conclusion, Congress should be leading the charge in the fight 
against cancer. I believe we are at the cusp of dramatic improvements 
in the quality of care. Congress should do everything in its power to 
make sure that these dramatic discoveries are transferred into results 
as soon as possible. This begins with rejecting the Administration's 
flat-footed agenda and providing necessary increases in funding for 
cancer research initiatives at the National Cancer Institute and the 
National Institutes of Health. Thank you.

    Mr. Moore. I thank the gentleman for his testimony. You 
have made some excellent points, I think, Congressman Higgins. 
And I do not know how anybody could really disagree with your 
points that you made today.
    I think and I agree with you that we have an opportunity 
with continued medical research that is well funded to find in 
the very near future, make some progress and even find some 
cures for cancer.
    And as you said, that not only would save money, but it is 
exactly the right thing to do morally for the people in our 
country and for the world as well. And so I am hopeful that we 
will and you are going to support funding cancer research and 
the cancer budget.
    So I really appreciate your testimony here today.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Moore. Thank you, sir.
    Mr. Higgins. Appreciate it.
    Mr. Moore. The Chair next recognizes Congressman Kagen for 
five minutes.

  STATEMENT OF HON. STEVE KAGEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Kagen. Thank you, Mr. Chairman. It is an honor to be 
here and I appreciate you taking the time to spend with us.
    I would like to begin by aligning myself with the viewpoint 
expressed by our GAO Controller General, David Walker, who 
stated the following before the Senate Budget Committee on 
January 28th of 2008.
    ``Under any plausible scenario, the federal budget is on an 
imprudent and unsustainable path.'' And he continued, ``Rapidly 
rising healthcare costs are not simply a federal budget 
problem. They are our nation's number one fiscal challenge.''
    Fortunately, this Budget Committee and Congress have begun 
to address this crisis and contrary to the current 
Administration recognize that our government must live within 
its means just like folks do back home in Wisconsin.
    The House of Representatives should continue its commitment 
to reduce the deficit and to adhere to PAYGO rules. Like 
everyone else in Wisconsin, I believe in being fiscally 
responsible and socially progressive.
    Your Committee has difficult choices to make and I hope 
that the decisions you make here will reflect our traditional 
American values as well as those that we all share.
    Kindly allow me now to express to you and thank you for 
your ongoing respect for these principles. Our budget must also 
answer the question whose side are we on. We must are for 
people more than things and people more than corporate wealth.
    As we have all seen, our economy is in transition. 
Manufacturing jobs are changing and they are moving overseas 
more and more rapidly. And our work product now is requiring 
fewer man hours to achieve our goals.
    I believe both political parties must agree that we need to 
place our greater emphasis now on those workers most affected 
by this unfortunate process, one that in large part in my 
opinion is due to unfair and unbalanced trade deals with China 
which has targeted each and every one of our industries for 
extinction.
    Our government must assist working families who have been 
damaged by these trade deals for these people represent our 
rapidly-evaporating middle class. We may have a global 
marketplace, but just as all politics is local, likewise all 
economics is local as well.
    And, fortunately, we have existing programs to provide job 
training for workers nationwide who may be displaced and out of 
work. One of those is the Dislocated Worker State Grants 
Program. And as you are aware, the President has requested that 
these programs be cut by $271 million below the level needed to 
maintain current and necessary services.
    I respectfully request the Committee reject these cuts. 
These grants provide critical instruction and assistance for 
displaced workers and I would encourage the Committee to 
support these training programs to their fullest amount 
possible.
    We must represent the best of American traditional values 
and make certain that our national defense includes not just 
our Armed Forces, but our middle class, and they need support 
as well.
    For these reasons, I would support increased funding for 
the TAA Program, the Trade Adjustment Assistance Program. By 
providing income and support as well as training programs, the 
TAA Program allows workers to return to full-time employment at 
the most rapid rate possible.
    We must also recognize the real value of Medicare and 
Medicaid in people's lives. People walk straight and without 
pain only because of Medicare. And as you are aware, the 
President has requested a cut of $556 billion in Medicare 
during the next ten years and $47 billion of cuts in Medicaid. 
Plainly put, President Bush has not thought this all the way 
through.
    I strongly urge the Committee to reject his proposed cuts. 
It is unnecessary for me to go into greater detail as to the 
critical need for these services.
    Furthermore, I do not need to elaborate on the demographic 
realities that we now face as we all begin to age for again, as 
Controller David Walker has mentioned, ``Rapidly rising 
healthcare costs are not simply a federal budget problem. They 
are our nation's number one fiscal challenge.''
    It is the responsibility of this Committee and this 
Congress to determine exactly what the overhead expenses are 
for providing medically necessary Medicare services and 
products to Medicare enrollees and then, importantly, to cover 
those overhead expenses for those necessary services. If you 
fail to cover the overhead cost for providing medical services, 
those services simply will not be available.
    I am today encouraged that in adhering to PAYGO rules and 
principles established by the House, the Budget Committee 
rejected the temptation to use the Social Security Trust Fund 
to pay for other needs. I believe this program is a sacred 
trust, a trust between workers and their government. And it 
must always be available.
    And, finally, we must be mindful of our future and our 
national security. Our national defense does not solely require 
maintaining our Armed Forces. It requires intense and active 
investments in economic development, in education, and in 
becoming an energy independent nation. To do so, to become 
independent once again and to maintain our freedom, we must 
have a viable economy with as many manufacturing jobs as 
possible.
    Our nation expects great things from all of us and I am 
certain that you will not let us down. By working together, I 
am sure we will build a better nation for all of us.
    And I thank you for your time.
    [The prepared statement of Steve Kagen follows:]

 Prepared Statement of Hon. Steve Kagen, a Representative in Congress 
                      From the State of Wisconsin

    Mr. Chairman, thank you for the opportunity to discuss the budget 
in front of the Committee today.
    I would like to begin by aligning myself with the viewpoint 
expressed by our GAO Comptroller General, David Walker, who stated the 
following before the Senate Budget Committee on January 28, 2008: 
``Under any plausible scenario, the federal budget is on an imprudent 
and unsustainable path.'' And he continued, ``Rapidly rising health 
care costs are not simply a federal budget problem; they are our 
nation's number one fiscal challenge.''
    Fortunately, this Budget Committee and Congress have begun to 
address these crises and contrary to the current Administration, 
recognize that our government must live within its means, just like 
folks do in their own homes throughout Wisconsin.
    The House of Representatives should continue its commitment to 
reduce the deficit and adhere to our PAY-GO rules. Like everyone else 
in Wisconsin, I believe in being fiscally responsible and socially 
progressive.
    Your Committee has difficult choices to make, and I hope that the 
decisions made here will reflect our traditional American values we all 
share. Kindly allow me to express my thanks to you for your ongoing 
respect for these principles.
    Our Budget must also answer the question: whose side are we on?
    We must care for people more than things, and people more than 
corporate wealth. As we have seen, our economy is in transition. 
Manufacturing jobs are changing and are moving overseas or are 
requiring fewer man-hours. I believe both political parties can agree 
that we need to place greater emphasis on those workers affected by 
this unfortunate process--one that in large part is due to unfair and 
unbalanced trade deals wherein China has targeted our industries--one 
after the other--for extinction.
    Our government must assist working families who have been damaged 
by these trade deals, for they people represent our rapidly evaporating 
middle-class most in need of our attention. We may have a global 
marketplace, but just as all politics is local--likewise, all economics 
is local.
    Fortunately, we have existing programs to provide job training for 
workers nationwide. One of those is the Dislocated Worker State Grants. 
As you are aware, the President's request would cut these programs to 
$271 million below the level needed to maintain current necessary 
services. I respectfully request the Committee reject these cuts. These 
grants provide critical instruction and assistance for displaced 
workers. I would encourage the Committee to support these training 
programs, which are not only an investment in our nation's future, but 
also represent the best line of national defense--a working and 
successful middle-class.
    For these reasons, I support increased funding for Trade Adjustment 
Assistance (TAA) Program. By providing income support as well as 
training programs, TAA allows workers to return to full time employment 
as rapidly as possible.
    We must also recognize the real value of Medicare and Medicaid in 
people's lives. People walk straight and without pain only because of 
Medicare. As you are aware, the President has requested $556 billion in 
Medicare cuts over ten years and $47 billion in Medicaid cuts.
    Plainly put, President Bush has not thought this all the way 
through.
    I strongly urge the Committee to reject his proposed cuts. It is 
unnecessary for me to discuss in greater detail the critical need for 
these programs. Furthermore, I do not need to elaborate on the 
demographic realities in our nation. For as Comptroller General Walker 
stated: ``Rapidly rising health care costs are not simply a federal 
budget problem; they are our nation's number one fiscal challenge.''
    It is the responsibility of this Committee and this Congress to 
determine exactly what the overhead expenses are for providing 
medically necessary Medicare services and products to medicare 
enrollees--and then to cover at least the overhead expenses for said 
services plus a profit. If you fail to cover the overhead costs for 
providing a service, it will not be available.
    I am today encouraged that--in adhering to the PAY-GO principles 
established by the House--the Budget Committee rejected the temptation 
to use the Social Security Trust Fund to pay for other needs. I believe 
this program is a sacred trust between workers and their government, 
and it must always be available.
    Finally, we must be mindful of our future and to our national 
security. Our national defense does not solely require maintaining our 
Armed Forces. It also requires intense and active investments in 
economic development, education and becoming an energy independent 
nation once again. To do so, and to maintain our Freedom, we must have 
a viable economy with as many manufacturing jobs as possible.
    Our nation expects a great deal from us, and I am certain you won't 
let us down. By working together, we will build a better nation for all 
of us, and I thank you for your time today.

    Mr. Moore. And I thank the gentleman for his testimony. I 
do not have any questions.
    I do agree with virtually everything you have testified 
about here today, including the rising cost of healthcare and 
our responsibility to provide some services to the people in 
our country. You have mentioned other items. I will not go 
through all of those, but I very, very much appreciate your 
testimony and it will be considered by the members of this 
Committee.
    There are no Committee members present for questions, so I 
thank again the gentleman for his testimony.
    Mr. Kagen. Thank you once again.
    Mr. Moore. Absolutely.
    The Chair next recognizes Congressman Rick Larsen. And, 
Congressman, you are recognized for five minutes, sir.

  STATEMENT OF HON. RICK LARSEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Larsen. Thank you, Chairman Moore. I am pleased to have 
an opportunity today to speak to you today about the federal 
programs specifically that make a critical difference in the 
fight against drug abuse.
    As Co-Chair of the Congressional Caucus to fight and 
control methamphetamine, I have seen firsthand some of the 
devastating impact of meth and, in fact, other illegal drugs on 
our communities.
    These drugs are not just a problem for law enforcement, but 
for families, schools, and businesses. In the past several 
years, we actually have made significant progress in closing 
down home-grown labs, but rates of meth use remain as high as 
ever.
    Meanwhile, law enforcement officers and treatment providers 
are reporting a sharp increase in the abuse of oxycodone and 
other prescription drugs. The increasing incidence of diversion 
and abuse of these drugs is a disturbing trend that presents a 
new set of challenges for the men and women who have devoted 
their lives to ridding our communities of the problems of drug 
abuse.
    Research has increasingly shown that drug addiction is not 
merely a matter of habit for those addicted, but is, in fact, a 
disease. It is our responsibility as lawmakers, therefore, to 
protect our districts and constituents from the spread of this 
disease.
    Our commitment to combating drug trafficking and abuse must 
begin with our continued support for those programs that give 
our law enforcement on the front lines the resources they need 
to do their jobs effectively.
    So the first program I would just like to highlight for you 
is the Edward Byrne Memorial Justice Assistance Grants, 
otherwise known as Byrne JAG Grants. This program is the only 
federal funding awarded to state and local law enforcement on a 
formula basis and the funds that it provides have gone to 
support a wide variety of programs critical in the fight 
against drug abuse, including our regional drug task forces.
    Byrne JAG funding was cut by two-thirds in the 
``Consolidated Appropriations Act'' for 2008. As a result of 
these cuts, many regional drug task forces will be forced to 
close their doors.
    Last week, I met with the Commander of the Snohomish County 
Regional Drug Task Force and some of the law enforcement 
officers who serve there on his team and if funding for Byrne 
JAG is not restored, they are in danger of having to cut as 
many as six positions from their staff.
    In light of that tremendous cut this year, funding for 
Byrne JAG in fiscal year 2009 is more important than ever and 
so I urge the Committee to recommend funding for this program 
in its full authorized amount to provide the resources that 
state and local law enforcement need to do their jobs.
    Crime is not just a local issue. As we know, Mr. Chairman, 
we owe it to our constituents in the federal level to help 
them.
    Another important law enforcement program within the DOJ's 
budget is the Community Oriented Policing Services or COPS 
Program. In his budget for 2009, the President has zeroed out 
again this critical program.
    Last year, the President proposed cutting the COPS Program 
by more than $500 million. Last year, Congress disregarded his 
request and, rather, increased the funding for COPS by 45 
million. So I ask the Committee again to disregard the 
President's budget request and fully fund COPS in your budget 
resolution.
    Finally, on law enforcement, before I move to treatment, 
last year, I visited the Drug Enforcement Administration's 
training facilities at Quantico and took part in some of the 
training the DEA provides for state and local law enforcement, 
something I would recommend that all members of Congress to 
participate in.
    I got a small taste of the dangers faced by men and women 
on the front lines in the fight against drugs. They confront 
dangerous criminals, hazardous chemicals, and life-threatening 
explosives every time they bust a meth lab. Our DEA agents do 
great work and the training they provide is useful preparation 
for local law enforcement. So I encourage the Committee to 
include enough funding in this budget resolution to fully fund 
DEA.
    But while these efforts keep drugs out of our communities 
and out of the hands of children are essential in the fight 
against meth and other drugs, we have to be sure we are working 
to help those who have become addicted to these drugs.
    Investing in drug treatment programs not only saves the 
lives of people in treatment, but reduces the prevalence of 
drug use and drug-related crime in our communities. As long as 
there is a market for these illicit drugs, the dealers will 
find a way to deliver them.
    I recently visited Evergreen Manor, a treatment facility in 
my district, and met with people in recovery from meth and 
opiate addiction. These are people who worked hard every day 
and must work hard for the rest of their lives to continuously 
defeat their addictions.
    One of these individuals made a comment that has stuck with 
me. His goal he said was not to stay clean, but to get his life 
back. Drug addiction can be a death sentence, but even before 
it kills, it does rob people of their lives. By funding drug 
treatment programs, we not only give these people a chance to 
beat their addictions, we can give them an opportunity to get 
their lives back.
    One program I would like to highlight as well is the Drug 
Court Program which funds the oversight of the court with 
therapeutic capabilities and drug treatment program. Drug 
Courts are widely recognized as the most effective solution for 
reducing crime and recidivism among drug addicted offenders in 
the Criminal Justice System.
    In my district, the Snohomish County Drug Court has a 94 
percent success rate as a for instance.
    Funded at 40 million in fiscal year 2005, the Drug Court 
Program has seen significant cuts in recent years and I am 
urging the Committee to include full funding for the Drug Court 
Program in this year's budget resolution.
    And, finally, two final points. I know the federal program 
that is critical to drug treatment throughout the country is 
the Substance Abuse Prevention and Treatment Block Grant. This 
grant is the backbone of our nation's publicly funded treatment 
and prevention system and serves our most vulnerable citizens.
    And, finally, what would we be without education? I want to 
emphasize the importance of education and prevention efforts in 
the fight against drugs. And both the Safe and Drug Free 
Schools and Communities and the Drug Free Communities programs 
are critical to ensuring safe, healthy, and drug free schools. 
They also provide funds for programs that teach students about 
the dangers of drug abuse, giving them lessons that they take 
with them for the rest of their lives.
    The reason I wanted to point out these programs, Mr. 
Chairman, is to show the continuum of activities that we need 
to participate in from the federal level to help those who are 
on the front line, not just to law enforcement, but to 
treatment providers, our teachers in our schools, and, frankly, 
those people who are addicted who are trying to get their lives 
back.
    Thank you.
    [The prepared statement of Rick Larsen follows:]

 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
                      From the State of Washington

    Thank you, Chairman Spratt, Ranking Member Ryan, and Members of the 
Committee. I am pleased to have the opportunity to speak to you today 
about the federal programs that make a critical difference in the fight 
against drug abuse.
    As co-chair of the Congressional Caucus to Fight and Control 
Methamphetamine, I have seen first-hand the devastating impact of meth 
and other illegal drugs on our communities. Illegal drugs aren't just a 
problem for law enforcement--but for our families, schools and 
businesses. In the past several years, we have made significant 
progress in closing down ``homegrown'' labs, but rates of 
methamphetamine use remain as high as ever.
    Meanwhile, law enforcement officers and treatment providers are 
reporting a sharp increase in the abuse of Oxycodone and other 
prescription drugs. The increasing incidence of diversion and abuse of 
these drugs is a disturbing trend that presents a new set of challenges 
for the men and women that have devoted their lives to ridding our 
communities of the problems of drug abuse.
    Research has increasingly shown that drug addiction is not merely a 
matter of habit for those addicted but is, in fact, a disease. It is 
our responsibility as lawmakers to protect our districts and our 
constituents from the spread of this disease. Our commitment to 
combating drug trafficking and abuse must begin with our continued 
support of the federal programs that give our heroes on the frontlines 
the resources they need to effectively do their jobs.
    The first program I want to highlight is the Edward Byrne Memorial 
Justice Assistance Grants Program. This program is the only federal 
funding awarded to state and local law enforcement on a formula basis. 
The funds that it provides have gone to support a wide variety of 
programs critical in the fight against drug abuse, including regional 
drug task forces.
    Byrne-JAG funding was cut by two thirds in the Consolidated 
Appropriations Act for FY08. As a result of these cuts many regional 
drug task forces will be forced to close their doors. Last week, I met 
with the commander of the Snohomish County Drug Task Force and some of 
the law enforcement officers who serve on his team. If funding for 
Byrne-JAG is not restored they are in danger of having to cut as many 
as six positions from their staff.
    These task forces are essential to keeping pressure on drug 
traffickers and dealers throughout the country and their absence will 
lead to an increase in drug trafficking, and abuse. The problem of drug 
trafficking requires a constant and vigilant approach. If this funding 
is not restored it will have a devastating impact on our ability to 
combat the spread of meth and other illegal drugs. It would undo much 
of the progress we have made, and require an increased future 
commitment in both time and resources just to bring us back to where we 
are today.
    In light of the tremendous cut this year, funding for Byrne-JAG in 
FY09 is more important than ever. I urge the Committee to recommend 
funding for this program at its full authorized amount to provide the 
resources that state and local law enforcement needs to do their jobs. 
Crime isn't just a local issue and we owe it to our constituents to 
help protect them.
    Another important law enforcement program within DOJ's budget is 
the Community Oriented Policing Services, or COPS, program. In his 
budget for FY09, the President has zeroed out this critical program. 
Last year the President proposed cutting the COPS program by more than 
$500 million dollars. Congress disregarded that request and increased 
its funding by $45 million. I ask the Committee to again disregard the 
President's budget request and provide full funding for COPS in your 
budget resolution.
    Last year I visited the Drug Enforcement Administration's training 
facilities at Quantico and took part in some of the training DEA 
provides for state and local law enforcement. I got a small taste of 
the dangers faced by the men and women on the front lines of the fight 
against drugs. They confront dangerous criminals, hazardous chemicals 
and life-threatening explosives every time they bust a meth lab. Our 
DEA agents do great work and the training they provide is useful 
preparation for local law enforcement. I encourage this Committee to 
include enough funding in its budget resolution to fully fund the DEA.
    While efforts to keep drugs out of our communities and out of the 
hands of our children are essential in the fight against meth and other 
drugs, we must also make sure we are working to help those that have 
become addicted to these drugs. Investing in drug treatment programs 
not only saves the lives of the people in treatment, but reduces the 
prevalence of drug use and drug related crime in our communities. As 
long as there is a market for these illicit drugs, the dealers will 
find a way to deliver them.
    I recently visited the Evergreen Manor treatment facility in my 
district and met with some people in recovery from methamphetamine and 
opiate addiction. These are people who have worked hard every day and 
must work hard for the rest of their lives to continuously defeat their 
addictions.
    One of these individuals made a comment that stuck with me. His 
goal, he said, was not only to stay clean, but to get his life back. 
Drug addiction can be a death sentence, but even before it kills, it 
robs people of their lives. By funding drug treatment programs we not 
only give these people a chance to beat their addictions, we give them 
the opportunity to get their lives back.
    One program I would like to highlight is the Drug Court program, 
which blends the oversight of a court with the therapeutic capabilities 
of a drug treatment program. Drug courts are widely recognized as the 
most effective solution for reducing crime and recidivism among drug-
addicted offenders in the criminal justice system. They come at a 
fraction of the cost of standard incarceration, and they are effective. 
In my district, the Snohomish County drug court has a 94% success rate. 
Funded at $40 million in FY05, the Drug Court program has seen 
significant cuts in recent years. I urge the Committee to include full 
funding for the Drug Court program in this year's budget resolution.
    Another federal program that is critical for drug treatment 
programs throughout the country is the Substance Abuse Prevention and 
Treatment Block Grant. This grant is the backbone of our nation's 
publicly funded treatment and prevention system and serves our most 
vulnerable citizens. Providing adequate funding for treatment efforts 
is a critical step in combating drug abuse.
    Finally, I want to emphasize the importance of education and 
prevention efforts in the fight against drugs. Both the Safe and Drug-
Free Schools and Communities and the Drug-Free Communities programs are 
critical to ensuring safe, healthy, and drug-free schools. They also 
provide funds for programs to teach students about the dangers of drug 
abuse, giving them lessons they may take with them for the rest of 
their lives.
    The programs that I have mentioned here are essential to tackling 
every angle of the problem of drug abuse. We must continue to be 
vigilant in our approach to the problems of drug trafficking, and 
abuse, and maintain a consistent and adequate level of funding for 
these programs.
    I again thank you for the opportunity to address the Committee 
today. I have additional comments that I will submit for the record.
    Thank you and I'm happy to answer any questions.

    Mr. Moore. I thank the gentleman for his testimony. As an 
elected district attorney in my home county from 1977 to 1989, 
for 12 years, I have seen firsthand the devastation that drugs 
can do in the lives of people and to our communities.
    I appreciate, though, the fact that you did not just 
concentrate on the COPS Program, on law enforcement, DEA, as 
important as those are and they are very important, but you 
have also talked to our Committee and given us testimony about 
drug treatment and helping people get their lives back in order 
which I think all of us should care about as well.
    I very much appreciate, Congressman, your testimony to our 
Budget Committee today. I do not see other members here right 
now to ask questions, but I am certain they will review your 
testimony and I am hopeful that we will vote in support of the 
programs that you have advocated for here today. Thank you, 
sir.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Moore. Next the Chair would like to recognize 
Congresswoman Donna Christensen, if you would, please. And you 
have five minutes, ma'am.

   STATEMENT OF HON. DONNA CHRISTENSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Christensen. Thank you, Mr. Chairman.
    And we submitted testimony yesterday. I have provided an 
addendum and I am really going to speak from the addendum 
today.
    Thank you for the opportunity to testify before the Budget 
Committee as I have done for the last three years on health 
issues on behalf of the Congressional Black Caucus.
    Our Health Brain Trust of the Congressional Black Caucus 
which I Chair has as its mission the elimination of racial and 
ethnic health disparities. And while on the surface this may 
seem to be only a minority health issue, I can assure you it is 
an American issue. It is a national issue.
    Despite the almost $3 trillion and over $6,000 per capita 
that our country spends on healthcare, which is far above and 
almost twice as much as other industrialized countries, the 
health of Americans rank behind most of those countries and we 
have higher infant mortality and several other indicators of 
poor health that are higher as well as a compromised healthcare 
system.
    And as the costs continue to skyrocket toward a projected 
$4 trillion and 20 percent of GDP in 2016, instead of 
improving, these indicators are getting worse. And even when 
they improve in some areas slightly, the gap between white 
Americans and Americans of color continues to be there or even 
to widen.
    Our government and the Congress has a responsibility to 
provide and improve health for everyone in this country, and I 
am going to give about four points that I think we need to do 
and that we would like to see funding for.
    One, providing health coverage for everyone so that 
individuals will seek care earlier and reduce the need for far 
more costly, catastrophic care, much of which is now unpaid 
for, thus increasing the costs and decreasing the quality of 
care for everyone else.
    And I want to make note here that over one-half of the 
uninsured in this country are people of color.
    Two, by emphasizing prevention. Right now approximately 
five percent of our healthcare budget is spent on prevention, 
so emphasizing prevention or at the very least equalizing 
funding and focus on prevention and to bring it on a comparable 
level with research and the development of new technologies.
    Every day more than 200 people of color die prematurely 
from preventable causes. This was noted as early as 1984 by 
then Surgeon General Margaret Heckler as excess deaths, and she 
was speaking in particular at that time about excess deaths in 
African Americans. And she defines those as deaths that are in 
excess of what would have been predicted for African Americans 
given that all of the other factors across the board were 
equal.
    At that time, it was estimated that there were 66,000 
excess deaths in African Americans annually and today it is 
estimated somewhere between 86 and 100,000. So preventive care 
has to be given more emphasis. It must be made free, 
affordable, accessible, comprehensive, and it must be made 
culturally competent if it is going to be effective.
    Third, by ensuring continuity of care through increasing 
and incentivizing primary care as well as linking services and 
improving care with the use of health information technology.
    Four, by establishing or expanding special programs to 
reach those who have been left out of the healthcare mainstream 
who are again largely people of color, but also those in rural 
areas and in remote areas such as in our U.S. territories.
    The poor national health indicators are largely due to 
racial and ethnic health disparities that result, for example, 
in more cancer and AIDS that is in African Americans than all 
other population groups, twice the infant mortality in African 
and Native Americans, lower life expectancy by about six years 
for African American males, more diabetes and complications in 
African Americans, Latino Americans, and Native Americans.
    These are factors that contribute to the premature 
preventable death and disability that I mentioned previously, 
all of which we pay for and we pay for it in many ways.
    To adequately address all of this will require restoring 
most if not all of the cuts in the healthcare budget and 
increasing funding, the funding for inflation, as well an 
outright investment. In this case, this would be an investment 
that would really pay dividends in terms of decreased 
healthcare costs over the long run and improve health quality.
    As a matter of fact, I think that making that investment in 
prevention and closing the gaps in health disparities is the 
only way that we are really going to cut healthcare costs. This 
is an investment which in the name of national security and 
national competitiveness we cannot afford not to make even it 
is not immediately paid for.
    The implementation of item four, the elimination of health 
disparities, is embodied in H.R. 3014, the ``Healthcare Equity 
and Accountability Act,'' which was developed by the Tri Caucus 
over a period of years with in put from national advocacy and 
healthcare organizations and introduced by Congresswoman Hilda 
Solis.
    This bill which will close most of the existing healthcare 
gaps, improve the health and well-being of Americans, and 
strengthen the healthcare system is estimated to cost roughly 
$3.5 billion, not necessarily in one budget year. However, by 
making this initial investment on the front end, we will ensure 
positive results and savings in both lives and healthcare 
dollars on the back end.
    The Congressional Black Caucus will be introducing its 
budget and these figures will be included in our submission.
    The current state of our healthcare system is one of crisis 
and heading towards catastrophe unless we have real reform, so 
I urge the Committee to give favorable consideration to this 
request which will go a long way to bringing a system that 
cannot really at this point be called a healthcare system into 
the healthcare system that it needs to be.
    Thank you.
    [The prepared statement of Donna Christensen follows:]

 Prepared Statement of Hon. Donna Christensen, a Delegate in Congress 
                      From the U.S. Virgin Islands

    Thank you, Chairman Spratt and members of the committee for the 
opportunity to give testimony and input into what I anticipate will be 
a competitive and difficult budget process.
    I come before you today not only as a colleague and as the only 
African-American physician currently serving in Congress, but also as 
the Chair of the Congressional Black Caucus Health Braintrust and as 
one of the three health co-chairs of the Tri Caucus--which is made up 
of the Congressional Black, Hispanic and Asian Pacific Caucuses.
    Across all of these capacities, one of the key issues that has--and 
will--remain at the top of my legislative priority list is that of 
health and health care, and the grave differences in health care 
access, quality and thus health outcomes that have a detrimental impact 
on the health, wellness and life opportunities of millions of innocent 
Americans every single year.
    Mr. Chairman, these differences--which are commonly called ``health 
disparities''--have been well documented for more than two decades. 
And, studies increasingly show that health disparities no longer only 
affect African Americans and other people of color; they no longer are 
only issues faced by the uninsured or those in low-income communities. 
Health disparities and gaps in our health care system have gone 
unaddressed for so long and have become so pervasive that they now 
affect all Americans. In fact, Mr. Chairman, today, health disparities 
are no longer only a minority health issue; today, health disparities 
are an American issue.
    Not only do health disparities cause about 100,000 premature 
preventable deaths each year, but they also lower the quality of care 
that Americans receive from the health care system and detrimentally 
affect the health outcomes of millions of Americans. We also know that 
the gaps in health care that are caused by health disparities not only 
carry grave health repercussions, but also serious economic 
consequences, too. In fact, health disparities are among the key 
factors that drive up the health care costs that we--as a nation--
struggle to contain each year.
    Mr. Chairman and colleagues, I know that what I am about to propose 
is going to sound somewhat counterintuitive on the surface, especially 
given our nation's overall indebtedness, but it is a solution that not 
only will improve the overall health and strength of our nation, but 
also that will strengthen our health care system and save valuable 
health care dollars.
    And, what I propose is the following: not cuts to health care 
spending, as are clearly very evident throughout the President's FY 09 
budget proposal, but instead, a far greater investment in health care 
in a manner that will meaningfully close the health care gaps that cost 
this nation lives and millions of dollars every year.
    Mr. Chairman, this investment must begin with a brave new approach 
to healthcare funding that strives to close existing health care gaps 
as a means to not only slow down, but to begin to reverse the 
exorbitant health care costs facing this nation. And, it must go beyond 
our current focus on research at the dire expense of prevention and 
care.
    In many ways, Mr. Chairman, as difficult as this budget process 
will be, we have a rare opportunity to develop and champion a budget 
which reflects a health care ideology that is as medically and socially 
responsible as it is fiscally responsive. Mr. Chairman, we have a rare 
opportunity to develop a budget that will set this nation in a much-
needed new direction, where we take active steps to expand coverage, 
increase access, improve quality, and close the health care gaps that 
leave far too many millions of Americans in poorer health, suffering 
worse health outcomes, without adequate access to quality care, and 
unable to fulfill their life's potentials. And, finally Mr. Chairman, 
we have a rare opportunity to champion a budget that promotes equity 
and fairness in health care; principles that resonate with every single 
American.
    As a starting point, Mr. Chairman, we must repeal the tax breaks in 
the President's budget that give so much to those Americans with the 
very most at the extreme expense of those Americans with the very 
least. And, with this revenue, Mr. Chairman, we have to restore cuts in 
the president's budget that not only widen the existing gaps in the 
health care system, but that contribute to the skyrocketing health care 
costs that plague our nation's fiscal strength each year. These cuts 
will do nothing to bolster and improve the health and well being of 
millions of innocent, hardworking Americans; they will only exacerbate 
this nation's most severe health disparities that affect millions of 
Americans throughout the country.
    In fact, the list of this budget's cuts--many of which completely 
eliminate critically important programs--reads like an embarrassing 
dishonor roll and includes: cuts to the already under-funded National 
Health Service Corps; extreme cuts to the health professions programs 
and include cuts that often eliminate those programs charged with 
increasing diversity among health professionals, those which focus on 
strengthening the nursing and dental workforce, those which focus on 
geriatric care and those that have a community-centric focus; millions 
of dollars in cuts to HIV/AIDS Education and Training Centers, maternal 
and child health programs, chronic disease prevention and health 
promotion programs, substance abuse prevention programs, mental health 
programs, and rural health programs. The President's budget also 
proposes extraordinary cuts to SCHIP, Medicaid and Medicare--three 
programs that are critically important to the nation's most vulnerable 
children, low-income residents and senior citizens and those with 
disabilities--as well as grave cuts to every office and agency, as well 
as to every program that is integrally important to efforts to close 
health care gaps and achieve equity in health care.
    Additionally, Mr. Chairman, I would be remiss if I did not also 
mention that as the Congresswoman from the United States Virgin 
Islands, who practiced medicine there for more than two decades before 
coming to Congress, I am very concerned that under the President's 
budget, the Virgin Islands and other U.S. territories will continue to 
not receive state-like treatment under Medicaid and Medicare, despite 
having state-size health and health care needs and challenges.
    Mr. Chairman, the time has come for us to invest in the health and 
life opportunities of all Americans, from Maryland to California, from 
Alaska to the U.S. Virgin Islands and from Oregon to Guam. The time has 
come for us to tackle our nation's most pressing health care challenges 
with a health care budget and spending rationale that not only is 
congruent with the health care needs and wants of millions of 
Americans, but that also strengthens the health care system; improves 
and protects the health and well being of Americans, and ultimately 
strengthens the health and well being of this nation.

    Mr. Moore. Congresswoman, I thank you for your testimony to 
the Budget Committee here today. I really appreciate the fine 
points that you have made and you have raised some excellent 
concerns.
    I think a lot of Americans believe we probably have the 
best healthcare delivery system in the whole world and as you 
pointed out, that is not entirely factual because we have 
fallen down in some areas and certainly need to improve in some 
areas in my opinion. I think we share that same goal.
    You have also established several points here that are 
very, very important and I trust that the members of this 
Committee will consider the points that you have raised. And I 
think they are excellent points and hopefully we will submit a 
budget that reflects those priorities.
    And I thank you for your testimony.
    Ms. Christensen. Thank you.
    Mr. Moore. The Committee will stand in recess while the 
Chair changes. Thank you.
    [Recess.]
    Ms. Hooley [presiding]. Welcome. The next member to testify 
is Tim Walz from Minnesota. Welcome, and we are pleased to 
receive your testimony. You are recognized for five minutes.

STATEMENT OF HON. TIMOTHY J. WALZ, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Walz. Well, thank you, Madam Chairman, and thank you to 
you and the entire Committee for the incredibly important work 
that you do. And it is a privilege for me to be here today and 
testify on just a couple of areas that I think are critical in 
this year's budget that I would like to address my testimony 
to.
    And that will be Function 750 on the Administration of 
Justice Programs, Function 700 on veterans' benefits, and 
Function 550 on health programs, specifically rural health 
programs.
    And I wanted to just address first of all on the issue of 
Function 750 and the Administration of Justice Programs, the 
issue of border security and import security in the United 
States is one that many Americans are deeply concerned about. 
It is also one that I believe we can make great strides in and 
that this Congress can do things necessary to the great people 
who are out there delivering that border protection and do it 
in a very robust way, but also do it that stays consistent with 
the principles of this country's strongest-held beliefs.
    In January, I had the opportunity to travel down to El 
Paso, Texas and meet with members of the Customs and Border 
Protection Agency. On the trip, I was incredibly impressed with 
the professionalism, the commitment of the people who were 
serving there, and watching them use new technologies to do 
their jobs.
    As I was there watching at the border, a K-9 unit detected 
a carload of narcotics and the smuggler who was attempting to 
bring it into the United States.
    I met a couple of National Guardsmen who were using good 
remote cameras and infrared technology to monitor sections of 
the U.S. border to direct Border Patrol agents to border 
violations.
    It was clear from my visit that the Border Patrol had more 
resources than they had a few years ago, but they could use 
even more. And I urge this Committee to make sure we support 
the funding levels that make it possible to deploy the 
infrastructure and the technology to allow these people to do 
the job and to remove some of the doubts that Americans have 
that we are able to do this job. And it is one that I think the 
people down on the border can do the job if we provide the 
resources.
    In addition, I would like to talk a little bit about 
veterans' benefits under 700, Function 700. It is an incredibly 
important area to me, especially medical care, research into 
traumatic brain injury, the VA Inspector General's Office, and 
then GI Bill benefits in a changing climate where we are using 
our Guard and Reserve forces at a rate never before seen.
    I have had the privilege to spend the first year on the 
Veterans' Affairs Committee from which I have had the 
opportunity to meet veterans from across the United States. 
From my experience, I believe that we must ensure that VA 
clinics have the resources to provide the first-class care that 
these warriors have earned.
    I have met with brave men and women who have returned from 
Iraq with debilitating injuries. Research into traumatic brain 
injury and prosthetics will help these servicemembers lead 
normal, happy lives despite the injuries that they received.
    As a member of the Oversight and Investigations 
Subcommittee on Veterans Affairs, I believe it is absolutely 
imperative that we provide robust funding to the VA Office of 
Inspector General. The VA's Office of Inspector General 
returns, by stopping fraud, waste, and abuse, returns about 
$11.00 for every dollar that we invest in finding fraud, waste, 
and abuse.
    Two weeks ago at a hearing we had, I absolutely was shocked 
to hear when the Inspector General for the VA said that about 
$300 million in fraud, waste, and abuse charges are going 
uninvestigated and unpunished. And the question I asked him, 
was it safe to say that during a time of war that we have war 
profiteering going on on the backs of our most grievously 
wounded soldiers and the reason that we were not stopping it 
was is because the Administration's budget under-funded the 
Inspector General, the only independent audit agency. And the 
Inspector General himself said, yes, that that was the case. So 
I would hope we would get there.
    And lastly on this issue is modernizing GI Bill benefits, 
recognizing that the National Guard and Reserve are shouldering 
the brunt of this deployment.
    In July of 2007, 1,162 soldiers from Minnesota National 
Guard returned from a 22-month mobilization and deployment to 
Iraq, the longest of any ground combat in Iraq.
    When they returned home, they learned they were unable to 
receive Chapter 30 GI Bill benefits because their orders had 
said they were one day short.
    I have introduced legislation that would address this 
problem, ensure that it never again happens to our National 
Guard and Reservists and our warriors, and I am hopeful that 
the funding this year will make sure that that is there to make 
it happen.
    And, finally, I would urge substantial funding for Function 
550 which supports rural healthcare initiatives. One-fourth of 
America's population lives in rural areas. However, healthcare 
resources to those residents are scarce. Rural communities are 
served by fewer doctors, hospitals, and ambulances.
    I am very lucky and the people, my constituents are very 
lucky that we live in an area that feels the effects of the 
Mayo Clinic in southern Minnesota. But even in an area that has 
some of the access to the best medical care in the world, we 
still see our rural areas are suffering from this.
    And I urge the Committee to reject President Bush's $150 
million cut in funding for rural healthcare initiatives. It is 
unacceptable. It will hurt rural areas and it will hurt our 
communities that are at the heart of what America is.
    So, Madam Chairwoman, I thank you for the work that you do 
and other members of this Committee. I look forward to what I 
know will be a document coming out of this Committee that will 
reflect this nation's priorities and values and I thank you for 
the opportunity to share my concerns with you.
    [The prepared statement of Timothy J. Walz follows:]

    Prepared Statement of Hon. Timothy J. Walz, a Representative in 
                  Congress From the State of Minnesota

    Chairman Spratt and members of the committee, I appreciate the 
chance to testify before you today about funding for important programs 
within the federal budget.
    My testimony will focus on funding for function 750 Administration 
of Justice Programs that are important to homeland security; function 
700 Veterans Benefits and Services; and function 550 Health Programs.

                            BORDER SECURITY

    To begin, I urge the Committee to provide a robust funding level 
for function 750 Administration of Justice programs.
    In January, I had the opportunity to travel to El Paso, Texas and 
meet with members of United States Customs and Border Protection. On 
that trip, I was greatly impressed with the professionalism and 
commitment of the men and women who serve on our borders and with the 
technology those agents use to safeguard our country.
    In El Paso, I watched as CBP agents used canine units to detect a 
carload of narcotics that a smuggler was attempting to bring into the 
United States. I met two National Guardsmen who use remote cameras to 
monitor a section of the U.S.-Mexico border and direct Border Patrol 
agents to respond to suspected incursions.
    It was clear from my visit that while the men and women of Customs 
and Border Protection have more resources than they had just a few 
years ago, they could use even more.
    I encourage the Committee's support of funding levels that will 
make it possible for Customs and Border Protection to deploy additional 
infrastructure, technology and personnel along the borders of the 
United States.

                        VA BENEFITS AND SERVICES

    Additionally, I urge you to provide significant funding for 
function 700 Veterans Benefits and Services.
    Of particular importance to me is funding for veterans' medical 
care, research into Traumatic Brain Injury and prosthetics, the VA's 
Office of the Inspector General, and GI Bill benefits
    I have been privileged to spend my first year in Congress serving 
on the Veterans' Affairs Committee, from which I have had the 
opportunity to meet with veterans from every corner of the United 
States. From that experience, I believe that must ensure that our VA 
clinics have the resources they need to continue providing first-class 
care.
    I have also met with brave men and women who have returned from 
Iraq with debilitating physical injuries and mental trauma. Research 
into Traumatic Brain Injury and prosthetics will help these 
servicemembers lead normal, happy lives, despite their injuries.
    As a member of the Oversight and Investigations Subcommittee of the 
Veterans' Affairs Committee, it is imperative that we provide robust 
funding for the VA Office of the Inspector General (OIG), which 
provides a return of $11 for every $1 invested by finding waste in VA's 
spending and procurement systems.
    And I encourage you to provide a funding level sufficient to ensure 
that returning soldiers can take advantage of the benefits they have 
earned.
    In July 2007, 1,162 returning soldiers from the Minnesota National 
Guard returned from a 20-month mobilization to Iraq--the longest of any 
ground combat unit in the war in Iraq. When they returned home, they 
learned they were unable to receive Chapter 30 GI Bill benefits because 
their orders were one day short of the requirement.
    I have introduce legislation which would address this problem and 
ensure that it never happens again. I am hopeful that full funding in 
this year's Budget Resolution will help.

                           RURAL HEALTH CARE

    Finally, I urge your support for substantial funding for function 
550, which supports rural health care initiatives.
    One-fourth of the American population lives in rural areas, 
however, health care resources for those residents are scarce. Rural 
communities are served by fewer doctors, hospitals, and ambulances.
    I urge the Committee to reject the President's proposed $150 
million cut in funding for rural health activities. This is an 
unacceptable level of funding if we are to continue to provide health 
care to rural America.
    Mr. Chairman, thank you for the work that you and the other members 
of the Committee do, and I look forward to working with you to produce 
a budget that reflects our country's priorities.

    Ms. Hooley. Thank you, Representative Walz. I have a couple 
of questions just very briefly.
    Minnesota is one of those states that has led the way along 
with my State of Oregon on reintegration.
    Mr. Walz. Yes.
    Ms. Hooley. And my question is, how much have you dealt 
with that issue?
    And last year, we said we wanted some money for staff, for 
reintegration, for our Guard and Reserve which come home to a 
very different situation than the regular Army does. They come 
home to a base where friends and family are, usually medical 
services, whereas if you are Guard and Reserve, you come home 
to a state that does not have a base and you are sort of 
scattered throughout that state without the support system.
    And just curious if you would like to comment on what you 
see needs to be done on the reintegration as well.
    Mr. Walz. Well, I thank you for the opportunity. And you 
are exactly right, Madam Chairwoman. This is a huge issue in 
terms of how we reintegrate.
    When we had a hearing in the VA Committee in the aftermath 
of Walter Reed, the fiasco out there where former Senator Dole 
and Donna Shalala testified in front of us, and Senator Dole 
made a very simple, eloquent, and exact description of this. He 
said you spent billions putting them in harm's way. Do whatever 
is necessary and spend billions getting them out of harm's way.
    And you are absolutely right. Our two states are very 
lucky. And, in fact, right now it is unfortunate, but I would 
say that if you are going to be deployed, that you are probably 
better off coming from Oregon or Minnesota right now because 
both states, and I applaud legislators on both sides of the 
aisle in those states for in Minnesota, we call it the Beyond 
the Yellow Ribbon Campaign, which I think is aptly named, that 
once the parades are done and the welcome home parties are 
done, we have got years of work to do and we need to make sure 
that we are reaching our for rural healthcare, we are looking 
out for job training, we are looking out for our--as I said, 
the issue here, having been deployed for 22 months, coming home 
and being told that the person serving next to you is getting 
benefits and you are not because of an error on an order and 
then having to go all the way to the Secretary of Defense who 
tells us, well, you are going to have to change the law.
    Those are the types of things we need to do better on. What 
I will say is we are getting some success, but there is more to 
be done.
    The thing that I think is critical is we last year put in 
and requested, but the President's budget I do not believe 
provides the funding necessary to do these reintegration 
programs on a nationwide scale. And I think we have a 
responsibility to our articulate this to people across the 
country, why this is an absolute cost of these conflicts.
    You do not just have the cost of the conflict on the other 
end. There is a lifetime of commitment to these people. There 
is a lifetime of commitment to their families. And we have seen 
year after year up until last year when we finally saw adequate 
funding that we were exacerbating the situation.
    So I would say in Minnesota, we are holding our own, but 
there is more to be done. My concern is is that we need to get 
this nationwide and for a longer extended period of time.
    Ms. Hooley. Thank you. Thank you very much for your 
testimony. Appreciate it.
    Mr. Walz. Thank you.
    Ms. Hooley. The next member to testify is Representative 
Wolf from Virginia. Welcome.

STATEMENT OF HON. FRANK WOLF, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF VIRGINIA

    Mr. Wolf. Thank you very much. I will be very brief and 
submit the statement.
    Ms. Hooley. Okay.
    Mr. Wolf. I will read one line I have in here. It does not 
take an expert to realize that this nation is facing a 
financial crisis like none in our history. This problem has 
only worsened since I last testified before the Committee.
    I beg this Committee. This Congress is failing the American 
people. There is a bill out there that Jim Cooper has called 
the Cooper Wolf Bill that sets up a national commission, eight 
Republicans and eight Democrats, somewhat set up as the bill 
that we did for the Iraq Study Group, that would put everything 
on the table, Medicare, Medicaid, Social Security, and tax 
policy, and take one year to go around the country listening to 
the American people because the American people know that this 
Congress is failing them, every one of those gentlemen whose 
pictures are on the wall.
    Mr. Pinetta testified for this bill over on the Senate 
side. Mr. Kasich is for this bill. If they could come back and 
vote in this Committee, this would get out. But, unfortunately, 
they are not here.
    And so David Walker sent me a letter two weeks ago, I think 
a copy went to every member, saying there is an economic 
tsunami off the coast waiting to come in and take us over.
    And what the Cooper Bill does is it puts everything on the 
table. They take one year, public hearings, every federal 
reserve district, come back. And what separates this out from 
all the other commissions, it is required to have a vote, like 
the Base Closing Commission.
    There is a comparable bill over on the Senate side, Conrad 
and Judd Gregg. I think they will report their bill out. I do 
not expect that this Congress will deal with it unless there is 
some change, dramatic change.
    So I beg of you do this for our children and do this for 
our children because I will tell you. Members of Congress who 
are here now who do nothing on this issue, ten years from now 
when this thing really gets very different are going to say why 
did they do not something when they were here.
    Lastly, you may have seen the Financial Times piece that 
came in January saying that if we do nothing, we will lose our 
Triple A bond rating within ten years. If we lose our Triple A 
bond rating, that would be very bad.
    With that, I would just submit the full statement.
    [The prepared statement of Frank Wolf follows:]

Prepared Statement of Hon. Frank R. Wolf, a Representative in Congress 
                       From the State of Virginia

   financial crisis facing our nation will require bipartisan effort
    Chairman Spratt, Ranking Member Ryan, this committee has an 
enormous challenge before it in crafting our nation's budget. I 
appreciate your giving me the opportunity to testify today.
    It doesn't take an expert to realize that this nation is facing a 
financial crisis like none other in our history. This problem has only 
worsened since I testified before the committee at this time last year. 
A recent letter I received from outgoing U.S. Comptroller David Walker 
characterized our country's fiscal outlook as one that will ``result in 
a tsunami of spending and debt levels that could swamp our ship of 
state.''
    If we don't get our country's financial house in order and make the 
sacrifices necessary today, the future for our children and 
grandchildren will be bleak. Our economic growth will come to a 
grinding halt, our standard of living and even our national security 
will be at risk if we don't start actively working to change our 
current course. We cannot continue to keep borrowing and mortgaging our 
future to countries like China and Saudi Arabia that carry obscene 
amounts of our debt.
    This issue is a economic and moral issue that hangs like an ominous 
cloud over everything we do as public servants, yet many ignore it. I 
understand we won't be able to fix our financial woes overnight, but we 
must come together across the aisle if there is ever to be any hope of 
ensuring that our nation's future is strong.
    That's why Jim Cooper and I joined efforts and have been calling 
for a national bipartisan commission that will put everything--
entitlement spending, other federal program spending and tax policy--on 
the table and come up with recommendations to get our fiscal house in 
order. Nothing would be off limits for discussion by the commission 
members.
    A critical component of the commission's work will be to engage the 
American people in a national dialogue about the scope of the country's 
financial conditions and solutions to the problem. After spending six 
months conducting town hall style meetings around the country the 
commission will present a report to Congress describing the long-term 
fiscal problems, public suggestions and views, and policy options 
available to get us back on the right track. Modeled after the federal 
base-closing process, Congress would be required to vote up or down on 
the plan in its entirety. Mandating congressional action is what makes 
the SAFE Commission unique.
    The Cooper-Wolf SAFE Commission legislation has been endorsed by 
groups across a wide political spectrum--groups who usually disagree 
more than they agree on policy issues--the Brooking Institution, the 
Heritage Foundation, the Concord Coalition, and the Committee for a 
Responsible Federal Budget. The Business Roundtable and National 
Federation of Independent Business are also on board. National 
columnists David Brooks, David Broder, and Robert Samuelson all have 
written about the entitlement crisis facing our country and the SAFE 
Commission as a potential way forward.
    We have over 70 bipartisan cosponsors here in the House, and as 
many of you may know, Senators Conrad and Gregg have introduced similar 
legislation in the Senate.
    As you consider the FY 2009 budget, I ask that you take the time to 
review this legislation and consider embracing it. If other viable 
bipartisan solutions are presented, I think we should look at those, 
too. The financial tsunami is moving closer to our shores and the 
longer we wait to act, the harder it will be to stop the tidal wave of 
red ink. If our children and grandchildren were on the beach with an 
actual tsunami off the coast, we would do everything we could to help 
them.We must move beyond politics and come to grips with the fact that 
the financial future of our country is an American issue and it's on 
our watch to fix.
    I want our children and grandchildren to grow up with all the 
opportunities the Greatest Generation made possible for you and me. 
Let's work together to take the necessary action to secure America's 
future economy.
    Thank you, again, Chairman Spratt and Mr. Ryan, for this chance to 
testify today.

    Ms. Hooley. Thank you so much.
    I happen to agree with you in that we cannot have the kind 
of deficit and debt that we have and continue this. And I mean, 
I think one of the reasons this Committee has worked very hard 
to actually enforce, which it is done almost a hundred percent 
of the time, the Pay As You Go rules and trying to have a 
balanced budget, but it is going to take a while.
    And you are right. All of the things coming at us when you 
look at the baby boomers and just Medicare, we are going to be 
in serious trouble if we do not do something about it.
    So I thank you for your testimony and thank you for 
sponsoring this bill. And we will bring this up before the 
Committee.
    Mr. Wolf. Thank you very much, Madam Chairwoman.
    Ms. Hooley. You are welcome.
    Without objection, the Committee stands in recess subject 
to the call of the Chair.
    [Recess.]
    Ms. Hooley. The next member to testify is Representative 
Fossella from New York. Welcome. We are anxious to hear your 
testimony.

 STATEMENT OF HON. VITO FOSSELLA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Fossella. Thank you very much, Madam Chair. It is my 
pleasure. And I will submit my total statement for the record 
with unanimous consent if that is okay.
    Ms. Hooley. Absolutely.
    Mr. Fossella. Thank you.
    And my primary concern with the President's fiscal year 
2009 budget centers on reductions in Medicare and Medicaid 
funding for hospitals and health systems that could limit 
access to comprehensive medical care for seniors and low-income 
individuals.
    Let me begin by saying that my concern over these 
reductions does not blind me to the fact that we need to take 
steps to curb the spiraling costs of both Medicare and Medicaid 
to protect it for generations to come.
    However, I believe that efforts to reduce the growth of 
Medicare should be rooted in meaningful reform rather than 
across-the-board reductions and reimbursements to certain 
providers.
    The Administration's proposal seeks to rein in Medicare 
spending by targeting the bedrock of Medicare's care delivery, 
inpatient hospitals, outpatient hospitals, hospices, ambulance 
services, skilled nursing homes, and inpatient rehabilitation 
hospitals, as well as home healthcare.
    By reducing the update factor of flat funding these 
programs, the budget proposes the potential to create 
widespread instability in the program.
    In my district alone, the proposed reductions in Medicare 
would slash payments to our hospitals by nearly $300 million 
over the next five years alone. Clearly these reductions would 
lead to cuts in core Medicare services and leave Staten Island 
and Brooklyn seniors without access to quality care that I 
believe they need and deserve.
    In addition, I am particularly concerned about the way the 
President's budget targets teaching hospitals and its 
disproportionate impact upon the hospital system in New York.
    New York City is the physician training capitol of the 
world. The city trains more physicians in more specialties than 
any other city across the globe. More than 16,000 residents are 
trained annually in New York's 56 major teaching hospitals and 
113 medical schools.
    In the 13th Congressional District of New York, the White 
House budget proposal would reduce payments to teaching 
hospitals by more than $145 million over five years.
    Statewide reimbursements to teaching hospitals will be 
reduced to $4.3 billion and the proposed cuts will 
significantly impair the ability of teaching hospitals to 
adequately train physicians to ensure that patients receive 
high quality of care.
    I believe the proposal is short-sighted, that it fails to 
acknowledge the pending doctor and nurse shortages throughout 
the country.
    Over time, as hospital and doctor visits have increased, 
the number of medical school graduates has remained static. 
Indeed, it is estimated that physician visits will continue to 
grow by 53 percent between 2000 and 2020, resulting in a 
shortage of 24,000 doctors and nurses by 2020.
    And, similarly, I have concerns about the Administration's 
proposal to reduce the cost of the Medicaid Program. For 
instance, the President's budget proposes to eliminate federal 
Medicaid dollars for graduate medical education payments to 
hospitals. The proposal would cut payments to the public 
hospital system in New York City by $400 million in the first 
year alone.
    On 9/11 health, another critical budget item for New York 
is the $25 million to provide health monitoring and treatment 
for first responders and workers suffering from 9/11 related 
illnesses as a result of their service at Ground Zero after the 
September 11th attack.
    Last year, the Administration included the same amount in 
the fiscal year 2008 budget and I was assured that was merely a 
placeholder until further data was collected on the cost of 
monitoring.
    Clearly, Madam Chair, the need grows. The Federal 
Government has failed to adequately step up and coordinate a 
federal response, a comprehensive response to the thousands of 
people who are currently enrolled and being monitored for 
illnesses and injuries and sicknesses that they have developed 
after volunteering, many of them volunteering, many working in 
Ground Zero.
    The New York City Mayor Bloomberg revealed that 681,000 
individuals are in need of medical monitoring. Four hundred and 
ten thousand people heavily exposed to Ground Zero toxins and 
30,000 responders are sick, yet 21,000 of them do not have 
adequate health insurance.
    So, Madam Chair, this and other areas of the budget clearly 
call for, I think, a more reasoned approach to ensure that our 
most vulnerable get the help and care they need to ensure that 
New York City's hospitals and particularly the teaching 
hospitals remain the beacon of greatness that they are and that 
the 9/11 workers and responders who I think to this day have 
been too often ignored are always remembered, not just in this 
Congress, but on the other end of Pennsylvania Avenue.
    [The prepared statement of Vito Fossella follows:]

   Prepared Statement of Hon. Vito J. Fossella, a Representative in 
                  Congress From the State of New York

    Thank you, Chairman Spratt and Ranking Member Ryan for allowing me 
to testify before your Committee this afternoon.
    My primary area of concern with the President's Fiscal Year 2008 
budget centers on reductions in Medicare and Medicaid funding for 
hospitals and health systems that could limit access to comprehensive 
medical care for seniors and low-income individuals. Let me begin by 
saying that my concern over these reductions does not blind me to the 
fact that we need to take steps to curb the spiraling costs of both 
Medicare and Medicaid to protect it for generations to come. However, I 
believe that efforts to reduce the growth of Medicare should be rooted 
in meaningful reform, rather than across the board reductions in 
reimbursements to certain providers.
    The Administration's proposal seeks to reign in Medicare spending 
by targeting the bedrock of Medicare's care delivery--inpatient 
hospitals, outpatient hospitals, hospices, ambulance services, skilled 
nursing and inpatient rehabilitation hospitals and home health care. By 
either reducing the update factor or flat-funding these programs, the 
budget proposal has the potential to create widespread instability in 
the program.
    In my district alone, the proposed reductions in Medicare would 
slash payments to our hospitals by nearly $300 million over the next 
five years alone. Clearly, these cuts would lead to a reduction in core 
Medicare services and leave Staten Island and Brooklyn seniors without 
access to the quality care they need and deserve.
    In addition, I'm particularly concerned about the way the 
President's budget targets teaching hospitals and its disproportionate 
impact upon the hospital system in New York. New York City is the 
physician training capital of the world. The City trains more 
physicians in more specialties than any other city across the globe--
more than 16,000 residents are trained annually in New York's 56 major 
teaching hospitals and 13 medical schools.
    In the 13th Congressional District of New York, the White House 
budget proposals would reduce payments to teaching hospitals by more 
than $145 million over 5 years. Statewide, reimbursements to teaching 
hospitals would be reduced by $4.3 billion. The proposed cuts will 
significantly impair the ability of teaching hospitals to adequately 
train physicians to ensure that patients receive a high quality of 
care.
    This proposal is short-sighted and fails to acknowledge the pending 
doctor and nurse shortages throughout the country. Over time, as 
hospital and doctor visits have increased, the number of medical school 
graduates has remained static. Indeed, it is estimated that physician 
visits will continue to grow by 53% between 2000 and 2020, resulting in 
a shortage of 24,000 doctors and nurses by 2020.
    Similarly, I have concerns about the Administration's proposals to 
reduce the costs of the Medicaid program. For instance, the President's 
budget proposes to eliminate federal Medicaid dollars for graduate 
medical education (GME) payments to hospitals. This proposal alone 
would cut payments to the public hospital system in New York City by 
$400 million in the first year alone.
    On a smaller scale but of critical concern to New York City's 
hospitals, the President's budget includes significant cuts to 
bioterrorism preparedness grants. The Administration proposal reduces 
funding for the Centers for Disease Control and Prevention (CDC) State 
and Local Bioterrorism and Emergency Public Health Preparedness by 
$136.7 million, and the Hospital Preparedness Grants administered by 
the Office of the Assistant Secretary for Preparedness and Response by 
$60 million. In high threat areas like New York City, these dollars are 
essential to the emergency preparedness efforts of the hospitals and 
the Department of Health. In conjunction with the massive cuts to 
reimbursements under Medicare, the hospitals in my district will be 
woefully underfunded to adequately coordinate and maintain plans to 
respond in the event of a bioterrorism attack or public health 
emergency. In fact, a recent report by the National Association of 
County and City Health Officials found that cuts in these programs that 
have occurred in recent years have adversely affected the emergency and 
bioterror preparedness at the local level.
    While I have reservations about several of the health care budget 
proposals, I would like to commend the President for his dedication to 
providing high-quality health care to our nation's veterans. Since 
2001, the President has increased funding for veterans medical care by 
100% overall; the President's budget recommends an almost $5 billion 
increase over the estimated levels for FY08.
    In addition, I would like to express my support for the inclusion 
of a $2.7 billion increase in funding for discretionary Pell grants 
included in the President's budget for the Department of Education. 
This investment, in conjunction with funding provided by the College 
Cost Reduction and Access Act will support a maximum Pell grant of 
$4,800 in 2009 and allow the maximum grant to rise to $5400 in 2012. As 
the cost of tuition continues to rise, this increase will help to make 
college more affordable for families throughout my district.

                              9/11 HEALTH

    Another crucial budget item for New York is the inclusion of $25 
million to provide health monitoring and treatment for first responders 
and workers suffering from 9-11-related illnesses as a result of their 
service at Ground Zero.
    Last year, the Administration included the same amount in the FY08 
budget, and I was assured that it was merely a ``place holder'' until 
further data was collected on the costs of monitoring and treatment. It 
was expected and is now evident that these programs need significantly 
more funding. The National Institute for Occupational Safety and Health 
(NIOSH), which administers the World Trade Center program, developed 
estimates that put the costs for running the current program at $218 
million for FY 2009. With a recent GAO report that shows the federal 
response could be improved, and that shows not only that a large number 
of individuals are sick but are getting sicker, how possibly could the 
need for funding remain at $25 million in FY 09?
    Many of these sick 9/11 workers are suffering from long-term 
illnesses as a result of inhaling Ground Zero's toxic plume. Some have 
even died from their sickness. A report released by New York City Mayor 
Michael Bloomberg revealed that 681,000 individuals are in need of 
medical monitoring, 410,000 people were ``heavily exposed'' to Ground 
Zero toxins and 30,000 responders are sick, yet 21,000 of them do not 
have adequate health insurance.
    As you develop the budget, I urge you to keep in mind the $25 
million is a starting point and any budget resolution should include a 
caveat for adding funding. I would also like to point out that this 
isn't just a New York problem--it's a national problem. People from all 
over the country came to Ground Zero to help New York and our nation 
get back on its feet again. Many are suffering from the same illnesses 
New York police and firefighters have. Funding these critical programs 
will help those individuals as well.

                       HOMELAND SECURITY FUNDING

    As a priority, we need to ensure that homeland security programs 
are adequately funded--and that this funding is directed to the cities 
that face the greatest threat. Since the creation of the Urban Area 
Security Initiative (UASI), a program that distributes 100% of the 
grants based on risk, funding levels to our highest-threat areas have 
continually fluctuated. This is extremely dangerous for our national 
security and creates needless uncertainty for police departments, first 
responders and others to prepare and carry out anti-terror activities. 
Yet I was heartened to see a $5m increase over last year's enacted 
level for the UASI program. For UASI in FY 09, the president has 
requested $825m, and I believe this is a good start for funding one of 
the most important programs that gives grants directly to localities 
for use in fighting terrorism. While we have made progress on this 
issue in recent years, Congress should send resources to fight 
terrorism where they are needed most, not based on arbitrary formulas.

                     SOCIAL SECURITY ADMINISTRATION

    I'd also like to express my support for an increase in funding for 
the Social Security Administration. The President's Budget proposes a 
6% increase over the FY08 level--a number itself that was $451 million 
higher than 2007. Prior to these increases, the SSA went 10 years 
without any adjustments in funding levels. As a result, as the number 
of beneficiary visits and claims increased, staff and funding levels at 
the social security offices in my district decreased, leading to 
increasingly long wait times for appointments or decisions on claims. 
In fact, in my district, beneficiaries can wait as long as a year to 
schedule a claims hearing, and can wait longer than 2 years on appeals 
of denied claims. I would urge this Committee to consider greater 
increases in the SSA budget--both to reduce wait times for 
beneficiaries and to better prepare the SSA for its new 
responsibilities in administering Medicare Part D.

                            COMPETITIVENESS

    I would also like to take the opportunity to speak briefly about 
the Administration's proposal to impose a new tax on futures 
transactions that are cleared by derivative clearing organizations 
regulated by the Commodity Futures Trading Commission (CFTC). I am 
concerned this proposal will reduce liquidity on our futures exchanges, 
diverting trades from the regulatory oversight of the CFTC to 
unregulated or foreign markets. In an increasingly globalized 
marketplace, I would urge the Committee not to accept a proposal that 
will reduce the competitiveness of American futures markets.

                                GENERAL

    Lastly, I would like to express my support for several 
discretionary programs that are of critical importance to Staten Island 
and Brooklyn.
    First, I'd like to express support for funding for the Department 
of Justice to implement the Edward Byrne Justice Assistance Grant 
(Byrne-JAG) program. These grants provide essential federal support for 
law enforcement agencies and their efforts to combat against drug and 
gang activities in our local communities. In addition, I would urge 
adequate funding for the National Estuary Program that provides funding 
to local coastal communities like Staten Island and Brooklyn to protect 
and restore estuaries and watersheds. Lastly, I would like to stress 
the importance of adequately funding the National Institutes of Health 
to achieve further progress in research and treatments for diseases 
like diabetes, cancer and neurological disorders.
    Thank you for the opportunity to testify today before this 
Committee.

    Ms. Hooley. Thank you, Representative.
    I think you are absolutely right. When we look at our 
teaching hospitals and the cuts that have been proposed, we 
know that we have a huge nursing shortage. We are recruiting 
nurses from around the world, often the best nurses from other 
countries, and we have particularly a shortage of primary care 
physicians.
    So it is already difficult for Medicare patients to get in 
and see a primary care physician. And as the baby boomers 
increase their numbers of retirement, I think it is going to be 
more difficult.
    So I agree with you totally on that issue and will make 
sure that it comes before the Committee, and really appreciate 
your time and your effort and for testifying today.
    Mr. Fossella. Thank you very much and thank you for your 
time.
    Ms. Hooley. Thank you.
    I appreciate all the members that have taken their time to 
testify today. These are issues that are near and dear to 
everybody's hearts and talking about whether it is teaching 
hospitals or talking about what we need to do for our veterans, 
the testimony, I think, has been terrific.
    And at this time, the Committee is now adjourned. Thank 
you.
    [Additional statements for the record follow:]
    [Statement submitted by Ms. Brown-Waite follows:]

   Prepared Statement of Hon. Ginny Brown-Waite, a Representative in 
                   Congress From the State of Florida

    Mr. Chairman, I would like to thank you for giving me the 
opportunity to submit a statement to the Committee today. The hearing 
is a wonderful opportunity for Representatives from across the country 
to express their views on the President's budget proposal for the 2009 
fiscal year.
    As you know, Mr. Chairman, there is no doubt that the state of our 
nation's finances is grim. The budget deficit is undeniable and 
requires immediate attention. As Members of Congress, we have an 
obligation to ensure that this burden is not passed along to our 
grandchildren. The President's budget takes steps toward achieving 
fiscal responsibility by keeping the growth of government programs to a 
minimum.
    That having been said, we have an obligation to keep our promises 
to those who have defended our freedom. As you may be aware, my 
district is home to over 100,000 veterans, the most of any Member of 
the House of Representatives. I have an extraordinary charge to 
advocate for policies and legislation that best care for veterans' 
needs.
    As such, I would like to raise my objections to the President's 
budget for the Department of Veteran Affairs. I have consistently 
opposed charging veterans an enrollment fee or dramatically increasing 
their prescription drug co-pays. Since I first came to Congress, I have 
fought against the Administration's desire to charge higher-income 
veterans, such as those veterans grouped as category 7 and 8, 
enrollment fees and higher co-payments. This change has been requested 
by the Administration every year since 2004, and with strong bipartisan 
support, this policy has been rejected every year. It is in the best 
interest of our nation's veterans for Congress to work in a bipartisan 
manor to do the same this year.
    Another aspect of the Department of Veterans Affairs budget that 
concerns me is funding for the Office of Inspector General (OIG). In FY 
2008, Congress provided the OIG with $80.5 million in funding which 
enabled the OIG to hire 48 Full Time Equivalent (FTE) employees and 
expand its oversight capabilities. For FY 2009, the President has 
requested $75.6 million for the OIG. This decrease will require the OIG 
to eliminate the 48 newly hired FTE employees and cancel the oversight 
projects assigned to those employees.
    The OIG is an invaluable resource that forces VA to spend wisely, 
eliminate waste, and ensure our veterans receive the best care 
possible. In fact, the OIG provides a return of $11 for every $1 
invested in its services. In light of the historic increases Congress 
has made to the VA's budget in recent years, it is crucial that the OIG 
has enough funding to monitor how VA uses its resources. As such, I 
support the Republican Views and Estimates for the Committee on 
Veterans' Affairs that provides $111.1 million in FY 2009 for the OIG.
    The second priority I would like to highlight is extremely 
important to the people of Florida.
    STARS is a Subtropical Agricultural Research Station near my home 
in Brooksville, FL, and is funded under the Agricultural Research 
Service, which is the research arm of the Department of Agriculture.
    The Agricultural Research Service's mission statement quotes that 
it finds solutions ``from field to table.'' The research done at STARS 
is invaluable, both to the scientists who devote their lives to it, and 
to everyone who benefits in return. Because of this 3800-acre beef 
cattle research facility, American farmers plant high quality, disease- 
and pest-resistant crops and protect livestock from bacteria that could 
eventually make its way into our food stock.
    For Fiscal Year 2009, the President's proposed budget contains an 
$84 million dollar reduction for the Agricultural Research Service. 
Because of the proposed reduction for next year, the ARS has proposed 
closure for 11 of its 100 locations. STARS is one of the sites the 
Agricultural Research Service plans to close.
    The annual operating budget for STARS is $1.4 million dollars, a 
nominal amount when we look at the total spending contained in this 
budget proposal. In addition, this research site is particularly close 
to my heart because I bring my staff to this location for office 
retreats.
    As the committee drafts the budget resolution for the 2009 fiscal 
year, I hope that you take my requests into consideration and not 
include any proposal to increase fees for veterans' health care, or 
make cuts to the Agriculture Research Service. Again, thank you for 
allowing me to submit this statement to the committee.

    [Statement submitted by Ms. Bordallo follows:]

 Prepared Statement of Hon. Madeleine Z. Bordallo, a Delegate From the 
                           Territory of Guam

    Good afternoon Chairman Spratt and Ranking Member Ryan. Thank you 
for the opportunity to testify before the House Committee on the Budget 
on the Administration's budget proposal for Fiscal Year 2009 and Guam's 
budget priorities for the upcoming year. I greatly appreciate your 
attention to and consideration of the priorities that I identify.
    First, I respectfully request and appeal to the Committee to 
include in its proposed budget resolution for Fiscal Year 2009 
sufficient budgetary headroom to allow for Congress to pass legislation 
to implement the recommendations of the Guam War Claims Review 
Commission. Second, I respectfully request that the budget resolution 
for Fiscal Year 2009 also include budgetary headroom for the Department 
of Labor to provide additional workforce development programs and 
projects on Guam. I thank this committee for including reference to the 
Guam war claims legislation in last year's report accompanying the 
budget resolution. This was critical to overcoming budgetary hurdles 
that have hampered this legislation in the past. We hope that the 
committee can continue this commitment again this year to help enable 
Senate passage.
    I first introduced H.R. 1595, the Guam World War II Loyalty 
Recognition Act, during to 109th Congress and re-introduced the 
legislation last year. The bill received favorable consideration in the 
House Committee on Natural Resources and was reported to the House of 
Representatives. On May 8, 2007, H.R. 1595 was passed by an 
overwhelming vote of 288 to 133 and was sent to the Senate for their 
consideration. The legislation has been referred to the Senate 
Committee on the Judiciary. We believe that the Senate will take action 
on this legislation during the 2nd session of the 110th Congress so 
sufficient budget authority is needed to ensure that funding does not 
impede the progress of this critical legislation for Guam.
    As in previous years, the Congressional Budget Office (CBO) 
estimates that the budget should provide for a least $126 million over 
three fiscal years for legislation to implement the recommendations of 
the Guam War Claims Review Commission as is stipulated in H.R. 1595. 
This estimate is based on every possible conceivable claim whose 
payment would be authorized by the legislation.
    The Guam War Claims Commission, which was authorized in the 107th 
Congress, conducted hearings on Guam to receive testimony from 
survivors. In addition to these hearings, the Commission also received 
questionnaires from survivors on their occupational experiences. In 
total, approximately 8,000 questionnaires were received by the 
Commission primarily from survivors on Guam and to a smaller extent, 
from throughout the entire United States. Based upon these returned 
questionnaires, it is estimated that the amounts of actual claims would 
be significantly lower than the Commission's original estimates and the 
conservative estimate provided by CBO. Death claims may be as low as 
330 based on the self-declarations in the questionnaires. While injury 
claims may actually number closer to 4,000 to 5,000. It should also be 
noted that the final report of the Guam War Claims Review Commission 
included estimates for the potential death and personal injury claims. 
The Commission estimated total funding for claims to be $126 million 
based on 1,000 deaths and 8,551 survivors.
    The Congress has a moral obligation to bring closure for the loyal 
Americans who experienced the brutality of the occupation on Guam. I 
respectfully request that the budget resolution for Fiscal Year 2009 
take into account the costs associated with H.R. 1595 and that would 
help fulfill our moral obligation to our fellow Americans and to bring 
justice to them as has been recommended by the federal commission 
authorized by the 107th Congress.
    Looking forward, the planned realignment of military forces onto 
Guam will create substantial budget pressures on the Department of 
Defense (DOD). The largest part of this force posture change is the 
realignment of nearly 8,000 Marines from the III Marine Expeditionary 
Force currently stationed in Okinawa, Japan. Additionally, the Air 
Force is realigning a Red Horse Squadron from Osan, Korea adding nearly 
3,000 more airmen to Andersen Air Force Base along with a planned 
increase of Navy personnel on Guam. The realignment of these forces is 
estimated to cost $14 billion dollars over the next six years.
    Unlike other major personnel movements and base closures, this 
realignment also includes funding from the Government of Japan. Nearly 
$6 billion dollars of the total $14 billion dollar cost will come from 
the Government of Japan and related entities. Although this will 
relieve some financial pressure on the United States Government, it 
will still require the Department of Defense to program nearly $8 
billion in resources over the next five to six years. The Department 
has not identified all the authorities that will be required in order 
to execute the Japanese funding through special purpose entities. As 
such, the Department of Defense will likely need budget room to program 
the Japanese funding dollars so they can be executed for projects on 
Guam.
    Planning for the realignment is well under way and under the 
direction of the Joint Guam Program Office (JGPO) in coordination with 
U.S. Naval Facilities Engineering Command. The draft initial master 
plan is due out next month and will help guide federal and local 
planning efforts. Moreover, the Environmental Impact Statement (EIS) is 
under works and the draft EIS is estimated to be completed in January, 
2009. Also, the Department of Defense is working closely with the 
Department of the Interior through the Interagency Group on Insular 
Areas (IGIA) to coordinate further investment by other interested 
federal agencies that can provide Guam with funding to improve their 
medical, educational and physical infrastructure.
    In particular, additional budget authority should be provided to 
the Air Force for the purposes of increasing their military 
construction budget. Between fiscal year 2008 to 2009 the overall 
construction budget decreased by thirty-two percent. This drastic 
decrease is of great concern because of the impact that it will have on 
the readiness of the Air Force. Facilities are critical for the 
maintenance of assets and for maintaining a high quality of life for 
airmen across the country. The Air Force has identified an unfunded 
requirement of $748 million for military construction in Fiscal Year 
2009. I respectfully request that the Committee include additional 
budget authority for the Air Force military construction account in 
order to ensure that the Air Force has the necessary resources and 
infrastructure to complete its missions.
    This issue is of particular importance to Guam as our community 
prepares for the build-up of forces. Unfortunately, there is a decrease 
in military construction funding of nearly forty percent. The decrease 
is particularly troubling because it is anticipated that in fiscal 
years 2010 through 2014 that up to $1 billion of construction funding 
will be executed on Guam during that timeframe. However, the on-island 
capacity for construction is limited to approximately $500 million per 
year. Thus, it was important for military construction funding to be 
slowly ramped up in years prior to major construction so that the on-
island workforce will be ready for the substantial increases. The 
significant cuts in Air Force military construction accounts are a 
major factor for this decrease in funding. I am concerned that the 
decrease in funding this year will be a set-back for local industry as 
it prepares for the military build-up.
    Guam's growing importance as a strategic asset to our national 
security is evidenced by the planned increase in DOD investment in the 
island's bases. Guam is proud to serve the United States in this 
manner. But it is important that the Federal Government begin now to 
help the island prepare for this enhanced role. The Committee's support 
by means of providing budgetary headroom for the implementation of the 
recommendations of the Guam War Claims Review Commission will go far 
toward achieving this goal. I appreciate the opportunity to submit this 
testimony for the record. Thank you for your consideration of my 
testimony.

    [Additional material submitted by Ms. Castor follows:]

                    Additional Remarks of Ms. Castor

    I would like to thank Chairman Spratt and members of the Committee 
for their leadership and for holding this special Members' Day. I 
appreciate the opportunity to testify before the Committee and offer my 
thoughts on an issue that affects states throughout our nation.
    Many states are facing severe funding shortfalls in Medicaid 
funding. In FY '08, 20 states lost Medicaid funding from 2007 and 17 
states are projected to have FMAP decreases in FY '09.
    States like Florida, Texas, Mississippi, Oklahoma, Nevada, 
Louisiana and others are in danger of losing millions upon millions in 
federal Medicaid dollars. Yet, Medicaid enrollment is expected to 
increase.
    The current FMAP formula is outdated and does not accurately 
reflect current income levels.
    The inaccuracies in the current FMAP formula for many states 
increases the difficulty that states are already having providing 
needed funding for Medicaid as a result of our nation's dire economic 
state.
    In the 2003 economic stimulus package, Congress approved $10 
billion to temporarily enhance FMAP percentages for every state.
    A similar increase today could both prevent scheduled decreases and 
temporarily increase FMAP allocations for every state. We need 
immediate economic relief that will alleviate the strain on state 
Medicaid budgets and ensure that our nation's residents with the 
highest needs do not go without critical health services.
    Families and businesses have already been hard hit by the economic 
downturn and an increase in Medicaid spent on vital health services is 
the most beneficial and effective way to strengthen our economy.
    For millions of families, Medicaid is the only form of health 
coverage available. In my home state of Florida, Medicaid serves 
approximately 2.2 million residents, over half of whom are children.
    Struggling and hardworking families depend on this support for 
health care. An increase in Medicaid funding will provide families with 
critically needed medical care.
    Medicaid is a lifeline for many pregnant women, families who are 
transitioning from welfare to work, young children and seniors who 
qualify for Supplemental Security Income (SSI).
    My home state of Florida is not alone in severe projected Medicaid 
shortfalls, but a unique anomaly is exacerbating our problems in 
Florida.
    Florida was hit by seven hurricanes in two years: Charley, Frances, 
Ivan and Jeanne in 2004 and Katrina, Rita and Wilma in 2005.
    As a result of these hurricanes, per capita income levels in 
Florida temporarily surged upward due to a repair and rebuilding 
period. The anomaly caused the FMAP formula in Florida to skew so it 
does not accurately attend to the state's need.
    This anomaly will leave Florida's neediest residents, without vital 
health services if Florida's FMAP allocation is not corrected.
    Cuts in Medicaid funding from Florida's skewed numbers will 
adversely impact my neighbors in the Tampa Bay area, residents in the 
state of Florida and others living in states which face similar cuts.
    In Florida, we are facing a $500 million hit in Medicaid funding, 
which will have a devastating effect on hardworking families.
    It is estimated that Florida will suffer a $220 million hit in FY 
'09 alone.
    FMAP must be reformulated to reflect every states most recent data.
    Millions of families who depend on Medicaid for health care will be 
forced to go without if these cuts occur.
    Congress must act to prevent this from happening. We must act to 
protect our nation's neediest citizens--seniors, pregnant women and 
children.
    We must work to provide protection for the folks who need it the 
most.
    We must correct the FMAP allocation and enhance Medicaid funding.
    Again, thank you Mr. Chairman and members of the Committee for this 
opportunity to testify on behalf of my state and others affected by 
this issue.

                 [From the Miami Herald Media Company]

      Florida's Post-Storm Income Rise Cuts Federal Medicaid Cash

                            By Lesley Clark

    Florida's record spate of hurricanes was great for blue tarp 
manufacturers and apparently, the state's per capita income, which 
surged in a post-storm construction boom.
    But those years are over and the boom now is taking a bite out of 
the state's share of federal Medicaid dollars. Because the federal 
money is doled out according to a formula based on the state's past per 
capita income, its share of federal dollars is dropping, even as demand 
for Medicaid increases and the state's fiscal picture dims.
    ``Those were the boom years for a bunch of states and now, when 
they need it, the states are feeling the pinch,'' said Matt Salo, 
director of health and human services for the National Governors 
Association, who joined state officials Wednesday to plead with 
Florida's congressional delegation to address what the state estimates 
could be a $500 million hit.
    ``This is a significant loss of revenue that could affect the 
disabled, nursing home residents, mothers and children,'' said Rep. 
Kathy Castor, D-Tampa, who is leading efforts within the delegation to 
find a fix.
    Castor said House leadership has shown interest in addressing the 
issue in upcoming legislation. In 2005, she noted, Congress increased 
the Medicaid payment for states affected by Hurricane Katrina.
    ``Seven hurricanes in two years [Charley, Frances, Ivan and Jeanne 
in 2004 and Katrina, Rita and Wilma in 2005] and subsequent 
reconstruction activity are skewing the Florida [Medicaid] formula,'' 
Castor wrote in a letter to House Speaker Nancy Pelosi. ``This anomaly 
has resulted in significant projected reductions in health services to 
Florida's neediest residents.''
    The portion of Medicaid paid by the federal government is 
calculated on a three-year average of state per capita personal income, 
compared with the national per capita income.
    For the fiscal year that began in October, Florida's federal share 
dropped nearly two percentage points, from 59 percent federal match to 
57 percent. And it will drop again in the federal budget that starts in 
October, from 57 percent to 55 percent, said Carlton Snipes, acting 
deputy secretary for Medicaid at the Florida Agency for Health Care 
Administration.

                 ECONOMIC STIMULUS: A STATE PERSPECTIVE

                     National Governors Association

January 18, 2008
    Targeted State-Federal Programs for High-Risk Populations--As 
unemployment increases, the case loads of state low-income programs 
also increase. Federal investments in targeted state-federal programs 
can quickly distribute funds to the most needy individuals and help 
avoid cuts to basic services. Programs falling into this broad category 
include:
                                medicaid
    The Federal Medical Assistance Percentage (FMAP) is the share of 
the state Medicaid benefit costs paid for by the federal government. 
FMAPs are recalculated each year and the new FMAP is applied at the 
start of the federal fiscal year. The current FMAP formula reflects 
economic conditions from several years ago, thereby creating a lag that 
could exacerbate problems states have financing Medicaid during a 
period of fiscal downturn. In federal FY 2008, 20 states experienced 
FMAP declines over their federal FY 2007 FMAP. Seventeen states are 
projected to have FMAP decreases in federal FY 2009, beginning October 
1, 2008. At the same time, anecdotal evidence is emerging of increasing 
state Medicaid program enrollments.
    During the last economic downturn, Congress approved $10 billion to 
temporarily enhance FMAP percentages for every state by 2.95 percent 
for five quarters. In addition, a hold harmless provision preventing 
scheduled FMAP decreases was implemented for periods in 2003 and 2004. 
Both preventing scheduled decreases and temporarily increasing all 
states' FMAPs would provide immediate fiscal relief to states by 
alleviating Medicaid obligations and preventing cuts to programs 
important to residents during fiscal downturns.

                                                  January 28, 2008.
Hon. Harry Reid, Majority Leader; Hon. Mitch McConnell, Minority 
    Leader, U.S. Senate, Washington, DC.
Hon. Nancy Pelosi, Speaker; Hon. John Boehner, Minority Leader, U.S. 
    House of Representatives, Washington, DC.
    Dear Senator Reid, Senator McConnell, Speaker Pelosi, and 
Representative Boehner: The nation's governors urge you to include 
state countercyclical funding as part of your legislation to stimulate 
the economy. This would include $6 billion in Medicaid assistance by 
freezing scheduled federal FMAP reductions and increasing all states' 
FMAP as well as providing $6 billion in a flexible block grant.
    The revenue reductions and Medicaid increases that accompany all 
economic downturns, in combination with state balanced budget 
requirements, are forcing states to cut spending as the economy 
weakens. These actions are procyclical and will make the current 
downturn both longer and more severe.
    States already are experiencing the effects of the slowing economy. 
The week of January 14, the National Governors Association surveyed all 
states and found that 18 states reported shortfalls totaling $14 
billion for fiscal year 2008 and 17 states projected shortfalls of $31 
billion for fiscal year 2009.
    During the last two recessions, the state fiscal picture continued 
to deteriorate for two years after the recessions ended. For example, 
in 2001, the year the last recession ended, 16 states were forced to 
cut budgets. In each of the next two years, 37 states had to make cuts 
to meet shortfalls. If the current downturn follows the path of the two 
previous recessions, 35 to 40 states will face budget cuts in 2009.
    In 2003, Congress approved $20 billion in assistance to states, 
including $10 billion in Medicaid and $10 billion in block grants. The 
governors' current stimulus proposal is essentially the same, with the 
exception that it is a total of $12 billion as opposed to $20 billion. 
This proposal can be enacted quickly, as there is precedent and it is 
timely, temporary and targeted.
    Additionally, governors appreciate federal efforts to use tax 
policy to get additional money into the hands of consumers and 
businesses to stimulate the economy. When considering tax changes to 
spur economic growth, governors urge Congress and the Administration to 
follow the maxim of ``Do no harm'' by avoiding changes at the federal 
level that would diminish state tax revenues or force state actions 
that would undermine the effectiveness of federal efforts.
    We look forward to working with you to enact the appropriate 
stimulus program.
            Sincerely,
                              Gov. Tim Pawlenty, Minnesota.
                      Gov. Edward G. Rendell, Pennsylvania.
                            Gov. Janet Napolitano, Arizona.
                                 Gov. Mike Beebe, Arkansas.
                    Gov. Arnold Schwarzenegger, California.
                            Gov. Bill Ritter Jr., Colorado.
                            Gov. M. Jodi Rell, Connecticut.
                            Gov. Ruth Ann Minner, Delaware.
                               Gov. Charlie Crist, Florida.
                            Gov. Rod Blagojevich, Illinois.
                              Gov. Chester J. Culver, Iowa.
                            Gov. Kathleen Sebelius, Kansas.
                          Gov. Steven L. Beshear, Kentucky.
                                 Gov. John Baldacci, Maine.
                            Gov. Martin O'Malley, Maryland.
                         Gov. Deval Patrick, Massachusetts.
                       Gov. Jennifer M. Granholm, Michigan.
                                 Gov. Matt Blunt, Missouri.
                                  Gov. Jim Gibbons, Nevada.
                         Gov. John H. Lynch, New Hampshire.
                           Gov. Jon S. Corzine, New Jersey.
                          Gov. Bill Richardson, New Mexico.
                              Gov. Eliot Spitzer, New York.
                    Gov. Michael F. Easley, North Carolina.
                            Gov. John Hoeven, North Dakota.
                                 Gov. Ted Strickland, Ohio.
                                 Gov. Brad Henry, Oklahoma.
                       Gov. Theodore R. Kulongoski, Oregon.
                     Gov. Anibal Acevedo Vila, Puerto Rico.
                     Gov. Donald L. Carcieri, Rhode Island.
                      Gov. M. Michael Rounds, South Dakota.
                               Gov. Jon Huntsman Jr., Utah.
                            Gov. James H. Douglas, Vermont.
                           Gov. Timothy M. Kaine, Virginia.
                    Gov. John deJongh, Jr., Virgin Islands.
                    Gov. Christine O. Gregoire, Washington.
                       Gov. Joe Manchin III, West Virginia.
                                 Gov. Jim Doyle, Wisconsin.
                                   Gov. Bob Riley, Alabama.
Printed from the NGA web site.
                                                  January 23, 2008.
Speaker Nancy Pelosi, Office of the Speaker,
H-232, US Capitol, Washington DC.
Chairman Charles B. Rangel, Committee on Ways & Means,
1102 Longworth HOB, Washington, DC.
Chairman John D. Dingell, Committee on Energy and Commerce,
2125 Rayburn HOB, Washington, DC.
RE: Strengthen Health Care Safety Net (Medicaid) as Economic Stimulus
    Dear Speaker Pelosi, Chairman Rangel, and Chairman Dingell: I am 
very encouraged that enhancements to the health care safety net--
Medicaid--are being considered as part of the economic stimulus 
package. Enhanced Medicaid funding spent on vital health services is 
the most beneficial and effective way to support struggling and 
hardworking families in the State of Florida and directly invigorate 
our economy. Medicaid serves approximately 2.2 million in Florida, with 
over half of those being children.
    Florida families and businesses have already been hard hit by the 
economic downturn. The mortgage and real estate crisis has caused 
revenue shortfalls and threatens to trigger state-constitutionally 
mandated budget reductions that likely will result in cuts to health 
care for our neediest residents under Medicaid. At the same time, 
Florida's Medicaid Federal Medical Assistance Percentage (FMAP) is set 
to decrease substantially in future years.
    As you know, FMAP is the portion of Medicaid paid by the federal 
government and is calculated based on a 3-year average of state per 
capita personal income compared to the national income. Seven 
hurricanes in two years (Charley, Frances, Ivan, and Jeanne in 2004 and 
Katrina, Rita and Wilma in 2005) and subsequent reconstruction activity 
are skewing the Florida FMAP formula. This anomaly has resulted in 
significant projected reductions in health services to Florida's 
neediest residents due to the federal match rates for the Florida 
Medicaid Program in years 2007-2010. Families transitioning from 
welfare to work, pregnant women, young children and seniors who qualify 
for Supplemental Security Income (SSI) may soon see reductions in vital 
health services. Florida will take a $220 million hit in its FY 09 FMAP 
allocation alone.
    Therefore, I respectfully request that you correct Florida's FMAP 
allocation in the stimulus package. There is precedent for Congress to 
address such hardship, help those that need it, and have an immediate 
positive affect on the economy. In 2003, Congress passed a stimulus 
package that provided $10 billion in temporary relief to states through 
hold harmless provisions that blocked FMAP decreases for the last two 
quarters of FY 03 and the first three quarters of FY 04, and instead 
increased the FMAP by 2.95 percentage points. In 2005, Congress 
increased the FMAP for states ravaged by Hurricane Katrina in an effort 
to bring economic stability to the devastated region.
    Congress must act again to address such hardship and protect the 
health care safety net for our neediest citizens--seniors, pregnant 
women, and children. This timely, targeted, and temporary enhancement 
will ensure direct stimulus Florida's economy.
            Sincerely,
                         Kathy Castor, U.S. Representative,
                                              Florida--District 11.

                     National Governors Association

                          FMAP Policy Position

    The nation's Governors strongly support a combination of a $6 
billion block grant and $6 billion in increased Medicaid funding to be 
included in any stimulus package enacted into law during the economic 
downturn of 2008. The increased Medicaid funds should come through 
increasing each state's federal medical assistance percentage (FMAP) 
and holding states harmless from scheduled FMAP decreases for the four 
fiscal quarters beginning April 1, 2008. The block grant funds should 
be distributed to states on a population formula based on the most 
recent data available. There is a precedent in that a similar package 
of $20 billion was enacted in 2003. This policy meets the criteria of 
being timely, targeted, and temporary.
            Adopted by the Executive Committee on January 23, 2008.

    [Statement submitted by Mr. Forbes follows:]

    Prepared Statement of Hon. J. Randy Forbes, a Representative in 
                  Congress From the State of Virginia

    Chairman Spratt and Ranking Member Ryan. Thank you for the 
opportunity to furnish my perspective on what is needed to achieve the 
twin goals of providing adequate funding to improve the readiness of 
our military and to reduce the strategic risk faced by our military and 
our country. As the ranking member of the House Armed Services 
Subcommittee on Readiness, I closely follow the military's readiness 
reports, frequently listen to testimony of uniformed and civilian 
leaders in the Pentagon, and talk to our troops serving in the combat 
theaters. I believe it is critical that we increase the national 
defense spending in the baseline budget for Fiscal Year 2009.
    There is widespread political disagreement about the war in Iraq. 
Yet, all Americans are grateful to the men and women in uniform that 
serve our country and want them to be provided the best training and 
equipment for their service so they are as ready as possible should 
they be called upon by our country. Expert testimony I have heard in 
the House Armed Services Committee describes a military that is the 
most professional, experienced, adaptive, and capable force we have 
ever seen. Yet, there are readiness issues that must be addressed that 
I would like to raise today. Although there are many that blame the 
current state of readiness wholly on operations in Iraq, it is clear to 
me that there are broader factors that must be addressed if we are to 
ensure our military is capable and ready for whatever the nation calls 
it do.
    We, as a nation, once viewed our reserve component as a strategic 
reserve. We believed that if we needed them for a protracted war, we 
would have time to equip and train them before they were needed on the 
front lines. We have since learned that the budget process and the 
industrial base are not agile or flexible enough to adequately fill 
existing shortfalls in equipment and training as quickly as necessary. 
This is a hard lesson to learn and the stress and strain placed on our 
military because of this is unmistakable.
    In addition to an ill-equipped reserve component, we are also faced 
with the fact that we took a procurement holiday in the 1990's. It 
takes many years to design and build things like fighter aircraft, 
combatant ships, and aerial refueling tankers. We simply cannot go out 
and buy these items off the shelves of the local Wal-Mart or 7-11 if we 
suddenly realize they are needed. Declining readiness today is a result 
of poor investment a decade ago.
    We are working aggressively to correct these deficiencies that 
existed long before September 11, 2001, but we are doing this while we 
are also fielding and supporting troops in combat. Much of this is done 
with supplemental funding and, because of that, many mistakenly 
attribute the cost of rebuilding and modernizing our forces with the 
costs of war. Given these facts, I believe it is critical that we 
increase the national defense spending in the baseline budget for 
Fiscal Year 2009.
    I make this recommendation with two caveats. First, we do not yet 
have the Fiscal Year 2009 defense supplemental request, which may 
provide for a good part of the reset and restoration funding needed to 
improve the readiness of our military forces should Congress act on it 
quickly. I share the disappointment with the Budget Committee that we 
have not yet received this request.
    Second, this Congress has yet to act on the full Fiscal Year 2008 
supplemental request which has been languishing here for more than a 
year. There can be no question that the funding in that spending bill 
will directly improve the readiness of our military and minimize the 
strategic risk that so many in Congress are concerned about.
    In light of these factors, I am compelled to testify today because 
it is critical in my mind that we separate military readiness from 
disagreements on the war in Iraq. I believe it is critical that the 
Fiscal Year 2008 supplement request, which is essential for reset and 
restoration of our military and reduces the level of readiness and 
strategic risk we take on as a nation. As your committee has long 
maintained, military readiness should not be a budgetary tack-on or an 
afterthought to the rest of the federal budget. The funds needed to 
maintain our military readiness and strategic posture--whether they are 
needed because the equipment was used in a combat theater or used in 
training--ought to be funded in the baseline defense budget request.
    There have been several proposals regarding the specific amount of 
funding that should be allocated towards defense each year. Some have 
supported four percent of GDP, and that number makes sense to me. 
Others have suggested we fully fund each of the services' unfunded 
requirements list. These requirements, while not an official part of 
the budget, reflect the services' prioritized requirements if 
additional funds are made available. These unfunded requirements lists 
are not ``Christmas Wish Lists.'' When you review these documents you 
find that the services are in need of basic things that did not make it 
into the budget. When you review these documents you get a clear 
understanding of the strategic risk we are accepting by not increasing 
the top line for our nation's military.
    But I am here first and foremost, to request that we immediately 
move to increase the baseline defense budget function in this fiscal 
year so that our military's readiness, and by extension--our country--
are not put in a position of strategic risk. Mr. Chairman, thank you 
for the opportunity to provide testimony today.

    [Statement submitted by Mr. Hinojosa follows:]

Prepared Statement of Hon. Ruben Hinojosa, a Representative in Congress 
                        From the State of Texas

    Chairman Spratt, Ranking Member Ryan and Members of the Committee, 
thank you for this opportunity to testify before you on the fiscal year 
2009 budget. I ask that my written statement be included in the record. 
The federal budget is our most direct and telling statement of the 
nation's values and priorities. Unfortunately, when the people of my 
congressional district--hard working people--many who live in rural 
areas--most of whom are Hispanic--look at the federal budget, they do 
not see their values reflected in the budget; and they do not see their 
community's well-being and prosperity treated as a national priority.
    I am here today to share with you some areas where the federal 
budget could better reflect the values and priorities of my 
congressional district and similar communities across the nation. I 
will focus my remarks on three critical areas: education, health, and 
economic development.

                               EDUCATION

    Nothing demonstrates our misplaced national priorities more than 
our failure to invest in education--particularly our failure to invest 
in the key programs that are making a difference in the Hispanic 
community.
    Our Census figures tell the story. Hispanics are now the largest 
minority group in the country. Hispanic children are now second to only 
non-Hispanic whites in our nation's schools. By 2010, Hispanics will be 
the largest minority group in our nation's workforce. Yet Hispanic 
children are the least likely to attend preschool, the most likely to 
dropout of school before earning a high school diploma, and the least 
likely to earn a college degree.
    Strengthening educational opportunities for Hispanic Americans from 
pre-school through graduate school must become a national priority. 
Literally, our future depends on it. Unfortunately, the opposite has 
been true.
    We know what we need to do. We have an investment plan. The 
Congressional Hispanic Caucus focuses on a group of federal education 
programs that are critical to the Hispanic community--Titles I and III 
of the Elementary and Secondary Education Act, migrant education 
programs, dropout prevention, HEP and CAMP, TRIO, GEAR UP, Hispanic-
Serving Institutions, Even Start, Adult English as a Second Language 
and Civics Education. We call these programs the Hispanic Education 
Action Plan. The President's fiscal year 2009 education budget 
shortchanges every one of these programs, not even keeping pace with 
the current level of services.
    We know that literacy is the foundation for learning, and we know 
that parents are the first teachers for their children. Yet, the 
President has proposed to eliminate Even Start and Reading is 
Fundamental--the only programs that support family literacy and promote 
a love of reading by providing books for low-income children. The No 
Child Left Behind Act will not be successful unless we support literacy 
in the home.
    The president proposes $14.3 billion for Title I--a $406 million 
increase. This is still well below the authorized amount of $25 
billion. Moreover, the President is proposing that school districts be 
required to distribute a fair share of funding to high schools based on 
their share of the school district's low-income students. With out 
additional resources, this will result in a shift of dollars from 
elementary and middle schools to high schools. That is why I have 
called on the president to support the Graduation Promise Act to 
establish a separate funding stream for high school improvement so that 
we can tackle our dropout crisis.
    With the College Cost Reduction and Access Act, Congress made a 
historic investment in minority-serving institutions because of their 
growing importance in producing the college graduates our economy needs 
to remain competitive. The National Center for Education Statistics 
reports that since 1984 minority undergraduate student enrollment has 
surged by 146 percent compared to a growth of 15 percent for the White 
population. Minority-serving institutions represent less than one-third 
of all degree granting institutions but enroll more than half of all 
minority students in postsecondary education. The President proposes to 
reverse our landmark investment by slashing HSIs by $18.8 million, 
HBCUs by $85 million, Tribal Colleges by $23.2 million, and Native 
Alaskan and Native Hawaiian Institutions by 11.6 million. The 
president's budget shortchanges minority institutions and the minority 
students they serve.
    We also have a critical need for graduate opportunities in the 
Hispanic community. In 2004, Hispanics only earned 5 percent of masters 
and professional degrees and only 3 percent of doctorates. It is 
essential that the fiscal year 2009 budget includes resources for 
graduate programs at Hispanic-serving Institutions.
    We must turn this around and significantly increase the investments 
in all of these programs. The stakes could not be higher. I urge you to 
reject the Administration's proposed cuts. I urge you to restore 
funding that has been cut over the past several years. And I urge you 
to put us on a path of increased investment starting with fiscal year 
2009. Without these investments, our nation will no longer be 
economically competitive in the future.

                                 HEALTH

    In addition to creating an educated workforce, we also need a 
healthy workforce if we are to remain competitive. Unfortunately, many 
people in my district do not have access to quality healthcare, 
particularly those in rural communities. Rural communities suffer from 
a lack of trained medical personnel because they cannot compete against 
urban wages and benefits at a time when we are facing a national 
shortage of nurses and allied health professionals. Yet the President's 
budget eliminates health profession training grants and slashes funding 
by 89% for rural health activities from the 2007 level.
    My district is plagued by the ever increasing scourge of diabetes 
which afflicts my constituents at an ever younger age and in near 
epidemic numbers. Yet the 2009 budget cuts critical diabetes programs 
at the Center for Disease Control that bridge the gap between 
theoretical research at the National Institutes of Health and real 
community based treatment.
    The Centers for Disease Control will also lose $182 million in 
funding for programs like the Preventative Health and Social Services 
Block Grant, Emergency Medical Services for children and the Universal 
Newborn Screening even while we all know that early prevention can save 
billions in future health costs.
    Provider cuts in Medicare will make it more difficult for my 
seniors to find a physician to treat them and higher copays will make 
even Medicaid unavailable to thousands of my constituents. My returning 
veterans from Iraq will have difficulty accessing services because VA 
funding will be cut by more than $3 billion from 2008 to 2012 while the 
fees imposed on veterans for their health care will increase by $2.3 
billion over that period. This will severely impact the VA's ability to 
treat new veterans.
    I urge the committee to reconsider these policies that will 
undermine the health of millions of Americans.

                          ECONOMIC DEVELOPMENT

    I strongly urge this committee to provide the funds necessary to 
operate key programs that help bolster economic development in Rural 
America. Rural America truly is the heartland of this great country. It 
is up to all of us here in Congress to ensure its continued vitality. 
The President's fiscal year 2009 budget seems geared to do just the 
opposite.
    Lack of decent affordable housing in rural America is well known. 
According to the Economic Research Service, some 4 million rural 
families live in ``housing poverty'', a multidimensional indicator that 
combines measures of economic need, housing quality and neighborhood 
quality. What is more, the 2000 Census revealed that 5.5 million people 
living in small towns and farming communities face cost overburden, and 
1.6 million non-metro housing units are either moderately or severely 
substandard.
    What is less known is the incidence and impact of the subprime 
mortgage crisis on rural communities across America. Recent research 
indicates that borrowers in rural areas are more likely than urban 
borrowers to have loans with prepayment penalties, and many rural 
borrowers had prepayment penalties significantly larger than urban 
borrowers.
    Rural families are hard pressed to find housing that is decent and 
affordable. Unless they are able to secure affordable housing 
assistance, rural borrowers are often saddled with loans that, in the 
end, are less affordable and on terms and conditions that threaten 
their overall financial situation. In the face of this crisis, the 
Administration's budget for FY'09 decimates existing direct lending 
programs for rural housing and proposes to increase fees for guaranteed 
loans.
    The Bush Administration's budget for fiscal year 2009 proposes 
severe and devastating cuts to eliminate important Rural Housing 
Service (RHS) programs. The loss of the RHS programs will affect single 
family loans, which serve borrowers with very low incomes, and will 
slash or eliminate funding for a number of Rural Housing Service 
programs that provide affordable rental housing for low income rural 
families.
    The budget cuts spending for rural housing loans and grants by some 
81% and eliminates over $1.4 billion in rural housing lending 
assistance targeted to low income families. If the Administration's 
budget is approved, it will be the first time in 41 years that the 
Agriculture Department has not offered direct lending assistance to 
help low-income rural families improve their housing conditions.
    The budget irresponsibly eliminates funding for the Section 515 
rural rental housing program, which provided $70 million in low 
interest loans in Fiscal Year 2008 for the construction, 
rehabilitation, and preservation of affordable federally subsidized 
rental housing units.
    Congress also provided $28 million in funding last year for a 
demonstration program to facilitate the preservation of federally 
subsidized affordable rental housing units. The Administration's budget 
does not provide a penny this year for this purpose, and instead 
rescinds $20 million in unused funding from previous years. These are 
funds that could be used to restructure affordable Rural Housing 
Service units, in order to avoid having these units converted to less 
affordable, market rent housing.
    The Administration's 2009 HUD budget also proposes significant cuts 
to public housing, the Community Development Block Grants, the Section 
202 elderly housing program, the Section 811 disabled housing program, 
Rural Housing Grants, the Rural Community Development Initiatives and 
more.
    The President's budget eliminates funding for farm labor housing in 
Section 514 Farm Labor Housing Loans and in Section 516 Farm Labor 
Housing Grants by two thirds. As you know, there is a tremendous need 
for assistance for farmworker housing. Migrant and seasonal farm 
workers are some of the nation's most poorly housed populations. 
Farmworkers and their families are some of the poorest, yet least 
assisted, people in the nation. Approximately 61% percent of 
farmworkers earn incomes below the poverty level. 60% of their 
households are the ones who are also more susceptible to live below the 
poverty threshold, which is six times the national rate. However, less 
than 20% of farmworker households receive public assistance in any 
form.
    At a time when we need additional funding for all sorts of 
important housing programs, this Administration wants to reduce the 
overall funding and eliminate important entities such as the Rural 
Housing and Economic Development program; the Housing Assistance 
Council, the La Raza Fund, and more. This is completely unacceptable 
and shows either the ignorance of or the disdain by the current 
Administration on the poor living conditions of people across this 
great land, especially those residing in Rural America--the heartland 
of our country. I invite all of you to come to my district at some 
point in time; to visit the colonias and other poor areas of my 
district; to see areas of our country with housing conditions that we 
normally associate with what we call the ``third world.'' I think it 
would be difficult to return from those areas, review the President's 
budget and claim that its cuts address the housing needs of rural 
America and the rest of the country.
    Finally, I want to address two programs that are of critical 
importance to my Congressional district and that of my border 
colleagues.
    The International Boundary and Water Commission is responsible for 
maintaining hundreds of miles of levees along the U.S. Mexico border. 
Unfortunately, because they are based at the State Department, they 
have not benefitted from the recent awareness of the need to improve 
levees throughout this nation that has resulted in increased funding 
for the Corps of Engineers. Historically, they have received 
approximately 2 million a year for levee maintenance. As a result, a 
recent assessment by the Corps of Engineers has found that the majority 
of the levees in the system are substandard and cannot be certified. 
Millions of Americans along the U.S./Mexico border and billions of 
dollars worth of property are at serious risk. In my largest county 
alone, it is estimated that $4 billion of economic development will be 
lost because of the need to buy flood insurance that would have been 
unnecessary had the levees been repaired. $125 million would make all 
of the necessary repairs throughout the system. I encourage this 
committee to provide the IBWC with the funding it needs to repair these 
levees as quickly as possible.
    The U.S./Mexico program under the Environmental Protection Agency's 
State and Tribal Assistance Program was created by the NAFTA to develop 
adequate water and wastewater systems to alleviate the exploding 
migration to the border region as a result of the treaty. Historically, 
the program has received $50 million annually to help small 
communities, many with no wastewater systems at all, provide this basic 
service. Unfortunately, the President's budget the past two years has 
reduced this funding to $10 million. This substantial decrease has 
meant that many eligible community projects must again be put on hold. 
As the average cycle for completion of a project is 5 years, this means 
that many communities will be forced to live for at least 5 more years 
without clean water or decent sanitation. This is totally unacceptable 
in America. I urge you to restore the $50 million that this program has 
historically received so that the backlog of projects can be cleared.
    Thank you for allowing me to testify here today. I encourage you to 
maintain and increase funding for programs that are essential to the 
education, health and economic development of our country.

    [Statement submitted by Mr. Hodes follows:]

Prepared Statement of Hon. Paul W. Hodes, a Representative in Congress 
                    From the State of New Hampshire

    Mr. Chairman and members of the Budget Committee, thank you for the 
opportunity to speak today about the fiscal year 2009 budget. As you 
consider this year's budget resolution, I want to stress the need for 
increased funding for two programs critical to my home state of New 
Hampshire: the Low Income Home Energy Assistance Program, or LIHEAP, 
and the Weatherization Assistance Program.
    Mr. Chairman, the skyrocketing costs of energy is one of the 
biggest challenges facing working families in my district. The price of 
home heating oil has nearly tripled since 2001. The average cost of 
heating a home has risen from $627 in the winter of 2001-2002 to $1,841 
per household in 2007-2008. Last October, the U.S. Energy Information 
Administration's projected record heating oil and propane prices for 
the winter 2007-2008. According to the report, just in the last year, 
the cost to heat a home with home heating oil increased by $375, 
propane by $273 and natural gas by $87. According to the EIA, 
households will spend an average of 10-22 percent more on this basic 
need heating bills this winter than they spent during the 2006-2007 
winter.
    LIHEAP and the Weatherization Assistance Program have historically 
been able to provide assistance to eligible families for this most 
basic need of heat for their homes. LIHEAP and Weatherization 
Assistance helps American families save money so they can take care of 
other basic needs, such as groceries and prescription drugs.
    In New Hampshire, where winter can last for months longer than 
other parts of the country, family budgets have been particularly 
strained by these steady increases. In our state, LIHEAP provides 
critical assistance to over 30,000 families each year. However, only 
about sixteen percent of eligible families receive LIHEAP funding 
nationally. The President has asked for only $2 billion for LIHEAP in 
his FY09 request, less than half of what Congress has authorized this 
year for this critical program. This cut would be devastating for New 
Hampshire families who are struggling to pay their heating bills during 
the cold winter months.
    The Weatherization Assistance Program represents another effective 
strategy for helping families save money--by assisting them in making 
their homes more energy efficient. This one-time assistance creates 
long-term savings of an average of $327 each year in New Hampshire. New 
Hampshire's weatherization program has served over 7300 homes since 
1997, but still has a waiting list of over 16,000 homes due to lack of 
funding. Despite the effectiveness of Weatherization programs, the 
President's FY09 budget request does not include any funding for the 
Weatherization Assistance Program. Funding this program in FY09 will 
help bring long-term energy relief to Granite Staters.
    Mr. Chairman and members of the Committee, I believe the 
Congressional budget is a reflection of our priorities as a nation's 
priorities. Slashing funding for programs that help working families 
deal with rising energy costs, as the President has proposed, is not in 
line with our nation's values. As the committee considers the fiscal 
year 2009 budget, I hope you will support LIHEAP and Weatherization 
Assistance. Thank you.

    [Statement submitted by Members of the House's Illinois 
delegation follows:]

     Testimony of Members of the Illinois Congressional Delegation

    U.S. Representative Judy Biggert; U.S. Representative Peter J. 
Roskam; U.S. Representative Jerry F. Costello; U.S. Representative 
Bobby L. Rush; U.S. Representative Jerry Weller; U.S. Representative 
Daniel Lipinski; U.S. Representative Melissa Bean; U.S. Representative 
Ray LaHood; U.S. Representative Rahm Emanuel
  regarding the budget resolution for fiscal year 2009, function 250--
general science, space, and technology, and argonne national laboratory 
               and fermi national accelerator laboratory

    Mr. Chairman, we want to thank you for this opportunity to share 
our views on and priorities for Function 250--General Science, Space 
and Technology--in the fiscal year (FY) 2009 federal budget. Function 
250 includes the budget for the Department of Energy's (DOE) Office of 
Science, which is the principal source of funding for Argonne National 
Laboratory, and the sole source of funding for Fermi National 
Accelerator Laboratory.
    Both national laboratories are located in Illinois, are critical to 
American competitiveness, and were adversely impacted by severe 
underfunding of the DOE Office of Science in the FY2008 omnibus 
appropriations bill. Overall, the $4.0 billion budget for the DOE 
Office of Science--excluding $125 million in earmarked funds in the 
fiscal year 2008 omnibus--increased at a rate less than inflation. 
Funding for a number of programs, facilities, and projects, including 
High Energy Physics, Basic Energy Science user facilities, and the U.S. 
contribution to the international fusion experiment ITER, declined 
significantly or were cut altogether.
    As a result of these cuts, Fermilab has been forced to furlough all 
employees, and may be forced to lay off a total of 200 scientists, 
engineers, and their support staff if Congress and the Department of 
Energy fail to provide additional funds for the High Energy Physics 
program in FY2008. In addition to shutting down two years early a user 
facility slated for closure and laying off around 30 people as a 
result, Argonne has been forced to reduce by 20 to 25 percent the 
operation of its Advanced Photon Source--the most powerful X-ray 
research facility in the Western Hemisphere--impacting hundreds of 
America's academic, government, and industry scientists who depend on 
this unique tool.
    President Bush's FY2009 budget proposal includes $4.7 billion for 
the DOE Office of Science and the physical sciences research it 
supports. While the President's budget proposal is not intended to 
address the problems that resulted from the FY2008 omnibus bill, it 
would more than restore funding for the critical research and 
facilities at Argonne and Fermilab and throughout the DOE complex. 
That's why we strongly urge the Budget Committee to provide the 
necessary resources in Function 250 to enable Congress to appropriate 
at least $4.7 billion for the DOE Office of Science.
    Budgeting $4.7 billion for the DOE Office of Science is consistent 
with the priorities of the Democrats' Innovation Agenda and the 
President's American Competitiveness Initiative, both of which propose 
to double federal funding for basic research in the physical sciences 
over the next five to ten years. Because the DOE Office of Science 
supports over 40 percent of total federal funding for basic physical 
sciences research--more than any other federal agency--increasing its 
funding is critical if we are to achieve our shared, bipartisan goal.
    But more than a bipartisan priority, increasing funding for the DOE 
Office of Science must be a national priority. We face a world in which 
our economic competitors in Asia and Europe are making significant new 
investments in their own research capabilities. These investments are 
beginning to pay off, as Asian and European countries challenge U.S. 
leadership in the sciences no matter how it is measured--by number of 
patents won, articles submitted to scientific journals, degrees 
awarded, Nobel prizes won, or the percentage of Gross Domestic Product 
(GDP) dedicated to research and development.
    Report after report--from the National Academy of Sciences and the 
President's Council of Advisors on Science and Technology to the Task 
Force on American Innovation and the Council on Competitiveness--calls 
on Congress and the President to invest in U.S. research capabilities. 
The benefits of such an investment to the U.S. economy and U.S. 
competitiveness are well known. Economic experts have concluded that 
science-driven technology has accounted for more than 50 percent of the 
growth of the U.S. economy during the last half-century.
    Even as we face greater international competition, these are 
exciting times for science in the United States. The Office of Science 
has developed a balanced investment strategy to ensure the U.S. retains 
its dominance in such key scientific fields as biotechnology, 
nanotechnology, material and chemical sciences, and supercomputing well 
into the next century. Leadership in these areas will benefit our 
health, our environment, our energy security, our economy, and our 
national security.
    U.S. scientists are as bright as any in the world, but they 
traditionally have had better tools than everyone else. The DOE Office 
of Science has led the way in creating a unique system of large-scale, 
specialized user facilities for scientific discovery. Under the 
President's budget, 21,500 researchers would have access to these DOE 
facilities. Nearly half of those users will be university faculty and 
students, a significant number will be from U.S. industry, and many 
will be from other federal agencies. This collection of cutting-edge--
often one-of-a-kind--tools makes the DOE Office of Science a unique and 
critical component of the federal science portfolio. Other federal 
science agencies, such as the National Institutes of Health (NIH) and 
the National Science Foundation (NSF), greatly depend upon these DOE 
Office of Science facilities in carrying out their own research 
activities.
    Because of the importance of the DOE Office of Science to the 
nation's research efforts and its long-term competitiveness, not to 
mention laboratories like Argonne and Fermilab, we urge the committee 
to provide the necessary resources in Function 250 to enable Congress 
to appropriate at least $4.7 billion for the DOE Office of Science. 
With this funding, the DOE Office of Science will attract the best 
minds, educate the next generation of scientists and engineers, support 
the construction and operation of modern facilities, and conduct even 
more of the quality scientific research that will ensure the U.S. 
retains its competitive edge for many years to come.

    [Letter and statement submitted by Ms. Solis follows:]

                                                 February 28, 2008.
Hon. John M. Spratt, Chairman; Hon. Paul D. Ryan, Ranking Member,
House Budget Committee, Cannon House Office Building, Washington, DC.
    Chairman Spratt and Ranking Member Ryan: Thank you for allowing me 
to share with you my budget priorities for Fiscal Year 2009. While I am 
unable to testify in person, I respectfully request that my views, 
which are attached for your consideration, are included in the official 
Committee record.
    I recognize our difficult budget situation. The nation is facing an 
economic downturn and a housing crisis, complicated by the cost of the 
war in Iraq and tax cuts for the nation's wealthiest which have 
strained our resources. However, I believe that we cannot condone 
disinvestment in public health care, the environment, education and our 
nation's workforce. We must prioritize investments in these areas if we 
are to guarantee a healthy, productive future for our children and 
families.
    I look forward to working with you to craft a budget which places 
priority on our nation's future.
            Sincerely,
                                            Hilda L. Solis,
                                                Member of Congress.

                              HEALTH CARE

    Ensuring access to quality, affordable health care is one of the 
most important challenges we face as a nation. As the Chair of the 
Congressional Hispanic Caucus Task Force on Health and the Environment, 
and a member of the Energy and Commerce Subcommittee on Health, I am 
deeply concerned about the impact of the President's proposed budget on 
communities of color.
    More than 47 million Americans are uninsured, including more than 
one out three residents in the communities I represent in East Los 
Angeles and the San Gabriel Valley in Southern California. More than 
15.3 million Latinos nationwide remain uninsured. Our nation's health 
care expenditures continue to skyrocket, and the Administration 
continues to promulgate policies that leave vulnerable populations in 
poor health status.
    The President's budget cuts more than $200 billion from Medicare 
and Medicaid. Nearly 40 percent of Latino children are covered by 
Medicaid, yet the Administration proposes drastic cuts to our safety-
net hospitals and providers that will impose additional difficulties 
for Latino seniors and low-income Latinos who already experience 
numerous barriers to health care. The proposed budget also fails to 
responsibly address the issue of insuring children. Inadequate funding 
levels and unreasonable policies mean that current SCHIP beneficiaries 
will lose their health care and the un-enrolled but eligible children 
will continue to lack coverage.
    The budget also fails to take into account the number of eligible 
but un-enrolled children in SCHIP. Seven in ten uninsured children are 
eligible for public programs such as Medi-Cal, Healthy Families, or 
Healthy Kids, but obstacles such as language and cultural barriers may 
delay or block enrollment. Federal support is needed to enroll 
uninsured eligible children, with an emphasis on linguistic and 
cultural competence. I urge my colleagues to consider the valuable role 
community health workers and patient navigators are playing across our 
country. Community health workers and patient navigators improve health 
status and can reduce the number of uninsured children.
    Communities of color bear the brunt of the impact of the lack of 
health care, struggling disproportionately from diseases such as 
diabetes, obesity, and HIV/AIDS. Yet this budget fails to place a 
priority on culturally and linguistically competent care. The 
President's budget reduces funding for the Office of Minority Health, 
cuts prevention and health promotion programs at the Centers for 
Disease Control and Prevention, inadequately funds the Ryan White CARE 
Act, and eliminates health professions training programs. These 
training programs are needed tools to ensure that our workforce 
reflects the diversity of our nation. Without minority health 
professions training, communities struggling with cultural and 
linguistic barriers will continue to lack service providers. By 
supporting health professions training programs, we are ensuring that 
future generations will receive appropriate health care and that health 
disparities will be reduced.
    Given the disproportionate impact of diseases on Latinos, I am 
concerned about level funding for the National Institutes of Health, 
cuts to nutrition programs, and our safety-net providers. Proper 
nutrition is essential to an individual's health, yet the President's 
budget reduces assistance for working families, caps funding for the 
Women, Infants, and Children (WIC) Program, and eliminates the 
Commodity Supplemental Food Program, which serves low-income 
populations. Perhaps some of most important resources our communities 
have are our Community Health Centers. Latinos make up 36 percent of 
the patients who receive care at Community Health Centers, and we must 
provide adequate resources to support existing clinics and to build new 
clinics.
    I urge you to act in the best interest of communities of color 
around the country and reject the President's misguided budget. I look 
forward to working together to improve the health of our communities 
and achieve health equity.

                            SOCIAL SECURITY

    The President continues down the wrong path in proposing the 
creation of Social Security private accounts and cuts to traditional 
Social Security benefits. It is appalling that there are almost 750,000 
pending disability hearings and that the average wait time for a 
hearing is 17 months. We must protect Social Security for future 
generations and treat seniors and individuals with disabilities with 
dignity and respect. We can do this through rejecting privatization and 
addressing the backlog of pending disabilities hearings.

                   HOUSING AND COMMUNITY DEVELOPMENT

    Approximately two million foreclosures are predicted over the next 
two years. For Latinos, the mortgage crisis is far from over. Although 
Latinos make up 14.8 percent of the total U.S. population, Latinos 
represent about 21 percent of the subprime default burden. It is 
estimated that the subprime mortgage crisis will cost Latinos between 
$75.8 billion to $128.9 billion. Yet, the President's budget only 
includes $65 million for housing counseling, a mere $15 million 
increase from last year's budget request. The budget offers inadequate 
assistance to families who are at-risk of losing their homes. The 
budget cuts the Housing Choice Voucher Program, which provides housing 
assistance to approximately two million low-income families, by $599 
million.
    The President's 2009 budget also repeats harmful cuts in the 
Community Development Block Grant (CDBG) program. It provides just $2.9 
billion for 2009, which is $731 million less than is needed to maintain 
purchasing power at the 2008 level. The CDBG program is critical in 
providing funding for local solutions to challenges such as affordable 
housing, job creation, and economic development. In California, the 
cuts in CDBG funding will affect more than 360 communities in the 
state. Protecting homeowners and investing in community development is 
critical to restoring economic security for our families and 
neighborhoods.

                               EDUCATION

    Education is the key to opportunity for all who live in America. 
This is particularly true for Latino and other minority and low income 
students. Approximately 22 percent of children under the age of five in 
the U.S. are Latinos, yet the President's budget terminates funding for 
the Even Start and Reading Is Fundamental programs. The President's 
proposed 2009 funding level for Head Start falls twelve percent below 
the 2002 inflation-adjusted level. The President also fails to increase 
the investment in GEAR UP and TRIO programs, which help low-income, 
first generation students prepare for and succeed in college.
    As average tuition and fees at four-year public school in 
California increased 81 percent in four years, the Administration's 
cuts in student aid would put college further out of reach for many 
students in low-income students in California. I am concerned that the 
President's budget terminates various key need-based student aid 
programs, such as the Leveraging Educational Assistance Program (LEAP) 
and the Supplemental Educational Opportunity Grant (SEOG) program.
    For many low income working class students, financial barriers are 
the determining factor in whether or not they will successfully 
complete college. The President's budget slashes funding for Hispanic 
Serving Institutions (HSIs) by $18.8 million. The nation's 270 HSIs 
enroll half of the two million Latino college students today. Instead 
of helping allow our students achieve greater college access, this 
budget does little to close the college gap.
    Finally, we must invest in science, technology, engineering and 
mathematics (STEM) education, including increasing access to these 
areas for students in communities of color. Strong federal investments 
in these areas will have long term rewards by increasing 
competitiveness and ensuring our nation will have scientists and 
engineers who can continue research and development to ensure long-term 
economic growth.

                   HEALTHY COMMUNITY AND ENVIRONMENT

    Our federal budget must also invest in infrastructure which 
sustains a healthy community. Unfortunately, the President's budget 
continues to significantly under-invest in Function 300 programs.
    Several of these cuts will have very real impacts on our nation's 
most vulnerable communities. Over the past several years the EPA has 
proposed cuts of approximately 30 percent to environmental justice 
programs. The President's FY 2009 budget proposes an even higher cut of 
35 percent. The proposed budget cut comes despite two reports by the 
EPA's Inspector General (2004 and 2006) and the Government 
Accountability Office (2005) which identified failures in the 
implementation of environmental justice programs and which concluded 
that the EPA ``cannot determine whether its programs cause 
disproportionately high and adverse human health or environmental 
effects on minority and low-income populations.'' Each year Congress 
has recognized the importance of protecting minority and low-income 
communities, and I hope that, like years past, we can reinstate this 
funding.
    I am also very concerned about the impact leaking underground 
storage tanks are having on our groundwater supplies. Underground 
storage tanks that leak petroleum or other hazardous substances can 
contaminate nearby soil and groundwater, which serves as the source of 
drinking water for nearly half of all Americans. Individuals coming 
into contact with this contamination, which can contain known 
carcinogens, could experience health programs ranging from nausea to 
kidney or liver damage. Funding for cleanup of these tanks is financed 
largely by a $.001 per gallon excise tax on gasoline and other motor 
fuels. Unlike other funds, the Leaking Underground Storage Tanks Trust 
Fund has a surplus of $3.2 billion which should be spent to clean up 
the 108,766 outstanding cleanups. Unfortunately, the President's budget 
request is less than one-third of the annual revenues coming into the 
LUST Trust Fund, resulting in gasoline taxes paid by consumers not 
going to cleanup spills and releases which may be contaminating water 
supplies.
    I continue to be concerned that despite the fact that States and 
Native American tribes are important partners and co-regulators with 
the EPA in implementation of environmental laws, the State and Tribal 
Assistance Grants (STAG) account budget, which took 94 percent and 100 
percent of the cuts to EPA's budget in 2005 and 2006, would receive a 
$315 million cut in total. If President Bush's proposed budget for the 
EPA is enacted, it would be the lowest budget for the EPA since fiscal 
year 1997.
    The impact of such cuts is very real. Proposed cuts could result in 
state and local agencies being forced to lay off staff or leave 
vacancies unfilled, shutting down existing monitors or otherwise 
curtailing monitoring programs. For communities such as the one I 
represent, these monitoring programs have been critical to protect the 
health of vulnerable communities, such as the health of the students 
whose elementary school playground is right next to an open gravel pit. 
The health of our communities is dependent upon a strong federal 
commitment to clean air.
    We must also not ignore the needs of our low-income communities to 
afford their heating and cooling bills. According to the Department of 
Energy, home heating costs for the average family increased by 80 
percent since 2001. The President's budget recommended significant cuts 
to renewable energy and energy efficiency programs, at the core of 
which is the proposal to zero fund the weatherization program. This 
program is an important tool for increasing self sufficiency and 
reducing energy use for low-income families, three million of which 
reside in California.
    Finally, the budget must reflect the need to plan for the impacts 
of climate change on our nation's infrastructure and the health and 
economic security of low-income communities. I strongly urge my 
colleagues to include in the budget a strategy to address climate 
change which includes tools to mitigate the impact it will have on 
communities of color. I look forward to working with you to achieve 
that goal.

                WORKFORCE TRAINING AND GREEN COLLAR JOBS

    I strongly oppose the president's cuts to Workforce Investment Act 
job training funding. The president's fiscal year 2009 budget reduces 
the total funding for job training program by $1.1 billion from the 
fiscal year 2008 level--a cut of 28.5 percent. The reduction of funding 
would be devastating to workers around the country who are facing job 
losses with the rising unemployment and looming recession. Now is not 
the time to reduce our commitment to workers who need the federal 
government's assistance in job training and finding new employment.
    Rather than cut workforce investment, the federal government should 
demonstrate a strong commitment to those sectors which are growing. A 
major national investment in renewable energy and energy efficiency 
could create more than three million jobs over the next ten years. 
However, according to a 2006 study by the National Renewable Energy 
Laboratory (NREL), the lack of skilled workers is the largest non-
technical barrier to the advancement of renewable energy and energy 
efficiency technologies. The Green Jobs workforce training program, 
authorized by Title X of P.L. 110-140, directly responds to the need 
recognized by NREL. The Green Jobs training program will fill a 
critical role in our transition to clean energy by ensuring that we 
have the skilled workers needed to support the production, 
installation, and maintenance of clean energy technologies and has 
broad support from renewable energy industry associations, 
environmental organizations, community groups, and organized labor.
    The Green Jobs training program created a sustainable, 
comprehensive public program to be administered by the Secretary of 
Labor through funding for the Workforce Investment Act (WIA) to provide 
quality training for jobs created through renewable energy and energy 
efficiency initiatives. This program would expand our nation's capacity 
to identify and track the new jobs and skills associated with the 
growing clean energy and efficiency industries. Through grants given on 
a competitive basis, it would fund partnerships between community 
colleges, labor unions, private industry and organizations to train 
between 20,000--30,000 new workers each year for high quality jobs. In 
addition, it authorizes resources for demonstration projects to provide 
low-income workers a pathway out of poverty into the emerging clean 
energy economy.
    The renewable energy and energy efficiency fields are providing 
increasing employment opportunities during these otherwise troublesome 
economic times. This investment in our nation's workforce is one that 
will provide long term positive benefits. I urge you to provide the 
fully-authorized level of funding for the Green Jobs training program 
of $125 million.

             IMMIGRATION ENFORCEMENT--CITIZENSHIP BACKLOGS

    In July 2007, the Bush Administration raised the naturalization fee 
application by 66 percent. This fee increase was meant to improve 
efficiency at USCIS. Yet, recent reports state that USCIS is months 
behind schedule in returning receipts for checks written to cover fees, 
an early step in the application process. The Department of Homeland 
Security (DHS) estimates that it will take 16 to 18 months to process 
applications filed after June 1, 2007. These delays are hindering the 
naturalization process for an estimated 1.4 million legal permanent 
residents who have submitted applications to become U.S. citizens. For 
many, this unnecessarily delays their realization of the American 
dream.
    Unfortunately, the President's budget neglects to recognize 
failures at USCIS and instead recommends providing $3 billion for 
internal enforcement, including work-site raids conducted by 
Immigration and Customs Enforcement officials. It is necessary that 
America's immigration system be efficient and effective, especially for 
those abiding by the law and eager to participate in civic society. I 
urge you to provide support and direction in the budget to 
expeditiously resolve the immigration backlog issue.

                DTV TRANSITION AND COMMUNITIES OF COLOR

    The success of the DTV transition will largely depend on the 
government's oversight and involvement in outreach to those with 
limited English proficiency and lack of access to the Internet. 
According to a recent study by Nielsen, the Latino population is most 
unprepared for the DTV transition. This study estimates that 17.3 
percent of Latino households are completely unprepared for the DTV 
transition and 26.2 percent of Latino households have one or more 
analog TV that is not prepared for the DTV transition. These rates are 
unfortunately the highest among all of the racial and ethnic 
communities.
    While I was pleased that the FCC requested increased funding for 
fiscal year 2009 over its FY2008 budget for DTV education, I am 
concerned that this amount is not sufficient for outreach the 
communities most at risk of losing service. I urge you to consider 
concerns about outreach to communities with limited English proficiency 
into account as you develop the fiscal year 2009 budget and direct 
funding toward the development of outreach plans that will ensure no 
communities are left behind in the DTV transition.

                  WOMEN'S HEALTH AND DOMESTIC VIOLENCE

    The elimination of violence against women must continue to be an 
important goal of the federal government. Congress passed the strongest 
Violence Against Women Act (VAWA) reauthorization in the 109th 
Congress. We must provide increased funding for programs to combat 
violence against women to back up the commitments made in VAWA.
    For women of color and immigrant women, the effects of domestic 
violence can be exacerbated by spouses who control their immigration 
status and services that are not linguistically or culturally 
competent. I worked very hard with my colleagues throughout the long 
process of drafting VAWA to make sure that the unique needs of 
communities of color were addressed in the bill.
    Two provisions that I authored to help women of color who are 
victims of violence were included in the final version of VAWA. One of 
my provisions will provide funding for programs that educate minority 
and immigrant communities on how to prevent domestic violence and let 
them know what services are available to victims. The second provision 
I authored will help communities establish specialized domestic 
violence courts in order to expedite the processing of domestic 
violence cases. Specialized domestic violence courts have been proven 
to cut the processing time of domestic violence court cases, decrease 
the backlog of court cases, raise the conviction rate and lower the 
rate of repeat offenders. My provision will also provide funding for 
translation and interpretation services in these courts.
    Unfortunately, the president's fiscal year 2009 budget cuts funding 
for VAWA programs by $120 million, a 30 percent below their fiscal year 
2008 enacted levels of $525.47 million. This drastic cut in funding 
would be very harmful to the progress achieved by programs funded 
through VAWA and damaging progress toward reduction of domestic 
violence.

    [Statement submitted by Mr. Stupak follows:]

 Prepared Statement of Hon. Bart Stupak, a Representative in Congress 
                       From the State of Michigan

    Chairman Spratt, Ranking Member Ryan, thank you for allowing 
Members of the House to provide testimony to the House Budget 
Committee. I appreciate this opportunity to share with you my thoughts 
on the President's Fiscal Year 2009 budget request.

                               SOO LOCKS

    First, I would like to speak to a critical infrastructure project 
that the President has left out of his budget the past seven years. The 
Soo Locks divide two Great Lakes: Superior and Huron. The Locks are 
made up of four locks that play a vital role in moving freight through 
the upper Great Lakes. Each year, more than 80 million tons of freight 
move through the Locks.
    A provision was included in the Water Resources Development Act of 
2007 that the U.S. Army Corps of Engineers shall build a new lock 
without further delay in Sault Ste. Marie, Michigan, authorizing $327 
million for the project. This bill became public law after Congress 
overruled the President's veto on November 9, 2007.
    As lake vessels have grown in carrying capacity and size, the 
existing large lock, the Poe, is the only one which can accommodate 
their massive frames. Two-thirds of the carrying capacity of the U.S. 
Great Lakes fleet is now limited to the Poe lock. If the Poe Lock were 
rendered unusable for any reason, it would disable industry in the 
Great Lakes, halting the shipment of ore, coal, wheat, and other 
commodities. The steel industry would be especially hard hit as 70 
percent of all raw materials used in the steel industry travel through 
the Soo Locks. This would create significant economic and homeland 
security problems
    Despite the economic and homeland security concerns and the obvious 
Congressional intent to move forward, the President continues to ignore 
the need to construct a new lock. The Administration's FY 2009 Budget 
does not contain any funding for this important construction project.
    The Corps of Engineers needs at least $15 million in FY 2009 to 
begin substantive work on the new lock. Without a significant 
investment in the Soo Locks by Congress, this important infrastructure 
project will continue to be delayed.
    I am hopeful the Budget Committee and Congress will see the wisdom 
in funding this important project, even if the President doesn't. Every 
year we delay building a new lock, the situation becomes more dire, and 
the cost to build a new lock only increases.

                            DREDGING POLICY

    Moving to another Army Corps of Engineers issue, in 2006, the 
Administration began implementing new budget guidelines for maintenance 
dredging of commercial harbors. By using a standard based on the 
tonnage handled, harbors that did not move a large tonnage but are 
still important to the economic success of rural areas were excluded 
from the President's budget.
    These highly inadequate guidelines are unfairly biased against 
rural communities and will have a detrimental effect on small-town, 
rural America, causing job losses, increased hardship for businesses, 
and endanger shipping infrastructure. In setting this policy, the Corps 
also disregarded the fact that approximately two-thirds of all shipping 
in the United States either starts or finishes at small ports.
    To address this, I offered an amendment to the Water Resources 
Development Act of 2007 (WRDA) requiring the Corps to eliminate this 
tonnage standard. I am pleased my colleagues voted to accept my 
amendment as well as override the President's veto and invest in our 
Great Lakes and our nation's waterways.
    Unfortunately, the President continues to under fund our nation's 
harbor maintenance needs. Congress must work to better invest in our 
harbor infrastructure to protect the businesses that depend on 
waterborne commerce.

                    CLEAN WATER STATE REVOLVING FUND

    I would like to turn to another budget item of interest to rural 
communities: the Clean Water State Revolving Fund. Across the country, 
communities are struggling to replace aging waste water infrastructure. 
This is a significant problem in Northern Michigan, as aging waste 
water infrastructure threatens the health of our Great Lakes.
    The Clean Water State Revolving Fund plays an important role in 
helping communities afford updates to their aging infrastructure. 
Unfortunately, President Bush has repeatedly slashed funding for this 
program in his budgets.
    The President's FY 2009 budget includes only $555 million for the 
Clean Water State Revolving Fund, a $145 million cut compared to FY 
2008 appropriated by Congress and nearly a $533 million cut compared to 
the $1.08 billion Democrats included in the FY 2007 Continuing 
Resolution.
    In Michigan, the President's cuts would mean $10.54 million less 
for important waste water infrastructure projects compared to FY2006. 
If the President's proposal is enacted, Michigan would receive $35.2 
million less in FY 2009 than the state received in FY 2001. We need to 
invest in our waste water infrastructure, to ensure the health of the 
Great Lakes, which is the source of drinking water for 45 million 
people.

                       PAYMENTS IN LIEU OF TAXES:

    Another program important to my Northern Michigan communities that 
the President repeatedly under funds is the Payment in Lieu of Taxes, 
or PILT, program. National Forests, as well as other federal lands, 
lead to a reduced tax base in several Northern Michigan counties. The 
Payment in Lieu of Taxes (PILT) program is important in helping these 
local communities afford schools, roads, fire fighting, police, and 
other vital services.
    For the past several years, President Bush has neglected this 
important program, requesting significantly less than needed. Congress 
appropriated $232 million in FY 2008 for this critical program. The 
President is proposing a 16 percent cut to a program that is already 
drastically under funded, requesting only $195 million for FY 2009. 
This $37 million cut will significantly limit the ability of local 
governments in Northern Michigan to provide the basic services 
residents depend on.

                                  TAA

    The Trade Adjustment Assistance (TAA) program provides workers 
negatively impacted by trade with job retraining, job search and 
relocation allowances, income support and other re-employment services.
    Unfortunately, too often communities in my district have run out of 
TAA funding. I have repeatedly contacted the Department of Labor to 
assist the State of Michigan in receiving supplemental funds. Despite 
the shortfalls repeatedly faced by Michigan and other areas, the 
President continued his practice of flat funding TAA and provides no 
new increases for Trade Adjustment Assistance. Despite giving a 
prominent mention in his State of the Union address to TAA, the 
program's budget remains stagnant at $249 million for 2009.
    When more workers in Michigan and throughout the Nation are 
adversely affected by this country's trade policy, or lack thereof, the 
least we can do is provide adequate job training. The President 
emphasized the importance of TAA in his State of the Union, it is 
regrettable that his budget does not match his rhetoric.

                                  MEP

    Similarly, we owe our small businesses who are competing globally a 
fair shake.
    I urge the Committee to adequately fund the Manufacturer Extension 
Partnership (MEP) program. It is simply unacceptable that the 
President's budget has targeted MEP for elimination! While Michigan is 
struggling to maintain jobs, the President proposes reducing MEP 
funding from $89.6 million in FY 2008 to $4 million in FY 2009.
    I don't know what Congress needs to do to make the Administration 
understand the importance of this program. MEP is vital to helping 
smaller, domestic manufacturers compete with overseas companies. I hope 
this is an issue the Budget Committee can address in your budget 
hearings with the Administration, and I respectfully ask you to 
continue to fund this critical program.
    I would now like to turn to health and education priorities that 
deserve Committee consideration.

                              RURAL HEALTH

    Rural hospitals and other health facilities are economic engines 
for rural communities as they provide hundreds of good paying jobs. 
Quality health care is also essential to keeping businesses and 
attracting new businesses to rural America.
    The Rural Hospital Flexibility Grants fund quality improvement and 
emergency medical service projects for nearly 1,300 Critical Access 
Hospitals across the country. In essence, this program provides 
technical assistance to the smallest hospitals in the country who 
provide critical care.
    This program helps hospitals improve their business operations, 
focus on quality improvement and help information privacy. The 
President's budget--once again--eliminates this vital program. The 
National Rural Health Association is requesting $39.2 million, and I am 
hopeful Congress can see fit this program is adequately funded in 2009.
    I wanted to highlight this program in particular, but I also want 
to express my strong support for adequately funding the other health 
care access programs within the Department of Health and Human Services 
for rural services.

                              FOOD SAFETY

    Through my work on the Subcommittee on Oversight and Investigations 
and through three independent reviews, including the FDA's own Science 
Board, it has become evident that the FDA cannot protect the American 
people and is in critical need of significant new resources.
    According to a January 2008 Government Accountability Office (GAO) 
report, the FDA does not have enough staff or adequate computer systems 
to conduct timely inspections of foreign facilities that produce drugs, 
medical devices and food products. At its current pace, it will take 
the FDA 13 years to inspect every foreign drug plant exporting to the 
United States, 27 years to check every foreign medical device plant, 
and 1,900 years to inspect every foreign food processing facility.
    The President's budget request is less than $2.4 billion, but only 
$1.77 billion of this would come from the federal budget. The other 
$626 million is a budget gimmick, the President has included user fees 
raised through industry to inflate his FDA funding to make it look 
larger. These user fees should not be included in the President's 
baseline budget. The Alliance for a Stronger FDA advocates that at 
least $2.1 billion is needed in FY 2009. This would be $380 million 
more than the President's budget.
    Congress needs to increase funding beyond the President's budget in 
order to provide the resources necessary for FDA to fund its programs 
to start rebuilding its infrastructure. Only then can we assure the 
safety of foods, cosmetics, drugs, and medical devices.

                 BJ STUPAK OLYMPIC SCHOLARSHIP PROGRAM

    The Olympic Scholarship Program was established by Congress in 
1992. I have championed it since it was created, and offered an 
amendment to re-authorize it in 1998. It was subsequently re-named the 
BJ Stupak Olympic Scholarship Program after my late son.
    The B.J. Stupak Olympic Scholarship Program is a federally-funded 
scholarship program designed to provide financial assistance to college 
athletes training at any of the four U.S. Olympic training centers: the 
U.S. Olympic Education Center in Marquette, Michigan; and the Olympic 
Training Centers at Lake Placid, New York; Colorado Springs, Colorado; 
and Chula Vista, California, outside of San Diego. The Program is 
designed to allow athletes to pursue their post-secondary education 
while also training for the Olympics.
    Prior to 1992, too many athletes had to choose between pursuing 
their education and training for the Olympics. All too often, athletes 
chose training and then found themselves at the end of their Olympic 
careers with no post-secondary education and no career path.
    This problem was so severe that the U.S. Olympic Alumni Association 
identified it as a cause of great concern. Our Olympic athletes' plight 
was in stark contrast with many collegiate athletes, who received 
college and university scholarships because of their athletic skills.
    The Program was re-authorized in 1998 for five years at up to $5 
million per year, under Section 836 of the Higher Education Act of 
1998. Due to the success of the program, the growth of the program has 
outgrown its $1 million appropriations allocation the last seven years. 
Without an increase for inflation, the number of athletes receiving 
scholarships will have to be substantially cut.

                               EDUCATION

    Despite the high priority the Administration has placed on 
education and the significant needs that remain unmet, the President's 
budget includes no additional appropriations for the Department of 
Education. Instead, his budget provides $59.2 billion, the same level 
of funding that Congress appropriated in 2008. The President also 
proposes eliminating 47 programs while significantly cutting several 
other programs. This is unacceptable.
    Of the most egregious cuts, funding for Improving Teacher Quality 
state grants is $130 million below the level needed to maintain current 
services, providing only $2.8 billion for 2009. Michigan alone would 
lose $4 million to help ensure our schools have highly qualified 
teachers in core academic subjects, which is a requirement under the No 
Child Left Behind Act. Restoring funding for this and other vital 
education programs is essential for our schools in order for them to 
meet the goals established by No Child Left Behind.

                                VETERANS

    Once again the Administration has presented Congress with a budget 
that forces our veterans to pay more in the form of premiums and fees 
for their health care. Rather than increasing funding and improving 
access to veterans care, the President's budget includes $5.2 billion 
in new fees for veterans over the next decade.
    Under this proposal, veterans with family incomes above $50,000 
would have to pay yearly enrollment fees of between $250 and $750 and 
prescription drug co-payments would increase from $8 to $15. These are 
increases our veterans should not have to endure.
    Congress must provide adequate funding for veterans' health care to 
ensure that our current veterans and those who will return from Iraq 
and Afghanistan receive the care they need and deserve. With my 
district being home to more veterans than any other district in 
Michigan, I ask that the Committee reject the President's proposed fees 
and that Congress fulfill its obligation to take care of our Nation's 
veterans.

                           HOMELAND SECURITY

    Our job in Congress is to promote the health and welfare of our 
citizens. But we have no higher job than to keep our citizens safe. I'm 
gravely concerned about the 50 percent cut to first responder, transit, 
and port security funding at the Department of Homeland Security, 
providing $2 billion less in first responder grants and state 
assistance.
    Law enforcement officers, fire fighters, and first responders are 
on the front lines in responding to natural disasters and protecting 
our nation from terrorism and crime. We need to do our part in 
supporting them in their efforts. Unfortunately, the President's budget 
cuts critical programs--$750 million from the State Homeland Security 
Grant, $260 million from the Assistance to Firefighters Grant program, 
and $100 million from the Emergency Management Performance Grants. All 
of these first responder programs are success stories, and all of them 
are essential to the ability of local first responders to keep our 
communities and our nation safe.
    Congress should reject these cuts, especially in light of the 
passage of the 9/11 Commission Implementation bill this summer, which 
implements the remaining recommendations of the 9/11 Commission and re-
affirms the importance of first responders in preventing terrorism.

                            LAW ENFORCEMENT

    As a former law enforcement officer and Co-chair of the Law 
Enforcement Caucus, I hear every day from local police and 
firefighters. This budget is an insult to them!
    Grants to help state and local law enforcement fight crime, combat 
drugs, and keep our communities safe including the Byrne Justice 
Assistant Grants, Community Oriented Policing Service, Juvenile 
Justice, Violence Against Women, and State Criminal Alien Assistance 
Program were reduced by 65 percent. The President's ill advised budget 
cuts $1.5 billion from these vital programs. For Michigan alone, this 
means a $5.8 million reduction in the Byrne Justice Assistance Grants 
for 2009.
    These programs are vital to keeping our communities safe. Congress 
needs to ensure that these important local and state grant programs 
continue to assist our communities and must begin reversing the 
President's disturbing trend of cutting funding in all law enforcement 
and first responder areas.

                      INTEROPERABILITY TRUST FUND

    As part of the Deficit Reduction Act of 2005, Congress mandated 
that a section of very valuable spectrum, or public airwaves, be 
auctioned off, a process underway now. This spectrum is worth billions 
of dollars.
    During consideration of the Deficit Reduction Act, I offered an 
amendment in the Energy and Commerce Committee to create a $5.8 billion 
interoperability grant program, it was defeated on a tie vote. My 
amendment would have made a down payment on what is estimated to be an 
$18 billion problem. Ultimately, a one-time $1 billion grant program 
was created and it is expected to issue grants to the states this year.
    While the President's budget includes $50 million for the 
Interoperable Emergency Communications Grant Program, we are still have 
a long way to go to fill this $18 billion need.
    I have introduced legislation to create a permanent grant program 
at NTIA and fund that program with a portion of spectrum proceeds. We 
should solve this problem once and for all. How many more September 
11th and Katrinas do we have to endure before our first responders can 
effectively communicate and do their jobs?
    Now, I know we are in a difficult fiscal situation. But, the cost 
of under funding our first responders dwarfs the cost of this national 
problem. We must adequately equip our first responders, and do it now.

                            FOREST PRODUCTS

    In Michigan and other Great Lakes states, the Forest Service is not 
able to meet their Allowable Sale Quantities (ASQs) because they do not 
receive enough funding to offer these timber sales. As a result, forest 
management plans go unfulfilled, and timber producers and mills that 
depend on access to the federal forests face limited supplies and 
economic uncertainty.
    The President's FY 2009 budget provides the same level of funding 
for Forest Products that Congress provided in FY 2008. This won't even 
allow the Forest Service to keep up with inflation!
    Michigan has the fifth largest timber industry in the nation, so 
forestry and timber are vital to the Michigan economy. Michigan's 
forests support 200,000 jobs and generate $12 billion each year
    As the timber markets in the Great Lakes become more volatile due 
to mill closures, high stumpage prices, and tight wood supplies, the 
Administration's meager funding will only make matters worse. Unless 
Congress increases Forest Products funding, Michigan's timber industry 
and my state's overall economy will be significantly harmed.

                          FEDERAL COURT HOUSES

    I would like to move to another security concern. I also ask that 
the Committee consider increasing funding for courthouse construction 
activities funded through the Federal Building Fund (FBF).
    I have been a strong advocate for investing in courthouse 
construction because my district's federal courthouse in Marquette, MI, 
urgently needs to be replaced. The Marquette Courthouse is over 70 
years old and lacks adequate security, making it unsafe for Court 
employees and the public.
    In 1997, The Judicial Conference of the United States identified 
and prioritized 45 courthouse construction projects to be funded by 
Congress. This plan aimed to clear the courthouse backlog by 2009. 
However, under funding has repeatedly stalled this effort. The 
President's budget only funds the construction of one out of dozens of 
courthouse projects currently needing attention. The FY 2009 budget 
only provides $110.3 million for the San Diego Courthouse.
    I ask that the Committee fund construction of the Courthouse in 
Marquette, Michigan. The problem of outdated federal courts has been 
ignored for too long. Courthouse modernization is essential to the 
safety of federal judges and court officers, and should be a high 
priority of this Congress.
    Thank you again for this opportunity to provide testimony before 
your committee today. If you have further questions about my testimony, 
please do not hesitate to contact me my staff.

    [Statement submitted by Mr. Tierney follows:]

    Prepared Statement of Hon. John F. Tierney, a Representative in 
                Congress From the State of Massachusetts

    Mr. Chairman, thank you for allowing me to share some of the 
concerns of my constituents regarding the Fiscal Year 2009 (FY09) 
budget with you and other members of the Committee.
    When I visit with the mayors and town administrators in my 
district, I hear the frustration of those who are struggling with how 
to appropriately budget for pressing local needs and who are of the 
mind that the federal government must do more on their behalf. One such 
mayor, Carolyn A. Kirk of Gloucester, Massachusetts, wrote me recently 
to express her concerns on this point. In her letter to me, Mayor Kirk 
wrote:
    ``I am asking you and your colleagues to support and increase 
funding for all domestic initiatives that impact the quality of life 
for each of us. Whether it is education, public safety, homeland 
security or earmarks which become lifelines for communities like mine, 
domestic issues need to be the highest priority of the Federal 
government.''
    Fortunately, under your and Speaker Pelosi's leadership, I know 
that the Democratic-led Congress will work to put forward a budget that 
seeks to make critical investments in our communities and supports such 
key federal initiatives as the Community Development Block Grant (CDBG) 
program, the Community Service Block Grant (CSBG) program, the Low 
Income Home Energy Assistance Program (LIHEAP), the Community Oriented 
Policing Services (COPS) program, and key Environmental Protection 
Agency (EPA) water grant programs--all of which were either completely 
eliminated or drastically slashed in the President's FY09 budget 
proposal.
    Your task will not be an easy one, given the many years of fiscal 
irresponsibility of the Bush Administration and the GOP Congress that 
has produced an estimated over $400 billion deficit. However, I know 
that, as you work to craft a FY09 budget resolution, you will be 
mindful of the foregoing concerns expressed by Mayor Kirk and 
presumably shared by local representatives throughout the nation.
    Again, I appreciate your consideration of my testimony as well as 
the opportunity ``Members' Day'' provides to communicate the concerns 
of those I represent.
    I look forward to continuing to work with you as the budget process 
moves forward.

    [Statement submitted by Mr. Towns follows:]

Prepared Statement of Hon. Edolphus Towns, a Representative in Congress 
                       From the State of New York

    I am Edolphus Towns, U.S. Representative of the tenth district of 
New York. I wish to thank Chairman Spratt, Ranking Member Ryan and 
Members of the House Committee on the Budget, for this opportunity to 
express my concerns about the Administration's 2009 Fiscal Year (FY) 
budget proposal. I ask that my statement be made a formal part of the 
record.
    I agree with my Democratic colleagues in the House that the 
Administration's fiscal year (FY) 2009 budget will hurt Americans 
struggling to make ends meet by cutting Medicare and Medicaid, the 
Social Services Block Grant, and the Low Income Home Energy Assistance 
Program (LIHEAP). This budget will hurt our long-term efforts to 
prepare Americans for better jobs in a global marketplace, by slashing 
important education and early literacy programs. The Administration's 
budget even cuts funds to states and local governments to fight 
terrorism.
    In this regard, I cite New York Governor Eliot Spitzer's concern 
that: ``as New York State remains a unique target, it is critical for 
the federal government to adequately fund homeland security programs to 
insure the safety and wellbeing of our residents. There have been some 
funding increases in key areas such as transit security, but it is 
alarming that the President's most serious discretionary cuts trim 
programs that secure our ports, integrate communications systems, allow 
our urban areas to develop security strategies and train first 
responders to prepare for potential terrorist incidents.'' ``Statement 
by Governor Eliot Spitzer Regarding President Bush's Budget Proposal'', 
dated February 4, 2008 (``Gov. Spitzer's Statement'').
    As a U.S. Representative from New York, I point out that my state's 
motto is ``Excelsior'', which means ``ever upward.'' Its land area is 
47,214 square miles and the 2005 resident population was estimated at 
19,254,630.
    The Administration's proposed FY 2009 budget would essentially 
decimate New York by reducing federal funding for critical programs 
that assist low-income and working class families. If this proposal 
were enacted, this would occur in the midst of an economic downturn in 
which New York predicts a $384 million decline in tax-revenues over (or 
above and beyond) the Governor's budget that was released last month. 
These revenue projections effectively increase the State budget gap 
from $4.4 billion to $4.8 billion.
    I join New York Governor Eliot Spitzer and my Democratic New York 
congressional colleagues in their concern that the Administration's FY 
2009 budget proposal would slash critical federal resources for health 
care, housing, education, infrastructure and public safety, among other 
essential needs, while prioritizing permanent tax cuts for the 
wealthiest Americans.
    Specifically, the Administration's list of proposed federal funding 
cuts to New York includes:
    A) $9,760,000 cut to the Byrne Justice Assistance Grants, which 
provide funding to New York state and local law enforcement agencies 
for crime prevention, law enforcement, prosecution, drug treatment, 
corrections and more;
    B) $31,989,000 cut of Assistance to Firefighter Grants, which helps 
New York's local fire departments obtain critically needed equipment, 
protective gear, emergency vehicles, training, and other resources 
needed to protect the public and emergency personnel from fire and 
related hazards;
    C) $16,791,000 cut to New York's allocation for Clean Water State 
Revolving Fund, which helps New York by providing capitalization grants 
to help finance the construction of municipal wastewater facilities and 
nonpoint source pollution control projects;
    D) $64,527,000 cut to New York's allocation under the Community 
Development Block Grant, which provides the State of New York and its 
communities with flexible funding for economic development and job 
creation, affordable housing, and help for citizens in need.
    According to New York Governor Spitzer: ``From 2007 to 2009 there 
could be an estimated 68,000 foreclosures in New York equaling over $9 
billion in estimated losses to homeowners and neighboring property 
values. This requires a serious, comprehensive federal response, yet 
the President's budget does nothing even as it slashes funding for 
Community Development Block Grants, housing programs for the elderly, 
and disabled, and rural housing and economic development programs.'' 
Gov. Spitzer's Statement;
    E) $11,200,000 cut to New York's allocation under the Dislocated 
Worker Program, which provides job training, career guidance, 
placement, and other services for dislocated workers, including those 
who lost their jobs due to trade;
    F) $4,571,000 cut to New York's allocation under the Manufacturing 
Extension Partnership, which provides resources and services to U.S. 
manufacturers to help them create jobs, leverage private-sector 
investment, and be more competitive;
    G) $10,170,000 cut to New York's allocation for Improving Teacher 
Quality Grants, which provides New York with flexible funding to help 
ensure that schools have highly qualified teachers in core academic 
subjects, which is a requirement of the No Child Left Behind Act;
    H) $59,947,000 cut to New York's funding allocation for career and 
technical education in high schools and community and technical 
colleges;
    I) $34,948,000 cut to New York's allocation under the 21st Century 
Learning After-School Centers program, which provides a safe place for 
supervised after-school activities for students and services that 
include academic assistance, career exploration, skills development and 
internships, and athletic programs;
    J) $2,064,000 cut to New York's allocation under the Child Care 
Development Block Grant, which reduces child care costs for low-income 
children while their parents work, and also monitors and improves 
quality and safety of care for all children;
    K) $39,984,000 cut to New York's allocation for LIHEAP;
    L) $32,062,000 cut to New York's allocation under the Social 
Services Block Grant, which provides funds for social services such as 
child care, child welfare, home-based services, employment services, 
prevention and intervention programs, and special services for the 
disabled;
    M) $74,934,000 cut to New York's allocation for Public Housing 
Capital Fund;
    N) $9,902,000 cut to New York's Section 8 Housing Choice Vouchers, 
relative to 2008 level.
    O) $28,788,000 cut to New York's allocation under the Federal-Aid 
Highways Program, which provides federal assistance to New York to 
build, rehabilitate, and improve the National Highway System and other 
roads and bridges.
    According to New York's Governor Spitzer, ``Another serious cause 
for concern for New Yorkers is the President's failure, for the first 
time, to meet funding levels for highways and transit funding. The 
President proposes to shore up the Highway Trust Fund with monies from 
the Transit account, placing both funding sources in a position to be 
exhausted in the next fiscal year. Recognizing that New Yorkers use 
mass transit more often than any other state--5.2 million people a 
day--this federal action could negatively counteract our proposed 
record-settings state aid for the Metropolitan Transportation Authority 
(MTA).'' Gov. Spitzer's Statement;
    P) $2,721,000 cut to New York's allocation under the Essential Air 
Service, which preserves passenger air service at New York's rural 
airports;
    Q) $200 billion cut nationwide under both Medicaid and Medicare 
funding.
    According to New York Governor Spitzer: ``The President's budget 
will wreak havoc on the state's health care system, which serves more 
than 4 million Medicaid patients. The budget reduces funding by $200 
billion for Medicaid and Medicare, which will have a devastating impact 
on important programs that serve low income families, children and 
seniors.'' Gov. Spitzer's Statement.
    According to the Center on Budget and Policy Priorities (``CBPP'') 
on February 5, 2008, the Administration continues to pursue proposed 
federal rules that would cut billions from the Medicaid program. These 
rules would:
    Significantly limit federal Medicaid matching funds for case 
management services; eliminate federal funds for outreach, enrollment 
assistance, coordination of health care services, and related 
activities by school personnel to enroll more of the eligible poor 
children in Medicaid; Significantly limit the types of rehabilitative 
services that states can cover with federal funds, including special 
instruction and therapy for children and other beneficiaries who have 
mental illness or developmental disabilities; limit payments to 
hospitals and other institutions operated by state or local governments 
to the cost of providing services to Medicaid beneficiaries, despite 
the fact that these hospitals need additional support from Medicaid to 
help in defraying the costs of providing care to the uninsured, along 
with the provision of essential services such as trauma care, emergency 
response, and neonatal intensive care; eliminate federal Medicaid 
funding for the costs of graduate medical education (GME) provided by 
teaching hospitals. [New York has the greatest number of teaching 
hospitals in the country, which produces doctors that serve in New York 
and many states throughout America. The Administration would also 
continue to pursue federal regulations that would change the definition 
of outpatient hospital services to significantly narrow the types of 
services states can cover under this benefit category, severely 
restricting reimbursement rates for such services as hospital-based 
physician services, routine vision services, annual check-ups, and 
vaccinations.
    The President's FY 2008 request for Health Resources and Services 
Administration (HRSA)--Children's Hospital Graduate Medical Education 
(``CHGME'') payments was $302 million. The President's FY 2009 budget 
request for CHGME is $0, which eliminates a $302 million program that 
trains pediatricians and pediatric specialists at children's teaching 
hospitals at a time when pediatric specialties face critical shortages.
    In terms of the State Children's Health Care Insurance Program 
(``SCHIP''), the Administration's FY 2009 budget includes a $19.7 
billion increase in funding for SCHIP. CBPP says that this would not, 
however, allow states to cover the children they currently cover, let 
alone cover more children. If the Administration's proposal for $19.7 
billion over the baseline is perfectly targeted to the states most in 
need of such funds, the Administration's budget proposal would, 
according to CBPP, provide about $1.8 billion less than what is needed 
to avert SCHIP funding shortfalls. The budget baseline assumes that 
annual federal SCHIP funding will drop from $6.6 billion in FY 2008 to 
$5.3 billion in 2009 and $5.0 billion in FY 2010, and then remain 
frozen at 5.0 billion, and then remain frozen at $5.0 billion in all 
years thereafter, without any adjustment for increases in health costs 
or other factors (such as child population growth or increases in the 
number of uninsured children as employer-based coverage) continues to 
erode.
    About $21.5 billion is needed for SCHIP over the next five years 
simply to avert reductions in the number of children insured through 
the program, according to CBPP. So, the Administration's proposed 
funding levels actually fall somewhat short of what is needed to 
maintain current SCHIP program operations. While the Administration 
believes this $19.7 billion would allow enrolling 1.4 million 
additional children, this falls far short of the 4 million additional 
children who would be enrolled under the SCHIP legislation that the 
President vetoed twice, according to CBPP.
    The Administration's FY 2009 budget will cut $570 million from 
national Medicaid family planning services;
    R) $1,022,099,000 New York State total hospital impacts of the 
Medicare cuts proposed in the Administration's FY 2009 budget: ``These 
reductions would be severe and target Medicare teaching payments, 
hospital and health system market basket updates for Federal FYs 2009 
through 2013 by $10 billion dollars, hospital disproportionate share 
(DSH) payments, and reimbursements for Medicare bad debts. These 
reductions would cut payments to New York hospitals and hospital-based 
skilled nursing facilities, home health agencies, hospices, and 
inpatient rehabilitation providers.'' (This statement is attributable 
to The Healthcare Association of New York State on February 4, 2008);
    S) $83 million reduction for the Centers for Disease Control and 
Prevention: World Trade Center Treatment and Screening. FY 2008 amount 
enacted was $108 million. The Administration's FY 2009 proposed budget 
seeks $25 million, which is a reduction of $83 million. The terrorist 
attacks of 9/11 and the subsequent collapse of the World Trade Center 
Towers produced the largest acute environmental disaster that ever 
befell New York City and affected people in New York and from all over 
the world.
    Thousands of people were exposed to toxins, pulverized building 
materials, and other environmental contaminants in the air. Thousands 
of heroic responders, who rushed in to help as all others were running 
the other way, have become sick as a result of their work at Ground 
Zero. Many area residents, workers, and students are sick as well. The 
number of ailing 9/11 rescue and recovery workers is said to be 
increasing, workers' illnesses are becoming more severe, the projected 
costs of treating these illnesses is surging, and current federal 
treatment funding levels are likely inadequate, according to unnamed 
sources. The National Institute for Occupations Safety and Health 
(NIOSH) developed estimates put the costs for running the current 
programs at $218 million dollars for FY 2008, but the funding level 
proposed for both FY 2008 and FY 2009 was $25 million. This program has 
served over 37,000 responders from 2007 through 2007, and was expanded 
to include residents and others in 2008;
    T) HRSA--Poison Control Centers which serves populations on a 
national basis has been reduced by $17 million under the 
Administration's FY 2009 budget. Realistic funding, likely, would be 
more in the order of $30 million, consistent with the House 
Appropriations Committee action for FY 2008 appropriations.
    In addition to the cuts specified above, the Administration's 
budget would severely cut the Health Equity Fund, The Ryan White Care 
Act funding, Title VII, Title VIII, Health Empowerment Zones, Healthy 
Start, Indian Health Programs, substance abuse and mental health 
services and universal newborn screening funding. There are also cuts 
to cancer research and environmental programs that should not be 
sustained.
    In summary, this budget is irresponsible and should be rejected. 
Instead, I call on my congressional colleagues to advance an 
alternative budget that takes America in a more productive direction, 
so that we can make critical investments to strengthen our economy; 
help Americans struggling to make ends meet in an economic downturn; 
and restore fiscal responsibility. At minimum, I urge that there be no 
cuts to Medicare or Medicaid in the House Budget Resolution.
    Thank you for allowing me this important opportunity to express my 
concerns about New York and national impacts from the Administration's 
FY 2009 budget proposal.

    [Statement submitted by Ms. Velazquez follows:]

  Prepared Statement of Hon. Nydia M. Velazquez, a Representative in 
                  Congress From the State of New York

    Thank you Mr. Chairman. I appreciate you holding this hearing 
today. As you consider the budget resolution that will set Congress' 
fiscal priorities for fiscal year 2009, I urge you to provide enough 
discretionary funding to sustain programs administered by the 
Department of Housing and Urban Development (HUD). Affordable housing 
programs in HUD as well as other agencies face unprecedented shortfalls 
in the President's FY 2009 budget request. HUD's affordable housing and 
community development programs help approximately five million low-
income families secure and maintain decent, affordable homes. These 
programs also provide critical local investments to redevelop and 
revitalize communities, many of which are struggling to respond to the 
burgeoning mortgage crisis.
    The President's FY 2009 budget request fails to provide adequate 
funding for critical affordable housing programs. Under the budget 
request, nominal FY 2008 funding levels would be slashed by $659 
million for Community Development Block Grants, $415 million for public 
housing capital needs, $272 million for supportive housing for the 
elderly or disabled, and $500 million for the Housing Choice Voucher 
program, which would result in the cutting of vouchers for at least 
100,000 low-income families. In addition, while the Bush Administration 
has provided a $1 billion increase in funding for the project-based 
Section 8 program to address the severe funding shortfalls that emerged 
last year, even this increase is $2.4 billion short of the amount 
needed to fully renew all Section 8 contracts in FY 2009. Finally, the 
President's budget request eliminates or provides no funds to many 
critical programs such as Brownfields Redevelopment Grants, Rural 
Housing Grants, National Community Development Initiative, and Section 
108 CDBG loans.
    Moreover, while Congress has in recent years been able to rely on 
the availability of large sums of recaptured and rescinded Section 8 
balances to offset new HUD budget authority, such recaptures will no 
longer be available. This means Congress will have to add nearly $2 
billion in funding in FY 2009 just to maintain programs at the nominal 
FY 2008 levels. To adequately fund all HUD programs, I would strongly 
encourage you to provide approximately $6.5 billion above the 
President's request.
    Clearly, the Bush Administration failed to recognize the nation's 
pressing housing needs particularly when our housing market is 
struggling with the burgeoning mortgage crisis. In setting this 
nation's FY 2009 budget priorities, I strongly urge that you advocate 
on behalf of our most critical housing programs. Thank you.

    [Whereupon, at 2:25 p.m., the Committee was adjourned.]

                                  <all>

</pre></body></html>
